No.

In the Supreme Court of the United States
STEVEN T. MNUCHIN, SECRETARY OF THE TREASURY,
ET AL., PETITIONERS
v.
PATRICK J. COLLINS, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
JOSEPH H. HUNT
Assistant Attorney General
HASHIM M. MOOPPAN
Deputy Assistant Attorney
General
VIVEK SURI
Assistant to the Solicitor
General
MARK B. STERN
ABBY C. WRIGHT
GERARD SINZDAK
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTIONS PRESENTED

During the national housing crisis of 2008, the Federal Housing Finance Agency (FHFA) exercised its authority under a federal statute to appoint itself as conservator of Fannie Mae and Freddie Mac. FHFA, as
conservator, negotiated agreements with the Department of the Treasury under which Treasury committed
to investing billions of dollars in the enterprises in return for compensation consisting, in part, of fixed dividends. In 2012, after numerous quarters in which the
enterprises’ dividend obligations exceeded their total
earnings—forcing the enterprises to draw more money
from Treasury just to pay the dividends—FHFA and
Treasury negotiated the Third Amendment to their
agreements. The Third Amendment replaced the fixed
dividend with a variable quarterly dividend equal to the
enterprises’ net worth minus a specified capital reserve.
The questions presented are:
1. Whether the statute’s anti-injunction clause,
which precludes courts from taking any action that
would “restrain or affect the exercise of powers or functions of the Agency as a conservator,” 12 U.S.C. 4617(f ),
precludes a federal court from setting aside the Third
Amendment.
2. Whether the statute’s succession clause—under
which FHFA, as conservator, inherits the shareholders’
rights to bring derivative actions on behalf of the
enterprises—precludes the shareholders from challenging the Third Amendment.

(I)

PARTIES TO THE PROCEEDING

Petitioners (defendants-appellees below) are the Department of the Treasury; the Federal Housing Finance
Agency; Steven T. Mnuchin, in his official capacity as
Secretary of the Treasury; and Mark A. Calabria, in his
official capacity as Director of the Federal Housing Finance Agency.*
Respondents (plaintiffs-appellants below) are Patrick J. Collins, Marcus J. Liotta, and William M. Hitchcock.
RELATED PROCEEDINGS

United States District Court (S.D. Tex.):
Collins v. Mnuchin, 16-cv-3113 (May 22, 2017)
United States Court of Appeals (5th Cir.):
Collins v. Mnuchin, 17-20364 (Sept. 6, 2019)
Supreme Court of the United States:
Collins v. Mnuchin, 19-422 (Sept. 25, 2019)

Former Secretary of the Treasury Jacob L. Lew was a defendant in the district court. Secretary Steven T. Mnuchin replaced him
in the district court. Former Director of the Federal Housing Finance Agency Melvin L. Watt was a defendant in the district court
and an appellee in the court of appeals. Former Acting Director
Joseph M. Otting and, later, Director Mark A. Calabria replaced
him in the court of appeals.
*

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Statutory provisions involved ...................................................... 2
Statement:
A. Factual background .......................................................... 2
B. Proceedings below............................................................. 7
Reasons for granting the petition ............................................. 13
A. The court of appeals erred in holding that the
anti-injunction and succession clauses allow the
shareholders to maintain their claim against
FHFA ............................................................................... 15
B. The decision below conflicts with the decisions of
other courts of appeals.................................................... 23
C. The practical effects of the decision below warrant
immediate review ............................................................ 25
Conclusion ................................................................................... 28
Appendix A — Court of appeals opinion (Sept. 6, 2019) ....... 1a
Appendix B — Court of appeals order (Nov. 12, 2018)..... 148a
Appendix C — Court of appeals opinion (July 16, 2018) .. 150a
Appendix D — District court memorandum and order
(May 22, 2017) ......................................... 254a
TABLE OF AUTHORITIES

Cases:
Cochise Consultancy, Inc. v. United States,
139 S. Ct. 1507 (2019) ......................................................... 26
Gaff v. FDIC, 814 F.2d 311 (6th Cir. 1987) ......................... 22
Gross v. Bell Sav. Bank PA SA, 974 F.2d 403
(3d Cir. 1992) ....................................................................... 16
Humphrey’s Ex’r v. United States, 295 U.S. 602
(1935) .................................................................................... 12

(III)

IV
Cases—Continued:

Page

Jacobs v. Federal Hous. Fin. Agency,
908 F.3d 884 (3d Cir. 2018) ....................................... passim
Koster v. (American) Lumbermens Mut. Cas. Co.,
330 U.S. 518 (1947)........................................................ 21, 22
Marbury v. Madison, 5 U.S. (1 Cranch) 137 (1803)........... 18
Perry Capital LLC v. Mnuchin, 864 F.3d 591
(D.C. Cir. 2017), cert. denied, 138 S. Ct. 978
(2018) ........................................................................... passim
Roberts v. Federal Hous. Fin. Agency,
889 F.3d 397 (7th Cir. 2018) .................... 7, 15, 20, 21, 23, 24
Robinson v. Federal Hous. Fin. Agency,
876 F.3d 220 (6th Cir. 2017) ................................... 15, 23, 24
Saxton v. Federal Hous. Fin. Agency,
901 F.3d 954 (8th Cir. 2018) ............................. 15, 17, 20, 23
Tooley v. Donaldson, Lufkin, & Jenrette, Inc.,
845 A.2d 1031 (Del. 2004) ................................................... 21
Ward v. Resolution Trust Corp.,
996 F.2d 99 (5th Cir. 1993) ........................................... 16, 18
Statutes:
Administrative Procedure Act, 5 U.S.C. 702 ............. 7, 23
Housing and Economic Recovery Act of 2008,
Pub. L. No. 110-289, 122 Stat. 2654 .................................... 3
12 U.S.C. 1455(l) ................................................................ 7
12 U.S.C. 1455(l)(1)(A) .................................................. 4, 5
12 U.S.C. 1455(l)(1)(B) .................................................... 20
12 U.S.C. 1455(l)(2)(A) .................................................. 4, 5
12 U.S.C. 1455(l)(2)(D) .................................................. 4, 5
12 U.S.C. 1716 .................................................................. 20
12 U.S.C. 1719(g)(1)(A)-(B) .......................................... 4, 5
12 U.S.C. 4511 .................................................................... 3
12 U.S.C. 4512(a) ............................................................... 4

V
Statutes—Continued:

Page

12 U.S.C. 4512(b)(1) .......................................................... 4
12 U.S.C. 4512(b)(2) .......................................................... 4
12 U.S.C. 4617 .............................................................. 5, 15
12 U.S.C. 4617(a)(2) ........................................................... 4
12 U.S.C. 4617(a)(5)(A) ..................................................... 5
12 U.S.C. 4617(b) ............................................................... 4
12 U.S.C. 4617(b)(2)(A) ........................................... 2, 4, 10
12 U.S.C. 4617(b)(2)(A)(i) ................................... 14, 16, 21
12 U.S.C. 4617(b)(2)(B) ................................................... 16
12 U.S.C. 4617(b)(2)(B)(i) ................................................. 4
12 U.S.C. 4617(b)(2)(D) ......................................... 4, 17, 19
12 U.S.C. 4617(b)(2)(G) ..................................................... 4
12 U.S.C. 4617(b)(2)(J)(ii) ........................................... 4, 20
12 U.S.C. 4617(f ).........................................2, 5, 7, 9, 14, 15
Miscellaneous:
U.S. Dep’t of the Treasury, Housing Reform Plan
(Sept. 2019), https://home.treasury.gov/system/
files/136/Treasury-Housing-Finance-ReformPlan.pdf .......................................................................... 25, 26

In the Supreme Court of the United States
No.
STEVEN T. MNUCHIN, SECRETARY OF THE TREASURY,
ET AL., PETITIONERS
v.
PATRICK J. COLLINS, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Solicitor General, on behalf of the United States,
respectfully petitions for a writ of certiorari to review
the judgment of the United States Court of Appeals for
the Fifth Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra, 1a147a) is reported at 938 F.3d 553. The opinion of the
court of appeals panel (App., infra, 150a-253a) is reported at 896 F.3d 640. The memorandum and order of
the district court (App., infra, 254a-267a) are reported
at 254 F. Supp. 3d 841.
JURISDICTION

The judgment of the court of appeals was entered on
September 6, 2019. The jurisdiction of this Court is invoked under 28 U.S.C. 1254(1).

(1)

2
STATUTORY PROVISIONS INVOLVED

Section 4617(f ) of Title 12 of the United States Code
states:
Except as provided in this section or at the request
of the Director, no court may take any action to restrain or affect the exercise of powers or functions of
the Agency as a conservator or a receiver.
Section 4617(b)(2)(A) of Title 12 of the United States
Code states:
The Agency shall, as conservator or receiver, and by
operation of law, immediately succeed to—(i) all
rights, titles, powers, and privileges of the regulated
entity, and of any stockholder, officer, or director of
such regulated entity with respect to the regulated
entity and the assets of the regulated entity; and (ii)
title to the books, records, and assets of any other
legal custodian of such regulated entity.
STATEMENT
A. Factual Background

1. Congress created the Federal National Mortgage
Association (Fannie Mae or Fannie) in 1938 and the
Federal Home Loan Mortgage Corporation (Freddie
Mac or Freddie) in 1970. See App., infra, 6a. Those
enterprises operate in the secondary mortgage market
primarily by buying home loans from private lenders,
pooling some of those loans into mortgage-backed securities, guaranteeing timely payment on those securities,
and selling those securities to private investors. See
ibid. By buying loans from lenders, the enterprises provide funds to those lenders that the lenders can then use
to make additional loans. And by bundling loans into
securities backed by the enterprises’ credit guarantees,

3
the enterprises attract investors who might not otherwise have invested in mortgages, thereby expanding the
pool of funds available for housing loans. The enterprises are publicly traded companies with private
shareholders, but they operate under congressional
charters and have long benefited from the perception
that the federal government would intervene to support
their obligations if they were to experience financial
difficulties. See Jacobs v. Federal Hous. Fin. Agency,
908 F.3d 884, 887 (3d Cir. 2018).
In 2008, Fannie and Freddie suffered overwhelming
losses because of a marked decline in home prices and a
sharp increase in defaults on home loans. Perry Capital
LLC v. Mnuchin, 864 F.3d 591, 599 (D.C. Cir. 2017),
cert. denied, 138 S. Ct. 978 (2018). The enterprises lost
more in 2008 ($108 billion) than they had earned in the
previous 37 years combined ($95 billion). App., infra,
6a-7a. The enterprises needed to raise more capital in order to stay in business—but private investors were unwilling to provide that capital. Perry Capital, 864 F.3d at 601.
At the time, the enterprises’ mortgage portfolios were
worth approximately $5 trillion, or nearly half the national
mortgage market. App., infra, 6a. The enterprises’ failure would have had catastrophic effects for the national
housing market and the economy.
2. In July 2008, Congress enacted the Housing and
Economic Recovery Act of 2008 (Recovery Act or Act),
Pub. L. No. 110-289, 122 Stat. 2654. Through the Act,
Congress created the Federal Housing Finance Agency
(FHFA or Agency) to regulate Fannie and Freddie.
12 U.S.C. 4511. FHFA is headed by a single Director,
appointed by the President with the advice and consent

4
of the Senate. 12 U.S.C. 4512(a) and (b)(1). The Director serves a five-year term, but the President may remove him sooner for cause. 12 U.S.C. 4512(b)(2).
The Recovery Act provides that FHFA may, “at the
discretion of the Director,” appoint itself as “conservator or receiver” for Fannie and Freddie “for the purpose of reorganizing, rehabilitating, or winding up the
affairs” of those enterprises. 12 U.S.C. 4617(a)(2). By
appointing itself as conservator, FHFA obtains broad
powers over the enterprises. 12 U.S.C. 4617(b). For
example, it “immediately succeed[s] to * * * all rights,
titles, powers, and privileges of the [enterprises] and of
any stockholder, officer, or director of such [enterprises] with respect to the [enterprises] and the[ir] assets.” 12 U.S.C. 4617(b)(2)(A). It may “take over the
assets of and operate the [enterprises],” “conduct all
business of the [enterprises],” and “transfer or sell any
asset or liability of the [enterprises].” 12 U.S.C.
4617(b)(2)(B)(i) and (G). The Act further provides that
the “Agency may, as conservator, take such action as
may be—(i) necessary to put the [enterprises] in a
sound and solvent condition; and (ii) appropriate to
carry on the business of the [enterprises] and preserve
and conserve the assets and property of the [enterprises].” 12 U.S.C. 4617(b)(2)(D). FHFA may act “in
the best interests of the [enterprises] or the Agency.”
12 U.S.C. 4617(b)(2)(J)(ii).
The Recovery Act separately grants the Department
of the Treasury “temporary” authority to “purchase any
obligations and other securities issued by” Fannie and
Freddie—though only on terms that “protect the taxpayer” and “provide stability to the financial markets”
—as well as the authority to “exercise any rights received in connection with such purchases.” 12 U.S.C.

5
1455(l)(1)(A), (2)(A), (D), and 1719(g)(1)(A)-(B) (capitalization and emphasis omitted). That authorization
“made it possible for Treasury to buy large amounts of
Fannie and Freddie stock, and thereby infuse them with
massive amounts of capital to ensure their continued liquidity and stability.” Perry Capital, 864 F.3d at 600.
Finally, the Recovery Act limits judicial review of
FHFA’s exercise of its powers. It provides that the enterprises may sue to challenge FHFA’s initial decision
to appoint itself as conservator or receiver (if they do so
within 30 days of the appointment), and that a court may
order FHFA to “remove itself as conservator or receiver.” 12 U.S.C. 4617(a)(5)(A). The Act further provides that, “[e]xcept as otherwise provided in [Section
4617] or at the request of the Director, no court may
take any action to restrain or affect the exercise of powers or functions of the Agency as a conservator or a receiver.” 12 U.S.C. 4617(f ).
3. On September 6, 2008, FHFA appointed itself as
conservator of both Fannie and Freddie. App., infra,
162a. One day later, FHFA, in its capacity as conservator of the enterprises, entered into agreements with
Treasury under which Treasury committed to buy up to
$100 billion in stock in each enterprise. Ibid. In return
for its commitment, Treasury received various forms of
compensation—including priority over other stockholders in getting its investment back if the enterprises
were later liquidated, periodic fees, and dividends at a
fixed rate. Ibid. Critically, the size of the dividends
each enterprise owed was tied to the amount of money
Treasury had invested in the enterprise; it did not vary
with the enterprise’s profits. Ibid.
Treasury’s initial commitment to provide up to $100
billion to each enterprise soon proved to be inadequate.

6
In May 2009, FHFA and Treasury amended the purchase agreements to increase Treasury’s investment
commitment to $200 billion for each enterprise. App.,
infra, 163a. Then, in December 2009, FHFA and Treasury amended the agreements again to make the investment commitment unlimited through the end of 2012, at
which point the size of the commitment would become
fixed. Ibid.
Between 2009 and 2011, the dividends that the enterprises owed to Treasury repeatedly exceeded their
quarterly earnings by billions of dollars. Resp. C.A.
ROA 952-953. The enterprises therefore had to draw
more money from Treasury just to pay Treasury’s dividends. Jacobs, 908 F.3d at 888. Under the dividend formula established by the agreements with Treasury,
however, drawing more money from Treasury meant increasing the size of future dividends. Ibid. That vicious
cycle—drawing money to pay dividends, in turn enlarging the dividends—was particularly troubling because
the size of Treasury’s commitment was scheduled to become fixed, and therefore finite, at the end of 2012. By
early 2012, the dividends that the enterprises owed
Treasury had reached nearly $19 billion a year, exceeding their projected income and threatening their solvency. Resp. C.A. ROA 952-953.
Accordingly, in August 2012, Treasury and FHFA
amended the purchase agreements a third time. The
Third Amendment replaced the previous fixed dividend
(tied to the size of Treasury’s investment) with a variable dividend (tied to the enterprises’ net worth). App.,
infra, 14a. Under the new formula, Treasury’s dividend
each quarter would equal the amount, if any, by which
the enterprises’ net worth exceeded a specified capital
reserve. Ibid. “In simple terms, the Third Amendment

7
requires Fannie and Freddie to pay quarterly to Treasury a dividend equal to their net worth—however much
or little that might be. Through that new dividend formula, Fannie and Freddie would never again incur more
debt just to make their quarterly dividend payments,
thereby precluding any dividend-driven downward debt
spiral. But neither would Fannie or Freddie be able to
accrue capital [above the reserve allowed by the agreement] in good quarters.” Perry Capital, 864 F.3d at
602. In the Third Amendment, Treasury also agreed to
suspend the periodic fees that it was owed under the
original agreements. See Roberts v. Federal Hous. Fin.
Agency, 889 F.3d 397, 404-405 (7th Cir. 2018).
B. Proceedings Below

1. In October 2016, over four years after Treasury
and FHFA agreed to the Third Amendment, three shareholders (respondents here) challenged the Amendment in
federal district court. The shareholders raised three
statutory claims challenging the Third Amendment:
that FHFA had exceeded its authority under 12 U.S.C.
4617(f ) as conservator, that Treasury had exceeded its
authority under 12 U.S.C. 1455(l) to buy securities, and
that Treasury had acted arbitrarily and capriciously in
violation of the Administrative Procedure Act (APA),
5 U.S.C. 702. The shareholders also claimed that FHFA’s
structure—a single head removable only for cause—
violates the Constitution.
2. The district court dismissed the statutory claims,
granted the government’s motion for summary judgment on the constitutional claim, and denied the shareholders’ cross-motion for summary judgment on the
constitutional claim. See App., infra, 254a-267a. The
court first held that the Recovery Act’s anti-injunction
clause barred the statutory claims, reasoning that the

8
“adoption of the Third Amendment falls within FHFA’s
statutory conservatorship powers.” Id. at 262a (citation
omitted). The court also rejected the shareholders’ constitutional claims, reasoning that “a ‘for cause’ removal
provision” complies with the Constitution even where
the provision protects “a single director” rather than “a
multimember board.” Id. at 267a.
3. A fractured panel of the court of appeals affirmed
in part and reversed in part. App., infra, 150a-253a. In
a per curiam opinion, the court first affirmed the district court’s dismissal of the shareholders’ statutory
claims. Id. at 167a. The court explained that “the D.C.,
Sixth, and Seventh Circuits ha[d] all rejected” statutory
challenges to the Third Amendment, and it adopted “the
same well-reasoned basis common to those courts’ opinions.” Ibid. Turning to the constitutional claim, the
court concluded that the Recovery Act violated the Constitution by making FHFA’s single Director removable
only for cause, but that the proper remedy for that violation was to declare unconstitutional the statutory provision addressing removal, not to invalidate the Third
Amendment. Id. at 167a-216a.
Judge Haynes joined the panel’s opinion in full.
App., infra, 150a n.1. Chief Judge Stewart joined the
panel’s statutory holding, but dissented from its constitutional holding. Id. at 217a-221a. Judge Willett joined
the panel’s constitutional holding, but dissented from its
statutory holding. Id. at 222a-253a.
4. The court of appeals, rehearing the case en banc,
affirmed in part and reversed in part. App., infra, 1a147a. A majority of the en banc court reversed the dismissal of the statutory claim against FHFA, while affirming the dismissal of the statutory claims against
Treasury. Id. at 18a-51a. A different majority held that

9
FHFA’s structure violated the Constitution. Id. at 52a64a, 65a n.1. A third majority held that the appropriate
remedy for the constitutional violation was to declare
unconstitutional the removal provision, not to invalidate
the Third Amendment. Id. at 65a-72a.
a. The court of appeals addressed the shareholders’
statutory claims by a vote of 9-7, in an opinion by Judge
Willett. App., infra, 18a-51a. The court reversed the
dismissal of the shareholders’ statutory claim against
FHFA, remanding the case so that the district court
could determine “if fact issues require trial or if summary judgment should be granted.” Id. at 51a. At the
same time, the court of appeals affirmed the district
court’s dismissal of the shareholders’ statutory claims
against Treasury. Id. at 32a-33a.
The court of appeals first rejected the government’s
contention that the Recovery Act’s anti-injunction
clause—which forbids a court from taking “any action
to restrain or affect the exercise of powers or functions
of the Agency as a conservator or receiver,” 12 U.S.C.
4617(f )—forecloses the shareholders’ statutory claims.
See App., infra, 18a-25a. The court asserted that the
clause “distinguishes improperly exercising a power
(not restrainable) from exercising one that was never
authorized (restrainable).” Id. at 19a. The court concluded that “whether the anti-injunction provision bars
relief * * * depends entirely on whether the [Third
Amendment] exceeded FHFA’s statutory conservatorship powers.” Id. at 25a.
Turning to that question, the court of appeals held
that the shareholders “stated a plausible claim that the
Third Amendment exceeded statutory authority.” App.,
infra, 46a. The court reasoned that FHFA, as conservator, had the authority to preserve and conserve the

10
enterprises’ assets, but that only a receiver, not a conservator, had the authority to “liquidate” those assets.
Id. at 37a; see id. at 33a-45a. Relying on the shareholders’ allegations, the court concluded that, in adopting
the Third Amendment, FHFA improperly “abandoned
rehabilitation in favor of ‘winding down’ ” the enterprises. Id. at 46a-47a. The court emphasized that the
Third Amendment grants Treasury “a right to the [enterprises’] net worth in perpetuity” and that the shareholders’ complaint included allegations suggesting (in
the court’s view) that FHFA designed the Third
Amendment with the intent “to deprive Fannie and
Freddie of all their capital.” Id. at 47a, 50a (brackets
and citation omitted). The court acknowledged that its
decision “conflicts with at least some other circuits.” Id.
at 50a-51a.
The court of appeals also rejected the government’s
alternative argument that the shareholders’ statutory
claims were independently foreclosed by the Recovery
Act’s succession clause—under which FHFA, as conservator, “immediately succeed[s] to * * * all rights * * *
of any stockholder * * * with respect to the [enterprises] and assets of the [enterprises],” 12 U.S.C.
4617(b)(2)(A). See App., infra, 25a-32a. The court
acknowledged that the succession clause prohibits
shareholders from bringing derivative claims on behalf
of the enterprises while the enterprises remain in conservatorship. Id. at 26a. The court concluded, however,
that the succession clause did not preclude the shareholders from bringing direct claims against FHFA, and
that the shareholders’ challenge to the Third Amendment was a direct claim, not a derivative one. Id. at 27a32a. The court emphasized that FHFA’s acts had allegedly injured the shareholders as “residual claimants of

11
[the enterprises’] value” and that the shareholders had
brought their claims under the APA. App., infra, at 29a.
Finally, the court of appeals affirmed the district
court’s dismissal of the shareholders’ claims that the
Third Amendment exceeded Treasury’s authority and
was otherwise arbitrary and capricious. App., infra,
32a-33a. The court concluded that the shareholders
were outside the zone of interests protected by the statutory provisions they invoked, and that their claims under those provisions were accordingly barred. Ibid.
Judge Haynes, writing for seven judges, dissented
from the court of appeals’ reversal of the dismissal of
the statutory claim against FHFA. App., infra, 108a113a. The dissenters agreed with the “five other circuits” that have rejected statutory challenges to the
Third Amendment. Id. at 108a. Given the Recovery
Act’s “extensive” grant of authority, the dissenters concluded that FHFA “acted within its statutory powers
when it adopted” the Third Amendment. Ibid.
b. In an opinion by Judge Willett, writing for the
same nine judges who reversed the dismissal of the statutory claim against FHFA, the court of appeals held
that the shareholders were entitled to summary judgment on their claim that the structure of FHFA violated
the Constitution. App., infra, 52a-64a. The court first
concluded that the shareholders had standing to challenge the structure of FHFA, reasoning that the shareholders had suffered an injury in fact (“pumping large
profits to Treasury instead of restoring the [enterprises’] capital structure”) that was “traceable to the removal protection” and that was redressable by “vacatur” of the Third Amendment. Id. at 53a-54a. The court
also concluded that the succession clause did not bar the
constitutional challenge, reasoning that the clause did

12
not speak with the clarity needed to foreclose judicial
review of a constitutional claim. Id. at 55a-56a. Turning
to the merits, the court held that the Act’s “for-cause
removal protection infringes Article II” because it “limits the President’s removal power.” Id. at 56a. The
court acknowledged that this Court had upheld a forcause removal provision in Humphrey’s Executor v.
United States, 295 U.S. 602 (1935), but reasoned that
the “exception” to the removal power recognized in that
case “applie[s] only to multi-member bodies of experts,”
not to FHFA’s single Director. App., infra, 56a.
Judges Southwick, Haynes, and Graves concurred in
that judgment. App., infra, at 65a n.1. In a joint opinion
concurring in part and dissenting in part, Judges Oldham and Ho explained that the constitutional holding
accorded with the original meaning of the Constitution
and with this Court’s precedents. Id. at 76a-101a.
Judge Higginson, writing for four judges, dissented
from the constitutional holding on the merits. Id. at
114a-127a. Judge Costa, writing for two judges, dissented from the constitutional holding on the additional
ground that the shareholders lacked standing to challenge the constitutionality of FHFA’s structure. Id. at
128a-139a.
c. In an opinion by Judge Haynes and by a vote of
9-7, a different majority of the court of appeals held that
the appropriate remedy for the constitutional violation
was to sever and declare unconstitutional the provision
governing the removal of FHFA’s Director, not to invalidate the Third Amendment. App., infra, 65a-72a.
The court emphasized that “the President had adequate
oversight” of the adoption of the Amendment: The Secretary of the Treasury “was subject to at will removal

13
by the President,” meaning that the President “had plenary authority to stop the adoption of the [Third
Amendment]” if he wanted to do so. Id. at 69a. The
court concluded: “This is thus a unique situation where
we need not speculate about whether appropriate presidential oversight would have stopped the [Third
Amendment]. We know that the President, acting
through the Secretary of the Treasury, could have
stopped it but did not.” Id. at 69a-70a.
The court of appeals also observed that, although the
shareholders sought invalidation of the Third Amendment, they did not seek invalidation of any other parts
of the agreements. App., infra, at 67a. That, the court
continued, was “because the rest of the deal [wa]s a
pretty good one for them: who would not want a virtually unlimited line of credit from Treasury?” Ibid. The
court concluded that the shareholders were not entitled to
“pick and choose among remedies based on their preferences,” unwinding the parts of the agreements that they
dislike but not the parts that they prefer. Ibid.
Judge Willett, writing for seven judges, dissented
from that remedial holding. App., infra, at 140a-147a.
In their joint opinion concurring in part and dissenting
in part, Judges Oldham and Ho asserted that the court
of appeals’ remedial holding violated the Constitution.
Id. at 101a-107a.
5. On September 25, 2019, the shareholders filed a
petition for a writ of certiorari seeking review of the
court of appeals’ constitutional and remedial holdings.
See Collins v. Mnuchin (No. 19-422). The government
plans to file a brief in opposition to that petition.
REASONS FOR GRANTING THE PETITION

This case is one of several challenges to FHFA’s decision, as conservator of Fannie Mae and Freddie Mac,

14
to renegotiate the enterprises’ financial obligations to
Treasury, a critical investor whose commitment of hundreds of billions of dollars of taxpayer funds is responsible for the enterprises’ continued operation. The court
of appeals’ resolution of that challenge is wrong, creates
conflicts with the decisions of several other courts of appeals, and has significant practical importance.
To start, the court of appeals erred in reversing the
dismissal of the shareholders’ challenge to the Third
Amendment. The Recovery Act’s anti-injunction clause
prohibits courts from taking any action that would “restrain or affect the exercise of powers or functions of
the Agency as a conservator.” 12 U.S.C. 4617(f ). That
clause forecloses this statutory challenge to the Third
Amendment, because the renegotiation of the enterprises’ financial obligation to Treasury, the enterprises’
most important investor, falls within the core of
FHFA’s powers and functions as conservator. The Recovery Act’s succession clause separately prohibits
shareholders from pursuing derivative actions on behalf
of the enterprises during the conservatorship. See
12 U.S.C. 4617(b)(2)(A)(i). This lawsuit qualifies as a
derivative action, because the alleged harm in this case
is a harm to each corporation rather than to individual
shareholders and because any relief would flow to the
corporations rather than to individual shareholders.
The court of appeals’ statutory ruling also creates
two separate circuit conflicts. The court’s interpretation of the anti-injunction clause creates a conflict with
the decisions of the five other courts of appeals to address the issue; all of those courts have held that the
clause bars statutory challenges to the Third Amendment. And its interpretation of the succession clause

15
creates a conflict with the decisions of the two other
courts of appeals to address the issue.
Finally, the court of appeals’ decision is of immense
practical importance. The decision below raises the
possibility that the Third Amendment will be set aside,
with significant financial implications for the federal
government, the enterprises, and market participants.
In addition, legal uncertainty resulting from the decision may frustrate the federal government’s proposed
and ongoing efforts to reform the housing finance system and to end the ongoing conservatorships of the enterprises. The government therefore respectfully requests that the Court grant this petition for a writ of
certiorari and resolve this case this Term.
A. The Court Of Appeals Erred In Holding That The AntiInjunction And Succession Clauses Allow The Shareholders To Maintain Their Claim Against FHFA

1. As every court of appeals to consider the issue
apart from the court below has held, the Recovery Act’s
anti-injunction clause forecloses a statutory challenge
to the Third Amendment. See Jacobs v. Federal Hous.
Fin. Agency, 908 F.3d 884, 889-896 (3d Cir. 2018); Robinson v. Federal Hous. Fin. Agency, 876 F.3d 220, 227-235
(6th Cir. 2017); Roberts v. Federal Hous. Fin. Agency,
889 F.3d 397, 402-406 (7th Cir. 2018); Saxton v. Federal
Hous. Fin. Agency, 901 F.3d 954, 957-959 (8th Cir. 2018);
Perry Capital LLC v. Mnuchin, 864 F.3d 591, 604-614
(D.C. Cir. 2017), cert. denied, 138 S. Ct. 978 (2018).
a. The anti-injunction clause provides: “Except as
provided in [Section 4617] or at the request of the Director, no court may take any action to restrain or affect
the exercise of powers or functions of the Agency as a
conservator or a receiver.” 12 U.S.C. 4617(f ). Like similarly worded provisions in other statutes, that clause

16
permits judicial review, if at all, only where FHFA “engage[s] in an activity” that is “outside its statutory powers” as conservator or receiver. Ward v. Resolution
Trust Corp., 996 F.2d 99, 103 (5th Cir. 1993); see Perry
Capital, 864 F.3d at 605-606; Gross v. Bell Savings
Bank PA SA, 974 F.2d 403, 407 (3d Cir. 1992). Where
FHFA is “engaging in a kind of activity in which it is
expressly authorized by statute to engage,” a court may
not review its decision, even if a challenger alleges that
the Agency is “improperly or even unlawfully exercising
[that] function or power.” Ward, 996 F.2d at 103. Put
simply, “as long as [FHFA] is ‘exercising judgment under one of its enumerated powers,’ * * * the courts may
not enjoin the activities of [FHFA] merely because
someone alleges that it is not ‘running the troubled institution’s affairs in a legal manner.’ ” Ibid. (quoting
Gross, 974 F.2d at 408) (brackets omitted).
The Recovery Act authorizes FHFA, as conservator,
to use a broad range of means to preserve the enterprises’ assets and promote the enterprises’ solvency.
For example, FHFA inherits “all rights, titles, powers,
and privileges” previously vested in the enterprises and
their directors, officers, and shareholders. 12 U.S.C.
4617(b)(2)(A)(i). FHFA may “take over the assets” of
the enterprise, “operate” the enterprise, “conduct all
business” of the enterprise, “perform all functions of
the [enterprise] in the name of the [enterprise] which
are consistent with the appointment as conservator,”
and “preserve and conserve the assets and property” of
the enterprise. 12 U.S.C. 4617(b)(2)(B). In addition,
FHFA may “take such action as may be—(i) necessary
to put the [enterprise] in a sound and solvent condition;

17
and (ii) appropriate to carry on the business of the [enterprise] and preserve and conserve the assets and
property of the [enterprise].” 12 U.S.C. 4617(b)(2)(D).
The Third Amendment falls well within the range of
activities authorized by the Recovery Act. “Before the
Third Amendment, * * * Fannie and Freddie sometimes had to draw funds from the Treasury just to pay
the Treasury’s dividend. That dug Fannie and Freddie
deeper and deeper into the hole, increasing their future
dividend obligations while also reducing their available
funds.” Jacobs, 908 F.3d at 890 (citation omitted). In
the Third Amendment, FHFA renegotiated the enterprises’ financial obligations to Treasury, putting an end
to that vicious cycle, ensuring that the enterprises
would not owe $19 billion in annual dividends regardless
of their ability to pay, and preserving the finite funding
commitment available to the enterprises. “Renegotiating dividend agreements, managing heavy debt and
other financial obligations, and ensuring ongoing access
to vital yet hard-to-come-by capital are quintessential
conservatorship tasks designed to keep the Companies
operational.” Perry Capital, 864 F.3d at 607; see Jacobs, 908 F.3d at 890; Saxton, 901 F.3d at 960-961
(Stras, J., concurring).
b. The court of appeals’ contrary reasoning is
flawed. The court did not deny that, as a general matter, the Recovery Act authorizes FHFA to renegotiate
the enterprises’ financial obligations in order to secure
ongoing access to Treasury’s extraordinary commitment of capital. The court instead concluded, in light of
the shareholders’ allegations, that the particular terms
to which FHFA agreed in the Third Amendment violated the law. Under the anti-injunction clause, how-

18
ever, the court had no power to make that determination. The clause forbids courts from reviewing whether
FHFA is “improperly or even unlawfully exercising a
function or power” granted by the statute; as long as
FHFA is “ ‘exercising judgment under one of its enumerated powers,’ ” a court may not review whether
FHFA used that power in “ ‘a legal manner.’ ” Ward,
996 F.2d at 103 (brackets and citation omitted). Here,
the clause prohibits the courts from “second-guess[ing]
either the dividend-allocating terms that FHFA negotiated on behalf of the [enterprises], or FHFA’s business
judgment that the Third Amendment better balances
the interests of all parties involved.” Perry Capital,
864 F.3d at 614-615. The court of appeals’ contrary
theory—under which the applicability of the antiinjunction clause “depends entirely” on the merits of
the statutory challenge to the action, App., infra, 25a—
drains the anti-injunction clause of virtually all independent effect. But “[i]t cannot be presumed that any
clause * * * is intended to be without effect.” Marbury
v. Madison, 5 U.S. (1 Cranch) 137, 174 (1803).
In any event, the court of appeals’ statutory objections to the Third Amendment fail on their own terms.
First, the court asserted that the Third Amendment
was tantamount to a liquidation of the enterprises, a
function that FHFA could perform only as receiver, not
as conservator. App., infra, 46a-48a. That is incorrect.
Seven years after the adoption of the Third Amendment, the enterprises remain going concerns with trillions of dollars in assets. See Perry Capital, 864 F.3d
at 602. There is no way to reconcile that simple reality
with the suggestion that the enterprises have now been
liquidated. Put simply, “neither Fannie nor Freddie is
in liquidation.” Jacobs, 908 F.3d at 892.

19
Second, the court of appeals asserted that, because
the Third Amendment grants Treasury “a right to the
[enterprises’] net worth in perpetuity,” it violates
FHFA’s duty as conservator to put the enterprises in a
“ ‘sound and solvent condition’ ” and “ ‘preserve and conserve’ [the enterprises’] assets.” App., infra, 47a (quoting 12 U.S.C. 4617(b)(2)(D)). But the relevant statutory
provision states only that “[t]he Agency may, as conservator, take such action as may be” necessary to promote
solvency and appropriate to conserve assets. 12 U.S.C.
4617(b)(2)(D) (emphasis added). Congress used the
word “may” because it will often be uncertain whether
a particular business decision will in fact prove necessary to promote the enterprises’ solvency or appropriate to preserve and conserve their assets. “The Agency
‘may’ exercise [its] powers ‘as appropriate,’ so [a court
should] ask only whether the Agency picked a suitable
action, not the best alternative.” Jacobs, 908 F.3d at 890
(citation omitted).
FHFA’s action here satisfies that test. Before the
adoption of the Third Amendment, the enterprises were
trapped in a vicious cycle under which they had to draw
more money from Treasury just to pay Treasury’s dividends, in turn increasing the size of those dividends.
See p. 6, supra. The Third Amendment helped preserve
and conserve the enterprises’ assets by ending that
cycle, by curtailing the enterprises’ rising dividend obligations, by suspending the periodic fees owed to
Treasury, and by reducing the likelihood that the enterprises would prematurely exhaust Treasury’s remaining commitment. The Third Amendment also shifted
significant risk from the enterprises to Treasury; if the
enterprises lost money in a given quarter, Treasury

20
would receive no dividend under the new formula, forgoing the billions of dollars that it would have received
under the old formula. Accordingly, “even assuming
that a mandatory [and judicially reviewable] duty to
preserve and conserve assets exists, the FHFA’s decision to enter the [Third Amendment] did not violate it.”
Saxton, 901 F.3d at 961 (Stras, J., concurring).
Third, the court of appeals asserted that the Third
Amendment was “inconsistent with conservatorship’s
common-law meaning” and contradicted the principles
of “traditional conservatorship.” App., infra, 48a-49a.
That emphasis on traditional conservatorship was misplaced. A “traditional conservator” must “act solely in
[the ward’s] interests.” Jacobs, 908 F.3d at 893. FHFA,
by contrast, may consider the public’s interest. After
all, Congress created the enterprises to serve the public
interest, see 12 U.S.C. 1716; it allowed Treasury to invest taxpayer funds in the enterprises to serve the public interest, see 12 U.S.C. 1455(l)(1)(B); and it expressly
authorized FHFA to consider interests beyond those
of the enterprises when acting as conservator, see
12 U.S.C. 4617(b)(2)(J)(ii). FHFA struck a permissible
balance among the relevant interests when it renegotiated the enterprises’ financial obligations and ensured
that they retained “ongoing access to vital yet hard-tocome-by capital.” Perry Capital, 864 F.3d at 607.
2. As two other courts of appeals have held, the Recovery Act’s succession clause independently precludes
shareholders from challenging FHFA’s adoption of the
Third Amendment. See Perry Capital, 864 F.3d at 623628; Roberts, 889 F.3d at 408-410.
a. The succession clause provides that FHFA “shall,
as conservator or receiver, and by operation of law, immediately succeed to * * * all rights, titles, powers, and

21
privileges of the [enterprise], and of any stockholder,
officer, or director of such [enterprise] with respect to
the [enterprise] and the assets of the [enterprise].”
12 U.S.C. 4617(b)(2)(A)(i). One of the traditional rights
of a shareholder is the right, in some circumstances, to
bring a “derivative action”—a mechanism “by which a
single stockholder may sue in the corporation’s right”
where the corporation’s officers have refused to “pursue a remedy.” Koster v. (American) Lumbermens
Mut. Cas. Co., 330 U.S. 518, 522 (1947). At a minimum,
the succession clause transfers the right to bring derivative lawsuits on behalf of each enterprise from the
shareholder to FHFA as conservator—as the court below acknowledged, and as other courts of appeals have
held. See App., infra, 26a; Perry Capital, 864 F.3d at
623; Roberts, 889 F.3d at 408.
This challenge to the Third Amendment is a derivative action. A lawsuit constitutes a derivative action if
(1) the corporation, rather than the suing shareholder,
suffered the alleged harm and (2) recovery would flow
to the corporation, rather than to individual shareholders. Roberts, 889 F.3d at 409 (citing Tooley v. Donaldson, Lufkin, & Jenrette, Inc., 845 A.2d 1031, 1033
(Del. 2004)). This lawsuit rests on an allegation that the
Third Amendment has harmed the corporations: The
shareholders assert that the Third Amendment “forc[ed]
* * * [the] Companies to turn over their entire net
worth” to Treasury and that it “pushes the Companies
to the edge of insolvency by stripping the capital out
of the Companies on a quarterly basis.” C.A. ROA 8, 22
(emphasis altered). The relief that the shareholders
seek would also flow solely to each corporation: Any relief invalidating the corporations’ dividend payments to
Treasury might put more money in the corporations’

22
bank accounts, but would not directly affect the shareholders’ bank accounts. See Resp. C.A. Supp. Br. 29-32.
In short, the cause of action that each of these shareholders asserts “is not his own but the corporation’s.”
Koster, 330 U.S. at 522. The lawsuit thus qualifies as a
derivative action.
b. The court of appeals’ contrary reasoning lacks
merit. The court reasoned that the shareholders, as
“residual claimants of [the] firm’s value,” suffered an
“injury” because of the conservator’s purported failure
to conserve the enterprises’ assets. App., infra, 29a.
That line of reasoning proves too much, and, if taken to
its logical conclusion, would obliterate the distinction
between direct and derivative actions. Every wrong to
a corporation could be said to injure a shareholder by
reducing the corporate value to which the shareholder
has a residual claim. If that were enough to make a
claim direct rather than derivative, no action would ever
qualify as derivative. That is why courts have consistently recognized that a lawsuit does not cease to be derivative simply because the injury to the corporation
causes “a diminution in the value of stock.” Gaff v.
FDIC, 814 F.2d 311, 318 (6th Cir. 1987).
The court of appeals also reasoned that the shareholders’ claim constituted a direct action because the
shareholders had brought it under the APA. See App.,
infra, 27a-28a. But even assuming that the APA applies
to the actions of an agency as a conservator standing in
the shoes of a private company, the shareholders’ reliance on the APA does not overcome the succession
clause. The direct or derivative character of a lawsuit
depends on who suffered the alleged harm and who benefits from the recovery—not on the statute under which

23
the lawsuit is brought. See p. 21, supra. The shareholders assert that FHFA has violated the APA, but that
violation is alleged to have harmed the corporation, and
any remedy for that violation would flow to the corporation. The shareholders’ claim is therefore derivative.
And the APA does not displace the statutory rule preventing shareholders from bringing such derivative
claims; to the contrary, the APA expressly provides that
“[n]othing [t]herein * * * affects other limitations on
judicial review or the power or duty of the court to dismiss any action or deny relief on any other appropriate
legal or equitable ground,” 5 U.S.C. 702.
B. The Decision Below Conflicts With The Decisions Of
Other Courts Of Appeals

1. The court of appeals’ interpretation of the Recovery Act’s anti-injunction clause conflicts with the decisions of five other courts of appeals. As noted, shareholders have challenged the Third Amendment in the
Third, Sixth, Seventh, Eighth, and D.C. Circuits on
statutory grounds identical to those asserted in this
case, and all of those courts have held—contrary to the
decision below—that the anti-injunction clause bars
such challenges. See Jacobs, 908 F.3d at 890 (3d Cir.);
Robinson, 876 F.3d at 229-232 (6th Cir.); Roberts, 889
F.3d at 402 (7th Cir.); Saxton, 901 F.3d at 959 (8th Cir.);
Perry Capital, 864 F.3d at 614-615 (D.C. Cir.).
The court of appeals recognized that “[its] decision
conflicts with [the decisions of ] at least some other
circuits”—specifically, with at least the Seventh Circuit’s decision in Roberts and the Eighth Circuit’s decision in Saxton. App., infra, 50a-51a. The court asserted, however, that “the facts at this stage are distinguishable from those in [the other] sister-circuit decisions,” because the shareholders in this case included

24
allegations that FHFA “designed the Third [Amendment] to prevent Fannie and Freddie from recapitalizing.” Id. at 49a. That assertion is unpersuasive. First,
the allegations about FHFA’s motive cannot distinguish
the decisions of the other courts, because (as the other
courts have recognized) the Recovery Act makes
FHFA’s motive legally immaterial. There is “nothing
* * * in the Recovery Act that hinges FHFA’s exercise
of its conservatorship discretion on particular motivations.” Perry Capital, 864 F.3d at 612; see Robinson,
876 F.3d at 229 n.7. Second, even on the court of appeals’ own terms, its decision conflicts with at least the
decisions of the Seventh and Eighth Circuits. App., infra, 50a-51a. Given the importance of the question presented, that alone justifies this Court’s review.
2. The court of appeals’ interpretation of the succession clause also conflicts with the decisions of other
courts of appeals. Most directly, the decision below conflicts with the Seventh Circuit’s decision in Roberts. In
that case, the Seventh Circuit held that the succession
clause precluded shareholders from bringing derivative
actions, and that a statutory challenge to the Third
Amendment (materially identical to the statutory challenge in this case) constituted a derivative action. See
Roberts, 889 F.3d at 408-410.
The decision below also conflicts with the D.C. Circuit’s decision in Perry Capital. In that case, the D.C.
Circuit held that the succession clause precluded shareholders from bringing derivative actions, and that a
shareholder’s challenge to the Third Amendment
constituted a derivative action. See Perry Capital,
864 F.3d at 623-628. To be sure, the D.C. Circuit
reached that conclusion in the course of addressing a

25
claim that FHFA had violated its fiduciary duties, rather than (as in this case) a claim that it had exceeded
its statutory powers. Ibid. But nothing in the court’s
reasoning—which focused on “(1) who suffered the alleged harm and (2) who would receive the benefit of the
recovery”—turned on that distinction. Id. at 626 (brackets, citation, and internal quotation marks omitted).
C. The Practical Effects Of The Decision Below Warrant
Immediate Review

1. The serious practical effects of the decision below
warrant not only granting this petition for a writ of certiorari, but also reviewing the case this Term. To start,
the Third Amendment was a major alteration to a set of
financial agreements involving hundreds of billions of
taxpayer dollars. Treasury’s stock in the enterprises
carries a combined liquidation preference of more than
$200 billion, and its remaining funding commitment to
the enterprises stands at more than $250 billion. Any
judicial remedy that might invalidate or modify the
Third Amendment would carry significant financial implications for the federal government, the enterprises,
and participants in the national housing finance market. In addition, the government, the enterprises, and
other market participants have conducted their affairs
for the past seven years in reliance on the Third Amendment. Any judicial remedy that might invalidate or
modify the Amendment could cause substantial disruption by frustrating those reliance interests.
The decision below also casts a cloud of uncertainty
over key aspects of ongoing efforts aimed at comprehensive reform of the national housing finance market. In September 2019, Treasury issued a plan for reforming the housing finance system, ending the conservatorships, and recapitalizing the enterprises. See U.S.

26
Dep’t of the Treasury, Housing Reform Plan (Sept.
2019). * That plan recommends ending the conservatorships when the enterprises satisfy certain conditions, including having “retained or raised sufficient
capital and other loss absorbing capacity to operate in a
safe and sound manner.” Id. at 26. Recapitalizing the
enterprises would require determining how much capital the enterprises must raise or retain, valuing Treasury’s existing stock in the enterprises, and determining
appropriate compensation for Treasury’s remaining
funding commitment. Id. at 27-28. Prolonged uncertainty concerning the validity of the Third Amendment
and the capital structure of the enterprises could hinder
the pursuit of the reforms outlined in Treasury’s plan.
2. The government acknowledges that this case
comes to this Court in an interlocutory posture. The
court of appeals reversed a district court judgment
granting the government’s motion to dismiss and remanded the case for further proceedings. App., infra,
51a. But that interlocutory posture should not deter
this Court from granting review. The Court has often
granted petitions for writs of certiorari from interlocutory rulings creating circuit conflicts on important
questions of federal law. See, e.g., Cochise Consultancy, Inc. v. United States, 139 S. Ct. 1507 (2019) (No.
18-315). That course is particularly appropriate here.
The anti-injunction clause is designed to enable FHFA
to address “exigent financial circumstances” without
“litigative interference,” Perry Capital, 864 F.3d at 605606, but that protection would largely be nullified if

https://home.treasury.gov/system/files/136/TreasuryHousing-Finance-Reform-Plan.pdf
*

27
FHFA were required to wait until the end of proceedings on remand before raising the issue in this Court.
In addition, allowing the decision below to stand would
result in prolonged uncertainty about the lawfulness of
the Third Amendment. As explained above, that uncertainty is itself harmful—to the enterprises, to third parties who have relied on the Third Amendment, and to
the national housing market.
3. The shareholders’ pending petition for a writ of
certiorari, which seeks review of the court of appeals’
constitutional and remedial holdings, also should not
delay this Court’s review. As the government plans to
explain in its brief in opposition, the Court should deny
the shareholders’ petition. The shareholders prevailed
below on the constitutional question on which they seek
review, and, in any event, the Court has already granted
review on essentially the same constitutional question
in Seila Law v. CFPB (No. 19-7) (Oct. 18, 2019). And
there is no circuit conflict on the remedial question that
the shareholders lost below. But regardless of whether
the Court grants, holds, or denies the shareholders’ petition, the statutory issues presented in this petition
warrant immediate review.

28
CONCLUSION

The petition for a writ of certiorari should be
granted.
Respectfully submitted.
JEFFREY B. WALL *
Acting Solicitor General
JOSEPH H. HUNT
Assistant Attorney General
HASHIM M. MOOPPAN
Deputy Assistant Attorney
General
VIVEK SURI
Assistant to the Solicitor
General
MARK B. STERN
ABBY C. WRIGHT
GERARD SINZDAK
Attorneys

OCTOBER 2019

*

The Solicitor General is recused in this case.

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 17-20364
PATRICK J. COLLINS; MARCUS J. LIOTTA;
WILLIAM M. HITCHCOCK, PLAINTIFFS-APPELLANTS
v.
STEVEN T. MNUCHIN, SECRETARY, U.S. DEPARTMENT
OF TREASURY; DEPARTMENT OF THE TREASURY;
FEDERAL HOUSING FINANCE AGENCY; MARK A.
CALABRIA, DIRECTOR OF THE FEDERAL HOUSING
FINANCE AGENCY, DEFENDANTS-APPELLEES
[Filed: Sept. 6, 2019]
Appeal from the United States District Court
for the Southern District of Texas
Before:
STEWART, Chief Judge, JONES, SMITH,
DENNIS, OWEN, ELROD, SOUTHWICK, HAYNES, GRAVES,
HIGGINSON, COSTA, WILLETT, HO, DUNCAN, ENGELHARDT, and OLDHAM, Circuit Judges.
DON R. WILLETT, Circuit Judge, joined by JONES,
SMITH, OWEN, ELROD, HO, DUNCAN, ENGELHARDT, and
OLDHAM, Circuit Judges:
The bicentennial of the United States Constitution in
1987 celebrated our Founding generation’s ingenious
system of separated powers: legislative, executive,
and judicial. The Constitution inaugurated a revolutionary design. Madisonian architecture infused with
(1a)

2a
Newtonian genius—three separate branches locked in
synchronous orbit by competing interests. “Ambition
. . . made to counteract ambition,” explained Madison, making clear that this law of constitutional motion,
using friction to combat faction, was a feature, not a
bug. 1 Our Constitution’s most essential attribute, the
separation of powers, presumes conflict, which, counterintuitively, produces equilibrium as the branches behave not as willing partners but as wary rivals. And
our Constitution’s paramount aim, preserving individual
liberty, presumes that branches will behave neither centripetally (seizing other branches’ powers) nor centrifugally (ceding their own), but jealously (defending their
assigned powers against encroachment). No mere tinkerers, the Framers upended things. Three rival branches
deriving power from three unrivaled words—“We the
People”—inscribed on the parchment in supersize script.
In an era of kings and sultans, nothing was more audacious than the Preamble’s first three words, a scriptflipping declaration that ultimate sovereignty resides
not in the government but in the governed.
The Constitution’s 200th birthday coincided with a
centennial, the 100th birthday of the federal administrative state. 2 Congress’s passage in 1887 of the Interstate

THE FEDERALIST NO. 51, at 349 (James Madison) (J. Cooke ed.,
1961); see also Mistretta v. United States, 488 U.S. 361, 380 (1989)
(“This Court consistently has given voice to, and has reaffirmed, the
central judgment of the Framers of the Constitution that, within our
political scheme, the separation of governmental powers into three
coordinate Branches is essential to the preservation of liberty.”).
2
An Act to Regulate Commerce (Interstate Commerce Act), ch.
104, 24 Stat. 379 (1887). While many scholars peg the birth of the
federal administrative state to the Interstate Commerce Commis1

3a
Commerce Act, making railroads the first industry subject to federal regulation, and the Act’s creation of the
nation’s first federal regulatory body, the Interstate
Commerce Commission, profoundly altered the Framers’ tripartite structure. The ICC was an amalgam of
all three powers, blending functions of all three branches.
The administrative state has sprouted since then. But
this iron truth endures: Even the most well-intentioned
bureaucrats, no less than presidents, legislators, and
judges, are bound by constitutional principles. An
agency is restrained by the four corners of its enabling
statute and “literally has no power to act . . . unless
and until Congress confers power upon it.” 3 And Congress, when creating agencies, is itself constrained—at
all times—by the separation of powers.
* * *
The plaintiffs (the Shareholders) own shares in Fannie Mae and Freddie Mac. In 2008 Fannie and Freddie’s new regulator, the Federal Housing Finance Agency,
placed them in conservatorship. FHFA secured financing from the Treasury to keep Fannie and Freddie
afloat. That relationship continued, and in 2012 FHFA
and Treasury adopted a Third Amendment to their financing agreements. Under the Third Amendment,
Fannie and Freddie give Treasury nearly all their net
worth each quarter as a dividend.
sion, others point to other enactments, like the Pendleton Civil Service Reform Act of 1883, which created the United States Civil Service Commission, or the Steamboat Act of 1852, which created the
Steamboat Inspection Service.
3
New York v. FERC, 535 U.S. 1, 18 (2002) (quoting La. Pub. Serv.
Comm’n v. FCC, 476 U.S. 355, 374 (1986)).

4a
The Shareholders have two principal objections to
this arrangement:
First, the Third Amendment exceeded FHFA’s statutory powers. FHFA’s enabling statute gives it general powers to use as either conservator or receiver.
The statute grants other, more directed powers to
FHFA as conservator or receiver respectively. As conservator, the agency may take actions “(i) necessary to
put the regulated entity in a sound and solvent condition; and (ii) appropriate to carry on the business of the
regulated entity and preserve and conserve the assets
and property of the regulated entity.” 4 These enumerated conservator powers don’t vanish in the glare of the
more general ones. Congress created FHFA amid a
dire financial calamity, but expedience does not license
omnipotence. The Shareholders plausibly allege that
the Third Amendment exceeded FHFA’s conservator
powers by transferring Fannie and Freddie’s future
value to a single shareholder, Treasury. In Parts I-VI
of this opinion, a majority of the en banc court holds that
this claim survives dismissal under Federal Rule of Civil
Procedure 12(b)(6).
Second, the Shareholders argue that FHFA lacked
authority to adopt the Third Amendment because its Director was not removable by the President. We adhere
to the panel’s reasoning and conclusion that FHFA’s design, an independent agency with a single Director removable only “for cause,” violates the separation of powers. 5 In Parts VII-VIII of this opinion, a majority of

4
5

12 U.S.C. § 4617(b)(2)(D).
Id. § 4512(b)(2).

5a
the en banc court holds that the Director’s “for cause”
removal protection is unconstitutional.
The remaining question is what remedy the Shareholders are entitled to. A different majority of the en
banc court holds that prospective relief is the proper
remedy. In Judge Haynes’s opinion, 6 a majority holds
that the Shareholders can only obtain a declaration that
the FHFA’s structure is unconstitutional.
We REVERSE the judgment dismissing Count I and
REMAND that claim for further proceedings. We AFFIRM the judgment dismissing Counts II and III.
The court REVERSES the judgment as to Count IV and
REMANDS that claim for entry of judgment that the
“for cause” removal limitation in 12 U.S.C. § 4512(b)(2)
is unconstitutional.
I
During last decade’s housing-market crisis, Congress passed and President George W. Bush signed the
Housing and Economic Recovery Act of 2008 (HERA). 7
The statute created FHFA as an independent agency to
oversee the Federal National Mortgage Association
(Fannie Mae) and the Federal Home Loan Mortgage
Corporation (Freddie Mac). Fannie and Freddie are
government-sponsored entities (GSEs) that also have
private shareholders, including the plaintiffs in this

Chief Judge Stewart, Judge Dennis, Judge Owen, Judge Southwick, Judge Graves, Judge Higginson, Judge Costa, and Judge Duncan join Judge Haynes’s constitutional remedy opinion.
7
Pub. L. No. 110-289, 122 Stat. 2654 (codified in various sections
of 12 U.S.C.).
6

6a
case. Some background on FHFA and the GSEs is
useful. 8
A
Congress created Fannie Mae in 1938. 9 Its purposes include “provid[ing] stability in the secondary
market for residential mortgages,” “increasing the liquidity of mortgage investments,” and “promot[ing] access to mortgage credit throughout the Nation.” 10 Congress created Freddie Mac in 1970 to “increase the availability of mortgage credit for the financing of urgently
needed housing.” 11 Among other activities, Fannie and
Freddie purchase mortgages originated by private banks,
bundle the mortgages into income-producing securities,
and sell the securities to investors.
In 2007, mortgage delinquencies and defaults
sparked a bank liquidity crisis that kindled a recession.
At the time, Fannie and Freddie controlled combined
mortgage portfolios of approximately $5 trillion—nearly
half the United States mortgage market. They suffered multi-billion dollar losses. Indeed, the GSEs lost
more in 2008 ($108 billion) than they had earned in the

The facts relevant to Counts I-III (the APA claims) are taken
from the Shareholders’ complaint and are viewed in the light most
favorable to them as the nonmovants. See Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009). The facts relevant to Count IV (the constitutional claim) are undisputed unless otherwise noted. See Celotex Corp. v. Catrett, 477 U.S. 317, 323-24 (1986).
9
National Housing Act Amendments of 1938, Pub. L. No. 75-424,
52 Stat. 8, 23.
10
12 U.S.C. §§ 1716, 1717.
11
Federal Home Loan Mortgage Corporation Act, Pub. L. No. 91351, preamble, 84 Stat. 450.
8

7a
previous thirty-seven years combined ($95 billion). 12 But
they remained solvent because they had taken a relatively conservative mortgage-investing approach. They
continued to support the United States home-mortgage
system as distressed banks failed.
In 2008, the President signed HERA into law to protect the national economy from further losses. HERA
established FHFA as an “independent agency of the
Federal Government” and classified Fannie and Freddie as “regulated entit[ies]” under FHFA. 13
B
A single Director leads FHFA. 14 He is “appointed
by the President, by and with the advice and consent of
the Senate.” 15 The Director serves a term of five years,
“unless removed before the end of such term for cause
by the President.” 16 The Director designates three
Deputy Directors. 17 In case of a vacancy in the Director office, “the President shall designate [one of the
Deputy Directors] to serve as acting Director until the

Office of Inspector General (OIG), FHFA, Analysis of the 2012
Amendments to the Senior Preferred Stock Purchase Agreements 5
(Mar. 20, 2013), https://www.fhfaoig.gov/Content/Files/WPR-2013002_2.pdf.
13
12 U.S.C. § 4511(a), (b).
14
Id. § 4512(a).
15
Id. § 4512(b)(1).
16
Id. § 4512(b)(2).
17
Id. § 4512(c)-(e) (providing for Deputy Director of the Division
of Enterprise Regulation, Deputy Director of the Division of Federal
Home Loan Bank Regulation, and Deputy Director for Housing Mission and Goals).
12

8a
return of the Director, or the appointment of a successor.” 18
Other features strengthen FHFA’s independence.
It runs on annual assessments collected from the GSEs,
not public or appropriated money. 19 It is “advise[d]”
by the Federal Housing Finance Oversight Board: the
Secretary of the Treasury, the Secretary of Housing and
Urban Development, the Chairman of the Securities and
Exchange Commission, and the FHFA Director. 20 But
the Board’s power is Lilliputian. It “may not exercise
any executive authority, and the Director may not delegate to the Board any of the functions, powers, or duties
of the Director.” 21
FHFA regulates normal GSE operations. The Director must issue regulations, guidelines, or orders necessary to oversee the GSEs and ensure their sound operations. 22 FHFA also has enforcement authority. The
Director may bring charges against a GSE for unsound
practices or violating the law. 23 He may issue ceaseand-desist orders, require the GSE to remedy any violations, and impose penalties. 24
C
FHFA is not just a regulator. Under 12 U.S.C.
§ 4617 it may serve as conservator or receiver for the
18
19
20
21
22
23
24

Id. § 4512(f ).
Id. § 4516.
Id. § 4513a(a)-(c).
Id. § 4513a(b).
Id. § 4526(a); see id. § 4513.
Id. § 4631(a)(1).
Id. § 4631(c); see id. §§ 4632(e), 4635, 4636, 4641.

9a
GSEs. FHFA has discretion to appoint itself conservator or receiver in some cases, and receivership is mandatory in other critical insolvency situations. 25 Conservatorship and receivership are mutually exclusive: Appointing FHFA as receiver “shall immediately terminate any conservatorship established for the regulated
entity under this chapter.” 26
D
Section 4617 next provides FHFA’s general powers
as conservator or receiver. In either role, FHFA is a
successor to the GSE:
The Agency shall, as conservator or receiver, and by
operation of law, immediately succeed to—
(i) all rights, titles, powers, and privileges of the
regulated entity, and of any stockholder, officer, or
director of such regulated entity with respect to the
regulated entity and the assets of the regulated entity. . . . 27
Similarly, FHFA in either role may operate the GSE:
The Agency may, as conservator or receiver—
(i) take over the assets of and operate the regulated
entity with all the powers of the shareholders, the directors, and the officers of the regulated entity and
conduct all business of the regulated entity;

Id. § 4617(a)(3) (discretionary appointment), (a)(4) (mandatory
receivership).
26
Id. § 4617(a)(4)(D).
27
Id. § 4617(b)(2)(A).
25

10a
(ii) collect all obligations and money due the regulated entity;
(iii) perform all functions of the regulated entity in
the name of the regulated entity which are consistent
with the appointment as conservator or receiver;
(iv) preserve and conserve the assets and property
of the regulated entity; and
(v) provide by contract for assistance in fulfilling
any function, activity, action, or duty of the Agency
as conservator or receiver. 28
And FHFA in either role may exercise incidental powers to carry out those enumerated:
Incidental powers
The Agency may, as conservator or receiver—
(i) exercise all powers and authorities specifically
granted to conservators or receivers, respectively,
under this section, and such incidental powers as
shall be necessary to carry out such powers; and
(ii) take any action authorized by this section, which
the Agency determines is in the best interests of the
regulated entity or the Agency. 29
FHFA in either role may also order a shareholder, director, or officer to perform any function. 30 And in ei-

28
29
30

Id. § 4617(b)(2)(B).
Id. § 4617(b)(2)(J).
Id. § 4617(b)(2)(C).

11a
ther role it may transfer or sell any GSE asset or liability without consent. 31 FHFA in either role also benefits from an anti-injunction provision:
Except as provided in this section or at the request
of the Director, no court may take any action to restrain or affect the exercise of powers or functions of
the Agency as a conservator or a receiver. 32
E
Other powers depend on capacity. Section 4617
grants some powers to FHFA as conservator only:
Powers as conservator
The Agency may, as conservator, take such action as
may be—
(i) necessary to put the regulated entity in a sound
and solvent condition; and
(ii) appropriate to carry on the business of the regulated entity and preserve and conserve the assets
and property of the regulated entity. 33
It grants other powers to FHFA as receiver only:
Additional powers as receiver
In any case in which the Agency is acting as receiver,
the Agency shall place the regulated entity in liquidation and proceed to realize upon the assets of the

31
32
33

Id. § 4617(b)(2)(G).
Id. § 4617(f ).
Id. § 4617(b)(2)(D).

12a
regulated entity in such manner as the Agency deems
appropriate. . . . 34
Receivership, then, grants a power and duty to liquidate
the GSE. Unsurprisingly, § 4617 next provides a regime for the receiver’s orderly processing of creditor
claims.
It is extensive. As receiver FHFA must publish and
mail notice to creditors to present their claims. 35 It
generally must allow or disallow a claim within 180 days
of filing. 36 It must expedite certain secured claims with
potential for irreparable injury. 37 It may also make
rules for allowing and disallowing claims. 38 And it
must allow proven claims. 39 Creditors may alternatively
pursue their claims in U.S. district court. 40 The receivership scheme qualifies the succession provision by
carving out surviving shareholder and creditor rights:
[T]he appointment of the Agency as receiver . . .
and its succession, by operation of law, to the rights,
titles, powers, and privileges described in subsection
(b)(2)(A) shall terminate all rights and claims that the
stockholders and creditors of the regulated entity
may have against the assets or charter . . . except for their right to payment, resolution, or other

34
35
36
37
38
39
40

Id. § 4617(b)(2)(E).
Id. § 4617(b)(3)(B)-(C).
Id. § 4617(b)(5)(A).
Id. § 4617(b)(8).
Id. § 4617(b)(4).
Id. § 4617(b)(5)(B).
Id. § 4617(b)(6).

13a
satisfaction of their claims, as permitted under subsections (b)(9), (c), and (e). 41
In short, FHFA as receiver must divide the GSEs’ assets between creditors and shareholders according to
law.
F
Congress also amended the GSEs’ charters by giving Treasury temporary authority to purchase their securities. 42 In connection with any purchase, it required
Treasury to make an “[e]mergency determination” that
the purchase would “(i) provide stability to the financial
markets; (ii) prevent disruptions in the availability of
mortgage finance; and (iii) protect the taxpayer.” 43
Congress also prescribed six mandatory considerations
for exercising the authority, “[t]o protect the taxpayers.” 44 The temporary purchase authority terminated
on December 31, 2009, except for Treasury’s rights under purchases already made. 45
II
In September 2008, FHFA appointed itself a conservator for the GSEs. The next day, Treasury and the
GSEs entered Preferred Stock Purchase Agreements.
Treasury made a capital commitment, capped at $100
billion per GSE, to keep them from defaulting. In return, Treasury received one million senior preferred
Id. § 4617(b)(2)(K).
Id. §§ 1455(l)(1) (authority as to Freddie Mac), 1719(g)(1)
(authority as to Fannie Mae).
43
Id. §§ 1455(l)(1)(B), 1719(g)(1)(B).
44
Id. §§ 1455(l)(1)(C), 1719(g)(1)(C).
45
Id. §§ 1455(l)(4), 1719(g)(4).
41
42

14a
shares in each GSE.
to:

These shares entitled Treasury

• a $1 billion senior liquidation preference;
• a dollar-for-dollar increase in that preference each
time a GSE drew on the capital commitment;
• quarterly dividends of either an amount equal to
10% of the liquidation preference, or a 12% increase in the liquidation preference itself;
• warrants allowing Treasury to purchase up to
79.9% of common stock;
• and periodic commitment fees.
The Agreements also prohibited the GSEs from declaring a dividend or making any other distribution without
Treasury’s consent.
Treasury and FHFA later amended the Agreements.
In May 2009 they adopted the First Amendment: Treasury agreed to double its funding commitment to $200 billion per GSE. In December 2009 they adopted the Second Amendment: Treasury agreed to an increased, adjustable commitment to account for the GSEs’ losses.
As of August 2012, the GSEs had drawn approximately
$187 billion from Treasury’s funding commitment. But
they lacked the cash to pay 10% dividends. So in August 2012 FHFA and Treasury adopted the Third Amendment to the Agreements.
The Third Amendment replaced the quarterly 10%
dividend with variable dividends equal to the GSEs’ entire net worth except a capital reserve. The Shareholders call this arrangement the “net worth sweep.” The
capital reserve buffer started at $3 billion. It de-

15a
creased annually until it reached zero in 2018. This arrangement was a double-edged sword. The GSEs no
longer struggled to make dividend payments, but they
would also no longer accrue capital. Treasury also suspended the periodic commitment fees. Treasury announced that the Third Amendment would “expedite the
wind down of Fannie Mae and Freddie Mac” and ensure
that the GSEs “will be wound down and will not be allowed to retain profits, rebuild capital, and return to the
market in their prior form.” 46 A federal official commented privately that the Third Amendment was designed to prevent Fannie and Freddie from recapitalizing. 47
The net worth sweep transferred a fortune from Fannie and Freddie to Treasury. When this suit was filed,
the GSEs had paid $195 billion in dividends under the
net worth sweep. Under the Agreements more broadly,
Treasury had disbursed $187 billion and recouped $250
billion, thanks largely to the net worth sweep.
III
The Shareholders sued FHFA, its Director, Treasury, and its Secretary (the Agencies). They assert four
causes of action, three statutory and one constitutional:
• In Count I, they allege the Administrative Procedure Act (APA), 5 U.S.C. § 706(2)(C), (D), affords
relief because FHFA exceeded its statutory conservator authority under 12 U.S.C. § 4617(b)(2)(D).

Compl. ¶ 135 (quoting Press Release, Dep’t of Treasury, Treasury Department Announces Further Steps to Expedite Wind Down
of Fannie Mae and Freddie Mac (Aug. 17, 2012)).
47
Id. ¶ 107.
46

16a
• In Count II, they allege the APA, 5 U.S.C.
§ 706(2)(C), (D), affords relief because Treasury
exceeded its securities-purchase authority under
12 U.S.C. §§ 1455(l), 1719(g). Specifically, they
allege that Treasury purchased securities after
the sunset period, failed to make the required
“[e]mergency determination[s],” and disregarded
statutory “[c]onsiderations.”
• In Count III, they allege the APA, 5 U.S.C.
§ 706(2)(A), affords relief because Treasury’s
adoption of the net worth sweep was arbitrary and
capricious.
• In Count IV, they allege FHFA violates Article II,
§§ 1 and 3 of the Constitution because, among
other things, it is headed by a single Director removable only for cause.
The Shareholders seek a declaration that the net worth
sweep violates HERA and is arbitrary and capricious; a
declaration that FHFA’s structure violates the separation of powers; an injunction against Treasury to return
net-worth-sweep dividends (or treat them as paying down
the liquidation preference); vacatur of the net worth
sweep; and an injunction against further implementation of the net worth sweep.
The Agencies each moved to dismiss all claims under
Federal Rules of Civil Procedure 12(b)(1) and 12(b)(6).
And the Shareholders and FHFA both moved for summary judgment on Count IV, the constitutional claim.
The district court granted the Agencies’ motions to dismiss Counts I-III based on the anti-injunction provision.
And it granted summary judgment to FHFA on the
merits of Count IV. The Shareholders appealed.

17a
A panel of this court affirmed as to the statutory
claims and reversed as to the constitutional claim. 48
We then granted rehearing en banc, vacating the panel
decision. 49 Before rehearing en banc, both FHFA and
Treasury admitted the merits of Count IV: FHFA’s
structure violates the separation of powers. But, several months after rehearing en banc, FHFA reversed its
position again. It now contends that FHFA’s structure
is constitutional. Treasury stands by its contrary position. And FHFA and Treasury maintain that for a number of other reasons the Shareholders are not entitled
to relief on Count IV.
IV
The rules governing jurisdiction and our standard of
review are familiar.
Jurisdiction. The district court had jurisdiction under 28 U.S.C. § 1331.
We have jurisdiction under 28 U.S.C. § 1291.
Standard of review. “We review de novo a district
court’s rulings on a motion to dismiss and a motion for
summary judgment, applying the same standard as the
district court.”50 “To survive a motion to dismiss, a complaint must contain sufficient factual matter, accepted
as true, to ‘state a claim to relief that is plausible on its

Collins v. Mnuchin, 896 F.3d 640 (5th Cir. 2018) (per curiam).
Collins v. Mnuchin, 908 F.3d 151 (5th Cir. 2018); 5TH CIR. R.
41.3.
50
TOTAL Gas & Power N. Am., Inc. v. FERC, 859 F.3d 325, 332
(5th Cir. 2017).
48
49

18a
face.’ ” 51 “A claim has facial plausibility when the plaintiff pleads factual content that allows the court to draw
the reasonable inference that the defendant is liable for
the misconduct alleged.” 52 Summary judgment is proper
if “there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
law.” 53 We may consider a fact undisputed “[i]f a party
. . . fails to properly address another party’s assertion of fact.” 54
V
We begin with Counts I-III, the Shareholders’ statutory claims. Before reaching the merits, we must decide whether they are justiciable under HERA’s antiinjunction provision and succession provision.
A
HERA’s anti-injunction provision limits court action
against FHFA’s conservator or receiver powers:
Except as provided in this section or at the request
of the Director, no court may take any action to restrain or affect the exercise of powers or functions of
the Agency as a conservator or a receiver. 55
To interpret this provision, we consult its plain meaning
and its past judicial interpretations (including in predecessor statutes).

Iqbal, 556 U.S. at 678 (quoting Bell Atl. Corp. v. Twombly,
550 U.S. 544, 570 (2007)).
52
Id.
53
FED. R. CIV. P. 56(a).
54
FED. R. CIV. P. 56(e).
55
12 U.S.C. § 4617(f ).
51

19a
The Supreme Court instructs that plain meaning
comes first: “Statutory construction must begin with
the language employed by Congress and the assumption
that the ordinary meaning of that language accurately
expresses the legislative purpose.” 56 Under the antiinjunction provision’s plain meaning, we may not grant
any relief that interferes with—“restrain[s] or affect[s]”
—FHFA’s conservator powers. Logically, then, we
may still grant relief against action taken outside those
powers. The anti-injunction provision deflects claims
about how the conservator used its powers, not claims it
exceeded the powers granted. It distinguishes improperly exercising a power (not restrainable) from exercising one that was never authorized (restrainable).
Past judicial interpretations confirm this view.
Congress borrowed much of HERA’s text from the Financial Institutions Reform, Recovery, and Enforcement Act of 1989 (FIRREA). 57 FIRREA authorizes
the Federal Deposit Insurance Corporation (FDIC) to
act as conservator or receiver for distressed banks. 58
FIRREA’s vintage conservator and receiver scheme, in-

Engine Mfrs. Ass’n v. S. Coast Air Quality Mgmt. Dist.,
541 U.S. 246, 252 (2004) (quoting Park ‘N Fly, Inc. v. Dollar Park &
Fly, Inc., 469 U.S. 189, 194 (1985)).
57
Pub. L. No. 101-73, 103 Stat. 183 (codified at 12 U.S.C. § 1811
et seq.); see Michael Krimminger & Mark A. Calabria, The Conservatorships of Fannie Mae and Freddie Mac: Actions Violate
HERA and Established Insolvency Principles 19 (Cato Inst., Working Paper No. 26, 2015) (“Staff quite literally ‘marked-up’ Sections
11 and 13 of the [Federal Deposit Insurance Act (FDIA), a FIRREA
predecessor] as the base text for HERA.”).
58
12 U.S.C. § 1821(c).
56

20a
cluding the anti-injunction provision, is materially similar to HERA’s. 59 So is one of FIRREA’s own predecessors, the Financial Institutions Supervisory Act of
1966 (FISA), which governed conservatorship and receivership by the Federal Savings and Loan Insurance
Corporation (FSLIC). 60 If FIRREA is HERA’s parent,
FISA is a grandparent.
The Supreme Court tells us that those provisions’ judicial interpretations guide our analysis of HERA.
“[W]here, as here, Congress adopts a new law incorporating sections of a prior law, Congress normally can be
presumed to have had knowledge of the interpretation
given to the incorporated law, at least insofar as it affects the new statute.” 61 “And when ‘judicial interpretations have settled the meaning of an existing statutory
provision, repetition of the same language in a new statute indicates, as a general matter, the intent to incorporate its judicial interpretations as well.’ ” 62

Compare 12 U.S.C. § 4617(f ) (HERA), with id. § 1821( j)
(FIRREA) (“Except as provided in this section, no court may take
any action, except at the request of the Board of Directors by regulation or order, to restrain or affect the exercise of powers or functions of the Corporation as a conservator or a receiver.”).
60
Pub. L. No. 89-695, 80 Stat. 1028, 1033 (“Except as otherwise
provided in this subsection, no court may take any action for or toward the removal of any conservator or receiver, or, except at the
instance of the Board, restrain or affect the exercise of powers or
functions of a conservator or receiver.”).
61
Lorillard v. Pons, 434 U.S. 575, 581 (1978).
62
Merrill Lynch, Pierce, Fenner & Smith Inc. v. Dabit, 547 U.S.
71, 85 (2006) (ellipsis omitted) (quoting Bragdon v. Abbott, 524 U.S.
624, 645 (1998)).
59

21a
The Supreme Court interpreted FISA’s antiinjunction provision in Coit. 63 It held the provision did
not strip federal jurisdiction over claims in a FSLIC receivership. 64 Rather, it “simply prohibit[ed] courts from
restraining or affecting . . . those receivership ‘powers and functions’ that have been granted by other statutory sources.”65 So the anti-injunction provision didn’t
affect whether a particular power existed in the first
place. 66
We have applied Coit to FIRREA’s anti-injunction
provision. In Onion we held that the provision prevented a federal court from stopping a conservator’s
foreclosure and sale. 67 In Ward, relying on Onion, we
held that the anti-injunction provision stopped a federal
court from rescinding a receiver’s sale. 68 We elaborated that there is a “difference between the exercise of
a function or power that is clearly outside the statutory
authority of the RTC on the one hand, and improperly
or even unlawfully exercising a function or power that is
clearly authorized by statute on the other.” 69

Coit Indep. Joint Venture v. FSLIC, 489 U.S. 561, 574-77 (1989)
(interpreting FISA, 80 Stat. 1033).
64
Id.
65
Id. at 574.
66
Id. (“[T]his language does not add adjudication of creditor
claims to FSLIC’s receivership powers.”).
67
281-300 Joint Venture v. Onion, 938 F.2d 35, 39 (5th Cir. 1991)
(citing Coit, 489 U.S. at 574).
68
Ward v. RTC, 996 F.2d 99, 103 (5th Cir. 1993).
69
Id.; see also Carney v. RTC, 19 F.3d 950, 956 (5th Cir. 1994)
(holding that FIRREA anti-injunction provision deprived court of
jurisdiction because RTC’s action was within statutory powers).
63

22a
Ward is the anti-injunction provision’s strongest expression. We declined to review even whether the receiver breached its express statutory duty to maximize
the property’s value. 70 But we did so based on the understanding that, even if the receiver sold the property
for inadequate value, it had “improperly or unlawfully
exercised an authorized power or function,” not “engage[d] in an activity outside its statutory powers.” 71
Ward’s facts are different from this case. In Ward,
selling low instead of high was an improper use of the
receiver’s power to liquidate assets. But here, FHFA
as conservator essentially liquidated assets without ever
being appointed receiver. Improperly exercising a
power is not restrainable, but exercising one beyond
statutory authority is.
Other circuits follow the same interpretation. Even
our sister courts that rejected claims like Counts I-III
acknowledge the same rule: “Section 4617(f ) will not
protect the Agency if it acts either ultra vires or in some
third capacity” besides conservator or receiver. 72 So
have circuits deciding unrelated cases against FHFA.
Ward, 996 F.2d at 103.
Id.
72
Roberts v. FHFA, 889 F.3d 397, 402 (7th Cir. 2018); see Jacobs v.
FHFA, 908 F.3d 884, 889 (3rd Cir. 2018) (“Section 4617(f ) bars
claims when 1) the government acts as a conservator, 2) it does not
exceed its statutory authority, and 3) the remedy sought would affect the exercise of that authority.”); Saxton v. FHFA, 901 F.3d 954,
957 (8th Cir. 2018) (“[T]his provision bars only equitable relief, and
only does so if the challenged action is within the powers given
FHFA by HERA.”); Perry Capital LLC v. Mnuchin, 864 F.3d 591,
606 (D.C. Cir. 2017) (“The plain statutory text draws a sharp line in
the sand against litigative interference . . . with FHFA’s statutorily permitted actions as conservator or receiver.”).
70
71

23a
To quote the Ninth Circuit, “the anti-judicial review provision is inapplicable when FHFA acts beyond the scope
of its conservator power.” 73 And the Eleventh Circuit
holds that “[t]he FHFA cannot evade judicial scrutiny
by merely labeling its actions with a conservator
stamp.” 74
The provision’s plain meaning, FIRREA precedent,
and HERA precedent show that we may grant relief if
FHFA exceeded its statutory powers. The Agencies
primarily contend that the Third Amendment falls within
the conservatorship powers, 12 U.S.C. § 4617(b)(2). As
we explain below, that is incorrect, at least at the pleading stage. But first, we address the Agencies’ arguments from disconnected provisions.
The Agencies suggest Treasury’s temporary purchase
authority authorized the Third Amendment. 75 Congress
authorized Treasury to “purchase any obligations and
other securities issued by the [GSEs] . . . on such
terms and conditions . . . and in such amounts as
the Secretary may determine.” 76 It also authorized
Treasury “at any time[] [to] exercise any rights received
in connection with such purchases.” 77
But these provisions cannot sustain the Agencies’ argument. “Congress . . . does not alter the fundamental details of a regulatory scheme in vague terms or

73
74
75
76
77

County of Sonoma v. FHFA, 710 F.3d 987, 992 (9th Cir. 2013).
Leon County v. FHFA, 700 F.3d 1273, 1278 (11th Cir. 2012).
See 12 U.S.C. §§ 1455(l)(1)(A), 1719(g)(1)(A).
Id. §§ 1455(l)(1)(A), 1719(g)(1)(A).
Id. §§ 1455(l)(2)(A), 1719(g)(2)(A).

24a
ancillary provisions—it does not, one might say, hide elephants in mouseholes.” 78 Authorizing Treasury to enter an open-ended category of transactions does not
override the elaborate powers scheme in FHFA’s enabling statute. 79
The Agencies also contend that Congress ratified the
Third Amendment in the Consolidated Appropriations
Act of 2016. 80 This act restricted Treasury from disposing of certain shares, specifically including its rights
under the Third Amendment, until 2018. 81 The statute’s most favorable reading for Treasury is that, in directing Treasury to retain its Third Amendment interest, Congress recognized or enacted that interest’s lawfulness. 82
The Appropriations Act does not support that reading. In directing Treasury to retain preferred shares,
it speaks to future conduct, not past action. The Supreme Court has “recognized congressional acquiescence

78
79
80
81
82

Whitman v. Am. Trucking Ass’ns, 531 U.S. 457, 468 (2001).
See id.
Pub. L. No. 114-113, § 702, 129 Stat. 2242, 3024-25 (2015).
Id.
The statute also included a “Sense of Congress” provision:
It is the Sense of Congress that Congress should pass and the
President should sign into law legislation determining the future of Fannie Mae and Freddie Mac, and that notwithstanding the expiration of subsection (b), the Secretary should not
sell, transfer, relinquish, liquidate, divest, or otherwise dispose
of any outstanding shares of senior preferred stock acquired
pursuant to the Senior Preferred Stock Purchase Agreement
until such legislation is enacted.

Id. § 702(c).

25a
to administrative interpretations of a statute in some situations, [but] ha[s] done so with extreme care.” 83 Treasury faces “a difficult task in overcoming the plain text
and import of [HERA]” with a later enactment. 84 Here,
the Appropriations Act only established a going-forward
requirement to maintain the status quo. That is not
enough to show that the Agencies’ past actions accorded
with HERA. The Agencies’ conservatorship theory
looms large over markets and federal conservatorships,
so we presume Congress did not stealthily ratify it in an
appropriations rider—hiding an elephant in a mousehole. 85
It follows that whether the anti-injunction provision
bars relief on Counts I-III depends entirely on whether
the net worth sweep exceeded FHFA’s statutory conservatorship powers. 86
B
The Agencies next invoke HERA’s succession provision as a defense.
When appointed conservator,
FHFA succeeds to certain shareholder rights:
The Agency shall, as conservator or receiver, and by
operation of law, immediately succeed to . . . all
Solid Waste Agency of N. Cook Cty. v. U.S. Army Corps of
Eng’rs, 531 U.S. 159, 169 (2001).
84
Id. at 170.
85
See Whitman, 531 U.S. at 468 (“Congress, we have held, does not
alter the fundamental details of a regulatory scheme in vague terms
or ancillary provisions—it does not, one might say, hide elephants in
mouseholes.”).
86
See, e.g., Saxton, 901 F.3d at 959 (concluding that anti-injunction
analysis is similar for net-worth-sweep claims against both FHFA
and Treasury).
83

26a
rights, titles, powers, and privileges of the regulated
entity, and of any stockholder, officer, or director of
such regulated entity with respect to the regulated
entity and the assets of the regulated entity. . . . 87
The Agencies say that FHFA succeeded to the Shareholders’ right to bring derivative suits, and Counts I-III
are derivative. Generally speaking, “[t]he derivative
form of action permits an individual shareholder to
bring ‘suit to enforce a corporate cause of action against
officers, directors, and third parties,’ ” whereas a direct
cause of action belongs to the shareholder himself. 88
Other circuits have held that FHFA succeeded to derivative claims but not direct. 89 They have textual support: The succession provision transfers shareholders’
rights “with respect to the regulated entity and [its] assets.” 90 Simultaneously, under a separate provision,
shareholders and creditors retain “their right to payment, resolution, or other satisfaction of their claims” in
the receivership claim-processing scheme. 91 This means
some claims survive the succession provision. And it
makes sense to define those claims as direct ones. The
ordinary meaning of claims “with respect to” a GSE and

12 U.S.C. § 4617(b)(2)(A).
Kamen v. Kemper Fin. Servs., Inc., 500 U.S. 90, 95 (1991) (quoting Ross v. Bernhard, 396 U.S. 531, 534 (1970)).
89
See Roberts, 889 F.3d at 408; Perry Capital, 864 F.3d at 624.
90
12 U.S.C. § 4617(b)(2)(A).
91
Id. § 4617(b)(2)(K)(i).
87
88

27a
its assets does not include a shareholder’s personal claims.
And FIRREA decisions took a similar view. 92
To decide whether Counts I-III are direct or derivative, we begin with the cause of action. Counts I-III
assert rights under the APA. Under 5 U.S.C. § 702,
“[a] person suffering legal wrong . . . or adversely
affected or aggrieved by agency action within the meaning of a relevant statute is entitled to judicial review.”
And under 5 U.S.C. § 706, “[t]he reviewing court shall
. . . hold unlawful and set aside agency action” that is
arbitrary and capricious, exceeds statutory authority, or
is otherwise unlawful.
The APA cause of action is broad. The “Administrative Procedure Act . . . embodies the basic presumption of judicial review to one ‘suffering legal wrong
because of agency action, or adversely affected or aggrieved by agency action within the meaning of a relevant statute.’ ” 93 “[J]udicial review of a final agency action by an aggrieved person will not be cut off unless
there is persuasive reason to believe that such was the
purpose of Congress.” 94 An APA claim must be justiciable under Article III, but otherwise who may sue is in
Roberts, 889 F.3d at 408 (citing Levin v. Miller, 763 F.3d 667,
669 (7th Cir. 2014); Courtney v. Halleran, 485 F.3d 942, 950 (7th Cir.
2007)).
93
Abbott Labs. v. Gardner, 387 U.S. 136, 140 (1967) (quoting
5 U.S.C. § 702), abrogated by statute in other part as recognized in
Califano v. Sanders, 430 U.S. 99, 105 (1977).
94
Bowen v. Mich. Acad. of Family Physicians, 476 U.S. 667, 670
(1986) (quoting Abbott Labs., 387 U.S. at 140); see Barlow v. Collins,
397 U.S. 159, 166 (1970) (“[P]reclusion of judicial review of administrative action adjudicating private rights is not lightly to be inferred.
Indeed, judicial review of such administrative action is the rule, and
92

28a
Congress’s hands. 95 Congress has granted an APA claim
to any party that alleges “the challenged action had
caused them ‘injury in fact,’ and . . . the alleged injury was to an interest ‘arguably within the zone of interests to be protected or regulated’ by the statutes that
the agencies were claimed to have violated.” 96
“Whether a plaintiff comes within the zone of interests . . . requires us to determine, using traditional
tools of statutory interpretation, whether a legislatively
conferred cause of action encompasses a particular
plaintiff ’s claim.” 97 The Supreme Court once considered the zone of interests a matter of “prudential standing,” but now calls it one of statutory interpretation. 98
The Court “ha[s] said, in the APA context that the test
is not ‘especially demanding.’ ” 99 It has “conspicuously
included the word ‘arguably’ in the test to indicate that
nonreviewability an exception which must be demonstrated.” (citations omitted)).
95
Sierra Club v. Morton, 405 U.S. 727, 732 n.3 (1972).
96
Id. at 733 (quoting Ass’n of Data Processing Serv. Orgs., Inc. v.
Camp, 397 U.S. 150, 153 (1970)); see Bennett v. Spear, 520 U.S. 154,
175 (1997) (“In determining whether the petitioners have standing
under the zone-of-interests test to bring their APA claims, we look
. . . to the substantive provisions of the [Endangered Species Act
of 1973], the alleged violations of which serve as the gravamen of the
complaint.”).
97
Lexmark Int’l, Inc. v. Static Control Components, Inc., 572 U.S.
118, 127 (2014) (internal quotation marks omitted).
98
Id. (applying zone-of-interests test and disapproving “prudential
standing” label); see Bank of Am. Corp. v. City of Miami,
137 S. Ct. 1296, 1302 (2017) (“In Lexmark, we said that the label
‘prudential standing’ was misleading, for the requirement at issue is
in reality tied to a particular statute.”).
99
Id. at 130 (quoting Match-E-Be-Nash-She-Wish Band of Pottawatomi Indians v. Patchak, 567 U.S. 209, 225 (2012)).

29a
the benefit of any doubt goes to the plaintiff.” 100 “[T]he
test ‘forecloses suit only when a plaintiff ’s interests are
so marginally related to or inconsistent with the purposes implicit in the statute that it cannot reasonably be
assumed that’ Congress authorized that plaintiff to
sue.” 101 The zone of interests “is to be determined not
by reference to the overall purpose of the Act in question . . . but by reference to the particular provision
of law upon which the plaintiff relies.” 102
Count I, to the extent it has merit, is a direct claim.
The Shareholders suffered injury in fact—they were excluded from the GSEs’ profits. And they are within the
zone of interests HERA protects. Count I alleges that
FHFA violated 12 U.S.C. § 4617(b)(2)(D)—the grant of
conservator powers.
The Shareholders’ economic
value is “arguably within the zone of interests” for this
provision. 103 It is axiomatic that shareholders are the
residual claimants of a firm’s value. 104 They are among
the first beneficiaries of the “sound and solvent condition” that a conservator is empowered to pursue. 105 And
they ordinarily have a claim on the “assets and property” that a conservator is empowered to “preserve and
Id. (quoting Patchak, 567 U.S. at 225).
Id. (quoting Patchak, 567 U.S. at 225).
102
Bennett, 520 U.S. at 175-76.
103
City of Miami, 137 S. Ct. at 1303.
104
Cf. FDIC v. Morley, 867 F.2d 1381, 1391 (11th Cir. 1989) (stating
that “Congress enacted the [Federal Deposit Insurance Act, a
FIRREA precedessor] to protect depositors and bank shareholders”).
105
12 U.S.C. § 4617(b)(2)(D); see Compl. ¶¶ 35-37, 44, 109, 114, 14243 (alleging Shareholders’ holdings, accompanying rights, and effect
of net worth sweep).
100
101

30a
conserve.” 106 For example, in James Madison, the
D.C. Circuit held a bank shareholder could challenge the
FDIC’s appointment as the bank’s receiver under
FIRREA. 107
Plus, HERA elsewhere states that the succession
provision does not extinguish the Shareholders’ right to
pursue their claims in receivership. 108 This matters because Count I essentially alleges that an improper conservatorship preempted rights that could have been redeemed in receivership. 109 Because the Shareholders
are within the zone of interests protected by HERA’s
enumeration of conservator powers, they have a direct
claim.
And the prudential shareholder-standing rule does
not change this analysis. The rule is “a strand of the
standing doctrine that prohibits litigants from suing to
enforce the rights of third parties.” 110 But for APA

12 U.S.C. § 4617(b)(2)(D); see Compl. ¶ 114 (“The effect of the
Net Worth Sweep is . . . to immediately nullify the rights of private shareholders to any return of their principal or any return on
their principal (i.e., in the form of dividends).”).
107
James Madison Ltd. ex rel Hecht v. Ludwig, 82 F.3d 1085, 1094
(D.C. Cir. 1996).
108
12 U.S.C. § 4617(b)(2)(K)(i).
109
See, e.g., Compl. ¶¶ 7 (“Indeed, a receivership that liquidates the
Companies would have more economic value to the private shareholders than the conservatorship as it was structured and operated
in practice.”), 56 (alleging no regulator before has imposed conservatorship on healthy company while “simultaneously avoiding the
organized claims process of a receivership”).
110
Nocula v. UGS Corp., 520 F.3d 719, 726 (7th Cir. 2008).
106

31a
claims, “Congress itself has pared back traditional prudential limitations.” 111 The APA does not abolish the
shareholder-standing doctrine. But it limits it in some
cases. James Madison is one example, because the court
held it had jurisdiction to review the shareholder’s APA
action against appointment of a receiver. 112 The Supreme Court decisions City of Miami and Lexmark also
support this point: For very broad statutory rights
like the APA, an injury in fact and inclusion in the zone
of interests can add up to a right of action, even if prudential standing limits would have blocked it. 113 That
is the case here.
In so holding, we do not say that there is no directderivative distinction for APA claims. Nor is it true
that any shareholder may obtain review of agency action
affecting his holdings. In Thompson v. North American Stainless, LP, the Supreme Court rejected the “absurd” proposition that shareholders could sue under
Title VII employment protections. 114 Shareholders are
FAIC Secs., Inc. v. United States, 768 F.2d 352, 357 (D.C. Cir.
1985) (Scalia, J.).
112
82 F.3d at 1094.
113
See City of Miami, 137 S. Ct. at 1302 (“This Court has also referred to a plaintiff ’s need to satisfy ‘prudential’ or ‘statutory’ standing requirements. In Lexmark, we said that the label ‘prudential
standing’ was misleading, for the requirement at issue is in reality
tied to a particular statute. The question is whether the statute
grants the plaintiff the cause of action that he asserts.” (citations
omitted)); Lexmark, 572 U.S. at 128 (“Just as a court cannot apply
its independent policy judgment to recognize a cause of action that
Congress has denied, it cannot limit a cause of action that Congress
has created merely because ‘prudence’ dictates.” (citation omitted)).
114
562 U.S. 170, 176-77 (2011).
111

32a
not within Title VII’s zone of interests because “the purpose of Title VII is to protect employees from their employers’ unlawful actions.” 115 But a corporate reorganization statute is a different animal. Shareholders may
be within its zone of interests, and here they are. 116
Counts II and III, however, are not within the asserted statutes’ zone of interests. In Count II the
Shareholders allege that Treasury violated 12 U.S.C.
§§ 1455(l), 1719(g), which granted it authority to purchase securities in the GSEs. They say the net worth
sweep effectively purchased securities after these provisions’ 2009 sunset and otherwise exceeded the purchase authority. 117 In Count III they allege that Treasury acted arbitrarily and capriciously under those same
sections because it never made the requisite “[e]mergency determination.” 118
Congress granted this purchase authority to protect
markets, consumers, and taxpayers, not GSE stakeholders. The emergency determination asks whether a
Id. at 178.
See James Madison, 82 F.3d at 1092-94 (“[R]equiring stockholders of wrongfully seized national banks to wait on the sidelines
while the FDIC liquidates their institutions conflicts with Congress’s apparent desire . . . that seized institutions act quickly in
challenging the FDIC’s appointment.”); Morley, 867 F.2d at 1391
(“Congress enacted the FDIA [a FIRREA predecessor] to protect
depositors and bank shareholders. . . . ”).
117
See 12 U.S.C. §§ 1455(l)(4) (providing that purchase authority
“shall expire December 31, 2009”), 1719(g)(4) (same).
118
Id. §§ 1455(l)(1)(B) (“In connection with any use of this authority, the Secretary must determine that such actions are necessary
to—(i) provide stability to the financial markets; (ii) prevent disruptions in the availability of mortgage finance; and (iii) protect the taxpayer.”), 1719(g)(1)(B) (same).
115
116

33a
purchase will stabilize markets, prevent disruptions in
mortgage finance, and protect taxpayers. 119 And the
statutes’ mandatory “[c]onsiderations” are likewise
public-oriented: Treasury must consider the GSEs’
condition, and any transaction’s structure, “[t]o protect
the taxpayers.” 120 So we agree with the district court,
though for a different reason, that Counts II and III
must be dismissed.
VI
We now consider Count I’s substantive allegation
that the net worth sweep exceeded FHFA’s conservator
powers. Like any federal agency, FHFA “literally has
no power to act . . . unless and until Congress confers power upon it.” 121 This principle is enshrined in
statute: “The reviewing court shall . . . hold unlawful and set aside agency action, findings, and conclusions found to be . . . in excess of statutory jurisdiction, authority, or limitations. . . . ” 122 It is recognized in prominent Supreme Court decisions and implicit in countless others. 123 The warning that “[i]f we
are to continue a government of limited powers, these

Id. §§ 1455(l)(1)(B), 1719(g)(1)(B).
Id. §§ 1455(l)(1)(C), 1719(g)(1)(C).
121
New York v. FERC, 535 U.S. at 18 (quoting La. Pub. Serv.
Comm’n, 476 U.S. at 374).
122
5 U.S.C. § 706.
123
See, e.g., Maislin Indus., U.S., Inc. v. Primary Steel, Inc.,
497 U.S. 116, 134-35 (1990) (holding that agency “does not have the
power to adopt a policy that directly conflicts with its governing statute”); La. Pub. Serv. Comm’n, 476 U.S. at 374 (holding that “a federal agency may pre-empt state law only when and if it is acting
within the scope of its congressionally delegated authority”).
119
120

34a
agencies must themselves be regulated” remains as
fresh as ever. 124
A
To define FHFA’s statutory authority, we “follow the
cardinal rule that a statute is to be read as a whole, since
the meaning of statutory language, plain or not, depends
on context.” 125 Emphasis on isolated provisions at the
expense of other, more applicable ones is “hyperliteral
and contrary to common sense.” 126 As Learned Hand
explained, “[w]ords are not pebbles in alien juxtaposition; they have only a communal existence.”127 Our analysis proceeds in three parts: HERA’s plain meaning,
its past judicial interpretations (including FIRREA precedent), and insight from common-law conservatorship.
1
Under HERA’s plain meaning, FHFA as conservator
has limited, enumerated powers. To begin with, conservator and receiver are distinct and mutually exclusive roles. HERA says FHFA may “be appointed as
conservator or receiver for the purpose of reorganizing,
rehabilitating, or winding up the affairs of a regulated

Felix Frankfurter, The Growth of American Administrative
Law, 37 HARV. L. REV. 638, 639 (1924) (book review) (quoting Elihu
Root, Address of the President, 41 AM. BAR ASS’N REP. 356-69
(1916)).
125
King v. St. Vincent’s Hosp., 502 U.S. 215, 221 (1991) (citation
omitted).
126
RadLAX Gateway Hotel, LLC v. Amalgamated Bank, 566 U.S.
639, 645 (2012).
127
NLRB v. Federbush Co., 121 F.2d 954, 957 (2d Cir. 1941)
(quoted in King, 502 U.S. at 221).
124

35a
entity.” 128 In ordinary use, the word “or” is “almost always disjunctive, that is, the words it connects are to be
given separate meanings.” 129 So FHFA may not occupy both roles simultaneously. To the same point,
“[t]he appointment of the Agency as receiver . . .
shall immediately terminate any conservatorship.” 130
Similarly, the incidental powers provision authorizes
FHFA to “exercise all powers and authorities specifically granted to conservators or receivers, respectively,
under this section, and such incidental powers as shall
be necessary to carry out such powers.” 131 In short, the
FHFA Director may appoint the agency as either conservator or receiver, but once he does so, FHFA’s powers depend on the role.
Some powers do overlap. HERA grants general powers to FHFA as either conservator or receiver. In either capacity, FHFA is a successor to the GSE. 132 It
succeeds to the GSE’s and its stakeholders’ “rights, titles, powers, and privileges . . . with respect to the
regulated entity and [its] assets.” 133 Similarly, FHFA
in either capacity has power to operate the GSE. 134 This
includes taking over its assets, operating its business,
collecting obligations, performing its functions, preserving and conserving its assets and property, and entering

12 U.S.C. § 4617(a)(2) (emphasis added).
Loughrin v. United States, 573 U.S. 351, 357 (2014) (quoting
United States v. Woods, 571 U.S. 31, 45 (2013)).
130
12 U.S.C. § 4617(a)(4)(D).
131
Id. § 4617(b)(2)(J) (emphasis added).
132
Id. § 4617(b)(2)(A).
133
Id. § 4617(b)(2)(A)(i).
134
Id. § 4617(b)(2)(B).
128
129

36a
contracts. 135 The list goes on: In either role FHFA may
transfer assets or liabilities 136; cause other stakeholders
to perform functions 137; pay obligations 138; issue subpoenas 139; and exercise incidental powers. 140
But that list has an end. Other powers depend on
which role FHFA occupies. The statute enumerates
FHFA’s separate “[p]owers as conservator”:
The Agency may, as conservator, take such action as
may be—(i) necessary to put the regulated entity in
a sound and solvent condition; and (ii) appropriate to
carry on the business of the regulated entity and preserve and conserve the assets and property of the
regulated entity. 141
Then it enumerates “[a]dditional powers as receiver”:
“In any case in which the Agency is acting as receiver, the Agency shall place the regulated entity in
liquidation and proceed to realize upon the assets of
the regulated entity in such manner as the Agency
deems appropriate, including through the sale of assets. . . . ” 142

135
136
137
138
139
140
141
142

Id.
Id. § 4617(b)(2)(G).
Id. § 4617(b)(2)(C).
Id. § 4617(b)(2)(H).
Id. § 4617(b)(2)(I).
Id. § 4617(b)(2)(J).
Id. § 4617(b)(2)(D).
Id. § 4617(b)(2)(E).

37a
The receiver powers also include organizing a successsor enterprise 143 and administering a detailed claimprocessing scheme. 144
The receiver powers stand in contrast to the conservator powers. As receiver, FHFA gains the power to
liquidate the GSE and realize on its assets. 145 It also
gains the power to notice, review, and determine creditors’ claims. 146 A conservator does not have these powers. If it did, a conservator could liquidate the GSE’s assets without following HERA’s detailed claim-processing
scheme.
The Agencies contend that the general powers to “operate the regulated entity” and “conduct all [its] business,” 147 or “transfer or sell any asset or liability of the
regulated entity in default,” 148 authorize the net worth
sweep. But if read so broadly, these provisions would
obliterate the receivership claim-processing duties. If
a conservator or receiver may enter any transaction as
part of “operat[ing]” the GSE and “conduct[ing]” its business, 149 there is no bar to circumventing HERA’s creditor and shareholder protections.
That would raze the receiver’s duties to notice and
adjudicate claims. 150 It would also be inconsistent with
creditors’ and shareholders’ right to have their claims
143
144
145
146
147
148
149
150

Id. § 4617(b)(2)(F).
Id. § 4617(b)(3), (b)(4), (b)(5), (b)(7), (b)(8), (b)(9).
Id. § 4617(b)(2)(E).
Id. § 4617(b)(3), (b)(4), (b)(5), (b)(7), (b)(8), (b)(9).
Id. § 4617(b)(2)(B)(i).
Id. § 4617(b)(2)(G).
Id. § 4617(b)(2)(B)(i).
Id. § 4617(b)(3), (b)(4), (b)(5), (b)(7), (b)(8), (b)(9).

38a
paid in receivership. 151 So it cannot be a correct reading. “In construing a statute we are obliged to give effect, if possible, to every word Congress used.” 152 And
“the canon against surplusage is strongest when an interpretation would render superfluous another part of
the same statutory scheme.” 153
Rather than give the general powers their broadest
possible meaning, we give them a meaning consistent
with the separate conservator and receiver powers. A
coherent interpretation of these provisions is not just
reasonable, it is mandatory. In RadLAX, the Supreme
Court held that when “a general authorization and a
more limited, specific authorization exist side-by-side”
in the same statute, “the particular enactment must be
operative, and the general enactment must be taken to
affect only such cases within its general language as are
not within the provisions of the particular enactment.” 154
In this situation “[t]he general/specific canon . . .
avoids not contradiction but the superfluity of a specific
provision that is swallowed by the general one.” 155 Other

Id. § 4617(b)(2)(K)(i).
Reiter v. Sonotone Corp., 442 U.S. 330, 339 (1979); see ANTONIN
SCALIA & BRYAN A. GARNER, READING LAW: THE INTERPRETATION OF LEGAL TEXTS 176 (2012).
153
Marx v. Gen. Revenue Corp., 568 U.S. 371, 386 (2013).
154
RadLAX Gateway Hotel, LLC v. Amalgamated Bank, 566 U.S.
639, 645-46 (2012) (quoting United States v. Chase, 135 U.S. 255, 260
(1890)).
155
Id. at 645.
151
152

39a
Supreme Court authority similarly warns against applying a general provision at the expense of more specific
ones. 156
Applying this to HERA, § 4617(b)(2)(D) enumerates
the conservator’s specific powers to “put the regulated
entity in a sound and solvent condition,” “carry on [its]
business,” and “preserve and conserve” its assets. The
shared conservator-receiver powers are more general
and would swallow the rest of the statute if interpreted
broadly. So the more “particular enactment must be operative.” 157 “[M]ay means may” and “ ‘may’ is, of course,
‘permissive rather than obligatory.’ ” 158 But here “may”
is a grant of power that enables FHFA to act. FHFA as
conservator may not exercise a power beyond the ones
granted. 159
The incidental-powers provision does not change
this. It gives FHFA other powers “necessary to carry
out” its enumerated ones. 160 We doubt that Congress
“in fashioning this intricate . . . machinery, would

See Bloate v. United States, 559 U.S. 196, 207 (2010) (“[G]eneral
language of a statutory provision, although broad enough to include
it, will not be held to apply to a matter specifically dealt with in another part of the same enactment.” (quoting D. Ginsberg & Sons,
Inc. v. Popkin, 285 U.S. 204, 208 (1932))).
157
RadLAX, 566 U.S. at 646 (quoting Chase, 135 U.S. at 260).
158
Perry Capital, 864 F.3d at 607 (first quoting U.S. Sugar Corp.
v. EPA, 830 F.3d 579, 608 (D.C. Cir. 2016); then quoting Baptist
Mem’l Hosp. v. Sebelius, 603 F.3d 57, 63 (D.C. Cir. 2010)).
159
E.g., La. Pub. Serv. Comm’n, 476 U.S. at 374 (“[A]n agency literally has no power to act . . . unless and until Congress confers
power upon it.”).
160
12 U.S.C. § 4617(b)(2)(J).
156

40a
thus hang one of the main gears on the tail pipe.” 161 Including near-unlimited conservatorship powers in this
provision would swallow a large chunk of HERA. And
incidental powers are those “necessary to carry out” the
powers granted to “conservators or receivers, respectively.” 162 This links incidental powers to enumerated
ones and recognizes the conservator-receiver distinction. In short, any exercise of an incidental power must
serve an enumerated power. 163 Beyond limited powers
to “preserve and conserve” the GSEs’ assets and property, FHFA would lack any intelligible principle to
guide its discretion as conservator. This would permit
essentially any action that could be characterized as “reorganizing” the GSEs and would eviscerate many pages
of 12 U.S.C. § 4617.
The best-interests clause is also consistent with this
reading. That clause, within the incidental-powers
provision, authorizes FHFA to “take any action authorized by this section, which the Agency determines is in
the best interests of the regulated entity or the Agency.”164
Permitting the conservator to act in its own interest may
appear to depart from the traditional view of a conservator as fiduciary. But the best-interests clause modifies FHFA’s authority “as conservator or receiver,” 165
and it only affects actions that are otherwise “authorized

Brannan v. Stark, 342 U.S. 451, 463 (1952).
12 U.S.C. § 4617(b)(2)(J)(i).
163
Cf. RadLAX, 566 U.S. at 645 (holding that general authority
should not be interpreted to make specific authority superfluous).
164
12 U.S.C. § 4617(b)(2)(J)(ii) (emphasis added).
165
Id. § 4617(b)(2)(J).
161
162

41a
by this section.” 166 So FHFA may pursue its own interests only within the conservator’s enumerated powers.
It may not, for example, wind down a GSE and jettison
receivership protections all in its own best interests.
That would not be “authorized by this section.” Instead, this clause is a modest addition to traditional conservatorship powers.
It may permit related-party
transactions that would otherwise be inconsistent with
fiduciary duties. 167
2
FIRREA decisions also demonstrate the conserFIRREA’s
vator’s limited, enumerated powers. 168
conservator-powers provision is materially identical to
HERA’s. 169 In McAllister we interpreted that provision to “state[] explicitly that a conservator only has the
power to take actions necessary to restore a financially
troubled institution to solvency.” 170 We are in good
company—the Fourth, Eighth, Ninth, Eleventh, and
D.C. Circuits have articulated similar views. 171 Under
Id. § 4617(b)(2)(J)(ii).
See Perry Capital, 864 F.3d at 643 (Brown, J., dissenting in part).
168
Cf. Merrill Lynch, 547 U.S. at 85 (stating that incorporation of
language from existing statute generally incorporates its judicial interpretations as well); Lorillard, 434 U.S. at 581 (“Congress is presumed to be aware of an administrative or judicial interpretation of
a statute and to adopt that interpretation when it re-enacts a statute
without change. . . . ”).
169
Compare 12 U.S.C. § 4617(b)(2)(D) (HERA), with id.
§ 1821(d)(2)(D) (FIRREA).
170
201 F.3d 570, 579 (5th Cir. 2000).
171
See Elmco Props., Inc. v. Second Nat’l Fed. Sav. Ass’n, 94 F.3d
914, 922 (4th Cir. 1996) (“[A] conservator’s function is to restore the
bank’s solvency and preserve its assets.”); James Madison, 82 F.3d
166
167

42a
FIRREA, a conservator has power to steward the
bank’s assets, not to make every conceivable use of
them.
3
The common-law meaning of “conservator” also
shows it has limited powers. The Supreme Court recognizes a “settled principle of interpretation that, absent other indication, Congress intends to incorporate
the well-settled meaning of the common-law terms it
uses.” 172 And “absence of contrary direction may be
taken as satisfaction with widely accepted definitions,
not as a departure from them.” 173
at 1090 (“The principal difference between a conservator and receiver is that a conservator may operate and dispose of a bank as a
going concern, while a receiver has the power to liquidate and wind
up the affairs of an institution.”); Del E. Webb McQueen Dev. Corp.
v. RTC, 69 F.3d 355, 361 (9th Cir. 1995) (“The RTC, as conservator,
operates an institution with the hope that it might someday be rehabilitated. The RTC, as receiver, liquidates an institution and distributes its proceeds to creditors according to the priority rules set
out in the regulations.”); RTC v. United Tr. Fund, Inc., 57 F.3d 1025,
1033 (11th Cir. 1995) (“The conservator’s mission is to conserve assets which often involves continuing an ongoing business. The receiver’s mission is to shut a business down and sell off its assets.”);
RTC v. CedarMinn Bldg. Ltd. P’ship, 956 F.2d 1446, 1450 (8th Cir.
1992) (“Had Congress intended RTC’s status as a conservator or a
receiver to be mere artifice, it would have granted all duties, rights,
and powers to the Corporation.”).
172
United States v. Castleman, 572 U.S. 157, 162 (2014) (quoting
Sekhar v. United States, 570 U.S. 729, 732 (2013)).
173
Morissette v. United States, 342 U.S. 246, 263 (1952); see Bond
v. United States, 572 U.S. 844, 861 (2014) (“In settling on a fair reading of a statute, it is not unusual to consider the ordinary meaning of
a defined term, particularly when there is dissonance between that
ordinary meaning and the reach of the definition.”).

43a
There is no shortage of authority for traditional conservatorship. Well before HERA, or even FIRREA,
the Supreme Court recognized that a conservator has
limited powers and must conserve the ward’s property. 174 Under the Uniform Probate Code, a “conservator” is a fiduciary held to the same standard of care as
a trustee. 175 And according to the Congressional Research Service, “[a] conservator is appointed to operate
the institution, conserve its resources, and restore it to
viability.” 176 Black’s Law Dictionary defines “conservator” as “[a] guardian, protector, or preserver . . .
the modern equivalent of the common-law guardian,”
and it defines “managing conservator” as “[a] person appointed by a court to manage the estate or affairs of
someone who is legally incapable of doing so.” 177
Tethering the conservator’s powers to traditional
principles of insolvency is both sound and indispensable.
FHFA’s present Director has explained that “[a] market economy depends upon predictable rules to govern
competition. These rules must include . . . predictable and fair standards to allocate losses and rehabilitate
See Deputy v. du Pont, 308 U.S. 488, 496 (1940) (holding that
purchasing stock for executive incentives is not an “expense which a
conservator of an estate . . . would ordinarily incur”); United
States v. Chem. Found., 272 U.S. 1, 10-11 (1926) (holding that enemyproperty custodian “was a mere conservator and was authorized to
sell only to prevent waste”).
175
UNIF. PROB. CODE § 5-418(a).
176
DAVID H. CARPENTER & M. MAUREEN MURPHY, CONG. RES.
SERV., FINANCIAL INSTITUTION INSOLVENCY: FEDERAL AUTHORITY
OVER FANNIE MAE, FREDDIE MAC, AND DEPOSITORY INSTITUTIONS
5 (2008), https://digital.library.unt.edu/ark:/67531/metadc795484/m1/
1/high_res_d/RL34657_2008Sep10.pdf.
177
Conservator, BLACK’S LAW DICTIONARY (11th ed. 2019).
174

44a
or liquidate a company when it cannot pay its debts.” 178
Considering this need for continuity, HERA’s conservator powers must be interpreted in light of both FIRREA
decisions and traditional conservatorship. 179 These authorities “reflect a fundamental difference between the
missions of a conservator, which seeks to reorganize,
and a receiver, which seeks to liquidate.” 180
Congress built FIRREA, and later HERA, on this
common-law understanding. Until recently, FHFA
agreed. It told Congress in 2010 that “[t]he purpose of
conservatorship is to preserve and conserve each company’s assets and property and to put the companies in
a sound and solvent condition.” 181 In 2011, it had a
“statutory mission to restore soundness and solvency to
insolvent regulated entities and to preserve and conserve their assets and property.” 182 In a 2012 regulation, it said “FHFA’s duties as conservator require the
conservation and preservation of the Enterprises’ assets. . . . [A]ny goal-setting must be closely linked

Michael Krimminger & Mark A. Calabria, The Conservatorships of Fannie Mae and Freddie Mac: Actions Violate HERA
and Established Insolvency Principles 8 (Cato Inst., Working Paper
No. 26, 2015).
179
See id. at 26-27.
180
Id. at 42.
181
Fed. Hous. Fin. Agency, Report to Congress: 2009, at i (May
25, 2010), https://www.fhfa.gov/AboutUs/Reports/ReportDocuments/
2009_ AnnualReportToCongress_5 08.pdf.
182
Conservatorship and Receivership, 76 Fed. Reg. 35724, 35726
(June 20, 2011) (emphasis added).
178

45a
to putting the Enterprises in sound and solvent condition.” 183 These contemporary statements align with
the traditional understanding of conservatorship.
Congress did not repudiate common-law conservatorship in FIRREA or HERA. Instead, it consistently
authorized the FDIC and then FHFA to put entities in
a “sound and solvent condition,” “carry on th[eir] business,” and “preserve and conserve th[eir] assets and
property.” 184 Neither HERA’s general powers, implied powers, nor right to act in FHFA’s own best interest is the kind of “contrary direction” that quells commonlaw conservatorship. 185 A conservatorship of Fannie
Mae or Freddie Mac (here, both) sways an entire industry. Given the potential effect on markets, firms, and
consumers, partial suggestions are not enough to show
that HERA inverted traditional conservatorship. 186 “Conservator” is an old role’s anchor, not a new role’s banner. 187
2012-2014 Enterprise Housing Goals, 77 Fed. Reg. 67535,
67549-50 (Nov. 13, 2012) (emphasis added); see also Fannie Mae and
Freddie Mac Loan Purchase Limits: Request for Public Input on
Implementation Issues, 78 Fed. Reg. 77450, 77451 (Dec. 23, 2013)
(describing authority to “preserve and conserve” GSEs’ assets as
“FHFA’s conservator obligation”).
184
12 U.S.C. §§ 4617(b)(2)(D) (HERA), 1821(d)(2)(D) (FIRREA).
185
Morissette, 342 U.S. at 263.
186
See FDA v. Brown & Williamson Tobacco Corp., 529 U.S. 120,
160 (2000) (“[W]e are confident that Congress could not have intended to delegate a decision of such economic and political significance to an agency in so cryptic a fashion.”).
187
See Castleman, 572 U.S. at 162 (stating that Congress intends
to incorporate settled meaning of common-law terms it uses); Morissette, 342 U.S. at 263 (holding that Congress, in using term of art,
presumably adopts its legal tradition and meaning).
183

46a
B
Now to apply this understanding of conservator powers to the Third Amendment. We hold the Shareholders stated a plausible claim that the Third Amendment
exceeded statutory authority. Transferring substantially all capital to Treasury, without limitation, exceeds
FHFA’s powers to put the GSEs in a “sound and solvent
condition,” “carry on the[ir] business,” and “preserve
and conserve [their] assets and property.” 188 We ground
this holding in statutory interpretation, not business
judgment.
In adopting the net worth sweep, the Agencies abandoned rehabilitation in favor of “winding down” the GSEs.
Treasury announced that the Third Amendment would
“expedite the wind down of Fannie Mae and Freddie
Mac” and ensure that the GSEs “will be wound down
and will not be allowed to retain profits, rebuild capital,
and return to the market in their prior form.” 189 The
FHFA acting Director also said that the Third Amendment “reinforce[d] the notion that the [GSEs] will not be
building capital as a potential step to regaining their former corporate status.” 190 In a report to Congress, FHFA
explained that it was “prioritizing [its] actions to move
the housing industry to a new state, one without Fannie

12 U.S.C. § 4617(b)(2)(D).
Compl. ¶ 135 (quoting Press Release, Dep’t of Treasury, Treasury Department Announces Further Steps to Expedite Wind Down
of Fannie Mae and Freddie Mac (Aug. 17, 2012)).
190
Id. ¶ 140 (quoting Edward J. DeMarco, Acting Director, FHFA,
Statement Before the U.S. Sen. Comm. on Banking, Hous., & Urban
Affairs (Apr. 18, 2013)).
188
189

47a
Mae and Freddie Mac.” 191 For reasons we are about to
explain, this “wind down” exceeded the conservator’s
powers and is the type of transaction reserved for a receiver.
As a textual matter, the net worth sweep actively undermined pursuit of a “sound and solvent condition,”
and it did not “preserve and conserve” the GSEs’ assets. 192 Treasury has collected $195 billion under the
net worth sweep. 193 This alone exceeds the $187 billion
it invested. 194 After paying back more than the initial
investment, the GSEs remain on the hook for Treasury’s
entire $189 billion liquidation preference. 195 And under
the net worth sweep, Treasury has a right to the GSEs’
net worth in perpetuity. 196
FHFA had authority, of course, to pay back Treasury
for the GSEs’ draws on the funding commitment. The
funding commitment provided liquidity and took on risk,
so Treasury was also entitled to compensation for the
cost of financing. But the net worth sweep continues
transferring the GSEs’ net worth indefinitely, well after
Treasury has been repaid and the GSEs returned to
sound condition. That kind of liquidation goes beyond
the conservator’s powers.

Id. (quoting FHFA, Report to Congress 2012, at 13 (June 13,
2013)).
192
12 U.S.C. § 4617(b)(2)(D).
193
Compl. ¶¶ 25, 87.
194
Id.
195
The $189 billion figure is $187 billion drawn, plus an initial $1
billion liquidation preference per GSE. Id. ¶¶ 8, 87, 152.
196
Id. ¶ 25.
191

48a
FIRREA precedent confirms that this exceeds statutory conservator powers. In Elmco Properties, the
Fourth Circuit held that a creditor was unlawfully deprived of its claim because it never received notice of the
receivership. 197 The creditor had notice of a conservatorship. But “the RTC as conservator cannot . . .
liquidate a failed bank. Instead, the conservator’s
function is to restore the bank’s solvency and preserve
its assets.” 198 Dividing up and distributing the institution’s property is inconsistent with a conservator’s powers, so the creditor in Elmco was not on inquiry notice
to pursue its claim. 199 To “wind down” the GSEs’ affairs here, FHFA needed to follow HERA’s carefully
crafted receivership procedures.
But FHFA was
never appointed receiver, so it lacked authority to bleed
the GSEs’ profits in perpetuity.
Finally, based on the Shareholders’ allegations, the
net worth sweep is inconsistent with conservatorship’s
common-law meaning. In United States v. Chemical
Foundation, the Supreme Court characterized a wartime enemy-property custodian as “a mere conservator”
with “the powers of a common-law trustee.” 200 And a
common-law conservator may not give the ward’s assets
to a single shareholder, just as a fiduciary or trustee

Elmco Props., Inc. v. Second Nat’l Fed. Sav. Ass’n, 94 F.3d 914,
922 (4th Cir. 1996).
198
Id. (emphasis added).
199
See id.
200
272 U.S. at 10 (interpreting Trading with the Enemy Act of October 6, 1917, Pub. L. No. 65-91, § 12, 40 Stat. 411, 423 (codified as
amended at 50 U.S.C. § 4312)).
197

49a
may not do so. 201 Admittedly, HERA modified the
common-law meaning in some ways, such as by permitting use of enumerated powers in FHFA’s best interest. 202 But in more relevant areas HERA provided no
“contrary direction” against the common-law meaning: 203
It did not authorize a conservator to “wind down” the
ward’s affairs or perpetually drain its earnings. Under
traditional principles of insolvency, investors and the
market reasonably expect a conservator to “operate, rehabilitate, reorganize, and restore the health of the troubled institution,” not summarily take its property. 204
The Third Amendment inverts traditional conservatorship.
It is worth noting that the facts at this stage are distinguishable from those in some sister-circuit decisions.
The Shareholders appeal from a dismissal under Rule
12(b)(6). The complaint alleges facts showing ultra
vires action that were not present in some other cases.
For example, emails suggest that the Agencies designed
the Third Agreement to prevent Fannie and Freddie
from recapitalizing. National Economic Council advi-

See UNIF. PROB. CODE § 5-418(a) (“A conservator . . . is a fiduciary and shall observe the standards of care applicable to a trustee.”); Conservator, BLACK’S LAW DICTIONARY (11th ed. 2019) (defining “conservator” as “[a] guardian, protector, or preserver”).
202
12 U.S.C. § 4617(b)(2)(J)(ii); cf. Perry Capital, 864 F.3d at 643
(Brown, J., dissenting in part) (stating limited interpretation of bestinterests clause).
203
Morissette, 342 U.S. at 263.
204
Michael Krimminger & Mark A. Calabria, The Conservatorships
of Fannie Mae and Freddie Mac: Actions Violate HERA and Established Insolvency Principles 42-43 (Cato Inst., Working Paper
No. 26, 2015).
201

50a
sor Jim Parrott, who worked with Treasury in developing the net worth sweep, allegedly wrote: “[W]e’ve
closed off [the] possibility that [Fannie and Freddie]
ever[] go (pretend) private again.” 205 Similarly, when
Bloomberg published a comment that “[w]hat the Treasury Department seems to be doing here, and I think
it’s a really good idea, is to deprive [Fannie and Freddie]
of all their capital so that [they can not go private
again],” Parrott emailed the source: “Good comment
in Bloomberg—you are exactly right on substance and
intent.” 206 The emails reinforce that the Third Amendment “deprive[d]” the GSEs of their capital, keeping
them in a permanent state of suspension, which is not
The
authorized by statutory conservator powers. 207
pleadings in Jacobs v. Federal Housing Finance Agency 208
and Perry Capital LLC v. Mnuchin 209 appear to lack
similar allegations. That factual difference distinguishes
them.
But Saxton v. Federal Housing Finance Agency 210
and Roberts v. Federal Housing Finance Agency 211 had
facts similar to the Shareholders’ allegations here. So
we recognize that our decision conflicts with at least
Compl. ¶ 107 (alterations in original).
Id.
207
Compl. ¶ 107.
208
908 F.3d 884 (3d Cir. 2018).
209
864 F.3d 591 (D.C. Cir. 2017).
210
901 F.3d 954, 957 (8th Cir. 2018); see Amended Complaint ¶ 92,
Saxton v. FHFA, No. 15-CV-47-LRR (N.D. Iowa Feb. 9, 2016), ECF
No. 61 (alleging similar email communications).
211
889 F.3d 397, 402 (7th Cir. 2018); see Amended Complaint ¶ 10607, Roberts v. FHFA, No. 1:16-cv-2107 (N.D. Ill. Apr. 5, 2016), ECF
No. 22 (alleging similar email communications).
205
206

51a
some other circuits. The conflict is whether HERA authorized FHFA to adopt the Third Amendment. We
think that, in interpreting HERA’s conservatorship and
receivership scheme, FHFA’s general powers should
not render specific ones meaningless. This is especially true because, although HERA qualifies traditional
conservatorship, it does not eviscerate it. So traditional
principles of insolvency and FIRREA decisions remain
relevant. And they counsel against a near-limitless view
of FHFA’s conservator powers.
The complaint states a plausible claim that FHFA exceeded its statutory authority. Judge Haynes’s dissent suggests that the Shareholders could waive the legal standard for reviewing the grant of a motion to dismiss. But the Supreme Court explained in Iqbal that
“[t]o survive a motion to dismiss, a complaint must contain sufficient factual matter, accepted as true, to ‘state
a claim to relief that is plausible on its face.’ ” 212 The
standard is generally applicable, and we see no exception here. When we reverse the grant of a motion to
dismiss, the district court may decide if fact issues require trial or if summary judgment should be granted. 213
The proper remedy is to reverse the motion-to-dismiss
denial and remand Count I for further proceedings.

556 U.S. at 678 (quoting Twombly, 550 U.S. at 570).
See Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 250 (1986)
(holding that trial court shall grant a motion for summary judgment
if there is no genuine issue for trial); 5B CHARLES ALAN WRIGHT &
ARTHUR R. MILLER, FEDERAL PRACTICE AND PROCEDURE § 1349
(3d ed. 2019) (“These seven defenses [in Rule 12(b)(1)-(7)] are permitted to be asserted prior to service of a responsive pleading because they present preliminary or threshold matters that normally
should be adjudicated early in the action.”).
212
213

52a
VII
We now turn to Count IV, the Shareholders’ constitutional claim. Although the Shareholders could theoretically obtain full relief under Count I alone, they appeal from the dismissal of that count, so the parties have
yet to litigate it to judgment. On the constitutional
claim, in contrast, both sides moved for summary judgment in the district court. So we consider whether the
Shareholders are entitled to some or all of their requested relief on this record alone. We first consider
Count IV’s justiciability based on standing and the succession provision. 214
A
Federal courts have power to decide “Cases” and
“Controversies.” 215 “That case-or-controversy requirement is satisfied only where a plaintiff has standing.” 216
At its “irreducible constitutional minimum,” standing
requires plaintiffs to show they suffered “an injury in
fact,” the injury is “fairly traceable” to the defendant’s
actions, and the injury will “likely . . . be redressed
by a favorable decision.” 217 “The party invoking federal jurisdiction bears the burden of establishing these

For completeness, we note the Agencies do not argue that the
anti-injunction provision prevents relief on Count IV.
215
U.S. CONST. art. III, § 2.
216
Sprint Commc’ns Co., L.P. v. APCC Servs., Inc., 554 U.S. 269,
273 (2008).
217
Lujan v. Defenders of Wildlife, 504 U.S. 555, 560-61 (1992) (alterations and internal quotation marks omitted).
214

53a
elements.” 218 Here, the summary-judgment standard
applies to jurisdictional facts. 219
The Shareholders suffered injury in fact. The required injury to challenge agency action is minimal:
The Supreme Court has “allowed important interests to
be vindicated by plaintiffs with no more at stake in the
outcome of an action than a fraction of a vote, a $5 fine
and costs, and a $1.50 poll tax.” 220 The Agencies contend that, by the time of the net worth sweep, the Shareholders had no rights to dividends and their shares were
delisted from the New York Stock Exchange. But pumping large profits to Treasury instead of restoring the
GSEs’ capital structure is an injury in fact. 221
The Shareholders’ injury is traceable to the removal
protection. The Agencies contend that the President’s
undisputed control over FHFA’s counterparty, Treasury, shows that a President-controlled FHFA would
have adopted the net worth sweep. But standing does
not require proof that an officer would have acted differently in the “counterfactual world” where he was
properly authorized. 222 In Free Enterprise Fund, the
Supreme Court explained that “the separation of powers
Id. at 561.
See id.
220
United States v. Students Challenging Regulatory Agency Procedures (SCRAP), 412 U.S. 669, 689 n.14 (1973) (citations omitted).
221
See Perry Capital, 864 F.3d at 632 (finding injury in fact because shareholders alleged that “the Third Amendment, by depriving them of their right to share in the Companies’ assets when and
if they are liquidated, immediately diminished the value of their
shares”).
222
Free Enter. Fund v. Pub. Co. Accounting Oversight Bd.,
561 U.S. 477, 512 n.12 (2010).
218
219

54a
does not depend on the views of individual Presidents,
nor on whether ‘the encroached-upon branch approves
the encroachment.’ ” 223 And in Bowsher v. Synar, the
Court said that “[t]he separated powers of our Government cannot be permitted to turn on judicial assessment
of whether an officer exercising executive power is”
likely to be fired. 224 The Shareholders observe that
FHFA’s status as an “independent” counterparty could
actually have boosted the Third Amendment’s political
salability. Fortunately, under Synar and Free Enterprise Fund, we need not weigh in on that counterfactual.
And the relief sought would redress the Shareholders’ injury. The Agencies contend that vacating past
agency action is improper in a removal case and in this
case particularly. But the form of injunctive or declaratory relief is a merits question. 225 The Shareholders
seek, among other things, vacatur of the net worth
sweep. That would redress their injury.
The Shareholders have standing.

Id. at 497 (citations omitted) (quoting New York v. United
States, 505 U.S. 144, 182 (1992)).
224
478 U.S. 714, 730 (1986); see also Landry v. FDIC, 204 F.3d
1125, 1131 (D.C. Cir. 2000) (“There is certainly no rule that a party
claiming constitutional error in the vesting of authority must show a
direct causal link between the error and the authority’s adverse decision. . . . Bowsher v. Synar extended this principle to general
separation-of-powers claims.” (citation omitted)).
225
See Warth v. Seldin, 422 U.S. 490, 500-02 (1975) (presuming
merits of complaint for purposes of standing analysis).
223

55a
B
The succession provision does not bar Count IV because it does not bar any direct claims. 226 A plaintiff
with Article III standing can maintain a direct claim
against government action that violates the separation
of powers. 227 In Bond v. United States the Supreme
Court collected numerous separation-of-powers cases
litigated by individuals with an otherwise-justiciable
case or controversy. 228 “If the constitutional structure
of our Government that protects individual liberty is compromised, individuals who suffer otherwise justiciable
injury may object.” 229
There is a separate reason the succession provision
does not bar the Shareholders’ constitutional claim.
“[W]here Congress intends to preclude judicial review
of constitutional claims its intent to do so must be
clear.” 230 Only a “heightened showing” in the statute

See 12 U.S.C. § 4617(b)(2)(A) (providing that FHFA succeeds to
shareholder rights “with respect to the regulated entity and the assets of the regulated entity”); Roberts, 889 F.3d at 408; Perry Capital, 864 F.3d at 624.
227
See Free Enter. Fund, 561 U.S. at 487-91 (holding court had jurisdiction over declaratory judgment action alleging violation of separation of powers).
228
564 U.S. 211, 223 (2011) (citing Free Enter. Fund, 561 U.S. 477;
Clinton v. City of New York, 524 U.S. 417 (1998); Plaut v. Spendthrift Farm, Inc., 514 U.S. 211 (1995); Synar, 478 U.S. 714 (1986);
INS v. Chadha, 462 U.S. 919 (1983); N. Pipeline Constr. Co. v. Marathon Pipe Line Co., 458 U.S. 50 (1982); Youngstown Sheet & Tube
Co. v. Sawyer, 343 U.S. 579 (1952); A.L.A. Schechter Poultry Corp.
v. United States, 295 U.S. 495 (1935)).
229
Id.
230
Webster v. Doe, 486 U.S. 592, 603 (1988).
226

56a
may be interpreted to “deny any judicial forum for a colorable constitutional claim.” 231 Here, the succession provision does not cross-reference the Administrative Procedure Act’s general rule that agency action is reviewable. 232 It does not directly address judicial review at
all. This is not the kind of “heightened showing” 233 or
“ ‘clear and convincing’ evidence” 234 required for Congress to deny review of constitutional claims.
VIII
The Shareholders are entitled to judgment on Count
IV.
A
HERA’s for-cause removal protection infringes Article II. It limits the President’s removal power and does
not fit within the recognized exception for independent
agencies. That exception, established in Humphrey’s
Executor v. United States, has applied only to multimember bodies of experts. 235 A single agency director
lacks the checks inherent in multilateral decision making and is more difficult for the President to influence. 236
We reinstate Part II B 2 of the panel opinion, which
holds that FHFA’s structure is unconstitutional. 237 That
Id.
5 U.S.C. § 702.
233
Webster, 486 U.S. at 603.
234
Johnson v. Robinson, 415 U.S. 361, 373 (1974) (quoting Abbott
Labs., 387 U.S. at 141).
235
295 U.S. 602, 628-32 (1935).
236
See id. at 624 (stating that the Federal Trade Commission is a
“body of experts”).
237
Collins, 896 F.3d at 659-75. This opinion supersedes the panel
opinion in remaining part. See, e.g., J.T. Gibbons, Inc. v. Crawford
231
232

57a
Part explains that the Director’s removal protection, in
combination with other FHFA features, is inconsistent
with Article II and the separation of powers. It also
distinguishes the D.C. Circuit’s PHH Corp. decision. 238
We disagree with Judge Higginson’s attempt to distinguish this removal protection from those the Supreme Court has held unconstitutional. He cites scholarship that HERA’s “for cause” removal provision gives
less protection than statutes limiting removal to “inefficiency, neglect of duty, or malfeasance in office.” 239 Initially, requiring “cause” for removal is well recognized
as an independent agency’s threshold feature. 240 And
in Synar, when the Supreme Court considered a statute
permitting Congress to remove an official for “inefficiency,” “neglect of duty,” or “malfeasance,” it held this
alternative language is quite broad. 241 True, the removal protection that Free Enterprise Fund held unconstitutional was exceptionally strict. 242 But the Court

Fitting Co., 790 F.2d 1193, 1194 (5th Cir. 1986) (en banc) (reinstating
parts of panel opinion).
238
PHH Corp. v. Consumer Fin. Prot. Bureau, 881 F.3d 75 (D.C.
Cir. 2018) (en banc).
239
Humphrey’s Ex’r, 295 U.S. at 619 (quoting Federal Trade Commission Act, 15 U.S.C. § 41).
240
See Free Enter. Fund, 561 U.S. at 483 (“Congress can, under
certain circumstances, create independent agencies run by principal
officers appointed by the President, whom the President may not
remove at will but only for good cause.”).
241
Synar, 478 U.S. at 729.
242
561 U.S. at 503 (“A Board member cannot be removed except
for willful violations of the Act, Board rules, or the securities laws;
willful abuse of authority; or unreasonable failure to enforce compliance. . . . ”).

58a
held that the proper amount of second-level removal
protection there was none, not a relaxed amount. 243
Judge Higginson also points to uncertainty about
whether and how a removal would unfold. But the
Court in Synar “reject[ed] [the] argument that consideration of the effect of a removal provision is not ‘ripe’
until that provision is actually used.” 244 In Synar this
was because Congress’s removal authority gave it effective control over the Comptroller in the status quo. 245
Although here the problem is an absence of control, not
its misplacement, the same “ripeness” principle applies.
B
The Agencies contend the Shareholders are not entitled to relief for other reasons. They first say that the
FHFA acting Director who adopted the Third Amendment was, unlike a normally appointed Director, not insulated from removal. Under 12 U.S.C. § 4512(b)(2),
the Director serves for five years “unless removed before the end of such term for cause by the President.”
That provision does not explicitly address acting Directors. Under 12 U.S.C. § 4512(f ), the President chooses
any acting Director from among the Deputy Directors.
And that provision does not explicitly address removal.
But HERA unequivocally says what kind of agency it
creates: “There is established the Federal Housing Finance Agency, which shall be an independent agency of
Id. at 509 (“Concluding that the removal restrictions are invalid
leaves the Board removable by the Commission at will, and leaves
the President separated from Board members by only a single level
of good-cause tenure.”).
244
478 U.S. at 727 n.5.
245
Id.
243

59a
the Federal Government.” 246 In history and Supreme
Court precedent, Presidential removal is the “sharp line
of cleavage” between independent agencies and executive ones. 247 So we do not read the procedural guidance
for choosing an acting Director to override the removal
restriction, much less FHFA’s central character. Instead, we read these provisions together. 248 The removal restriction applied to the acting Director.
Judge Costa’s contrary authorities are distinguishable. In Swan v. Clinton, the D.C. Circuit held that the
President could remove a National Credit Union Administration Board member serving in a “holdover” capacity. 249 But here the FHFA acting Director was not a
holdover serving past his term’s end. So at least one of
Swan’s concerns, that “the absence of any term limit in
the NCUA holdover clause enables holdover members
to continue in office indefinitely,” is misplaced. 250 And,
while HERA’s general removal protection is unequivocal, 251 in Swan “[t]he NCUA statute d[id] not expressly
prevent the President from removing NCUA Board
members except for good cause.” 252 The court simply
assumed the statute protected Board Members during
12 U.S.C. § 4511(a).
Wiener v. United States, 357 U.S. 349, 353 (1958).
248
See King, 502 U.S. at 221 (applying “the cardinal rule that a
statute is to be read as a whole, since the meaning of statutory language, plain or not, depends on context” (citation omitted)).
249
100 F.3d 973 (1996).
250
Id. at 987.
251
12 U.S.C. § 4512 (“The Director shall be appointed for a term of
5 years, unless removed before the end of such term for cause by the
President.”).
252
100 F.3d at 981.
246
247

60a
their normal terms, then held any such protection did
not extend to holdover Members. 253 In short, Swan interprets a different statute and has limited value for
generalizing a rule.
Judge Costa also cites the Office of Legal Counsel
opinion Designating an Acting Director of the Bureau
of Consumer Financial Protection. 254 That opinion is
about filling a vacancy under the CFPB’s enabling statute and the Federal Vacancies Reform Act. Its reasoning includes a general rule that statutory removal protection does not extend to anyone temporarily performing an office. 255 But it relies principally on Swan for
that proposition, and it doesn’t explain why the same
rule cuts across different enabling statutes. As a matter of statutory interpretation, HERA’s removal restriction applied to the acting Director here.
C
Treasury also contends that FHFA in its conservator
capacity does not exercise executive power, so violating
the separation of powers was harmless here. Treasury
cites Beszborn, where we held that the RTC as receiver
exercised nongovernmental power in suing on behalf of
the institution in receivership. 256 “[T]he suit was purely

Id. at 983 (“[W]e will assume arguendo that Board members
have removal protection during their appointed terms and focus instead on determining whether, even if that is so, holdover members
are similarly protected.”).
254
41 Op. O.L.C. ___, 2017 WL 6419154 (Nov. 25, 2017) (interpreting 12 U.S.C. § 5491 and 5 U.S.C §§ 3345-3349d).
255
Id. at *7.
256
United States v. Beszborn, 21 F.3d 62, 68 (5th Cir. 1994).
253

61a
an action between private individuals.” 257 So later criminal prosecution of the same defendants did not violate
the Double Jeopardy Clause because the first “punishment,” the civil suit, was not sought by a sovereign. 258
Treasury also observes that private parties are sometimes appointed as receivers. 259
Whether an agency exercises government power as
conservator or receiver “depends on the context of the
claim.” 260 In Slattery, the Federal Circuit held that the
FDIC as receiver acted for the United States when it
retained a surplus from the seized bank’s assets. 261
“[T]he claims [we]re asserted against the government,
seeking return of the monetary surplus obtained for the
seized bank.”262 So the bank’s former shareholders could
maintain their claims against the United States. 263
The Third Amendment has more in common with
Slattery than with Beszborn, showing that it invoked executive power. In Beszborn, we took care to say the receiver’s action on the bank’s behalf benefited “all stockholders and creditors of the bank” rather than “the
United States Treasury.” 264 The Third Amendment reversed this precisely. It transferred the wards’ assets
Id.
Id.
259
See 12 U.S.C. § 191 (authorizing Comptroller of the Currency to
appoint receiver); 12 C.F.R. § 51.2 (“The Comptroller . . . may
appoint any person, including the OCC or another government
agency, as receiver for an uninsured bank.”).
260
Slattery v. United States, 583 F.3d 800, 827 (Fed. Cir. 2009).
261
Id. at 828.
262
Id. at 827.
263
Id. at 827-28.
264
21 F.3d at 68.
257
258

62a
to the government, similar to retaining the liquidation
surplus in Slattery. 265 FHFA is a federal agency, empowered by a federal statute, enriching the federal government. It adopted the Third Amendment with federal governmental power. And that power was executive in nature. The Agencies do not contend, nor could
they, that the Third Amendment was quasi-legislative or
quasi-judicial. 266
Treasury’s remaining arguments do not budge this
point. It cites 12 U.S.C. § 191 and 12 C.F.R. § 51.2 as
evidence that private parties can be receivers. But
every conservator or receiver relies on some public authority, whether court or agency. 267 Even in Treasury’s example, “[t]he receiver performs its duties under
the direction of the Comptroller.” 268 In this case, Congress empowered FHFA as a federal agency. 269 Absent that authority there would be no conservatorship
See 538 F.3d at 827-28.
Cf. First Fed. Sav. Bank & Tr. v. Ryan, 927 F.2d 1345, 1359 (6th
Cir. 1991) (“[T]he appointment of a conservator or receiver is not a
‘judicial power’. . . . We believe that the power given to the Director to appoint a conservator or receiver is an executive power.”).
267
E.g. Booth v. Clark, 58 U.S. 322, 331 (1854) (“The receiver is but
the creature of the court; he has no powers except such as are conferred upon him by the order of his appointment and the course and
practice of the court. . . . ”); see 28 U.S.C. § 959 (providing that
actions against court-appointed receivers are “subject to the general
equity power of such court so far as the same may be necessary to
the ends of justice”); FED. R. CIV. P. 66 (“[T]he practice in administering an estate by a receiver . . . must accord with the historical
practice in federal courts or with a local rule.”).
268
12 C.F.R. § 51.2(a).
269
12 U.S.C. § 4511(a) (“There is established the Federal Housing
Finance Agency, which shall be an independent agency of the Federal Government.”).
265
266

63a
and no Third Amendment. And every federal agency
must function within the federal Constitution’s checks
and balances. As then-Judge Kavanaugh explained in
his PHH Corp. dissent, a constitutional agency structure serves “to protect liberty and prevent arbitrary decisionmaking by a single unaccountable Director.” 270
Finally, Treasury’s attempt to distinguish the Third
Amendment from governmental power is not, in any
event, a standing argument. In the Appointments
Clause case Freytag v. Commissioner, the Supreme
Court held that whether the official acted as an Officer
of the United States in the particular decision challenged was “beside the point” for standing purposes. 271
The Court rejected the Commissioner’s argument that
the taxpayers lacked standing to complain about the
special trial judge’s role in other cases. 272 If by statute
he performed at least some duties of an Officer of the
United States, his appointment must accord with Article
II. 273 This case is analogous. 274
* * *

881 F.3d at 186 (Kavanaugh, J., dissenting).
501 U.S. 868, 882 (1991).
272
Id.
273
Id.; see also Dep’t of Transp. v. Ass’n of Am. R.Rs., 135 S. Ct.
1225, 1232 (2015) (holding Amtrak was a government entity in part
because “rather than advancing its own private economic interests,
Amtrak is required to pursue numerous, additional goals defined by
statute”).
274
See Free Enter. Fund, 561 U.S. at 497-98 (holding separation of
powers requires Presidential oversight of the executive power).
270
271

64a
The Constitution bounds Congress’s power to create
agencies, draw their structure, and grant them authority. Agencies with removal-protected principal officers were a unique, but recognized, blend of legislative,
executive, and judicial powers long before the FHFA.
Their unique position has also been relatively static, until recently. The removal-protected FHFA Director is
a new innovation and falls outside the lines that Humphrey’s Executor recognized. Granting both removal
protection and full agency leadership to a single FHFA
Director stretches the independent-agency pattern beyond what the Constitution allows.

65a
HAYNES, Circuit Judge, joined by STEWART, Chief
Judge, and DENNIS, OWEN, SOUTHWICK, GRAVES,
HIGGINSON, COSTA, and DUNCAN, Circuit Judges:
Some of us 1 agree with the conclusion reached in Section VIII.A-C of the majority en banc opinion that the
FHFA is unconstitutionally structured, and some of us 2
conclude otherwise, but we all agree that, given the
holding of the majority of the en banc court reversing
the district court on this point and finding the FHFA to
be unconstitutionally structured, it is necessary to reach
the question of what remedy is appropriate for the
structure found to be unconstitutional by the majority.
We now turn to the remedy question.
When addressing the partial unconstitutionality of a
statute such as this one, we seek to honor Congress’s intent while fixing the problematic aspects of the statute.
Thus, in this case, the appropriate—and most judicially
conservative—remedy is to sever the “for cause” restriction on removal of the FHFA director from the statute. See 12 U.S.C. § 4512(b)(2).
The remedial analysis here is informed by that in
Free Enterprise Fund. We start from the “normal rule
that partial, rather than facial, invalidation is the
required course.” Brockett v. Spokane Arcades, Inc.,
472 U.S. 491, 504 (1985); Free Enter. Fund v. Pub. Co.
Accounting Oversight Bd., 561 U.S. 477, 508 (2010)
(“ ‘Generally speaking, when confronting a constitutional flaw in a statute, we try to limit the solution to the
Judges Owen, Southwick, Haynes, Graves and Duncan agree that
the FHFA is unconstitutionally structured. Judges Southwick,
Haynes, and Graves concur in that conclusion only.
2
Chief Judge Stewart and Judges Dennis, Higginson, and Costa.
1

66a
problem,’ severing any ‘problematic portions while leaving the remainder intact.’ ” (quoting Ayotte v. Planned
Parenthood of N. New Eng., 546 U.S. 320, 328-29
(2006))). Just as in Free Enterprise Fund, if we declare the “for cause” removal restriction unconstitutional, then the executive officer will immediately be
subject to sufficient Presidential oversight. 561 U.S. at
509. Finally, nothing in the statutory scheme suggests
that Congress would prefer a complete unwind of actions taken by the FHFA to an FHFA director removable at will. Thus, severance of the “for cause” restriction remedies the Shareholders’ injury as found by
the majority of this court of being overseen by an unconstitutionally structured agency.
Here it is also “true that the language providing for
good-cause removal is only one of a number of statutory
provisions that, working together, produce a constitutional violation.” Id. But, as the Supreme Court recognized, we should not roam further to invalidate other
provisions or modify the statute’s requirements. The
other options would be far more invasive and “editorial.”
Id. at 510. Instead, we pursue a path that respects the
legislative decisions made by the Congress that passed
HERA and the legislative power of the current Congress to amend the statute without unwarranted disruption.
The Shareholders ask that we also invalidate the
Net Worth Sweep, claiming the remedy must resolve
the injury. Assuming arguendo that an injury in the
form of an unconstitutionally structured agency exists, 3
As noted above, there are differing views surrounding the constitutionality issue.
3

67a
the Shareholders may not pick and choose among remedies based on their preferences. The Shareholders’
complaint requested that a court invalidate only the Net
Worth Sweep. They never requested a declaratory
judgment about the PSPAs as a whole or even the Third
Amendment. That is because the rest of the deal is a
pretty good one for them: who would not want a virtually unlimited line of credit from the Treasury? Yet
the Shareholders’ constitutional theory is that everything the FHFA has done since its inception is void because it was an unconstitutionally structured agency. 4
They never explain why if all acts were void (or voidable), they are entitled to pick and choose a single provision to invalidate. That is inconsistent with the usual
course of remedies. See Fed. Ins. Co. v. Singing River
Health Sys., 850 F.3d 187, 198 n.5 (5th Cir. 2017) (noting
that accepting the premise that a party to an invalid contract could pick which parts to enforce would lead to an
“absurd result”); RESTATEMENT (SECOND ) OF CONTRACTS § 383 (AM. LAW. INST. 1981) (“A party who has
the power of avoidance must ordinarily avoid the entire
contract, including any part that has already been performed. He cannot disaffirm part of the contract that
is particularly disadvantageous to himself while affirming a more advantageous part. . . . ”).
Generally, there are at least two classes of cases
where the appropriate remedy is to invalidate an action
taken by an unconstitutional agency or officer. First,
the Supreme Court has invalidated actions by actors
They attempt to temper that theory by arguing that legal challenges might still not succeed due to standing, statutes of limitations,
and potential ratification of past actions. But their theory is nonetheless that everything the FHFA has done is void.
4

68a
who were granted power inconsistent with their role in
the constitutional program. For example, the Shareholders’ marquee case for their theory is Bowsher v.
Synar, 478 U.S. 714 (1986). There, Congress delegated executive authority to a congressional officer.
Id. at 732-34. But “Congress [could not] grant to an officer under its control what it [did] not possess.” Id. at
726. The Supreme Court declared unconstitutional the
statutory power that impermissibly empowered the congressional officer to exercise executive authority. Id.
at 734-36. 5 Because the officer never should have had
the authority in the first place, courts would naturally
invalidate exercises of the authority. Id.; cf. Nguyen v.
United States, 539 U.S. 69, 71 (2003) (vacating and remanding a case where an officer appointed under Article
IV exercised Article III judicial authority). The Supreme Court has also invalidated exercises of authority
that steal constitutionally specified power from other
branches. See Clinton, 524 U.S. 417; INS v. Chadha,
462 U.S. 919 (1983).
Second, the Court has invalidated actions taken by
individuals who were not properly appointed under the
Constitution. It has thus vacated and remanded adjudications by officers who were not appointed by the appropriate official, see Lucia v. SEC, 138 S. Ct. 2044, 2055
(2018), or who skipped Senate confirmation through
misuse of the Recess Appointments Clause, see NLRB
v. Noel Canning, 573 U.S. 513 (2014).

The Court in Bowsher determined that the “issue of remedy” for
the separation-of-powers violation at issue was “a thicket we need
not enter,” because Congress had provided “fallback” provisions in
the statute in case it was invalidated. Id. at 734-35.
5

69a
A common thread runs through these two categories.
In each, officers were vested with authority that was
never properly theirs to exercise. Such separation-ofpowers violations are, as the D.C. Circuit put it, “void ab
initio.” Noel Canning v. NLRB, 705 F.3d 490, 493
(D.C. Cir. 2013), aff ’d but criticized, 573 U.S. 513.
Restrictions on removal are different. In such cases
the conclusion is that the officers are duly appointed by
the appropriate officials and exercise authority that is
properly theirs. The problem identified by the majority decision in this case is that, once appointed, they are
too distant from presidential oversight to satisfy the
Constitution’s requirements.
Perhaps in some instances such an officer’s actions
should be invalidated. The theory would be that a new
President would want to remove the incumbent officer
to instill his own selection, or maybe that an independent officer would act differently than if that officer were
removable at will. We have found no cases from either
our court or the Supreme Court accepting that theory.
But even if that theory is right, it does not apply here
for two reasons. First, the action at issue is the adoption of the Net Worth Sweep, and the President had adequate oversight of that action. The entire PSPAs, including the Third Amendment’s Net Worth Sweep, were
created between the FHFA and Treasury. During the
process, the Treasury was overseen by the Secretary of
the Treasury, who was subject to at will removal by the
President. The President, thus, had plenary authority
to stop the adoption of the Net Worth Sweep. This is
thus a unique situation where we need not speculate
about whether appropriate presidential oversight would
have stopped the Net Worth Sweep. We know that the

70a
President, acting through the Secretary of the Treasury, could have stopped it but did not. 6
Second, we can take judicial notice of this reality:
subsequent Presidents have picked their own FHFA directors, allaying concerns that the removal restriction
prevented them from installing someone who would
carry out their policy vision. After the adoption of the
Net Worth Sweep, President Obama selected a Director
who was confirmed by the Senate. Once confirmed,
that director authorized filings in this court that supported and defended the Net Worth Sweep. He never
questioned its propriety. President Trump later selected an acting Director under the Vacancies Reform
Act. He never questioned the propriety of the Net
Worth Sweep and reaffirmed the previous administration’s position. President Trump has since selected a
new director. He has not filed anything in this court or
made any judicially noticeable statement opposing the
Net Worth Sweep. The Net Worth Sweep has thus
transcended political affiliations and traversed presidential administrations—even when an issue like the
constitutionality of the structure of the FHFA has divided different directors. Were these Presidents concerned about invalidating the Net Worth Sweep, they
could have picked different Directors who would carry
out that vision, either in action or in litigation. These
subsequent picks’ affirmation of the Net Worth Sweep
We do not hold that plaintiffs asserting a separation-of-powers
claim bear the burden of proving a different outcome absent a removal restriction. See Free Enter. Fund, 561 U.S. at 512 n.12. We
hold only that plaintiffs may not sue to invalidate an agency action
due to lack of presidential oversight when their allegations show that
the President had oversight of the action.
6

71a
demonstrates without question that invalidating the Net
Worth Sweep would actually erode executive authority
rather than reaffirm it. See Lucia, 138 S. Ct. at 2055.
Our decision not to invalidate the Net Worth Sweep
is thus grounded in our respect for the Constitution and
our co-equal branches of government. Undoing the
Net Worth Sweep, as suggested by the dissenting opinion, would wipe out an action approved or ratified by two
different Presidents’ directors under the guise of respecting the presidency; how does that make sense?
Here, the Constitution commits executive authority to
the President. The President had full oversight of the
adoption of the Net Worth Sweep, and each President
since has appointed FHFA Directors who have affirmed
it. We should not invalidate those Presidents’ executive actions by invoking their need to exercise executive
authority.
One final point: any remedy that invalidates the
Net Worth Sweep without a judgment that fixes the constitutional problems would be particularly perverse.
The FHFA could not ratify any previous actions or even
continue operating because it would still suffer the same
separation-of-powers defects we have identified here—
just without an explicit declaration fixing the issue.
We would invalidate an entire agency without any precedent directing us to do so. Similarly, there is no virtue
in declaring the agency action unlawful then punting the
form that judgment should take back to the district
court. The only judgment the Shareholders are entitled to is the one the Supreme Court has given in similar
removal-restriction cases, which is a declaration removing the “for cause” provision found unconstitutional by

72a
a majority of this court. Sending the case back for further litigation would cast one of the most financially consequential agencies into chaos. It would also further
muddy our precedent on the appropriate remedy in removal-restriction cases.
In summary, the Shareholders’ ongoing injury, if indeed there is one, 7 is remedied by a declaration that the
“for cause” restriction is declared removed. We go no
further. We will not let the Shareholders pick and
choose parts of the PSPAs to invalidate when the President had adequate oversight over their adoption and
particularly when two different presidents have selected
agency heads who have supported the Net Worth
Sweep. The appropriate remedy is the one that fixes
the Shareholders’ purported injury. That is exactly
what our declaratory judgment does. Consequently,
we decline to invalidate the Net Worth Sweep or
PSPAs. 8 Instead, we conclude, given that the majority
of the court has found the FHFA unconstitutionally
structured, that the appropriate remedy for that finding
is to declare the “for cause” provision severed.

See n.3 supra.
Because we reject the Shareholders’ request to unwind the Net
Worth Sweep, we do not in this section address whether § 4617(f )
would bar such relief if it were otherwise necessary.
7
8

73a
STUART KYLE DUNCAN, Circuit Judge, joined by OWEN,
Circuit Judge, concurring:
While I join all of Judge Willett’s superb majority
opinion, I do not join his separate opinion that concludes
the proper remedy for the separation-of-powers violation here is to vacate the Third Amendment. To the
contrary, the proper remedy—as Judge Haynes cogently explains in her separate majority opinion—is to
sever the for-cause removal provision from the challenged statute. See Free Enter. Fund v. Pub. Co. Accounting Oversight Bd., 561 U.S. 477, 508 (2010)
(“PCAOB”) (“ ‘Generally speaking, when confronting a
constitutional flaw in a statute, we try to limit the solution to the problem,’ severing any ‘problematic portions
while leaving the remainder intact.’ ”) (quoting Ayotte v.
Planned Parenthood of N. New Eng., 546 U.S. 320, 32829 (2006)). I write separately to explain why I think
the Supreme Court’s precedents compel that narrower
remedy.
To justify vacating the Third Amendment, Judge
Willett asserts that “the action of an unconstitutionallyinsulated officer . . . must be set aside.” Willett
Dissent at 1. I can find no support for that categorical
proposition. Judge Willett relies principally on Bowsher
v. Synar, 478 U.S. 714 (1986), but Bowsher is off-point.
Bowsher involved a challenge—not to an executivebranch official “insulated” from presidential oversight—
but to the Comptroller General, essentially a legislative
officer, removable by Congress, who was purporting to
exercise executive power. See 478 U.S. at 728 (noting
Comptroller General was removable by joint resolution
“at any time” so that the officer “should be brought under the sole control of Congress”) (quotes omitted); id.

74a
at 730 (noting “Congress has consistently viewed the
Comptroller General as an officer of the Legislative
Branch”). This Article I creature, Bowsher unsurprisingly told us, “may not be entrusted with executive powers.” Id. at 732. And, in any event, Bowsher concluded that the “issue of remedy” for the separation-ofpowers violation was “a thicket we need not enter,” because Congress had provided a “fallback” provision
should the act be invalidated. Id. at 734, 735; see also
id. at 718-19 (describing “fallback” process). Thus, I
do not read Bowsher as providing much, if any, guidance
as to the remedy for an unconstitutionally insulated
agency.
Putting Bowsher aside, more recent Supreme Court
authority confirms my view that severance is the proper
remedy for the separation-of-powers violation before us.
In PCAOB, the petitioners argued that the agency’s
“freedom from Presidential oversight and control rendered it and all power and authority exercised by it in
violation of the Constitution.” 561 U.S. at 508 (quotes
omitted). But the Court “reject[ed] such a broad holding” and deployed the narrower remedy of severing the
unconstitutional culprit—there, the second layer of forcause removal. Id. at 509-10. Moreover, for remedial
purposes PCAOB contrasted an unconstitutionally insulated officer with an unconstitutionally appointed officer: The Court pointedly “[p]ut[ ] to one side petitioners’ Appointments Clause challenges,” id. at 508,
which it addressed (and rejected) in another part of its
opinion. Id. at 510-13. When the Court did later find
an Appointments Clause violation in Lucia, its remedy
was to vacate the prior actions of the invalidly appointed
officers. See Lucia v. S.E.C., 138 S. Ct. 2044, 2055

75a
(2018) (concluding “the ‘appropriate’ remedy for an adjudication tainted with an appointments violation is a
new ‘hearing before a properly appointed’ official”)
(quoting Ryder v. United States, 515 U.S. 177, 183
(1995)). That is the kind of backward-looking remedy
—vacating the Third Amendment—Judge Willett would
apply here, but the Supreme Court’s cases do not support applying it to fix an unconstitutionally insulated
agency head.
Instead, as PCAOB indicates, the cure for that malady is narrower. Stripping away the FHFA Director’s
unconstitutional insulation is the “minimalist remedy”
that “maintain[s] presidential control while leaving in
place the regulatory functions of an agency.” Neomi
Rao, Removal: Necessary and Sufficient for Presidential Control, 65 Ala. L. Rev. 1205, 1261 (2014) (discussing PCAOB). Consequently, to remedy the separationof-powers violation presented here, I would sever the
for-cause removal provision, rendering the agency properly responsive to the President’s “general administrative control of those executing the laws.” Myers v.
United States, 272 U.S. 52, 164 (1926).

76a
ANDREW S. OLDHAM and JAMES C. HO, Circuit Judges,
concurring in part and dissenting in part:
We join Judge Willett’s opinion. 1 We write separately
in response to the suggestion that there is no constitutional problem because this case does not involve the Public Company Accounting Oversight Board (“PCAOB”), the
Comptroller General, or the Postmaster General.
Post, at 97-107 (Higginson, J.). Our learned colleague
suggests that: (I) the Constitution’s original public
meaning offers little guidance on the scope of the removal power; (II) the Supreme Court’s precedents don’t
help the shareholders here; and (III) even if they did,
we have the “judicial” power to rewrite Congress’s law.
With greatest respect, that’s all wrong.
I.
The Constitution vests in the President the power to
remove executive officers. Any intimation to the contrary must be rejected.
A.
Traditionally, the executive power allowed the head of
state to appoint and remove his ministers, as well as his

We have lingering doubts about the meaning of the Housing and
Economic Recovery Act’s so-called “succession provision,” 12 U.S.C.
§ 4617(b)(2)(A)(i). But we agree with Judge Willett’s opinion for the
Court that, whatever the meaning of that provision, it’s insufficiently
clear to displace the presumption of reviewability under the Administrative Procedure Act. See Bowen v. Mich. Acad. of Family Physicians, 476 U.S. 667, 670 (1986); Abbott Labs. v. Gardner, 387 U.S.
136, 140 (1967), abrogated by statute in other part as recognized in
Califano v. Sanders, 430 U.S. 99, 105 (1977).
1

77a
judges, at will. See 1 WILLIAM BLACKSTONE, COMMENBLACKSTONE’S COMMENTARIES *260 [hereinafter
TARIES] (describing English efforts to “remove all judicial
power out of the hands of the king’s privy council”); id. at
*261-63 (explaining that “the king is . . . the fountain
of honour, of office, and of privilege,” that the king holds
“the prerogative of erecting and disposing of offices,”
and that “the king . . . is the best and only judge, in
what capacities, with what privileges, and under what
distinctions, his people are the best qualified to serve,
and to act under him”); 2 THOMAS RUTHERFORTH, INSTITUTES OF N ATURAL LAW 60 (1756) (noting that officers “are the agents of the executive power; and consequently the appointment of them belongs to this power”).
The American colonies chafed at the corrupting effects
of this unbridled power. See, e.g., DECLARATION OF INDEPENDENCE para. 11 (1776) (“[The King] has made
Judges dependent on his Will alone, for the tenure of
their offices, and the amount and payment of their salaries”); DECLARATION OF RIGHTS AND GRIEVANCES para.
4 (1774) (condemning as “impolitic, unjust, and cruel, as
well as unconstitutional” the Massachusetts Government Act, 14 Geo. 3 c. 45, which empowered the King’s
representative to appoint and remove—at will—the
Province’s officers and judges).
In response, some early State constitutions limited
the executive power to appoint judges and officers.
See, e.g., S.C. CONST. of Mar. 26, 1776 art. XXII (assigning to the legislature the power to choose “the commissioners of the treasury, the secretary of the colony, register of mesne conveyances, attorney-general, and powder receiver”); VA. CONST. of 1776 paras. 35, 36 (requir-

78a
ing legislative approval for the governor’s judicial appointments). Others limited the removal power, and
granted civil and judicial officers freedom from executive interference “during good behavior.”2 N.Y. CONST.
of 1777, art. XXIV. See also MD. CONST. of 1776 art.
XL (granting “good behaviour” tenure to the attorneygeneral); id. art. XLVIII (permitting the governor to remove only those “civil officer[s] who ha[ve] not a commission during good behavior”); MASS. CONST. of 1780
pt. 2, ch. III, art. 1 (providing that “[a]ll judicial officers
. . . shall hold their offices during good behavior,” but
allowing the governor to remove them “with consent of
the council . . . upon address of both houses of the
legislature”).
When the Framers drafted the federal Constitution,
they had the same options before them. Ultimately,
they chose to give Article III judges “good Behaviour”
protection from presidential interference, see U.S.
CONST. art. III, § 1, cl. 2, and mandated Senate approval
for appointments of superior officers, see U.S. CONST.
art. II, § 2, cl. 2. The Constitution therefore took away
the traditional executive power to remove judges and to
appoint officers unilaterally. But the Framers chose
not to grant “good behavior” tenure to officers, as some
States had done. By that omission, the Framers kept

This phrase derives from the English Act of Settlement, which
stripped the Crown of the power to remove judges at will, and guaranteed judicial commissions “quamdiu se bene gesserint” (‘during
good behavior’). Act of Settlement, 1701, 12 & 13 Will. 3 c. 2 § 3.
2

79a
for the President the executive’s traditional at-will removal power over superior officers. 3 See Steven Calabresi & Saikrishna Prakash, The President’s Power to
Execute the Laws, 104 YALE L.J. 541, 597 (1994).
B.
What the text and structure of the Constitution provide, the historical practice confirms. Start with the
very first Congress.
On March 4, 1789, Congress convened in New York
City. 1 ANNALS OF CONG. 15, 95 (1789). One of its
first orders of business was to propagate the Executive
Branch. Representative James Madison moved “that
there shall be established an Executive Department, to
be denominated the Department of Foreign Affairs, at
the head of which there shall be an officer, to be called
the Secretary to the Department of Foreign Affairs,
who shall be appointed by the President, by and with the
advice and consent of the Senate; and to be removable
by the President.” Id. at 370-71.
Congress may also remove “civil officers” for “Treason, Bribery,
or other High Crimes and Misdemeanors” through impeachment
and conviction. U.S. CONST. art. II, § 4. But this provision was inserted to limit Congress’s impeachment power, rather than to abrogate the executive’s removal power: In Britain at the time, “all the
king’s subjects, whether peers or commoners, [we]re impeachable in
parliament.” JOSEPH STORY, COMMENTARIES ON THE CONSTITUTION § 283 (1833). Peers could be impeached “for any crime.” 4
BLACKSTONE’S COMMENTARIES, supra, at *257. And some State
constitutions permitted impeachment for “maladministration” in addition to misconduct. See, e.g., MASS. CONST. of 1780 pt. 2, ch. I,
§ 2, art. VIII. The impeachment power in Article II therefore represents a narrowing of the legislature’s traditional ability to interfere with executive affairs.
3

80a
The motion sparked a debate “centered around
whether the Congress ‘should recognize and declare the
power of the President under the Constitution to remove the Secretary of Foreign Affairs without the advice and consent of the Senate.’ ” See Bowsher v.
Synar, 478 U.S. 714, 723 (1986) (quoting Myers v.
United States, 272 U.S. 52, 114 (1926)). And it culminated in the famed “Decision of 1789” in which a majority of both legislative chambers agreed that “the Constitution’s grant of executive power authorized the President to remove executive officers.” Saikrishna Prakash, New Light on the Decision of 1789, 91 CORNELL
L. REV. 1021, 1023 (2006) [hereinafter Prakash, Decision of 1789]; see also 1 ANNALS OF CONG. at 399.
Up until the Civil War, there was virtually no doubt
that the Decision of 1789 was correct. Presidents
Washington, Adams, and Jefferson relied on that power
to remove over 170 officers. Prakash, Decision of 1789,
supra, at 1066. In their respective Commentaries in
the 1820s and 1830s, Chancellor James Kent and Justice
Joseph Story considered the matter settled and beyond
alteration. See Myers, 272 U.S. at 148-50.
Congress briefly flirted with revisiting the issue after
the Civil War. In 1867, Congress passed the Tenure of
Office Act (over the President’s veto), reversed its
longstanding position, and claimed for itself the power
to condition removal on the advice and consent of the
Senate. See Tenure of Office Act, ch. 154, 14 Stat. 430
(1867). But even then, it was questionable whether
Congress considered the Act to be constitutional. See
Free Enterprise Fund, 561 U.S. at 494 n.3 (noting that
the law “was widely regarded as unconstitutional and
void (as it is universally regarded today)”). Its passage

81a
was undoubtedly motivated by animus towards President Johnson. See GROVER CLEVELAND, THE INDEPENDENCE OF THE EXECUTIVE 29 (1913). Less than
two months into President Grant’s tenure, it was repealed in part to permit the President to suspend officers “until the end of the next session of the Senate.”
16 Stat. 6, 7. It was repealed in its entirety in 1887.
See 24 Stat. 500.
The history of the use of the removal power—and
congressional acquiescence in that use—matters. In
interpreting the Constitution, “we put significant weight
upon historical practice,” particularly where the issues
“concern the allocation of power between two elected
branches of Government.” NLRB v. Noel Canning,
573 U.S. 513, 524 (2014). Indeed, “a practice of at least
twenty years duration on the part of the executive department, acquiesced in by the legislative department,
is entitled to great regard in determining the true construction of a constitutional provision the phraseology of
which is in any respect of doubtful meaning.” The
Pocket Veto Case, 279 U.S. 655, 690 (1929) (quotation
omitted). We should therefore be especially hesitant
to interfere with an executive power that was exercised,
unfettered by Congress, for over 75 years.
II.
The Supreme Court first squarely addressed the
President’s constitutionally vested removal power in
1926. 4 But once proved not enough. In the decades
As to the pre-Myers corpus, Judge Higginson rightly notes that
United States v. Perkins, 116 U.S. 483 (1886), and United States v.
Shurtleff, 189 U.S. 311 (1903), are not especially salient for present
4

82a
since, the Court has offered varying takes on the limits
of that power—all apparently still good precedent. See
Free Enterprise Fund v. Public Company Accounting
Oversight Board, 561 U.S. 477, 483 (2010) (“The parties
do not ask us to reexamine any of these precedents, and
we do not do so.”). Yet none of those precedents supports the novel limits on removal found in the Housing
and Economic Recovery Act (“HERA”). Indeed, the
lack of historical precedent to support HERA may be
“the most telling indication of the severe constitutional
problem” with it. Id. at 505 (quoting Free Enterprise
Fund v. Public Company Accounting Oversight Board,
537 F.3d 667, 699 (D.C. Cir. 2008) (Kavanaugh, J., dissenting)).
A.
Let’s start at the beginning. In Myers, the Court
addressed “whether under the Constitution the President has the exclusive power of removing executive officers of the United States whom he has appointed
by and with the advice and consent of the Senate.”
272 U.S. at 60. The Court noted “[t]here is no express

purposes. Post, at 98 n.2 (Higginson, J.). That said, the Court’s
opinion in In re Hennen, 38 U.S. 230 (1839), offers insights into the
Court’s view of the Decision of 1789. Reflecting on the President’s
power to remove officers whom he appointed, the Court said “it was
very early adopted, as the practical construction of the Constitution,
that this power was vested in the President alone. And such would
appear to have been the legislative construction of the Constitution.”
Id. at 259. And, by 1839, it had become “the settled and well understood construction of the Constitution, that the power of removal was
vested in the President alone . . . although the appointment of
the officer was by the President and Senate.” Ibid.

83a
provision respecting removals in the Constitution.”
at 109. But it did not stop there.

Id.

Instead, the Court considered the original meaning
of the “executive power,” the Decision of 1789, and the
President’s duties under the Take Care Clause. As to
the original meaning of the “executive power,” the Court
noted that both the Congress constituted under the Articles of Confederation and the British crown exercised
executive power, and that as a part of that power, both
the Congress and the crown could appoint and remove
executive officers. Id. at 110, 118. The Court’s extensive discussion of the Decision of 1789, see id. at 111-63,
underscored the importance of that Congress’s constitutional deliberation and the ensuing “clear affirmative
recognition of [the Decision of 1789] by each branch of
the government,” id. at 163. And Chief Justice Taft
considered the duties of his former post. Speaking
from experience, 5 the Chief Justice explained that “when
the grant of the executive power is enforced by the express mandate to take care that the laws be faithfully
executed, it emphasizes the necessity for including within
the executive power as conferred the exclusive power of
removal.” Id. at 122; see Jack Goldsmith & John F.
Manning, The Protean Take Care Clause, 164 U. PA. L.
REV. 1835, 1836 (2016) (“Chief Justice Taft invoked [the
Take Care Clause] to hammer home the implication that
a President charged with exercising all of the executive
power must have the means to control subordinates
5
Notably, when serving as President, Taft fired two members of
the Board of General Appraisers. According to Professor Bamzai,
that “was the first presidential for-cause removal.” Aditya Bamzai,
Taft, Frankfurter, and the First Presidential For-Cause Removal,
52 U. RICH. L. REV. 691, 691-92 (2018).

84a
through whom he or she would necessarily act[.]”).
this point, text, history, and structure all aligned:

On

The vesting of the executive power in the President
was essentially a grant of the power to execute the
laws. But the President alone and unaided could
not execute the laws. He must execute them by the
assistance of subordinates. . . . As he is charged
specifically to take care that they be faithfully executed, the reasonable implication, even in the absence
of express words, was that as part of his executive
power he should select those who were to act for him
under his direction in the execution of the laws. The
further implication must be, in the absence of any express limitation respecting removals, that as his selection of administrative officers is essential to the
execution of the laws by him, so must be his power of
removing those for whom he cannot continue to be
responsible. It was urged that the natural meaning
of the term ‘executive power’ granted the President
included the appointment and removal of executive
subordinates. If such appointments and removals
were not an exercise of the executive power, what
were they? They certainly were not the exercise of
legislative or judicial power in government as usually
understood.
Myers, 272 U.S. at 117-18 (citations omitted).
As the Court’s opinion drew to a close, it returned
to the Decision of 1789. The Court again emphasized
that the first Congress “was a Congress whose constitutional decisions have always been regarded, as they
should be regarded, as of the greatest weight in the interpretation of that fundamental instrument.” Id. at

85a
174-75. And because the Court “found [its] conclusion
strongly favoring the view which prevailed in the First
Congress,” it “ha[d] no hesitation in holding that conclusion to be correct.” Id. at 176. So the Court held
“that the Tenure of Office Act of 1867, in so far as it attempted to prevent the President from removing executive officers who had been appointed by him by and with
the advice and consent of the Senate, was invalid.”
Ibid.
Under Myers, this would be an easy case: Any limit
on the President’s power to remove a principal executive
officer is unconstitutional.
Our dissenting colleagues brush Myers aside based
on this factual distinction: Myers dealt with a statute
requiring “the ‘advice and consent of the Senate’ ” before the President could remove the officer, whereas
HERA does not. Post, at 99 (Higginson, J.) (quoting
Myers, 272 U.S. at 60). True enough. But it was not
the character of the limitation on the President’s removal power that led the Myers Court to reject it. Rather, it was the existence of any limitation at all—it was
the denial of “the unrestricted power of removal” that
the Court found invalid. 272 U.S. at 176. Myers held
the removal power belongs to the President alone, and
Congress cannot constrain it. Ibid. Under Myers,
HERA’s removal restriction is unconstitutional.
B.
Of course, Myers was not the last word on the nature
of the President’s removal power. In Humphrey’s Executor v. United States, 295 U.S. 602 (1935), the Supreme Court announced a different rule. The Humphrey’s Executor Court maintained that Congress could

86a
not prevent the President from removing any (principal)
officers exercising “purely” executive power. But it introduced the concept of administrative agencies that
don’t exercise executive power—a possibility Myers
seemingly had not contemplated. See also Prakash,
Decision of 1789, supra, at 1071 (arguing the Decision
of 1789 did not resolve whether Congress could limit the
President’s removal power for non-executive officers).
And for these non-executive administrative agencies, it
approved greater restrictions on the President’s removal
power. Humphrey’s Executor, 295 U.S. at 631-32.
The administrative agency at issue was the Federal
Trade Commission.
President Hoover appointed
Humphrey as a Commissioner. Soon after his election
in 1932, President Roosevelt removed Humphrey from
office. Id. at 619. To his dying day, Humphrey maintained he was still a Commissioner. Ibid. Later,
Humphrey’s estate sued for his unpaid salary, claiming
President Roosevelt lacked the power to remove an FTC
Commissioner. Ibid. The estate pointed to the Federal Trade Commission Act, which provided that Commissioners would be appointed by the President, would
serve for a certain term of years, and could be removed
by the President “for inefficiency, neglect of duty, or
malfeasance in office.” Id. at 620 (citing Federal Trade
Commission Act, ch. 311, § 1, 38 Stat. 717, 718 (1914)
(codified as amended at 15 U.S.C. § 41)).
President Roosevelt had cited no “inefficiency, neglect of duty, or malfeasance in office” as cause for removing Humphrey. Id. at 620, 626. He simply wanted
to appoint his own Commissioner with whom he “should
have a full confidence.” Id. at 620 (citing a letter from
Roosevelt to Humphrey). Roosevelt’s administration

87a
pointed to Myers. After all, Myers had recently confirmed that the Constitution grants the President unrestricted power to remove executive officers for any reason or no reason at all. See 272 U.S. at 176 (holding a
statute that “attempted to prevent the President from
removing executive officers who had been appointed by
him . . . was invalid”). Roosevelt’s administration
argued that the Myers rule applied to the Federal Trade
Commissioners, notwithstanding Congress’s provision
of a term of office and enumeration of causes justifying
their removal. Humphrey’s Executor, 295 U.S. at 626.
The Court disagreed. Relying on the FTCA’s legislative history, it reasoned Congress had intended the
FTC to function “wholly disconnected from the executive department.” Id. at 630. The FTC was “to be
nonpartisan; and it must, from the very nature of its duties, act with entire impartiality.” Id. at 624. And the
Court maintained that the FTC’s “duties are neither political nor executive, but predominantly quasi judicial
and quasi legislative.” Ibid. Moreover, the Court
had no “doubt[s]” about “[t]he authority of Congress” to
create such agencies and “to require them to act in discharge of their duties independently of executive control.” Id. at 629. “[T]hat authority includes, as an appropriate incident, power to fix the period during which
the [officers] shall continue, and to forbid their removal
except for cause in the meantime.” Ibid. In short,
Humphrey’s Executor held that officials exercising quasilegislative or quasi-judicial power could be insulated by
for-cause-removal protection because of the need to
keep such officials “independent” of the executive. Id.
at 628. If an officer “exercises no part of the executive
power vested by the Constitution in the President,” it

88a
says, Congress can limit the President’s removal power.
Ibid. On the other hand, if the officer is “purely executive,” Congress cannot limit that power. Id. at 631-32
(affirming the Myers rule for purely executive officers).
Thus, the scope of the President’s removal power “depend[s] upon the character of the office.” Id. at 631.
Humphrey’s Executor is difficult to apply for two
reasons. First, its division between purely executive
and quasi-legislative or quasi-judicial does not map
neatly onto modern understandings of executive power.
See Morrison v. Olson, 487 U.S. 654, 689 n.28 (1988) (discussing “[t]he difficulty of defining such categories of
‘executive’ or ‘quasi-legislative’ officials”); see also Bowsher, 478 U.S. at 762 n.3 (1986) (White, J., dissenting).
And second, the Supreme Court itself limited Humphrey’s Executor in Bowsher. There, the Comptroller
General was subject to removal only by Congress and
only for cause. See Bowsher, 478 U.S. at 727-28. The
Court held this violated the Constitution’s separationof-powers principles by making an official exercising executive power subservient to the legislative branch.
See id. at 726, 732-33. The Comptroller General’s primary duty was to prepare a detailed report in accordance with a legislative mandate. Id. at 732. The
Court held that this was an exercise of executive power:
“Interpreting a law enacted by Congress to implement
the legislative mandate is the very essence of ‘execution’
of the law.” Id. at 733. That was so even though Congress “ha[d] consistently viewed the Comptroller General as an officer of the Legislative branch.” Id. at 731.
And in reaching its conclusion, the Court pointed to the
Decision of 1789 as “provid[ing] contemporaneous and
weighty evidence of the Constitution’s meaning since

89a
many of the Members of the First Congress had taken
part in framing that instrument.” Id. at 723-24.
Given that Bowsher turned on Congress’s control
over the executive officer in question—a problem undisputedly not at issue here—the dissenters are tempted to
ignore Bowsher as irrelevant. Post, at 99 (Higginson,
J.). But Bowsher is highly relevant in the way it cabins
Humphrey’s Executor. After Bowsher, Congress cannot legislate around the nature of executive power by
creating an office that reports to another branch, rather
than (or in addition to) reporting solely to the Executive
Branch. See 478 U.S. at 731-32; cf. Humphrey’s Executor, 295 U.S. at 628 (reasoning the FTC is not an executive agency because it was “created by Congress to
carry into effect legislative policies . . . in accordance with the legislative standard . . . and to perform other specified duties as a legislative or as a judicial aid”).
So what does Humphrey’s Executor by way of Bowsher mean here? Well, the Federal Housing Finance
Agency (“FHFA”) Director obviously exercises executive power. As relevant to this case, FHFA implemented a statute—HERA—by making factual findings
that triggered authorization to take over and operate
the Government Sponsored Entities (“GSEs”). That’s
an executive act. Cf. Gundy v. United States, 139 S. Ct.
2116, 2140 (2019) (Gorsuch, J., dissenting) (explaining
that “condition[ing]” the application of statutes “on factfinding” by the executive has been “long associated with
the executive function”); Department of Transportation
v. Association of American Railroads, 135 S. Ct. 1225,
1247 (2015) (Thomas, J., concurring in the judgment)
(explaining that “conditional legislation does not seem

90a
to call on the President to exercise . . . legislative
power” even though it makes the suspension or operation of statutory provisions “depend upon the action of
the President based upon the occurrence of subsequent
events, or the ascertainment by him of certain facts”);
Bushnell v. Leland, 164 U.S. 684, 685 (1897) (rejecting
the argument that “empowering [the comptroller] either
to appoint a receiver or to make a ratable call upon the
stockholders, is tantamount to vesting that officer with
judicial power, in violation of the constitution”). Operating the GSEs in accordance with statutory directives
is also executive. After all, “implement[ing] the legislative mandate is the very essence of ‘execution’ of the
law.” Bowsher, 478 U.S. at 733.
True, FHFA also has powers that might seem quasilegislative. For example, it can promulgate regulations. See, e.g., 12 U.S.C. §§ 4536, 4617(i)(8). But having that power cannot be enough to render an agency
quasi-legislative for purposes of Humphrey’s Executor.
If it were, nearly every member of the President’s cabinet would be a quasi-legislative official and could be
given forcause removal protection. And that can’t be.
See Morrison, 487 U.S. at 690 (“Myers was undoubtedly
correct in its holding, and in its broader suggestion that
there are some ‘purely executive’ officials who must be
removable by the President at will if he is to be able to
accomplish his constitutional role.”).
But wherever you draw the line between “executive”
and “quasi-legislative” power, the exercise of power at

91a
the heart of this case is executive. 6 FHFA executed a
contract and enforced its terms; that is the heartland of
executive power. See also Part II.E, infra. In deciding this case or controversy, our constitutional analysis
should focus on the nature of the agency action being
challenged—not the agency’s power in the abstract.
Thus, in relevant part, “the character of the office” held
by the FHFA Director is executive. Humphrey’s Executor, 295 U.S. at 631. Again, the for-cause removal
restriction is invalid. 7
C.
In Morrison v. Olson, 487 U.S. 654 (1988), the Supreme Court arranged the removal precedents around a
new organizing principle: Removal restrictions cannot
unduly interfere with the President’s fulfillment of his
constitutional obligations—including the power to take

Judge Higginson agrees that our inquiry should focus on the particular exercise of power at issue—here, “the FHFA’s conservatorship function.” Post, at 107. Our disagreement is whether
FHFA’s “conservatorship function” is executive or something else.
Our colleagues evidently think it is something else, but exactly what
it is they do not say. See ibid.
7
And even if we considered the FHFA Director to be both “quasilegislative” and executive, then the FHFA’s Director would fall into
the “field of doubt” that Humphrey’s Executor left for “future consideration.” 295 U.S. at 632. And insofar as the “nature of the
function” test discussed in Wiener v. United States, 357 U.S. 349, 353
(1958), was rooted in the “philosophy of Humphrey’s Executor,” id.
at 356, applying that test here would yield similar results. The “intrinsic judicial character of the task” of the War Claims Commissioners led the Court to decide that case against President Eisenhower.
Id. at 355. The executive function at issue here would command the
opposite result.
6

92a
care that the laws be faithfully executed. Morrison involved the Ethics in Government Act’s provision for the
appointment of an independent counsel to “investigate,
and, if appropriate, prosecute certain high-ranking Government officials for violations of federal criminal laws.”
Id. at 660 (discussing 28 U.S.C. §§ 591-99). The independent counsel, once appointed, could only be removed
“by the personal action of the Attorney General and only
for cause.” Id. at 663 (quoting 28 U.S.C. § 596(a)(1)).
There was “no real dispute that the functions performed by the independent counsel are ‘executive’ in the
sense that they are law enforcement functions that typically have been undertaken by officials within the Executive Branch.” Id. at 691. But the Morrison majority treated the categories used in Humphrey’s Executor (executive vs. quasi-legislative or quasi-judicial) as
relevant but not dispositive. We agree with our dissenting colleagues on this point: “Morrison downgraded Wiener’s and Humphrey’s Executor’s inquiries
from a determinative to a subsidiary level.” See post,
at 106 (Higginson, J.).
The Morrison Court instead concluded that the constitutionality of limitations on the President’s removal
power is not “define[d] [by] rigid categories of those officials who may or may not be removed at will by the
President, but” aims to “ensure that Congress does not
interfere with the President’s exercise of the ‘executive
power’ and his constitutionally appointed duty to ‘take
care that the laws be faithfully executed’ under Article
II.” Morrison, 487 U.S. at 689-90. So, under Morrison, removal restrictions that do not limit “the President’s ability to perform his constitutional duty” are
permissible. Id. at 690.

93a
The Morrison Court concluded the independent
counsel’s office survives this test. First, the Court
deemed the independent counsel an inferior office “with
limited jurisdiction and tenure and lacking policymaking or significant administrative authority.” Id. at 691;
see also id. at 671-72. Second, the Court noted that the
President retained the ability to remove the independent counsel for cause (through the Attorney General).
Id. at 692-93; see also id. at 696. Congress limited the
removal power “to establish the necessary independence of the office,” the Court concluded. Id. at 693.
And in light of the independent counsel’s status as an
inferior officer accountable to the Attorney General,
such a limitation didn’t unduly “interfere” with the President’s constitutional duties. Ibid.
So what of the FHFA Director? Like the independent counsel, the FHFA Director exercises the executive
power of implementing the laws. See Part II.B, supra.
But unlike the independent counsel, the FHFA Director
is a principal officer with significant authority, and he is
not subject to significant presidential control through
any other executive officer. FHFA’s insulation from
the ordinary appropriations process means its Director
does not even answer to Congress. Cf. Humphrey’s
Executor, 295 U.S. at 628 (explaining the FTC is quasilegislative because it acts “in aid of the legislative
power” where it makes “investigations and reports
. . . for the information of Congress”). And that also
deprives the President of the control he exercises over
most independent agencies, who “must participate in the
annual budget cycle” under the oversight of the Office

94a
of Management and Budget. 8 Perhaps it’s true that
“[n]o man is an island.” JOHN DONNE, DEVOTIONS
UPON EMERGENT OCCASIONS, Meditation XVII 108
(Ann Arbor Paperback ed., 1959) (1624). But FHFA’s
Director comes pretty close.
To satisfy Morrison, “the Executive Branch” must
have “sufficient control over” the independent officer
“to ensure that the President is able to perform his constitutionally assigned duties.” 487 U.S. at 696. Here,
it’s not clear the Executive Branch has any control at all.
D.
In Free Enterprise Fund, the Supreme Court made
clear that Morrison only extends so far. The Free Enterprise Fund Court dealt with the members of the Public Company Accounting Oversight Board (“PCAOB”)
who could be removed only by the Securities and Exchange Commission (“SEC”). 561 U.S. at 483. The
PCAOB board members could only be removed by the
SEC for cause, and the members of the SEC are principal officers who can only be removed by the President
for cause. Id. at 486-87. The Court concluded this
double for-cause protection arrangement violates the
Constitution:
This novel structure does not merely add to the
Board’s independence, but transforms it. Neither
Eloise Pasachoff, The President’s Budget as a Source of Agency
Policy Control, 125 YALE L.J. 2182, 2203-04 (2016); see also Rachel
E. Barkow, Insulating Agencies: Avoiding Capture Through Institutional Design, 89 TEX. L. REV. 15, 42-43 (2010) (“If agencies
must rely on OMB for budget requests, the President has a huge
lever of power over the agency, whether or not the head of the
agency is removable at will.”).
8

95a
the President, nor anyone directly responsible to
him, nor even an officer whose conduct he may review
only for good cause, has full control over the Board.
Id. at 496. So the Court found PCAOB Commissioners
could not constitutionally exercise executive power.
See ibid.
The Court reaffirmed its focus on the importance of
the relevant office by distinguishing principal officers
from inferior officers and inferior officers from mere
employees. Id. at 506 (“We do not decide the status of
other Government employees, nor do we decide whether
‘lesser functionaries subordinate to officers of the
United States’ must be subject to the same sort of control as those who exercise ‘significant authority pursuant to the laws.’ ”). Thus, the above analysis concerning the status of a principal officer under Morrison applies here in much the same way.
But Free Enterprise Fund also emphasized a suspicion of novel agency structures. Before the case came
before the Supreme Court, then-Judge Kavanaugh had
dissented from the D.C. Circuit’s opinion upholding the
PCAOB:
Humphrey’s Executor and Morrison represent what
up to now have been the outermost constitutional limits of permissible congressional restrictions on the
President’s removal power. Therefore, given a choice
between drawing the line at the holdings in Humphrey’s Executor and Morrison or extending those cases
to authorize novel structures such as the PCAOB that
further attenuate the President’s control over executive officers, we should opt for the former. We
should resolve questions about the scope of those

96a
precedents in light of and in the direction of the constitutional text and constitutional history. In this
case, that sensible principle dictates that we hold the
line and not allow encroachments on the President’s
removal power beyond what Humphrey’s Executor
and Morrison already permit.
Free Enterprise Fund, 537 F.3d at 698 (Kavanaugh, J.,
dissenting) (citations omitted). The Supreme Court
shared his concern: “Perhaps the most telling indication of the severe constitutional problem with the
PCAOB is the lack of historical precedent for this entity.” Free Enterprise Fund, 561 U.S. at 505 (quoting
537 F.3d at 699 (Kavanaugh, J., dissenting)).
The novel agency structure at issue in this case raises
similar suspicions. Granting that the protections here
are not a “Matryoshka doll of tenure protections,” id. at
497, Congress nevertheless insulated the FHFA Director in an unprecedented way. The FHFA Director is a
principal officer, not an inferior one or an employee; he
exercises significant executive authority; and he does so
by himself, not as part of a multi-member body. Cf.
PHH Corp. v. CFPB, 881 F.3d 75, 198 (D.C. Cir. 2018)
(en banc) (Kavanaugh, J., dissenting) (noting that another agency’s “single-Director structure departs from
settled historical practice, threatens individual liberty,
and diminishes the President’s Article II authority to
exercise the executive power.”). 9 HERA thereby grants
Many have discussed the unique ways an independent agency
headed by a single Director could undermine the President’s Article
II powers. See ante, at 46-47 (Willett, J.); PHH Corp., 881 F.3d at
156-57 (Henderson, J., dissenting); id. at 183-84 (Kavanaugh, J., dissenting). When the Founders vested a single President with the
9

97a
“executive power without the Executive’s oversight”
and “subverts the President’s ability to ensure that the
laws are faithfully executed.” Free Enterprise Fund,
561 U.S. at 498. Thus, FHFA fails under Free Enterprise Fund too.
E.
Judge Higginson’s principal response to all of this is
that “FHFA’s conservatorship function” is “a role one
would be hard-pressed to characterize as near the heart
of executive power.” Post, at 107. We disagree. To
our minds, you’d be hard-pressed to characterize it as
anything other than executive power.
“The executive power” vested by Article II, Section
1, is the power of “enforcing the laws.” 1 BLACKSTONE’S
COMMENTARIES, supra, at *146. At the Founding, the
“executive power” was understood in contradistinction
to the “legislative” power of “making the laws.” Ibid.;
see also id. at *261; MATTHEW HALE, THE PREROGATIVES OF THE K ING 176 (D.E.C. Yale ed. 1976). Without an executive to enforce, administer, or otherwise execute the law, legislation was a mere parchment barrier:
“[T]he Vigour of the Laws consists in their Executive
Power; Ten thousand Acts of Parliament signify no more
than One Single Proclamation, unless the Gentlemen, in
whose hands the Execution of those Laws is placed, take
executive power in Article II of the Constitution, they recognized
that one person had the potential to act with greater speed, decisiveness, and secrecy than a multi-member body. See THE FEDERALIST NO. 70, at 424 (Alexander Hamilton) (Clinton Rossiter ed., 1961)
(“Decision, activity, secrecy, and dispatch will generally characterize
the proceedings of one man in a much more eminent degree than the
proceedings of any greater number. . . . ”).

98a
care to see them duly made use of. . . . ” DANIEL
DEFOE, THE POOR MAN’S PLEA 23 (2d ed. 1693). Thus,
the power to execute the law is the power to follow a legislative instruction and “transform [legislative] intentions into reality.” Julian Davis Mortensen, Article II
Vests the Executive Power, Not the Royal Prerogative,
119 COLUM. L. REV. 1169, 1236 (2019).
There can be no doubt that FHFA purported to “execute” HERA here—even if it did so unlawfully. See
ante, at 50-52 (Willett, J.). It “made use of ” the statute
to adopt the Third Amendment. And it made use of the
statute (and the Third Amendment) to sweep the GSEs’
profits. That plainly constitutes “the executive power.”
But suppose we’re wrong that FHFA is an executive
branch agency—where would you put it instead?
FHFA is an agency of the federal government. See
12 U.S.C. § 4511(a) (establishing FHFA as “an independent agency of the Federal Government”); id.
§ 4617(b)(2)(J)(ii) (granting FHFA power to “take any
action authorized by this section, which the Agency determines is in the best interests of . . . the Agency”).
Surely Judge Higginson does not mean to suggest
FHFA is exercising “legislative or judicial power in government as usually understood.” Myers, 272 U.S. at
117-18.
It’s irrelevant that the Secretary of the Treasury—
the other party to the Net Worth Sweep—could veto the
deal. Cf. post, at 105 (Higginson, J.); post, at 112-13
(Costa, J.). It has never been true that setting aside an
officer’s action in a case involving the removal power requires proof that an uninsulated officer would not have

99a
taken the challenged action. Such counterfactual causation is alien to the Supreme Court’s interpretation of
Article II. Neither appointment cases nor removal
cases require it. See Landry v. FDIC, 204 F.3d 1125,
1131 (D.C. Cir. 2000) (“There is certainly no rule that a
party claiming constitutional error in the vesting of authority must show a direct causal link between the error
and the authority’s adverse decision.”). 10
Take Free Enterprise Fund, for example.
case implicated both appointment and removal.

That
As to

For the same reasons, it’s irrelevant that the Third Amendment
was adopted by an Acting Director of FHFA, rather than a Senateconfirmed Director. See post, at 109 (Costa, J.). The Acting Director serves until the appointment of a Director—the latter of whom is
insulated by the for-cause removal restriction. See 12 U.S.C.
§§ 4512(b), 4512(f ). The President’s power to replace the Acting Director with a for-cause insulated Director is a Damoclean sword that
hardly solves the constitutional problem with the latter. After we
granted rehearing en banc, FHFA argued for the first time that the
Acting Director can be replaced under the Federal Vacancies Reform Act (“FVRA”).
That argument is forfeited under our
longstanding rules. See Excavators & Erectors, Inc. v. Bullard Engineers, Inc., 489 F.2d 318, 320 (5th Cir. 1973) (“While these contentions may have had merit if timely raised in the district court, it is
well established that . . . issues not raised or presented in the
lower court will not be considered for the first time on appeal.”).
It’s also ironic because the Government argues the FHFA Director
is not exercising executive power while justifying its constitutionality under a statute—the FVRA—that applies only to “an officer of
an Executive Agency.” 5 U.S.C. § 3345(a). In all events, this point
now appears moot because the Senate confirmed a permanent Director who enjoys for-cause insulation. And almost immediately after his confirmation, that insulated Director revoked FHFA’s prior
concession regarding the unconstitutionality of the for-cause removal restriction, instead defended its constitutionality, and continued sweeping the GSEs’ profits.
10

100a
the former, the Court refused to require counterfactual
causation as an element of standing to bring an appointment claim. 561 U.S. at 512 n.12 (“[S]tanding does not
require precise proof of what the Board’s policies might
have been in that counterfactual world.”). And as to
the latter, the Court likewise rejected counterfactual
causation. The Court granted prospective relief requiring officers to be properly removable before exercising executive authority. Id. at 513. And it did so
without analyzing whether less-insulated officers would
make different decisions than the unconstitutionally insulated officers did. If a plaintiff must show that a removable officer would make a different decision, then
Free Enterprise Fund would not have granted relief
without considering whether a more accountable officer
would make different decisions.
Or take NLRB v. Noel Canning, 573 U.S. 513 (2014).
By the time that case reached the Supreme Court, the
NLRB already had new, validly appointed members.
There was no evidence the new Board members were inclined to overturn the actions of the old, unconstitutionally appointed members. In fact, the litigants challenging the appointments told the Supreme Court that
“going forward the government can solve the problem
through agency ratification of past decisions.” Transcript of Oral Argument at 66, Noel Canning, 573 U.S.
513 (No. 12-1281). Nevertheless, the Court invalidated
the old members’ decisions.
See Noel Canning,
573 U.S. at 522 (“[T]hat the Board now unquestionably
has a quorum does not moot the controversy about the
validity of the previously entered Board order.”).

101a
The best support we can find for counterfactual causation is in the Bowsher dissent. It argued the unconstitutional removal provision was “unlikely to be” invoked, meaning in “political realit[y]” the officer’s decisionmaking was unaffected. 478 U.S. at 730 (discussing Justice White’s dissent). But the majority rejected
that analysis: “The separated powers of our Government cannot be permitted to turn on judicial assessment
of whether an officer exercising executive power is”
likely to be fired. Ibid. “The Framers did not rest
our liberties on such bureaucratic minutiae.” Free Enterprise Fund, 561 U.S. at 500. Thus, there is no reason for us to speculate about what a more-accountable
officer would have thought about the Net Worth Sweep.
And the Treasury Secretary’s agreement to the Net
Worth Sweep doesn’t tell us anything about the propriety of insulating the FHFA Director.
III.
A majority of our Court believes that the appropriate
remedy for the constitutional violation is to delete the
offending statutory text. We respectfully disagree, because we do not think our limited Article III power to
decide cases and controversies permits such a remedy.
The judicial power vested by Article III of the Constitution extends to “Cases” and “Controversies.” U.S.
CONST. art. III, § 2, cl. 1. It generally does not include
the legislative power to erase, rewrite, or otherwise
“strike down” statutes: “[U]nder our constitutional
system courts are not roving commissions assigned to
pass judgment on the validity of the Nation’s laws.”
Broadrick v. Oklahoma, 413 U.S. 601, 610-11 (1973).

102a
Rather, “[c]onstitutional judgments, as Mr. Chief Justice Marshall recognized, are justified only out of the necessity of adjudicating rights in particular cases between the litigants brought before the Court.” Ibid.
(citing Marbury v. Madison, 5 U.S. (1 Cranch) 137, 178
(1803)); see also United States v. Godoy, 890 F.3d 531,
539-40 (5th Cir. 2018) (explaining that the Supreme
Court’s declining to apply an unlawful statutory provision does not purge that provision from existence).
When then-Judge Scalia was sitting as a member of
the three-judge district court in Synar v. United States,
he recognized the importance of choosing a remedy that
redresses the plaintiffs’ injury-in-fact. See Synar v.
United States, 626 F. Supp. 1374, 1393 (D.D.C.) (per curiam), aff ’d sub nom. Bowsher v. Synar, 478 U.S. 714
(1986). In that case, the constitutional violation was
caused by a “combination” of statutes: one authorizing
an officer to exercise executive power and another governing the appointment or removal of the officer in question. Ibid. Justice Scalia was faced with the question: Which statute should the court refuse to apply
when either one would be constitutional in isolation?
His answer was the statute that “allegedly authorizes
the injury-in-fact that confers standing upon the plaintiff.” Ibid. (synthesizing numerous Supreme Court precedents). Because the injury-in-fact in that case was
caused by the statutory grant of executive power, that
grant had to “yield.” Id. at 1393-94.
In this case, Plaintiffs are injured by the Net Worth
Sweep—an exercise of executive power unconstitutionally granted by HERA. Plaintiffs lost the value of their
investments because FHFA used the Net Worth Sweep
to transfer their money to the Treasury. They ask us

103a
to “[v]acat[e] and set[] aside the [contract’s] Net Worth
Sweep” provision. Our Article III powers permit us to
grant this remedy, as it would redress Plaintiffs’ injuryin-fact. Such a remedy finds support in precedent.
See, e.g., Noel Canning v. NLRB, 705 F.3d 490, 493, 51415 (D.C. Cir. 2013), aff ’d, 134 S. Ct. 2550 (2014) (vacating
the NLRB’s order because the Board was unconstitutionally constituted); see also Dresser-Rand Co. v.
NLRB, 576 F. App’x 332, 33-34 (5th Cir. 2014) (vacating
Board’s order that was issued by only two lawfully appointed members).
Instead of granting this remedy, a majority of our
Court charts a different path. They seek to blue-pencil
the statute by deleting the unconstitutional statutory
provision. Such a remedy is improper for two reasons.
First, it affords Plaintiffs no relief whatsoever. On
these facts, editing the statute would not resolve any
case or controversy. Plaintiffs do not complain about
the possibility of future regulatory activity. Instead,
they complain only about a past decision made by the
FHFA Director: contractually agreeing to the Net
Worth Sweep. A complaint based solely on past violations cannot justify prospective relief ordering an agency
to disregard a statutory provision going forward. In a
case seeking redress for past harms such as this one,
prospective relief is no relief at all. Cf. Lucia v. SEC,
138 S. Ct. 2044, 2055 n.5 (2018) (explaining that Appointments Clause remedies should be designed to preserve
the separation of powers and “to create ‘[]incentive[s] to
raise Appointments Clause challenges’ ” (quoting Ryder
v. United States, 515 U.S. 177, 183 (1995)).

104a
Free Enterprise Fund is the principal precedent for
the majority’s blue-pencil remedy.
But there, the
plaintiffs sought an injunction against future audits and
investigations by the unconstitutionally insulated
agency. To remedy the plaintiffs’ prospective injuryin-fact, the Court refused to apply the statute insulating
the officers from removal. See 561 U.S. at 508-10.
The Court recognized that the statutory provision was
“only one of a number of statutory provisions that, working together, produce a constitutional violation.” Id. at
509. In refusing to apply the for-cause protection provision that insulated the PCAOB commissioners from
removal, it applied the most modest remedy it could to
redress the plaintiffs’ injuries. Thus, the Free Enterprise Fund remedy was effectively an injunction ordering the agency to disregard the second layer of for-cause
removal protection going forward, unless and until Congress chose to fix the constitutional violation in a different way. In this case, Plaintiffs did not complain about
the threat of future harm, so blue-penciling the statute
would not redress any injury they have alleged.
Strangely, our colleagues who argue that Plaintiffs
lack standing to bring their constitutional claim also join
a majority of the Court in endorsing a blue-penciling
remedy. Nowhere in their opinion do they explain how
our Court could purport to delete a statutory provision
when there is no active case or controversy within the
meaning of Article III. We think Plaintiffs do have
standing, yet we cannot identify how deleting the FHFA
Director’s removal protection would redress any harm
Plaintiffs have alleged. On what basis could our colleagues possibly believe that a blue-penciling remedy is
constitutionally permissible? We can see none.

105a
The second problem we have with the remedy endorsed by a majority of our Court is that we do not believe Article III of the Constitution permits us to
“strike” the FHFA Director’s for-cause protection from
the statute. See Murphy v. NCAA, 138 S. Ct. 1461,
1485 (2018) (Thomas, J., concurring) (explaining that
“[e]arly American courts did not have a severability doctrine” because “[t]hey recognized that the judicial power
is, fundamentally, the power to render judgments in individual cases”); Jonathan F. Mitchell, The Writ-ofErasure Fallacy, 104 VA. L. REV. 933, 936 (2018) (explaining “federal courts have no authority to erase a
duly enacted law from the statute books” but have only
the power “to decline to enforce a statute in a particular
case or controversy” and “to enjoin executive officials
from taking steps to enforce a statute”); Kevin C. Walsh,
Partial Unconstitutionality, 85 N.Y.U. L. REV. 738, 756
(2010) (explaining that the Founders did not conceive of
judicial review as the power to “strike down” legislation).
At the Constitutional Convention, several delegates,
including James Wilson and James Madison, argued for
a “Council of Revision” comprised of federal judges and
the executive. Mitchell, supra, at 954. The Council
would have had the power to veto legislation passed by
Congress, subject to congressional override. Ibid. A
veto of legislation would render it “void,” without any
legal effect. Ibid. That proposal was defeated at the
Convention on June 4, 1787. Id. at 957. Wilson and
Madison tried again on July 21, but again they were defeated. Id. at 958. Finally, on August 15, they made
one last attempt to give the judiciary a veto over federal
legislation, proposing that the Supreme Court be given

106a
the power to veto legislation independent of the President, subject to congressional override. Id. at 958-59.
Again, they were defeated. Id. at 959.
In the final Constitution, the judiciary was given only
the power to decide cases and controversies—to resolve
legal disputes between parties and order remedies to redress injuries. Thus, when a court concludes that a
statute is unconstitutional, it is not “striking down” or
“voiding” or “invalidating” the law. It is merely holding that the law may not be applied to the parties in the
dispute. The Constitution does not empower courts to
delete sections of state and federal codes. The Founders expressly considered the possibility of a judicial
veto, and they rejected it multiple times during the Constitutional Convention.
This history has been obscured by rhetoric that Chief
Justice Marshall used in Marbury v. Madison, 5 U.S.
(1 Cranch) 137 (1803), to explain judicial review. In
that case he famously declared that a statute found unconstitutional by a court becomes “entirely void,” “invalid,” and “not law.” Id. at 177-78. Subsequent cases
have compounded the confusion. See, e.g., The Civil
Rights Cases, 109 U.S. 3, 26 (1883) (holding “void” sections 1 and 2 of the Civil Rights Act of 1875). Nevertheless, it is indisputable that courts do not have the
power to erase duly enacted statutes. Instead, they
may decline to enforce them or enjoin their future enforcement to resolve cases and controversies.
Our Court should not add to the confusion about the
judiciary’s limited powers by claiming to “sever” a statute based on open-ended speculation about how Con-

107a
gress would have solved the separation-of-powers problem. And we certainly should not rewrite the statute
while pretending such legislative activity is the most
modest judicial remedy. We would instead remand to
the district court with instructions to fashion a remedy
that actually redresses Plaintiffs’ harms.
* * *
Whether we apply the Constitution’s original public
meaning, Myers, Humphrey’s Executor, Morrison, or
Free Enterprise Fund, the conclusion in this case is the
same. The FHFA Director cannot exercise the executive power of the United States because he is unconstitutionally insulated from presidential control and accountability. And our Court does not have the power
under Article III to order a remedy that does not redress Plaintiffs’ injuries.

108a
HAYNES, Circuit Judge, joined by STEWART, Chief
Judge, and DENNIS, SOUTHWICK, GRAVES, HIGGINSON,
and COSTA, Circuit Judges, dissenting with respect to
statutory claims:
I conclude—as the panel in this case and five other
circuits have held—that 12 U.S.C. § 4617(f ) bars us from
granting the relief that the Shareholders seek on their
statutory claims. See Jacobs v. FHFA, 908 F.3d 884
(3d Cir. 2018); Saxton v. FHFA, 901 F.3d 954 (8th Cir.
2018); Roberts v. FHFA, 889 F.3d 397 (7th Cir. 2018);
Robinson v. FHFA, 876 F.3d 220 (6th Cir. 2017); Perry
Capital LLC v. Mnuchin, 864 F.3d 591 (D.C. Cir. 2017).
This court’s role is not to question why as to the benefits
and detriments of the Net Worth Sweep. Instead, under a statutory challenge to the FHFA’s conduct, our
court must examine the statute in question and apply it.
Every court to address the issue agrees that the core
question is whether the FHFA acted within its statutory
authority. It is the core question because § 4617(f )
states that “no court may take any action to restrain or
affect the exercise of powers or functions of the Agency
as a conservator or a receiver” unless otherwise specified by statute or requested by the Director. The
Shareholders argue that the FHFA has exceeded its
statutory “powers or functions . . . as a conservator
or a receiver” such that the bar does not apply. So I
examine whether adopting the Net Worth Sweep was
within those statutory powers.
Given HERA’s grant of extensive powers to the
FHFA, I conclude that the FHFA acted within its statutory powers when it adopted the Net Worth Sweep.
The FHFA’s “powers are many and mostly discretionary.” Jacobs, 908 F.3d at 889. To begin with, once a

109a
conservator, the FHFA takes over the rights and
powers of the shareholders, officers, and directors.
12 U.S.C. § 4617(b)(2)(A)(i). It is then free to then
“conduct all business of the regulated entity” without
any restriction on that grant of power.
See id.
§ 4617(b)(2)(B)(i).
Most importantly, when the FHFA conducts a company’s business, it does not have to consider the interests of shareholders. HERA dictates that the Director
“ensure that . . . the activities of each regulated entity and the manner in which such regulated entity is operated are consistent with the public interest.” Id.
§ 4513(a)(1)(B)(v). Most sweepingly, the FHFA may
“take any action authorized by [§ 4617], which the
[FHFA] determines is in the best interests of the regulated entity [e.g., the GSEs] or the Agency [i.e., the
FHFA].” Id. § 4617(b)(2)(J)(ii) (emphasis added). As
Judge Stras said, “That is no typo. The FHFA can operate critically important businesses, with trillions of
dollars in assets and the financial support of the federal
government, in its own best interests—apparently to
the exclusion of the interests of the American people,
Fannie and Freddie, and their shareholders.” Saxton,
901 F.3d at 960 (Stras, J., concurring). On top of that,
the decision about what is in the FHFA’s best interest
is committed to the FHFA.
This broad statutory grant of authority undermines
the Shareholders’ core arguments. To begin with, the
Shareholders argue that the statute requires the FHFA
to pursue the goal of “preserving and conserving” assets
and operating the GSEs in a “sound and solvent” manner. But those quoted terms are snippets from only

110a
some of the provisions in § 4617 granting the FHFA authority. See 12 U.S.C. § 4617(b)(2)(B)(iv), (b)(2)(D).
When reviewed in context, each of those provisions is
written as a permissive grant of authority. For example, § 4617(b)(2)(D) begins, “The Agency may, as conservator, take such action as may be. . . . ” Other
provisions, like § 4617(b)(2)(B)(i) and § 4617(b)(2)(J)(ii),
grant the FHFA authority unrestricted by the goals of
asset preservation and solvency.
Undeterred, the Shareholders argue that though the
snipped provisions use “may,” they are actually mandatory and constrain all other grants of authority. Their
theory is that “may” is “a simple concession to the practical reality that a conservator may not always succeed
in rehabilitating its ward.”
See Perry Capital,
864 F.3d at 638 n.1 (Brown, J., dissenting). But when
“may” and “shall” appear in the section, “the normal inference is that each is used in its usual sense—the one
act being permissive, the other mandatory.” Anderson
v. Yungkau, 329 U.S. 482, 485 (1947). Congress uses
“shall” to note mandatory responsibilities, even when
the officer carrying them out cannot possibly succeed.
See, e.g., 28 U.S.C. § 547 (“[E]ach United States attorney, within his district, shall . . . prosecute for all
offenses against the United States. . . . ”). For instance, in the very same section, the FHFA is told it
“shall seek to develop incentives for claimants to participate in the alternative dispute resolution process.”
12 U.S.C. § 4617(b)(7)(B). “Shall” makes the command
mandatory, while “seek” signals that the FHFA might
still fail. Congress could have used similar language to
constrain the FHFA’s actions, but it chose not to.

111a
The Shareholders also argue that the word “conservator” connotes a requirement that the FHFA “conserve” assets. They rely on the common law meaning
of the term, which they believe Congress reflected in the
statute. Congress is free to use common law terms in
statutes, which courts then look to when interpreting
the statute in the absence of statutory definitions. But
that general rule gives way when the statute dictates
otherwise. See, e.g., Taylor v. United States, 495 U.S.
575, 594 (1990). Here, HERA’s statutory scheme is inconsistent with the traditional notions of a conservator.
Common law conservators are supposed to look out for
the rights of shareholders or other beneficiaries. But
the FHFA looks out for the public’s and its own interests, a key difference from common law conservatorships. So this court cannot read any common law
principles into Congress’s use of the word “conservator.”
During oral argument before the en banc court, a
member of our court suggested that this claim should
not be resolved on a motion to dismiss because it includes factual allegations beyond what appeared before
other courts of appeals. However, neither party had
previously argued this point, each proceeding from the
assumption that this was purely a legal issue that could
be resolved on a motion to dismiss. Indeed, the term
“plausible” as it relates to the Shareholders’ complaint
appears nowhere in their briefing. Instead, the Shareholders focused their assertions on the contention that
the FHFA exceeded its statutory powers as a matter of
law. They certainly never argued that there are “fact
issues” that need to be litigated or more fully developed
as it pertains to their statutory arguments regarding

112a
§ 4617(f ). It is hardly novel law that an appellant’s failure to brief an issue waives it. See, e.g., Singh v. RadioShack Corp., 882 F.3d 137, 149 (5th Cir. 2018).
Despite the clear waiver, that en banc oral argument
question has now morphed into the holding of the majority opinion on this issue. The majority opinion concludes that the Shareholders stated a “plausible” claim
that the FHFA exceeded its statutory authority in enacting the Third Amendment and remands for “further
proceedings.” Now, due to the majority opinion’s departure from the Shareholders’ arguments, will the district court be required to hold a trial on FHFA’s intent?
That makes little sense.
Even if this argument were not waived, it still does
not pass muster as a distinction from the other circuits’
decisions. First, the complaints in the previous suits
all alleged that the FHFA did not have the intent of conserving the GSEs’ capital, even if they did not cite every
piece of evidence supporting that view. Second, and
more importantly, the statute permits the FHFA to act
in the public’s or its own interest, and the statute commits the decision of what is in the FHFA’s best interest
to itself. So even if those agencies’ subjective intent—
whatever that means—was to operate Fannie Mae and
Freddie Mac for its or the public’s benefit, the statute
allows the FHFA to do so.
Nothing about this case alters the robust case law
from other circuits. I would join all our sister circuits
that have considered this question and rejected the
Shareholders’ statutory claim. The Shareholders have
not shown that the FHFA exceeded its enormous grant
of authority. I conclude that § 4617(f ) bars us from
“tak[ing] any action to restrain or affect the exercise of

113a
powers or functions of the [FHFA] as a conservator or
a receiver.”
Because the Shareholders’ statutory
claims would “restrain or affect” the FHFA’s acting in
its role as conservator, the Shareholders’ claims should
fail. I would affirm the district court’s order granting
the Agencies’ motions to dismiss the Shareholders’ APA
claims because such claims are barred by 12 U.S.C.
§ 4617(f ). I respectfully dissent from the contrary decision to remand.

114a
STEPHEN A. HIGGINSON, Circuit Judge, joined by STEWART, Chief Judge, and DENNIS and COSTA, Circuit
Judges, dissenting in part:
It is wrong to declare the FHFA unconstitutionally
structured. Neither the parties nor the majority has
addressed the statutory text central to the constitutional issue: the provision establishing the FHFA Director’s five-year term “unless removed before the end
of such term for cause by the President.” 12 U.S.C.
§ 4512(b)(2). For-cause removal provisions typically
enumerate the specific grounds that would justify removal, such as “inefficiency, neglect of duty, or malfeasance in office.” See Humphrey’s Executor v. United
States, 295 U.S. 602, 619 (1935) (quoting 15 U.S.C. § 41).
This one does not. Thus, it is concerning that no one in
this litigation has addressed why or how § 4512(b)(2) is
an undue impediment to removal in practice; indeed, no
one has even suggested what § 4512(b)(2)’s text means. 1
Furthermore, no one has identified an entity empowered to block a presidential removal under § 4512(b)(2).
It is unwise to base a momentous constitutional ruling on the expected effects of a statutory provision no
one has made the effort to construe.
*

*

*

The Constitution affords sparse materials to resolve
this question—only broad pronouncements that “[t]he
The en banc D.C. Circuit’s decision on the constitutionality of the
Consumer Financial Protection Bureau’s design elicited varying
views on this question as to the for-cause removal protection of that
agency’s director. Compare PHH Corp. v. Consumer Fin. Prot.
Bureau, 881 F.3d 75, 122-24 (D.C. Cir. 2018) (Wilkins, J., concurring), with id. at 124- 37 (Griffith, J., concurring).
1

115a
executive Power shall be vested” in the President and
that “he shall take Care that the Laws be faithfully executed.” Art. II §§ 1, 3. These clauses say nothing about
removal of executive-branch officers, and there is little
that is tractable or manageable in them compared, for
instance, to the Appointments Clause. See Art. II § 2.
That clause distinguishes between categories of officers
and specifies who may appoint so-called “inferior” officers. Id. These specifications helpfully structure a
well-developed case law on presidential appointments.
See, e.g., Lucia v. S.E.C., 138 S. Ct. 2044, 2051-56 (2018);
Edmond v. United States, 520 U.S. 651, 658-66 (1997).
No such specificity guides us here.
What we have instead is a relatively limited body of
modern Supreme Court decisions. Only six cases, decided over eighty-five years, comprise the corpus of relevant precedential material. On the one side, three
cases identify unconstitutional limits on the presidential
removal power. See Free Enter. Fund v. Pub. Co. Accounting Oversight Bd., 561 U.S. 477 (2010); Bowsher v.
Synar, 478 U.S. 714 (1986); Myers v. United States,
272 U.S. 52 (1926). On the other, three cases uphold
limits on the presidential removal power. See Morrison v. Olson, 487 U.S. 654 (1988); Wiener v. United
States, 357 U.S. 349 (1958); Humphrey’s Executor v.
United States, 295 U.S. 602 (1935). 2 As with the
One might also place United States v. Perkins, 116 U.S. 483
(1886), concerning a cadet engineer in the Navy, and United States
v. Shurtleff, 189 U.S. 311 (1903), concerning a “general appraiser of
merchandise,” in the corpus of removal cases, but their remoteness
in time and the simplicity of the positions at issue—relative to the
complexity of modern administrative agency design—make them
minor parts of that corpus for present purposes. Presidential removal was at issue also in Mistretta v. United States, 488 U.S. 361
2

116a
sparseness of constitutional text, the limited extent of
this caselaw counsels, at minimum, caution before we
announce from the bench that Congress has violated the
Constitution. 3
Two of the three cases striking down limits on the
presidential removal power are plainly beyond the circumstances here, because they addressed provisions
that located control over removal wholly or partly in the
legislative branch. Bowsher concerned a law assigning
executive functions to the Comptroller General, an official removable only by Congress. 478 U.S. at 728-34.
Myers concerned a postmaster whose removal by the
President was subject to the “advice and consent of the
Senate.” 272 U.S. at 60. Congress gave itself no such
control over removal of the FHFA Director, so neither
case furnishes a basis on which to find the FHFA unconstitutionally structured.
Appellants’ constitutional challenge therefore stands
or falls on Free Enterprise Fund, the only other Supreme Court decision fashioning the Constitution’s

(1989), regarding the U.S. Sentencing Commission, but the Court’s
animating concern in that instance was interference with judicial
power, not executive.
3
The concurring opinion that responds to my views misses that my
dissent is fundamentally rooted in the principle of judicial restraint.
This principle must be our guide “in cases of peculiar delicacy,” such
as those that challenge the constitutionality of Congress’s enactments. See McCulloch v. Maryland, 17 U.S. 316, 401 (1819) (Marshall, C.J.). Moreover, I do not recognize my views in the paraphrases that the concurring opinion gives of them. At the very beginning, for instance, the concurring opinion imputes views to me
about “original public meaning” and “ ‘judicial’ power to rewrite Congress’s law,” yet neither is an argument I elaborate here.

117a
scant textual materials into a rule by which we might invalidate an agency’s structure. In Free Enterprise
Fund, the Court affirmed the principle that “Congress
can, under certain circumstances, create independent
agencies run by principal officers appointed by the President, whom the President may not remove at will but
only for good cause.” 561 U.S. at 483. Free Enterprise
Fund addressed “something quite different”: vesting
the for-cause removal decision in officials who were themselves protected against removal without cause, thereby
creating “two layers of good-cause tenure.” Id. at 495,
497. Appellants thus have the difficult task of showing
that Free Enterprise Fund, which affirmed one layer of
good-cause tenure while condemning two, somehow requires us to invalidate the one layer protecting the
FHFA Director.
In addition to showing that Free Enterprise Fund
implicitly negated a principle it explicitly affirmed, Appellants must also confront three cases approving goodcause tenure:
Humphrey’s Executor, Wiener, and
Morrison.
These cases each affirmed Congress’s
power to insulate officials against presidential removal.
The cases affirmed that power in widely varying institutional contexts and despite circumstances that, under
then-existing precedent, would make curtailment of
Congress’s power the expected outcome.
Humphrey’s Executor came first, nine years after
Myers’s ringing vindication of the President’s “unrestricted power of removal.”
See Myers, 272 U.S.
at 176. The case concerned the protection of Federal
Trade Commission members from removal unless for
“inefficiency, neglect of duty, or malfeasance in office.”
295 U.S. at 619. Given Myers’s emphatic declaration of

118a
principle, this insulation of FTC commissioners would
surely fall. But it did not. A unanimous Supreme
Court ruled that Myers “cannot be accepted as controlling [the] decision here.” 295 U.S. at 627. The Court
recognized Congress’s power to create “quasi legislative
or quasi judicial agencies” that could act “independently
of executive control.” Id. at 629. It read Myers as
“confined to purely executive officers” and stated a new
principle: that Congress’s power to “preclud[e] a removal except for cause will depend upon the character
of the office.” Id. at 631-32.
Two decades later, the Supreme Court considered
the removal of a member of the War Claims Commission, an adjudicatory body for claims of injury or property damage in the Second World War.
Wiener,
357 U.S. at 350-51. Unlike the FTC statute at issue in
Humphrey’s Executor, the statute creating the War
Claims Commission said nothing about removal. Id. at
352. One would think, therefore, that the President’s
removal power would operate unrestricted, per Myers.
On the contrary, Wiener adhered to Humphrey’s Executor’s distinction between purely executive officers and
those meant to exercise independent judgment. Focusing on the “nature of the function that Congress
vested in the War Claims Commission,” the Court read
for-cause removal protection into the statute. Id. at
353-56.
Three decades after Wiener, the Supreme Court considered the constitutionality of the independent counsel
authorized by the Ethics in Government Act of 1978.
Morrison, 487 U.S. at 660. The independent counsel was
appointed by a special three-judge panel upon a referral
from the Attorney General, and the office held a panoply

119a
of prosecutorial powers. Id. at 660-63. The Attorney
General could remove the independent counsel “only for
good cause, physical disability, mental incapacity,” or
other substantially impairing condition, with judicial review thereafter. Id. at 663. Because the independent
counsel wielded the quintessentially executive power of
criminal prosecution, one would expect the office’s insulation from presidential removal would be unconstitutional, under either Wiener’s “nature of the function” or
Humphrey’s Executor’s “character of the office” inquiries. But that was not the Court’s conclusion. Morrison reasoned that Congress’s power “to impose a ‘good
cause’-type restriction on the President’s power to remove an official cannot be made to turn on whether or
not that official is classified as ‘purely executive.’ ” Id.
at 689. Instead it applied a new test: whether “the
Act, taken as a whole, violates the principle of separation
of powers by unduly interfering with the role of the Executive Branch.” Id. at 693. The Court ruled that the
independent counsel statute did not cause such interference. Indeed, it listed the Attorney General’s ability to
remove the independent counsel for cause among the
mechanisms adequately preserving presidential control.
Id. at 693, 696.
Appellants thus confront a precedential barrier they
cannot surmount: three cases affirming good-cause
tenure in a variety of circumstances; and a fourth case
affirming it again while invalidating a form of double
good-cause tenure not present here. 4

The concurring opinion tries to sidestep the precedential barrier
by turning to scholarship on the Decision of 1789 and other primary
sources that reveal founding-era viewpoints on presidential removal
4

120a
Appellants’ approach is to draw attention to a purportedly “unique constellation of independence-enhancing features” in the FHFA’s design. This claim derives
from phrases that the Court used in Free Enterprise
Fund. E.g., 561 U.S. at 483 (asking whether two “separate layers of protection may be combined”); id. at 510
(describing the PCAOB members’ “good-cause removal” as “only one of a number of statutory provisions
that, working together, produce a constitutional violation”) (emphasis added). The majority opinion picks
up on this language, deeming the FHFA’s structure unconstitutional due to the “combined effect” of its “unique
constellation of insulating features.”5 But these phrases
in Free Enterprise Fund were used to describe the novel
problem of two-layered good-cause tenure. The Court
was clear that the problematic novelty at issue in Free
Enterprise Fund was in contrast to the long-standing
legitimacy of single-layered good-cause tenure:
As explained, we have previously upheld limited restrictions on the President’s removal power. In
those cases, however, only one level of protected tenure separated the President from an officer exercising executive power. It was the President—or a
subordinate he could remove at will—who decided

power. The concurring opinion relies on one side of a vigorous scholarly debate about these materials. Amici scholars have helpfully
shown another, quite different side. See Brief of Harold H. Bruff,
Gillian E. Metzger, Peter M. Shane, Peter L. Strauss, and Paul R.
Verkuil, as Amici Curiae in Support of Defendants-Appellees, Collins v. Mnuchin, No. 17-20364 (5th Cir. Jan. 17, 2019).
5
See Collins v. Mnuchin, 896 F.3d 640, 661, 670 (5th Cir. 2018)
(per curiam). The en banc majority opinion incorporates the panel
opinion’s analysis. See Section VIII(A).

121a
whether the officer’s conduct merited removal under
the good-cause standard.
The Act before us does something quite different.
It not only protects Board members from removal except for good cause, but withdraws from the President any decision on whether that good cause exists.
That decision is vested instead in other tenured officers
—the Commissioners [of the SEC]—none of whom is
subject to the President’s direct control. The result
is a Board that is not accountable to the President,
and a President who is not responsible for the Board.
The added layer of tenure protection makes a difference.
591 U.S. at 495 (emphasis added). Thus, to import Free
Enterprise Fund’s phrases describing novel structures
into this case is to erase the distinction those descriptions were meant to draw. 6
Appellants’ challenge rests on a tenuous interpretation not only of Free Enterprise Fund but also of the
scholarly literature on administrative agency design. 7
Appellants argue, and the majority opinion agrees, that

For a thoughtful discussion of the significance that novelty should
have in constitutional analysis of agency design, see Leah M. Litman, Debunking Antinovelty, 66 DUKE L.J. 1407 (2017).
7
See, e.g., Kirti Datla & Richard L. Revesz, Deconstructing Independent Agencies (And Executive Agencies), 98 CORNELL L. REV.
769 (2013); Rachel Barkow, Insulating Agencies: Avoiding Capture Through Institutional Design, 89 TEXAS L. REV. 15 (2010).
One can only imagine the feelings of scholars who were motivated by
the “urgent need” for better institutional design against the threat
of agency capture, Barkow, 89 TEXAS L. REV. at 18, upon seeing their
work turned into a constitutional cudgel against that design.
6

122a
various otherwise unremarkable agency design features, through undescribed alchemy, combine to make
the FHFA Director unduly insulated from presidential
control. But upon a closer look, these assertions are
little more than debatable empirical claims—hardly the
firm footing judges need to take the bold step of declaring Congress’s agency design choices unconstitutional.
The majority opinion for the en banc D.C. Circuit addressing the constitutionality of the Consumer Financial Protection Bureau has already surveyed the dubious
empirical propositions on which Appellants and the majority opinion depend. See PHH Corp. v. Consumer
Fin. Prot. Bureau, 881 F.3d 75, 92-110 (D.C. Cir. 2018). 8
That wheel need not be reinvented here, 9 but a few
points may usefully be added.
The majority opinion gives weight to the purportedly
insulating effect of the FHFA’s single-headed structure,
but that structure may just as readily promote accountability as inhibit it, by spotlighting the obstacle in the
way of the President’s will. The majority opinion values the internal checks of a multimember structure, particularly when bipartisan balance is required, but such
structures tie a President’s hands as much as free them.
If the constitutional concern here is undue interference
with presidential control, an agency structure requiring
The majority opinion expresses no disagreement with the en banc
D.C. Circuit’s analysis affirming the constitutionality of the CFPB,
instead identifying “salient distinctions” between the CFPB and
FHFA. Collins, 896 F.3d at 673. With that lack of disagreement I
quite agree.
9
Cf. Consumer Fin. Prot. Bureau v. Seila Law LLC, 923 F.3d 680,
682 (9th Cir. 2019), petition for cert. docketed (June 28, 2019)
(No. 19-7) (likewise declining to “re-plow the same ground”).
8

123a
the President to appoint a political opponent can hardly
be said to enhance presidential sway. Such a structure
could not be said to have constitutional significance either. The Supreme Court never suggested in Free Enterprise Fund that the internal dynamics fostered by
the PCAOB’s multimember structure might avoid a constitutional violation. 10 The dubiousness of these various claims in turn makes their “combined effect” yet more
questionable. 11
As I suggested at the outset, Appellants have not
elaborated how for-cause removal protection itself is an
undue barrier to presidential control, rather than a useful tool thereof, as Morrison held. 487 U.S. at 696. In
this connection, it warrants mention that Humphrey’s
Executor and Wiener, in which the removed officials
prevailed, were suits for backpay in the Court of Claims,
not emergency suits for injunctions to block removal.
See Wiener, 357 U.S. at 350-51; Humphrey’s Executor, 12
A common argument from parties and judges skeptical of agency
insulation is that the multi-member structure of the FTC—a “body
of experts”—was an essential part of the Court’s decision in Humphrey’s Executor affirming the FTC’s structure. See, e.g., PHH
Corp., 881 F.3d at 98-99 (majority opinion’s explanation of challengers’ argument); id. at 143, 150-51 (Henderson, J., dissenting). But
that quote appeared in Humphrey’s Executor’s treatment of a preliminary statutory issue, not in its constitutional analysis. Compare
295 U.S. at 621-26 (statutory); id. at 626-32 (constitutional); see PHH
Corp., 881 F.3d at 98-99 (making this observation).
11
Relatedly, it is debatable that the FHFA’s features are in fact
unique. One scholarly treatment of “indicia of independence” identified seven salient features, of which the FHFA and eight other
agencies had five, ten agencies had six, and four agencies had seven.
See Datla & Revesz, 98 CORNELL L. REV. at 825.
12
Humphrey had died; hence that case’s unusual name.
10

124a
295 U.S. at 618-19. No one has put forward an example
of the President being blocked from removing an official
at the FHFA Director’s level. Thus, the actuality of
the protection in practice is anyone’s guess. 13
Moving from generalities to specifics, the FHFA
does not exhibit undue insulation. As Judge Costa’s
opinion explains, the FHFA undertook every action at
issue here by agreement with the Secretary of the Treasury, a purely executive officer serving at the pleasure of
the President. The President thus had direct control
via the bargaining power of the Secretary.
Moreover, two unusual features present in Free Enterprise Fund are not present here. First, the statutory grounds for removal of PCAOB members set an
“unusually high standard.” 561 U.S. at 502-03. 14 By contrast, the FHFA’s authorizing statute, as noted above,
Justice Scalia’s noted dissent in Morrison delved into the difficult political dynamics likely to engulf presidential removal of an
official statutorily protected against removal without cause. See
487 U.S. at 702-03 (intuiting that “[t]he context of this statute is
acrid with the smell of threatened impeachment,” and noting the
“bitter power dispute” giving rise to the case). Concededly, we
have a duty to determine the constitutionality of statutes. See Zivotovsky ex rel. Zivotovsky v. Clinton, 566 U.S. 189, 197 (2012) (relating removal jurisprudence to the political-question doctrine).
But, to the extent we find ourselves basing constitutional reasoning
on hypothesized trajectories of interbranch politics, it is cause for
reflection on the wisdom of what we are doing. For a nuanced and
somewhat contrary view of how such hypothesizing might be factored into adjudication, see Adrian Vermeule, Conventions of
Agency Independence, 113 COLUM. L. REV. 1163 (2013).
14
“A [PCAOB] member cannot be removed except for willful violations of the [Sarbanes-Oxley] Act [of 2002], Board rules, or the securities laws; willful abuse of authority; or unreasonable failure to
enforce compliance—as determined in a formal Commission order,
13

125a
says merely that the Director shall serve a five-year
term “unless removed before the end of such term for
cause by the President.” 12 U.S.C. 4512(b)(2). Though
this provision is the centerpiece of Appellants’ constitutional claim and of the majority opinion’s constitutional
remedy, no party and no part of the majority opinion
suggests what this text should mean. It is at least quite
plain that the text sets a lower bar than the PCAOB statute. 15 Second, members of the PCAOB were removable
only by formal order of the SEC, and such orders are
subject to judicial review. Free Enter. Fund, 561 U.S.
at 502 (citing 15 U.S.C. § 78y(a)(1)). The President
would thus have to persuade not only the SEC commissioners but also an Article III court that removal was
appropriate. No such obstacle exists here.
Finally, the nature of the FHFA’s function and the
character of the Director’s office matter, even though
Morrison downgraded Wiener’s and Humphrey’s Executor’s inquiries from a determinative to a subsidiary
level. See Morrison, 487 U.S. at 691. The majority
and dissenting opinions on Appellants’ statutory claims
cover the relevant ground. As their discussions make
rendered on the record and after notice and an opportunity for a
hearing. [15 U.S.C.] § 7217(d)(3); see § 78y(a). The Act does not even
give the Commission power to fire Board members for violations of
other laws that do not relate to the Act, the securities laws, or the
Board’s authority. The President might have less than full confidence in, say, a Board member who cheats on his taxes; but that
discovery is not listed among the grounds for removal under
§ 7217(d)(3).” 561 U.S. at 503.
15
See Datla & Revesz, 98 CORNELL L. REV. at 788 (“Statutes that
specify that an appointee cannot be removed except for ‘good cause’
confer the weakest protection,” in contrast to statutes enumerating
specific grounds).

126a
clear, the FHFA Director wields no prosecutorial power
as the independent counsel in Morrison had. The Director has powers of regulation and enforcement, like
the PCAOB, though only over the government-sponsored enterprises, Fannie Mae and Freddie Mac, and affiliated entities. See Free Enter. Fund, 561 U.S. at
485-86 (PCAOB’s powers); 12 U.S.C. § 4631 (Director’s
cease-and-desist proceedings). This appeal does not
arise from the use of those powers, nor has any party
shown us examples of their misuse. Instead, this appeal arises from the FHFA’s conservatorship function, 16
a role one would be hard-pressed to characterize as near
the heart of executive power. 17 To the extent that the
Supreme Court’s removal doctrine has been animated
by a concern for preserving presidential control over the
core of that power, this is not a case that should stir us
to act.
*

*

*

Regarding Appellants’ constitutional claim against
the FHFA, I see only reasons for caution and skepticism, and none for action. Neither the Constitution’s
text, nor the Supreme Court’s constructions thereof, nor
The Secretary of the Treasury, an appellee in this matter, relies
on our caselaw distinguishing the “non-governmental” power wielded
by agencies acting as conservators or receivers of struggling financial institutions from the power wielded by agencies acting as regulators. See, e.g., United States v. Bezborn, 21 F.3d 62, 68 (5th Cir.
1994) (concerning the Resolution Trust Corporation, a model for the
FHFA’s design).
17
Cf. A. Michael Froomkin, Note, In Defense of Administrative
Agency Autonomy, 96 YALE L.J. 787, 809-12 (1987) (identifying a
given power’s enumeration in Article I versus Article II as the key
criterion in determining whether Congress may insulate from presidential control an agency acting pursuant to that power).
16

127a
the adversary process in this litigation has given us
much ground on which to declare the FHFA’s design unconstitutional. If so thin a record may be made the basis for invalidating Congress’s considered response to a
major crisis in American life, I am apprehensive about
the responsible use of our nullification power henceforth.

128a
GREGG COSTA, Circuit Judge, joined by STEPHEN A.
HIGGINSON, Circuit Judge, dissenting in part:
In a separation-of-powers case, our vigilance should
first be directed at the constitutional limits on our own
power. Raines v. Byrd, 521 U.S. 811, 819 (1997) (“[O]ur
standing inquiry has been especially rigorous when
reaching the merits of the dispute would force us to decide whether an action taken by one of the other two
branches of the Federal Government was unconstitutional.”). We have failed in that duty. In concluding
that unravelling the Net Worth Sweep is not the remedy
for the allegedly unconstitutional insulation of the
FHFA, the court recognizes that the President has always maintained “oversight” of the Net Worth Sweep.
Majority Op. (Remedy) 58. But that conclusion does
not just resolve the final question for the constitutional
claim. It also answers the first question any case
poses: Is there jurisdiction?
The answer is “no” because presidential control of
the Net Worth Sweep means there is no connection between the good-cause removal provision for FHFA Directors that plaintiffs challenge and the injury from the
New Worth Sweep they allege. In other words, the
limitation on the removal power did not cause their injury.
The requirement that an alleged constitutional defect
caused the plaintiff ’s injury is part of the threshold
standing inquiry—the standing lingo is “traceability”—
that ensures we are only deciding constitutional issues
when they arise in “cases” or “controversies.” Raines,
521 U.S. at 818-19. For numerous reasons described
below (some of which are recognized in the court’s remedial ruling), the Net Worth Sweep is not traceable to

129a
the for-cause limitation on the President’s power to remove the FHFA Director. In deciding whether Congress has violated the separation of powers at the behest
of plaintiffs who lack standing, we violate the separation
of powers ourselves. See Clapper v. Amnesty Int’l,
568 U.S. 398, 408 (2013) (“The law of Article III standing
. . . is built on separation-of-powers principles.”).
This is not just a case in which plaintiffs fail to prove
standing; the history and nature of the Net Worth
Sweep, as well as the Shareholders’ own allegations, disprove standing. Let us count the ways the record refutes the required causal link.
For starters, the Acting Director of the FHFA who
agreed to the Third Amendment was subject to full removal power. See 12 U.S.C. § 4512(f ) (allowing Acting
Directors with no limits on the President’s ability to remove them). Recognizing the problem for this lawsuit
if the FHFA was not insulated from presidential control
at the Net Worth Sweep’s inception, the majority opinion contends that the for-cause limit on removal also applies to Acting Directors. Maj. Op. 48. This novel
reading is a stark departure from textualist principles.
Unlike the tenure protection the statute provides
the FHFA’s Senate-confirmed Directors, 12 U.S.C.
§ 4512(b)(2), it does not impose a forcause limitation on
the removal of Acting Directors. 12 U.S.C. § 4512(f ).
“[I]t is a general principle of statutory construction that
when Congress includes particular language in one section of a statute but omits it in another section of the
same Act, it is generally presumed that Congress acts
intentionally and purposely in the disparate inclusion
or exclusion.” Barnhart v. Sigmon Coal Co., Inc.,
534 U.S. 438, 452 (2002) (quotations omitted).

130a
That Congress created the FHFA as “an independent agency,” Majority Op. at 48 (citing 12 U.S.C.
§ 4511(a)), is no license for us to graft onto the statute a
for-cause limitation on removal of Acting Directors that
Congress did not include. 1 As the Office of Legal Counsel recently pointed out, “Congress does not, by purporting to give tenure protection to a Senate-confirmed
officer, afford similar protection to an individual who
temporarily performs the functions and duties of that
office when it is vacant.” Designating an Acting Director of the Bureau of Consumer Financial Protection,
41 Op. O.L.C. ___, 2017 WL 6419154, Slip Op. at 11 (Nov.
25, 2017). The D.C. Circuit agrees that courts should
not create for-cause removal restrictions for officers
Congress does not explicitly protect. Swan v. Clinton,
100 F.3d 973, 988 (D.C. Cir. 1996) (refusing to assume
certain officials retained removal protection after their
terms expired because the statute allowing those officials to continue in a “holdover capacity” made no mention of such protection). No authority has ever read in
tenure protection for acting officials not subject to Senate confirmation. 2

The court is looking in the wrong place for the removal power
over Acting Directors when it states that Section 4512(f ) “does not
explicitly address removal.” Majority Op. at 48. That power comes
from the Constitution, not Congress. Myers v. United States,
272 U.S. 52, 163-64 (1926). One would thus search in vain for a statute giving the President authority to remove the Attorney General,
the Secretary of Defense, or any other cabinet secretary.
2
Wiener v. United States read in tenure protection only for Senate-confirmed officials, not for acting officials, who in another respect are already exclusively the product of presidential power
because they do not go through the advice-and-consent process.
357 U.S. 349, 350 (1958). And unlike the FHFA statute and the
1

131a
Doing so for the first time here is particularly problematic because penciling in a for-cause limitation on the
removal of Acting Directors creates a constitutional issue. In interpreting statutes, we are supposed to avoid
constitutional difficulties, not create them. Edward J.
Bartolo Corp. v. Fla. Gulf Coast Bldg. & Const. Trades
Council, 485 U.S. 568, 575 (1988) (“[W]here an otherwise
acceptable construction of a statute would raise serious
constitutional problems, the Court will construe the
statute to avoid such problems unless such construction
is plainly contrary to the intent of Congress.”).
Why turn these cardinal rules of statutory construction upside down? Because the implication is quite
clear when the statute governing Acting Directors is
read according to its plain language: If the FHFA
agreed to the Net Worth Sweep when its leader was
fully accountable to the President, then any injury that
policy caused is not traceable to the for-cause removal
limitation the Shareholders seek to challenge. Indeed,
CFPB statute OLC addressed, Wiener was not a case in which
Congress extended for-cause protection to one kind of officer and
not to another. The “expressio unius est exclusio alterius” canon
thus had no role in Wiener. Instead, it was addressing a complete
silence as to removal. Here there is no “congressional failure of
explicitness”—Congress explicitly gave tenure protection only to
Senate-confirmed Directors. Id. at 352. Finally, Wiener predates Morrison v. Olson’s shift in removal power cases from a focus
on the nature and function of the office in question (that is, whether
the officer performing purely executive functions and therefore in
need of greater presidential control) to one about the degree to
which the president’s prerogative is impaired. See 487 U.S. 654,
691 (1988). The “intrinsic judicial character” of the War Claims
Commission made its members one of the stronger candidates for
tenure protection under the then-governing conception of removal
power. Wiener, 357 U.S. at 355.

132a
this may be why none of the numerous other statutory
challenges to the Net Worth Sweep that courts of appeals have decided included the constitutional claim
about the removal power.
See Jacobs v. FHFA,
908 F.3d 884 (3d Cir. 2018); Saxton v. FHFA, 901 F.3d
954 (8th Cir. 2018); Roberts v. FHFA, 889 F.3d 397 (7th
Cir. 2018); Robinson v. FHFA, 876 F.3d 220 (6th Cir.
2017); Perry Capital LLC v. Mnuchin, 864 F.3d 591
(D.C. Cir. 2017). As for the only other case that challenged the removal power in connection with the Net
Worth Sweep, a court dismissed it for lack of standing,
recognizing that the policy came from an Acting Director subject to full presidential control.
Bhatti v.
FHFA, 332 F. Supp. 3d 1206, 1213-14 (D. Minn. 2018),
appeal docketed, No. 18-2506 (8th Cir. July 16, 2018).
The role of a presidentially accountable FHFA official in agreeing to the Net Worth Sweep is enough to
reject traceability. But there is more.
The Shareholders’ allegations confirm that the Third
Amendment was not the product of any improper insulation of the FHFA from presidential control. In fact,
their theory is the opposite—that the Third Amendment
was a “deliberate strategy” of the Obama Administration. The complaint often refers FHFA and Treasury
collectively as “the Agencies,” not as independent actors. The Shareholders allege that “those Agencies initiated a long-term policy of seeking to seize control of
Fannie and Freddie.” They further contend that the
Net Worth Sweep was part of “the Administration’s
plans to keep Fannie and Freddie in perpetual conservatorship.”

133a
Treasury’s role provides even more proof that the
Net Worth Sweep is not traceable to the for-cause removal limitation. The necessary and ongoing involvement of an agency not suffering from any alleged constitutional defect is an unusual feature in a separation-ofpowers case. 3 Ever since Treasury was established in
1789 as the third department in the executive branch, 4
its secretary has been subject to at-will removal. So
even if the President could not express any disapproval
of the Net Worth Sweep policy through the FHFA once
a Senate-confirmed Director replaced the Acting Director, the Treasury Secretary was always an outlet for any
such views. Yet Treasury has continued to accept the
dividends for each of the past 27 quarters (since the
Third Agreement was signed in August 2012), showing
that Treasury’s leadership has not viewed the Net
Worth Sweep as out of step with the preferred policy of
either the Obama or Trump Administration. If that
stance ever changes, all it would take is for the President to direct the Treasury Secretary to stop accepting
the dividends.

Indeed, the Treasury Secretary is the lead defendant in this case,
demonstrating that the executive branch is enforcing the policy that
the Shareholders contend is the product of an improperly insulated
bureaucrat.
4
The First Congress created Treasury on September 2, 1789. An
Act to Establish the Treasury Department, 1 Stat. 65, Ch. 12, 65-67
(1789). Earlier in that first year of the republic, the State Department (then called the Department of Foreign Affairs) was created
on July 27 and the War Department on August 7. An Act for Establishing an Executive Department, to Be Denominated the Department of Foreign Affairs, 1 Stat. 28, Ch. 4, 28-29 (1789); An Act
to Establish an Executive Department, to Be Denominated the Department of War, 1 Stat. 49, Ch. 7, 49-50 (1789).
3

134a
Looking at the government officials involved in both
the creation and continuation of the Net Worth Sweep
leads to one conclusion: The injury Shareholders complain about in no way flows from any limits on the President’s ability to influence FHFA policy.
Nor can the Shareholders rely on “regulated entity”
standing. That doctrine describes removal power cases
in which courts have found standing because the party
bringing the challenge is under investigation. Free Enter. Fund v. Pub. Co. Accounting Oversight Bd., 561 U.S.
477, 487-88 (2010); Morrison v. Olson, 487 U.S. 654, 66768 (1988); PHH Corp. v. Consumer Fin. Prot. Bureau,
881 F.3d 75, 82 (D.C. Cir. 2018). But those cases were
brought by the individuals or corporations subject to
agency authority. In contrast, the FHFA is not “overseeing” or regulating the Shareholders. To the extent
it is engaged in ongoing oversight of anything, it is of the
government sponsored entities. Corporate law distinguishes between a corporation and its shareholders for
standing purposes; a shareholder, or even a majority of
them, cannot litigate in the shoes of the corporation. 5
A derivative suit is the notable exception. As noted in the majority opinion, our sister circuits have determined that the FHFA,
not the Shareholders, has sole authority to bring a derivative suit.
Maj. Op. 21-22. See also Roberts, 889 F.3d at 408; Perry Capital,
864 F.3d at 624. And while two circuits have found an exception in
an analogous situation—when the FDIC as conservator of a bank
has a conflict of interest with respect to a particular claim—no such
exception to HERA’s grant of “all rights, titles, powers, and privileges of the regulated entity, and of any stockholder” to the FHFA
as conservator appears in the statutory text.
12 U.S.C.
§ 4617(b)(2)(A)(i); Roberts, 889 F.3d at 409-10.
But those issues arise in the context of whether Shareholders can
bring their statutory claim. The majority opinion concludes that
5

135a
See Dole Food Co. v. Patrickson, 538 U.S. 468, 474-75
(2003) (“A basic tenet of American corporate law is that
the corporation and its shareholders are distinct entities. An individual shareholder, by virtue of his ownership of shares, does not own the corporation’s assets.
. . . ” (citations omitted)); Fox v. Harbottle, 2 Hare
461 (Eng. 1843) (seminal corporate law case holding that
the proper plaintiff in an action alleging an injury to the
corporation is the corporation). Think of the potential
for chaos if the law were otherwise. Any shareholder
of a corporation—for major ones like Wal-Mart or
GE we are talking about tens of thousands of potential
plaintiffs—could claim to represent the company despite shareholders holding widely varying views on issues affecting the corporation. Consistent with the
long-established rule that a business entity has to litigate on its own behalf, no case has recognized that the
shareholders of a regulated entity have standing to
bring constitutional challenges to the structure of the
regulator. That astonishingly expansive view of regulated entity standing cannot be the law.
So if Shareholders have standing at all, it must be
founded on harms the Net Worth Sweep directly inflicts
on them. On that score, while the standing requirements are sometimes relaxed in separation-of-powers
cases, 6 they are not removed. See Bond v. United
this is a direct shareholder action. That analysis does not carry
over to standing for the constitutional claims based on regulated entity status. For that, it has always been the entity being regulated
—not its shareholders—that has standing to challenge the structure
of the regulating agency.
6
One important way standing is relaxed is that we do not require
the branch of government whose powers are being encroached to

136a
States, 564 U.S. 211, 225 (2011) (continuing to require
that a plaintiff must show an “actual or imminent harm
that is concrete and particular, fairly traceable to the
conduct complained of, and likely to be redressed by a
favorable decision”). The Supreme Court has loosened
the standing inquiry when it was not possible to know if
the allegedly unconstitutional structure of an agency
caused the challenger’s injury. See Free Enter. Fund,
561 U.S. at 512 n.12. Given the usual difficulty of proving that “counterfactual world,” plaintiffs do not have to
prove that causation is more than a possibility when the
alternative reality is unknowable. Id; see also Landry
v. F.D.I.C., 204 F.3d 1125, 1131 (D.C. Cir. 2000) (explaining the traceability requirement is relaxed when it is
“difficult or impossible for someone subject to a wrongly
designed scheme to show that the design . . . played
a causal role in his loss”). 7 But it is one thing to give
plaintiffs the benefit of the doubt when we cannot know
bring the separation-of-powers claim. Because structural limitations in the Constitution protect individual liberty, affected individuals can bring such claims. See Bond v. United States, 564 U.S. 211,
222-23 (2011) (discussing the rationale). But that does not mean
they don’t have to be affected by the allegedly unconstitutional law.
7
In its standing discussion, court cites another line from Free
Enterprise—that “the separation of powers does not depend on the
views of individual Presidents, nor on whether ‘the encroached-upon
branch approves the encroachment.’ ” Majority Op. 44 (quoting
Free Enter. Fund, 561 U.S. at 497 (quoting New York v. United
States, 505 U.S. 144, 182 (1992))). But the Supreme Court did not
make that comment in discussing standing. It instead was directed
at the merits, pointing out that presidential acquiescence in a limit
on removal power does not eliminate the constitutional defect. Free
Enter. Fund, 561 U.S. at 496. The standing inquiry requires us to
answer not whether “the encroached-upon branch approves the encroachment,” but instead whether the encroachment caused the injury.

137a
if a properly structured agency would have taken the
same action. It is quite another to ignore the traceability requirement when there is no doubt that the alleged constitutional error did not cause the plaintiffs’ injury. That is the case here. We know the Net Worth
Sweep is a presidentially-sanctioned policy because a
Treasury Secretary and Acting Director of FHFA subject to full removal authority adopted the policy, and the
presidentially-controlled Treasury has continued to enforce it. If there is standing even in this situation when
real world events disprove traceability, then there is
nothing left of the Article III limitation. 8
Two other cases the Shareholders rely on are inapposite. Noel
Canning arose directly from an enforcement action brought by the
challenged agency, so standing was not even discussed. N.L.R.B.
v. Noel Canning, 573 U.S. 513 (2014). Beyond that, the case involved an unconstitutional appointment, not an improperly insulated
agency. That is an important distinction—any action an improperly appointed agency official takes is “void ab initio.” Noel Canning v. N.L.R.B., 705 F.3d 490, 493 (D.C. Cir. 2013), aff ’d, 573 U.S.
513 (2014). Whereas a lack of authority permeates every agency
action, a lack of oversight only injures a regulated party if the required oversight would have made a difference. Compare Lucia
v. S.E.C., 138 S. Ct. 2044, 2055 (2018) (vacating and remanding decision of an improperly appointed ALJ) with Free Enter. Fund,
561 U.S. at 508 (rejecting the “broad holding” that improper insulation rendered the challenged agency “and all power and authority
exercised by it in violation of the Constitution” (quotation omitted)).
Bowsher v. Synar may provide even less assistance. 478 U.S.
714 (1986). For one, as Judge Higginson points out, that case is
less about limiting the President’s ability to control an agency and
more about placing executive authority in the hands of a legislative
officer. Higginson Op. at 3. And in any case, unlike here, in
Bowsher there was evidence that the constitutional defect prevented the President from carrying out his preferred policy. See
Brief for the United States, Bowsher v. Synar, 478 U.S. 714 (1986),
8

138a
Because presidential control over the creation and
enforcement of the Net Worth Sweep refutes any link
between it and the challenged limits on presidential
oversight of the FHFA, Shareholders have little more
claim to litigate the structure of that agency than any
taxpayer would.
Hein v. Freedom from Religion
Found., 551 U.S. 587, 609-10 (2007) (recognizing that
taxpayer standing generally does not exist). If they
could be parties to this case, most taxpayers would present a different perspective on the Net Worth Sweep.
It has helped repay the roughly $190 billion taxpayers
lent to bail out Fannie and Freddie before the 2008 financial collapse—a key component of the recovery from
the Great Recession given the outsized role of Fannie
and Freddie in the housing market. 9 Plaintiffs who invested before the collapse would have lost their entire
investment were it not for the bailout. Those who have
invested since have paid “pennies on the dollar” in a
speculative play based on hopes that either the Treasury
Department would change the Net Worth Sweep policy
or that the courts would undo it for them. See Robert
Stowe England, Against All Odds: The Long Bet on
1986 WL 728082, at *44-51. Indeed, the central purpose of the
statute challenged in Bowsher was to tie the President’s hands and
force him to sequester funds hand-selected by a Comptroller General who answered directly to Congress. Bowsher, 478 U.S. at
718. So standing for union members whose cost of living adjustments were withheld as a result of sequestration was easily
satisfied—their money was sequestered at the behest of a Comptroller General who never should have had that authority in the
first place. Id. at 721.
9
Shareholders point out that now, more than a decade later, the
dividends have repaid the billions lent. But looking only at the
principal ignores the return one would expect based on the risk the
enormous sum would not be repaid and the time value of money.

139a
Fannie Mae and Freddie Mac, Institutional Investor,
Sept. 6, 2013. 10 The former may happen. Treasury is
reviewing whether to end the conservatorship, yet another reminder that the President has always held full
policymaking authority over this issue.
Andrew
Ackerman, Administration Nears Plan to Return Fannie, Freddie to Private Ownership, WALL ST. J., May 30,
2019. 11 But if we were to grant Shareholders that relief
based on their separation-of-powers claim, they would
be receiving not just a financial windfall. Unravelling
the Net Worth Sweep because of limits on the removal
power that had nothing to do with the creation or continuation of that financial policy would also be giving
Shareholders a constitutional windfall.

Available at https://www.institutionalinvestor.com/article/b14zb
cy3kts0t7/againstallodds-the-long-bet-on-fannie-mae-and-freddiemac.
11
Available at https://www.wsj.com/articles/administration-nearsplan-to-returnfannie-mae-freddie-mac-to-private-ownership-115592
5207.
10

140a
WILLETT, Circuit Judge, joined by JONES, SMITH, ELROD, HO, ENGELHARDT, and OLDHAM, Circuit Judges,
dissenting in part:
In my view, the proper remedy for Count IV is to vacate the Third Amendment. I respectfully dissent
from the court’s decision to instead grant a prospective
remedy.
I
When a plaintiff with Article III standing challenges
the action of an unconstitutionally-insulated officer, that
action must be set aside. In Bowsher v. Synar, the Supreme Court held the Comptroller General could not
prescribe budget reductions because he was not removable by the President. 1 “Once an officer is appointed,
it is only the authority that can remove him, and not the
authority that appointed him, that he must fear and, in
the performance of his functions, obey.” 2 The Comptroller General exercised executive power: His role required him to “interpret” the law and “exercise judgment” in applying it. 3 Because he did so outside the
President’s supervision, the Court set aside his sequestration order. The Court affirmed the district court’s
judgment “that the presidential sequestration order issued . . . pursuant to the unconstitutional automatic
deficit reduction process be, and hereby is, declared
without legal force and effect.” 4

478 U.S. 714, 736 (1986).
Id. at 726 (quoting Synar v. United States, 626 F. Supp. 1374,
1401 (D.D.C. 1986)).
3
Id. at 733.
4
Synar, 626 F. Supp. at 1404, aff ’d, 478 U.S. at 736.
1
2

141a
Synar’s remedial approach applies here. It is the
only Supreme Court case that presented the issue. In
Myers v. United States, the Court upheld a postmaster’s
removal, so it had no need to grant relief against past
government action. 5 In Morrison v. Olson, the Court
found no constitutional defect in the independent counsel’s removal protection, so it granted no relief. 6
In Free Enterprise Fund, the Court held the Public
Company Accounting Oversight Board’s double forcause removal protection unconstitutional. 7 But no Board
action had become final against the plaintiff, an accounting firm. 8 So the Court “excised” the offending removal
protection from the statute going forward. 9 The plaintiff
had standing for prospective relief because the challenged agency “regulate[d] every detail of an accounting
firm’s practice.” 10 The unconstitutionally-insulated regulator inflicted an ongoing injury.
Here, in contrast, FHFA generally regulates the
GSEs, not their shareholders. And the Third Amendment, which became final in 2012, caused the Shareholders’ injury. So I disagree with Judge Duncan’s view
that Free Enterprise Fund, or any Supreme Court decision, counsels against a vacatur remedy in this case.
And the Shareholders’ lack of “regulated party” standing separates me from Judge Haynes’s remedial theory.
272 U.S. 52, 176 (1926); see id. at 106.
487 U.S. 654, 691-92 (1988).
7
Free Enter. Fund v. Pub. Co. Accounting Oversight Bd., 561 U.S.
477, 496 (2010).
8
Id. at 490.
9
Id. at 509.
10
Id. at 485.
5
6

142a
Despite having no occasion to vacate agency action,
Free Enterprise Fund reinforces Synar’s principle that
an unconstitutionally-insulated officer may not exercise
executive power. “[T]he Framers sought to ensure
that ‘those who are employed in the execution of the law
will be in their proper situation, and the chain of dependence be preserved; the lowest officers, the middle grade,
and the highest, will depend, as they ought, on the President, and the President on the community.’ ” 11 “By
granting the Board executive power without the Executive’s oversight, this Act subverts the President’s ability
to ensure that the laws are faithfully executed—as well
as the public’s ability to pass judgment on his efforts.
The Act’s restrictions are incompatible with the Constitution’s separation of powers.” 12
II
Unconstitutional protection from removal, like unconstitutional appointment, is a defect in authority.
Appointments Clause decisions routinely set aside
agency action. In Lucia v. SEC, the Court held that
administrative law judges must be appointed by a “head
of department,” not by staff. 13 As remedy, the Court
granted a new hearing before a different ALJ. 14 It disapproved curing the defective appointment by a quick
(already-issued) ratification of the ALJ’s appointment. 15
Similarly, in NLRB v. Noel Canning, the Court held

11
12
13
14
15

Id. at 498 (quoting 1 Annals of Cong. 499 (J. Madison)).
Id.
138 S. Ct. 2044, 2051 (2018).
Id. at 2055.
Id. at 2055 nn.5 & 6.

143a
that three NLRB Members were unconstitutionally appointed without Senate advice and consent. 16 It affirmed
the Court of Appeals’s decision that the NLRB order,
issued without a properly-appointed quorum, was “invalid.” 17
These cases are apt because there, as here, a defect
in authority made agency action unlawful. In debating
the first executive agencies, James Madison insisted the
President naturally had “the power of appointing, overseeing, and controlling those who execute the laws.” 18
Unlike judicial power or (arguably) legislative power,
executive power can be delegated. 19 But if an unconstitutional removal protection breaks the “chain of depend-

573 U.S. 513, 519 (2014) (interpreting U.S. CONST. art. II, § 2, cl.
3, Recess Appointments Clause).
17
Id. at 521; see id. at 557.
18
1 Annals of Cong. 463 (1789).
19
See Mistretta v. United States, 488 U.S. 361, 424 (1989) (Scalia,
J., dissenting) (citing Wolsey v. Chapman, 101 U.S. 755 (1880); Williams v. United States, 42 U.S. 290 (1843)) (“Although the Constitution says that ‘[t]he executive Power shall be vested in a President
of the United States of America,’ Art. II, § 1, it was never thought
that the President would have to exercise that power personally.
He may generally authorize others to exercise executive powers,
with full effect of law, in his place.”).
16

144a
ence” between the officer and the President, the delegation breaks down too. 20 An unconstitutionally-insulated
officer lacks authority to act. 21
Treasury contends that when agency action is held
unlawful, vacatur is not mandatory but subject to equitable remedial authority. 22 And it maintains that the
case for such relief here is weak. The Shareholders
waited four years to sue; vacatur might disrupt the
GSEs’ operations or the housing market generally; and
the Shareholders wielded 20/20 hindsight to target an
initially risky, but now astute, Treasury bargain. It
also says the case for equitable relief here is worse than
Synar, where the statutory fallback provision was ready
at hand. 23
These arguments do not defeat vacatur here. Appointments Clause cases refute the point that vacatur is
too disruptive. As a remedial matter, Lucia granted
Free Enter. Fund, 561 U.S. at 498 (quoting 1 Annals of Cong.
499 (J. Madison)); see Kisor v. Wilkie, 139 S. Ct. 2400, 2413 (2019)
(opinion of Kagan, J.) (“[A]gencies . . . have political accountability, because they are subject to the supervision of the President,
who in turn answers to the public.”).
21
See Free Enter. Fund, 561 U.S. at 498; Neomi Rao, Removal:
Necessary and Sufficient for Presidential Control, 65 ALA. L. REV.
1205, 1242 (2014) (“Removal . . . provides the constitutionally
requisite presidential control.”).
22
Cf. Abbott Labs. v. Gardner, 387 U.S. 136, 155 (1967) (stating in
APA context that “the declaratory judgment and injunctive remedies are equitable in nature, and other equitable defenses may be
interposed”); see also Weinberger v. Romero-Barcelo, 456 U.S. 305,
311-19 (1982) (holding that traditional equitable principles apply to
injunctive relief unless Congress intervenes to guide the courts’ discretion).
23
Cf. 478 U.S. at 734-36.
20

145a
the petitioner a new hearing based on an appointment
defect that was common to every single SEC ALJ. 24 Noel
Canning held an NLRB order invalid because of three
defective appointments, which infected all the Board’s
actions during those Members’ tenure. 25 If setting
aside agency action was proper in those cases, it is
proper here. FHFA and Treasury have other tools to
arrange their affairs going forward. The FHFA Director, constitutionally supervised by the President, generally can enter new agreements or ratify past ones that
are not challenged here. As for the Third Amendment,
it must be aside. The Shareholders have invoked judicial review of agency action that injured them in fact and
violated the separation of powers. 26
Treasury’s cases urging equitable discretion are distinguishable. They discuss prospective remedies like
prohibitory or mandatory injunctions, not vacatur of
agency action that violated the separation of powers. 27
138 S. Ct. at 2049, 2055.
573 U.S. at 520-21, 557.
26
See Bond v. United States, 564 U.S. 211, 223 (2011) (“If the constitutional structure of our Government that protects individual liberty is compromised, individuals who suffer otherwise justiciable injury may object.”); Synar, 478 U.S. at 736 (setting aside sequestration order because “the powers vested in the Comptroller General
. . . violate the command of the Constitution”).
27
See North Carolina v. Covington, 137 S. Ct. 1624, 1625 (2017)
(per curiam) (reversing special-election injunction in redistricting
case); Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 12 (2008)
(reversing preliminary injunction against Navy sonar training);
eBay Inc. v. MercExchange, LLC, 547 U.S. 388, 394 (2006) (holding
that traditional four-factor test applies to injunctions against patent
infringement); Weinberger, 456 U.S. at 320 (holding that Federal
Water Pollution Control Act did not mandate injunctions against its
violation).
24
25

146a
In contrast, neither Synar, Lucia, nor Noel Canning
discusses equitable-discretion principles or applies the
four-factor test for granting an injunction.
III
Although setting aside agency action is not subject to
the four-factor injunction standard, it remains an equitable remedy. Doing so here is like rescinding a contract. “A transfer by an agent, trustee, or other fiduciary outside the scope of the transferor’s authority, or
otherwise in breach of the transferor’s duty to the principal or beneficiary, is subject to rescission and restitution.” 28 The Third Amendment is the smallest independent agreement that caused the Shareholders’ injury, so that is what to rescind. When a contract is rescinded, restitution is generally in order, and the plaintiff may also need to return benefits it received. 29 I
would recognize the district court’s authority, on remand, to decide the parties’ rights and duties to restore
their rightful position. So I don’t share Judge Haynes’s
concern that this remedy resembles a “pick-and-choose
approach” and grants Shareholders a windfall.
* * *
The Shareholders are entitled to declaratory judgment that the Third Amendment exceeded FHFA’s lawful authority because the agency adopted it outside the

28
RESTATEMENT (THIRD) OF RESTITUTION AND UNJUST ENRICHMENT § 17 (AM. LAW INST. 2011).

See id. (“The transferee is liable in restitution to the principal or
beneficiary as necessary to avoid unjust enrichment.”).
29

147a
President’s supervision. 30 This analysis also supports
an injunction vacating the Third Amendment. 31 In light
of recent developments, I would remand Count IV to the
district court for entry of a judgment consistent with
this opinion. 32

See Free Enter. Fund, 561 U.S. at 513 (holding petitioners were
entitled to declaratory relief that PCAOB standards “will be enforced only by a constitutional agency accountable to the Executive”); see also Kisor, 139 S. Ct. at 2413 (opinion of Kagan, J.)
(“[A]gencies . . . have political accountability, because they are
subject to the supervision of the President, who in turn answers to
the public.”).
31
See Synar, 478 U.S. at 736, aff ’g Synar, 626 F. Supp. at 1404 (ordering “that the presidential sequestration order issued . . . pursuant to the unconstitutional automatic deficit reduction process be,
and hereby is, declared without legal force and effect”).
32
FHFA’s newly appointed Director has publicly indicated he is
considering renegotiating FHFA’s agreements with Treasury. Andrew Ackerman & Ben Eisen, Push to Overhaul Fannie, Freddie
Nudges Up Mortgage Costs, WALL STREET J. (June 25, 2019,
https://www.wsj.com/articles/trump-push-on-housing-finance-nudgesup-mortgage-costs-11561474203?mod=searchresults&page=1&pos=2).
30

148a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 17-20364
PATRICK J. COLLINS; MARCUS J. LIOTTA;
WILLIAM M. HITCHCOCK, PLAINTIFFS-APPELLANTS
v.
STEVEN T. MNUCHIN, SECRETARY, U.S. DEPARTMENT
OF TREASURY; DEPARTMENT OF THE TREASURY;
FEDERAL HOUSING FINANCE AGENCY;
MELVIN L. WATT, DEFENDANTS-APPELLEES
Filed: Nov. 12, 2018
Appeal from the United States District Court
for the Southern District of Texas
ON PETITITIONS FOR REHEARING EN BANC

Before: STEWART, Chief Judge, JONES, SMITH, DENNIS, OWEN, ELROD, SOUTHWICK , HAYNES , GRAVES,
HIGGINSON, COSTA, WILLETT, HO, DUNCAN, ENGELHARDT, and OLDHAM, Circuit Judges.
BY THE COURT:
A member of the court having requested a poll on the
petitions for rehearing en banc, and a majority of the
circuit judges in regular active service and not disqualified having voted in favor,

149a
IT IS ORDERED that this cause shall be reheard by
the court en banc with oral argument on a date hereafter
to be fixed. The Clerk will specify a briefing schedule
for the filing of supplemental briefs.

150a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 17-20364
PATRICK J. COLLINS; MARCUS J. LIOTTA;
WILLIAM M. HITCHCOCK, PLAINTIFFS-APPELLANTS
v.
STEVEN T. MNUCHIN, SECRETARY, U.S. DEPARTMENT
OF TREASURY; DEPARTMENT OF THE TREASURY;
FEDERAL HOUSING FINANCE AGENCY;
MELVIN L. WATT, DEFENDANTS-APPELLEES
[Filed: July 16, 2018]
Appeal from the United States District Court
for the Southern District of Texas
Before: STEWART, Chief Judge, and HAYNES and WILLETT, Circuit Judges.
PER CURIAM: 1
A decade ago, the United States was engulfed in perhaps the worst financial crisis since the Great Depres-

1
Chief Judge Stewart joins in the entire opinion and judgment except for Section II.B.2 and the judgment on the constitutional issue;
Judge Haynes joins in the entire opinion and judgment; Judge Willett joins in the entire opinion and judgment except for Section II.A
and the judgment on the statutory issue.

151a
sion. Toxic mortgage debt had poisoned the global financial system. Hoping to reverse a national housingmarket meltdown, Congress passed the Housing and
Economic Recovery Act of 2008 (“HERA”), Pub. L. No.
110-289, 122 Stat. 2654 (codified in various sections of
12 U.S.C.). Among other things, HERA created a new
independent federal entity—the Federal Housing Finance Agency (“FHFA”)—to oversee two of the nation’s
largest financial companies, government-chartered mainstays of the U.S. mortgage market: the Federal National Mortgage Association (“Fannie Mae”) and the
Federal Home Loan Mortgage Corporation (“Freddie
Mac”).
Since their inception, these twin mortgage-finance
giants have always been government-sponsored entities
(“GSEs”). But Fannie and Freddie are also private
corporations with private stockholders, and many investors are disenchanted with the Federal Government’s
management. This case is the latest in a series of
shareholder challenges to an agreement between the
FHFA, as conservator to Fannie and Freddie, and the
Treasury Department. Under the 2012 agreement,
Treasury provided billions of taxpayer dollars in capital.
In exchange, Fannie and Freddie were required to pay
Treasury quarterly dividends equal to their entire net
worth. This exchange is known as the “net worth
sweep,” and aggrieved investors are unhappy with the
bailout terms.
Plaintiffs-Appellants Patrick J. Collins, Marcus J.
Liotta, and William M. Hitchcock (collectively “Shareholders”) are Fannie Mae and Freddie Mac shareholders. They sued the FHFA and its Director, as well as
Treasury and its Secretary, arguing that the agreement

152a
rendered their shares valueless. They contend that
Treasury and the FHFA (collectively the “Agencies”)
exceeded their statutory authority under HERA and
that the agreement was arbitrary and capricious under
the Administrative Procedure Act, 5 U.S.C. § 706(2)(A)
(“APA”). They also claim that the FHFA is unconstitutionally structured in violation of Article II, §§ 1 and
3 of the Constitution because, among other things, the
agency is headed by a single Director removable only for
cause, does not depend on congressional appropriations,
and evades meaningful judicial review. The district
court dismissed the Shareholders’ statutory claims and
granted summary judgment in favor of the Agencies on
the constitutional claim.
Because we find that the FHFA acted within its statutory authority by adopting the net worth sweep, we
hold that the Shareholders’ APA claims are barred by
§ 4617(f ). But we also find that the FHFA is unconstitutionally structured and violates the separation of powers. Accordingly, we AFFIRM in part and REVERSE
in part.
I.
A.

BACKGROUND

Fannie and Freddie

The foundation of the United States housing market
is built on two entities: Fannie Mae and Freddie Mac.
Congress created Fannie Mae in 1938 to “provide stability in the secondary market for residential mortgages,”
to “increas[e] the liquidity of mortgage investments,”
and to “promote access to mortgage credit throughout
the Nation.” 2 Congress created Freddie Mac in 1970
2

12 U.S.C. §§ 1716, 1717.

153a
to “increase the availability of mortgage credit for the
financing of urgently needed housing.” 3 Both Fannie
and Freddie are now publicly traded, for-profit corporations. Together, they purchase and guarantee mortgages originating in private banks and bundle them into
mortgage-backed securities. In doing so, these GSEs
leverage shareholder investments to provide liquidity to
the residential mortgage market, ensuring that homeownership is a realistic goal for American families.
B.

The Recession

In 2007, the housing market collapsed, 4 and the United
States economy fell into a severe recession. At the

3
Federal Home Loan Mortgage Corporation Act, Pub. L. No. 91351, preamble, 84 Stat. 450 (1970).
4
The financial crisis was caused, in part, by a series of mortgage
loans to borrowers with poor credit, known as “subprime” mortgages. Crash Course: The Origins of the Financial Crisis, ECONOMIST (Sept. 7, 2013), https://www.economist.com/news/schoolsbrief/
21584534-effects-financial-crisis-are-still-being-felt-five-years-article.
Lenders eased their standards for subprime mortgages, requiring
little or no down-payment or income documentation, and loans often
came with discounted interest rates that reset after two years.
JOINT CENTER FOR HOUSING STUDIES OF HARVARD UNIVERSITY,
The State of the Nation’s Housing: 2008, at 2 (2008), https://web.
archive.org/web/20100630164105/http://www.jchs.harvard.edu/
publications/markets/son2008/son2008.pdf. Even the GSEs relaxed
their lending standards to compete with private banks. See Charles
Duhigg, Pressured to Take More Risk, Fannie Reached Tipping
Point, N.Y. TIMES (Oct. 4, 2008), https://www.nytimes.com/2008/
10/05/business/05fannie.html. Subprime mortgages were then pooled
together to back securities that received deceptively high credit ratings. ECONOMIST, supra. Home prices suffered a steep decline
in 2006. Justin Lahart, Egg Cracks Differ in Housing, Finance
Shells, WALL ST. J. (Dec. 24, 2007), https://www.wsj.com/articles/

154a
time, Fannie and Freddie controlled combined mortgage portfolios valued at approximately $5 trillion—
nearly half of the United States mortgage market. As
essential players in the housing market, Fannie and
Freddie suffered multi-billion dollar losses. Indeed,
the GSEs lost more in 2008 ($108 billion) than they had
earned in the previous thirty-seven years combined ($95
billion). 5 Yet the GSEs remained solvent. Because
they had taken a relatively conservative approach to the
riskier mortgages that were issued in the years preceding the recession, they remained in comparatively sound
financial condition. As a result, Fannie and Freddie
continued to support the United States home mortgage
system as distressed banks failed.
C.

The FHFA and HERA

During the summer of 2008, President Bush signed
HERA into law in an effort to protect the fragile national economy from further losses. HERA established the FHFA as an “independent” agency and classified Fannie and Freddie as “regulated entit[ies]” subject to the direct “supervision” of the FHFA. 6 Separately, HERA granted Treasury temporary authority
“to purchase any obligations and other securities” issued
by the GSEs, 7 so long as Treasury determined that the
SB119845906460548071?mod=googlenews_wsj. As a result, subprime borrowers defaulted on their mortgages, and foreclosures
drastically increased. See HARVARD UNIVERSITY, supra at 3.
5
Office of Inspector General (OIG), FHFA, Analysis of the 2012
Amendments to the Senior Preferred Stock Purchase Agreements 5
(Mar. 20, 2013), https://www.fhfaoig.gov/Content/Files/WPR-2013002_2.pdf.
6
12 U.S.C. § 4511(a), (b).
7
Id. §§ 1455(l)(1)(A), 1719(g)(1)(A).

155a
terms of purchase would “protect the taxpayer,” 8 and
imposed “limitations on the payment of dividends.” 9
HERA terminated Treasury’s authority to purchase securities on December 31, 2009. 10 After that, Treasury
was only authorized to “hold, exercise any rights received in connection with, or sell, any obligations or securities [it] purchased.” 11
How Congress chose to structure the FHFA through
HERA is central to this appeal.
1.

Authority

The FHFA possesses broad discretion to exercise
regulatory and enforcement authority over the GSEs’
operations.
We first outline the FHFA’s regulatory authority.
HERA charges the FHFA Director with the broad duty
to “oversee the prudential operations” of the GSEs and
to ensure that: the GSEs “operate[] in a safe and sound
manner, including maintenance of adequate capital and
internal controls;” “the operations and activities of each
regulated entity foster liquid, efficient, competitive, and
resilient national housing finance markets;” and the
GSEs’ activities “are consistent with the public interest.” 12 The Director may issue “any regulations, guidelines, or orders necessary to carry out” this duty. 13

Id. §§ 1455(l)(1)(B)(iii), 1719(g)(1)(B)(iii).
Id. §§ 1455(l)(1)(C)(vi), 1719(g)(1)(C)(vi).
10
Id. §§ 1455(l)(4), 1719(g)(4).
11
Id. §§ 1455(l)(2)(D), 1719(g)(2)(D).
12
Id. § 4513(a)(1)(A), (B)(i), (B)(ii), (B)(v).
13
Id. § 4526(a).
8
9

156a
Next, we turn to FHFA’s enforcement authority.
For one, the Director may issue and serve a “notice of
charges” to the GSE or an entity-affiliated party if the
party is, or is reasonably suspected of, engaging in “unsafe or unsound practice[s] in conducting the business”
of the GSE or otherwise violating laws, rules, or regulations imposed by the Director. 14 The notice of charge
schedules a formal hearing, during which the FHFA determines whether to issue a cease and desist order. 15
After the hearing, the Director may issue the order and
may require the entity to take “affirmative action to correct or remedy” the violation. 16 The Director can also:
(1) obtain an injunction 17 in federal court to enforce his
cease and desist orders; (2) seek judicial enforcement of
outstanding notices or orders that the FHFA issued;18
and (3) issue subpoenas, 19 which may be enforced in federal court. 20 Finally, the Director may “require the
regulated entity to take such other action as the Director determines appropriate.” 21
Under certain circumstances, the Director may impose civil monetary penalties “on any regulated entity

See id. § 4631(a)(1). The statute does impose some limits to the
Director’s authority, such as restrictions on the ability to enforce
compliance with achieving housing goal provisions, among other
things. See id. § 4631(a)(2).
15
Id. at § 4631(c)(1).
16
Id. at § 4631(c)(2).
17
Id. § 4632(e).
18
See id. § 4635.
19
Id. § 4641(a).
20
See id. § 4641(c).
21
Id. at § 4631(d).
14

157a
or any entity-affiliated party.” 22 The Director must
abide by certain conditions before imposing a penalty,
such as providing notice to the entity and providing the
opportunity for a hearing 23 before the FHFA. There
are tiers of potential penalties depending on the severity
of the offense, and the Director has wide discretion to
The penalty
determine the appropriate penalty. 24
“shall not be subject to review, except” by the D.C. Circuit. 25 If the penalized entity does not comply, the Director may sue to obtain a monetary judgment and “the
validity and appropriateness of the order of the Director
imposing the penalty shall not be subject to review.” 26
HERA also authorizes the FHFA Director to appoint
the FHFA as either conservator or receiver for the
GSEs, “for the purpose of reorganizing, rehabilitating,
or winding up the[ir] affairs.” 27
Once appointed conservator or receiver, the FHFA
enjoys sweeping authority over GSE operations. For
example, the FHFA “may . . . take over the assets
of and operate the regulated entity with all the powers
of the shareholders, the directors, and the officers of the

Id. § 4636(a).
The FHFA may conduct hearings regarding certain enforcement decisions; parties may appeal the outcome of the hearing to the
D.C. Circuit. See id. §§ 4633, 4634(a).
24
Id. § 4636(b), (c).
25
Id. § 4636(c), (d).
26
Id. § 4636(d).
27
Id. § 4617(a)(2).
22
23

158a
regulated entity and conduct all business of the regulated entity.” 28 The FHFA may also “collect all obligations and money due,” “perform all functions of the regulated entity in the name of the regulated entity which
are consistent with the appointment as conservator or
receiver,” “preserve and conserve the assets and property of the regulated entity,” and “provide by contract
for assistance in fulfilling any function, activity, action,
or duty of the Agency as conservator or receiver.” 29
And upon appointment, the FHFA “immediately succeed[s] to all rights, titles, powers, and privileges of such
regulated entity with respect to the regulated entity and
the assets of the regulated entity.” 30 The FHFA also
has discretion to “transfer or sell any asset or liability of
the regulated entity in default, and may do so without
any approval, assignment, or consent.” 31
More specifically, as conservator, HERA authorizes
the FHFA to “take such action as may be . . . (i) necessary to put the regulated entity in a sound and solvent
condition; and (ii) appropriate to carry on the business
of the regulated entity and preserve and conserve the
assets and property of the regulated entity.” 32
The FHFA also has broad incidental powers when it
acts as conservator or receiver. The FHFA may “exercise all powers and authorities specifically granted to
conservators or receivers, respectively, under this section, and such incidental powers as shall be necessary to
28
29
30
31
32

Id. § 4617(b)(2)(B)(i).
Id. § 4617(b)(2)(B)(ii)-(v).
Id. § 4617(b)(2)(A)(i).
Id. § 4617(b)(2)(G); see also id. § 4617(b)(2)(H).
Id. § 4617(b)(2)(D).

159a
carry out such powers,” and it may “take any action authorized by this section, which the Agency determines is
in the best interests of the regulated entity or the
Agency.” 33 The FHFA also has independent litigation
authority; it may issue subpoenas, 34 “disaffirm or repudiate [certain] contract[s] or lease[s],” 35 and impose civil
fines. 36
2.

Structure

The FHFA is led by a single Director, “appointed by
the President, by and with the advice and consent of the
Senate.” 37 The Director must be a United States citizen who has “a demonstrated understanding of financial
management or oversight, and ha[s] a demonstrated understanding of capital markets, including the mortgage
securities markets and housing finance.” 38 The Director is appointed for a five-year term39 and may only be removed “for cause by the President.” 40
The Director is also responsible for picking three
Deputy Directors. 41 And the Director has substantial

Id. § 4617(b)(2)(J).
Id. § 4617(b)(2)(I).
35
Id. § 4617(d)(1).
36
See id. § 4585.
37
Id. § 4512(a), (b)(1).
38
Id. § 4512(b)(1).
39
Id. § 4512(b)(2).
40
Id.
41
Id. § 4512(c)(1) (Deputy Director of the Division of Enterprise
Regulation), (d)(1) (Deputy Director of the Division of Federal
Home Loan Bank Regulation), (e)(1) (Deputy Director for Housing
Mission and Goals).
33
34

160a
influence over how the Deputy Directors may exercise
their authority. 42
The statute establishes the process for replacing a
Director whose service terminates early due to “death,
resignation, sickness, or absence.” 43 In such case, “the
President shall designate” a Deputy Director “to serve
as acting Director until the return of the Director, or the
appointment of a successor.” 44 The newly appointed
Director only serves the remainder of the former Director’s term. 45 “An individual may serve as the Director
after the expiration of the term for which appointed until a successor has been appointed.” 46
3.

Oversight

Congress structured the FHFA as an independent
agency. 47 The FHFA’s operations as conservator are
insulated from judicial review: “[N]o court may take
any action to restrain or affect the exercise of powers or
functions of the Agency as a conservator or a receiver.” 48
Plus, the FHFA is funded through annual assessments
Id. § 4512(c)(2), (d)(2), (e)(2).
Id. § 4512(f ).
44
Id.
45
Id. § 4512(b)(3).
46
Id. § 4512(b)(4).
47
Agencies may be classified as either independent or executive.
Where the agency head is removable at will, the agency is “executive.” In re Aiken Cty., 645 F.3d 428, 439 (D.C. Cir. 2011), subsequent mandamus proceeding, 725 F.3d 255 (D.C. Cir. 2013) (Kavanaugh, J., concurring). But where the head or heads of an agency
are removable only for cause, the agency “is an independent agency
that operates free of presidential direction and supervision.” Id.
48
12 U.S.C. § 4617(f ).
42
43

161a
collected from the “regulated entities” for reasonable
costs and expenses of the running the FHFA. 49 The assessments are “not . . . subject to apportionment,” 50
and are “not . . . construed to be Government or
public funds or appropriated money.” 51
The FHFA is overseen by the Federal Housing Finance Oversight Board (“Board”), which “advise[s] the
Director with respect to the overall strategies and policies in carrying out” his duties. 52 The four-member
Board includes two cabinet-level Executive Branch
officials—the Secretary of the Treasury and the Secretary of Housing and Urban Development—the FHFA
Director, and the Securities and Exchange Commission
(“SEC”) Chairperson. 53 The FHFA Director is the
Board’s Chairperson. 54 The Board meets at least quarterly, but it can meet more frequently by notice of the
Director. 55 Beyond that, Board members may require
a special meeting through written notice to the Director. 56 The Board is responsible for testifying annually
before Congress about, among other things, the “safety
and soundness” of the GSEs, “their overall operational
status,” and the “performance of the [FHFA].” 57 The
Board may not “exercise any executive authority, and

49
50
51
52
53
54
55
56
57

Id. § 4516(a).
Id. § 4516(f )(3).
Id. § 4516(f )(2).
Id. § 4513a(a).
Id.
Id.
Id. § 4513a(d)(1).
Id. § 4513a(d)(2).
Id. § 4513a(e).

162a
the Director may not delegate to the Board any of the
functions, powers, or duties of the Director.” 58 That is,
the Board cannot require the FHFA or Director to do
much of anything; the Board can only order “a special
meeting of the Board.” 59
D.

The Underlying Dispute

On September 6, 2008, the FHFA’s Acting Director
placed the GSEs into conservatorship. The next day,
Treasury entered into Preferred Stock Purchase Agreements (“PSPAs”) with the GSEs. Under the PSPAs,
Treasury purchased large amounts of stock, infusing the
GSEs with additional capital to ensure liquidity and stability. Treasury also provided the GSEs with access to
a capital commitment, initially capped at $100 billion per
GSE, to keep them from defaulting. In return, Treasury received one million senior preferred shares in each
GSE. Those shares entitled Treasury to (1) a $1 billion
senior liquidation preference; (2) a dollar-for-dollar increase in that preference each time Fannie or Freddie
drew on Treasury’s funding commitment; (3) quarterly
dividends the GSEs could pay either at a rate of 10% of
Treasury’s liquidation preference or as a commitment to
increase the liquidation preference by 12%; (4) warrants
allowing Treasury to purchase up to 79.9% of common
stock; and (5) the possibility of periodic commitment
fees over and above any dividends. The PSPAs prohibited the GSEs from “declar[ing] or pay[ing] any dividend (preferred or otherwise) or mak[ing] any other distribution (by reduction of capital or otherwise)” without
Treasury’s consent.
58
59

Id. § 4513a(b).
Id. § 4513a(d)(2).

163a
Treasury and the FHFA subsequently amended the
PSPAs. In May 2009, Treasury agreed to double its
funding commitment to $200 billion for each GSE under
the First Amendment. On December 24, 2009, Treasury agreed to further raise its commitment cap under
the Second Amendment. This time, the cap was raised
to an adjustable figure determined in part by the GSEs’
quarterly cumulative losses between 2010 and 2012.
On December 31, 2009, Treasury’s authority to purchase
GSE securities expired, leaving Treasury authorized
only to “hold, exercise any rights received in connection
with, or sell, any obligations or securities purchased.” 60
As of August 8, 2012, the GSEs had drawn approximately $189 billion from Treasury’s funding commitment. Yet the GSEs still struggled to generate capital
to pay the 10% dividend owed to Treasury. As a result,
the FHFA and Treasury adopted the Third Amendment
to the PSPAs on August 17, 2012.
The Third Amendment replaced the quarterly 10%
dividend formula, with a requirement that the FHFA
pay Treasury quarterly variable dividends equal to the
GSEs’ excess net worth after accounting for prescribed
capital reserves. The capital reserve buffer started at
$3 billion and decreased annually until it reached zero in
2018. Under the net worth sweep, the GSEs would no
longer incur debt to make dividend payments, but they
would also no longer accrue capital. Treasury also suspended the periodic commitment fee. Treasury believed this would “support a thoughtfully managed wind
down” of the GSEs and observed that the GSEs “will not
Id. §§ 1455(l)(2)(D), 1719(g)(2)(D); see also id. §§ 1455(l)(4),
1719(g)(4).
60

164a
be allowed to retain profits, rebuild capital, [or] return
to the market in their prior form.” 61
The net worth sweep transferred significant capital
from Fannie and Freddie to Treasury. In 2013, the
GSEs paid Treasury $130 billion in dividends. The following year, they paid $40 billion. And in 2015, they
paid $15.8 billion. In the first quarter of 2016, Fannie
Mae paid Treasury $2.9 billion, and Freddie Mac paid no
dividend at all. Between the final quarter in 2012 and
the first quarter of 2017, the GSEs generated over $214
billion. Thus, under the net worth sweep Treasury essentially recovered what the GSEs had drawn on Treasury’s funding commitment.
E.

Procedural History

In October 2016, shareholders of Fannie Mae and
Freddie Mac sued the FHFA and its Director, as well as
Treasury and its Secretary, challenging the net worth
sweep on both statutory and constitutional grounds.
First, the Shareholders brought a claim under the APA
claiming that the FHFA, in agreeing to the Third
Amendment net worth sweep provision, exceeded its
statutory authority as conservator under HERA,
12 U.S.C. § 4617(b)(2)(D). Second, the Shareholders
brought claims against Treasury under the APA,
5 U.S.C. §§ 702, 706(2)(C), (D), arguing that Treasury
exceeded its statutory authority under HERA,
12 U.S.C. §§ 1455(l)(4), 1719(g)(1)(B), (g)(4), by (1) purchasing securities after the sunset provision period,
61
Treasury Department Announces Further Steps to Expedite
Wind Down of Fannie Mae and Freddie Mac, U.S. DEP’T OF TREASURY (Aug. 17, 2012), https://www.treasury.gov/press-center/pressreleases/Pages/tg1684.aspx.

165a
(2) failing to make the required determinations of necessity before purchasing securities, and (3) agreeing to the
net worth sweep. Third, the Shareholders brought
claims under the APA, 5 U.S.C. §§ 702, 706(2)(A), alleging that Treasury acted in an arbitrary and capricious
manner by agreeing to the net worth sweep. Finally,
the Shareholders brought a constitutional claim under
Article II, §§ 1 and 3, alleging that the FHFA is unconstitutionally structured because, among other things, it
is headed by a single Director removable only for cause.
The Shareholders sought both declaratory and injunctive relief invalidating the Third Amendment and returning all dividend payments made to Treasury under
the net worth sweep.
The Agencies moved to dismiss the three statutory
claims under Federal Rules of Civil Procedure 12(b)(1)
and 12(b)(6) based on HERA’s limitation on judicial review, 12 U.S.C. § 4617(f ). Plaintiffs and Defendants
filed cross-motions for summary judgment on the constitutional claim. The district court concluded, based
on the D.C. Circuit’s reasoning in Perry Capital L.L.C.
v. Mnuchin, 848 F.3d 1072 (D.C. Cir. 2017), amended by
864 F.3d 591 (D.C. Cir. 2017), cert. denied, 138 S. Ct. 978
(2018), and cert. denied sub nom. Cacciapalle v. Fed.
Hous. Fin. Agency, 138 S. Ct. 978 (2018), that the Shareholders “fail[ed] to demonstrate that the FHFA’s conduct was outside the scope of its broad statutory authority as conservator.” And that “the effect of any injunction or declaratory judgment aimed at Treasury’s adoption of the Third Amendment would have just as direct
and immediate an effect as if the injunction operated directly on FHFA.” Thus, the district court granted the
Agencies’ motions to dismiss the statutory claims as
“precluded by § 4617(f ).” Finally, the court found that

166a
“FHFA’s removal provision, when viewed in light of the
agency’s overall structure and purpose, does not impede
the President’s ability to perform his constitutional duty
to take care that the laws are faithfully executed.” The
court therefore granted the FHFA’s motion for summary judgment on the constitutional claim.
The
Shareholders timely appealed.
II.

DISCUSSION

This court “review[s] de novo a district court’s rulings on a motion to dismiss and a motion for summary
judgment, applying the same standard as the district
court.” 62 To survive a motion to dismiss, the Shareholders’ complaint must state a valid claim for relief,
viewed in the light most favorable to the plaintiff. 63
“[A] complaint must contain sufficient factual matter
. . . to ‘state a claim to relief that is plausible on its
face.’ ” 64 “[M]ere conclusory statements” are insufficient to state a claim. 65 A claim is facially plausible
only when a plaintiff pleads facts “allow[ing] the court
to draw the reasonable inference that the defendant is
liable for the misconduct alleged.” 66

TOTAL Gas & Power N. Am., Inc. v. Fed. Energy Reg. Comm’n,
859 F.3d 325, 332 (5th Cir. 2017).
63
Copeland v. Wasserstein, Perella & Co., Inc., 278 F.3d 472, 477
(5th Cir. 2002).
64
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
65
Id.
66
Id.
62

167a
A.

Statutory Claims

The Shareholders’ statutory claims mirror the claims
made against the FHFA that the D.C., Sixth, and Seventh Circuits have all rejected. 67 We reject the Shareholders’ statutory claims based on the same well-reasoned basis common to those courts’ opinions. 68
HERA bars courts from taking “any action to restrain
or affect the exercise of powers or functions of the
Agency as a conservator or a receiver.” 69 Because the
FHFA acted within its statutory authority, any potential exception to that bar does not apply. 70 The bar similarly applies to claims against the Department of Treasury that would “affect the exercise of powers or functions of the Agency as a conservator or receiver.” 71
Consequently, we lack authority to grant relief on any
of the Shareholders’ statutory claims.
B.

The Constitutional Claim

The Shareholders claim the FHFA’s structure violates the separation of powers because it is headed by a
single Director removable only for cause. Despite
statutory limitations on judicial review, we may exercise
See Roberts v. Fed. Hous. Fin. Agency, 889 F.3d 397, 399 (7th
Cir. 2018); Robinson v. Fed. Hous. Fin. Agency, 876 F.3d 220 (6th
Cir. 2017); Perry Capital, 864 F.3d at 598.
68
Because we find that the Shareholders’ statutory claims are
barred by § 4617(f ), we need not resolve whether HERA’s succession provision, 12 U.S.C. § 4617(b)(2)(A)(i) independently prevents
the Shareholders from asserting their statutory claims.
69
12 U.S.C. § 4617(f ).
70
See Roberts, 889 F.3d at 402-06; Robinson, 876 F.3d at 227-32;
Perry Capital LLC, 864 F.3d at 606-15.
71
See Roberts, 889 F.3d at 406-08; Robinson, 876 F.3d at 228-29;
Perry Capital LLC, 864 F.3d at 615-16.
67

168a
jurisdiction to consider a substantial constitutional
claim. 72 Ordinarily, courts have a “duty . . . to construe the statute in order to save it from constitutional
infirmities” and should be cautious of “overstat[ing] the
matter” when describing the power and independence of
the Director. 73 Before we examine the FHFA’s structure, we must determine whether the Shareholders have
standing to bring their claim.

72
See Garner v. U.S. Dep’t of Labor, 221 F.3d 822, 825 (5th Cir.
2000).
73
Morrison v. Olson, 487 U.S. 654, 682 (1988); see also INS v.
Chadha, 462 U.S. 919, 944 (1983). The Shareholders dispute that
the presumption of constitutionality applies in separation-of-powers
cases. Justice Scalia noted in his Morrison dissent that “harmonious functioning of the system demands that we ordinarily give some
deference . . . to the actions of the political branches.” 487 U.S.
at 704 (Scalia, J., dissenting). But “where the issue pertains to separation of powers, and the political branches are . . . in disagreement, neither can be presumed correct.” Id. at 704-05; see also
Freytag v. C.I.R., 501 U.S. 868, 879-80 (1991) (declining to defer to
executive branch interpretation of statute alleged to violate the Appointments Clause because the “structural interests protected by
the Appointments Clause are not those of any one branch of Government but of the entire Republic”). Indeed, “the separation of powers does not depend on the views of individual Presidents . . . nor
on whether the encroached-upon branch approves the encroachment.” Free Enter. Fund v. Public Co. Accounting Oversight Bd.,
561 U.S. 477, 497 (2010) (internal quotation marks and citations omitted). Because this case disputes the Constitution’s allocation of
governing power, we do not defer to one branch’s interpretation that
would permit it to encroach on another branch’s constitutional authority.

169a
1.

Standing

Federal courts are confined to adjudicating actual
“cases” and “controversies.” 74 That “requirement is satisfied only where a plaintiff has standing.” 75 “Standing
is a question of law that we review de novo.” 76 At its
“irreducible constitutional minimum,” standing requires
plaintiffs “to demonstrate: they have suffered an ‘injury in fact’; the injury is ‘fairly traceable’ to the defendant’s actions; and the injury will ‘likely . . . be redressed by a favorable decision.’ ” 77 The party invoking
federal jurisdiction bears the burden of establishing
these elements. 78 And a plaintiff must demonstrate
standing for each claim asserted. 79
Standing for separation-of-powers claims is subject
to a more relaxed inquiry: “Party litigants with sufficient concrete interests at stake may have standing to
raise constitutional questions of separation of powers
with respect to an agency designated to adjudicate their
rights.” 80 Under this standard, “a party is not required
to show that he has received less favorable treatment

74

U.S. CONST. art. III, § 2, cl. 1.
Sprint Commc’ns Co., L.P. v. APCC Servs., Inc., 554 U.S. 269,
273 (2008).
75

76
77

Rivera v. Wyeth-Ayerst Labs., 283 F.3d 315, 319 (5th Cir. 2002).

Pub. Citizen, Inc. v. Bomer, 274 F.3d 212, 217 (5th Cir. 2001)
(quoting Lujan v. Defenders of Wildlife, 504 U.S. 555, 560-61 (1992)).
78
Lujan, 504 U.S. at 561.
79
Davis v. Fed. Election Comm’n, 554 U.S. 724, 734 (2008).
80
Buckley v. Valeo, 424 U.S. 1, 117 (1976) (citations omitted).

170a
than he would have if the agency were lawfully constituted.” 81 In essence, the prophylactic, structural nature of the separation of powers justifies permitting
claims beyond those where a “specific harm . . . can
be identified.” 82
The FHFA argues that the Shareholders lack standing to assert their separation-of-powers claim because
the Shareholders’ claimed injury 83 is not traceable to the
removal provision, nor would it be redressed if the restriction were held unconstitutional.
a.

Injury-in-fact

Generally, a plaintiff “must assert his own legal rights
and interests, and cannot rest his claim to relief on the
legal rights or interests of third parties.” 84 The shareholder standing rule “prohibits shareholders from initiating actions to enforce the rights of [a] corporation unless the corporation’s management has refused to pursue the same action for reasons other than good-faith
business judgment.” 85 “[S]hareholder[s] with a direct,
personal interest in a cause of action,” however, may

Comm. for Monetary Reform v. Bd. of Governors of Fed. Reserve
Sys., 766 F.2d 538, 543 (D.C. Cir. 1985) (citing Glidden Co. v.
Zdanok, 370 U.S. 530, 533 (1962) (plurality opinion)).
82
Plaut v. Spendthrift Farm, Inc., 514 U.S. 211, 239 (1995).
83
The Agencies do not contest the Shareholders’ injury-in-fact.
Nevertheless, the court “must—where necessary—raise” standing
issues sua sponte. Ford v. NYLCare Health Plans of Gulf Coast,
Inc., 301 F.3d 329, 331-32 (5th Cir. 2002).
84
Franchise Tax Bd. of Cal. v. Alcan Aluminium Ltd., 493 U.S.
331, 336 (1990) (quoting Warth v. Seldin, 422 U.S. 490, 499 (1975)).
85
Id.
81

171a
“bring suit even if the corporation’s rights are also implicated.” 86
The Shareholders assert that the unconstitutionally
structured FHFA caused them direct economic injury—
“[m]inority shareholders were directly and uniquely
harmed by the expropriation of their rights” because
this case “concern[s] the transfer of all minority shareholder economic rights to a single, majority shareholder.”
We agree.
Divesting the Shareholders’ property
rights caused a direct injury. 87 In Bowsher v. Synar, for
example, a statute required the President to issue an
“order mandating the spending reductions specified by
the Comptroller General.” 88 The statute automatically
suspended scheduled cost-of-living increases to National Treasury Employees Union members. 89 The
Union filed suit alleging that the statute violated the
separation of powers. 90 The Court found the Union had
standing because it would “sustain injury by not receiving a scheduled increase in benefits.” 91 The statutory
deprivation of benefits was sufficient to injure Union
members directly. 92
Here, the transfer of the Shareholders’ economic
rights to Treasury by an allegedly unlawfully constituted agency resembles the statutory deprivation of
86
87
88
89
90
91
92

Id. at 336-37.
See, e.g., Bowsher v. Synar, 478 U.S. 714 (1986).
Id. at 718.
Id. at 719.
Id. at 720.
Id. at 721.
See id. at 718-19.

172a
benefits to the Union members in Bowsher. The Shareholders are directly and uniquely affected by the net
worth sweep.
b.

Causation

Next, standing requires “a causal connection between the injury and the conduct complained of—the injury has to be fairly traceable to the challenged action
of the defendant.” 93 Whether an injury is traceable to
a defendant’s conduct depends on “the causal connection
between the assertedly unlawful conduct and the alleged
injury.” 94 The injury cannot be “the result of the independent action of some third party not before the
court.” 95
Because the FHFA was unconstitutionally insulated
from executive control, the Shareholders argue that its
actions are presumptively unconstitutional and thus
void. In Landry v. FDIC, the D.C. Circuit noted that
separation-of-powers matters justify a relaxed causation inquiry because “it will often be difficult or impossible for someone subject to a wrongly designed scheme
to show that the design—the structure—played a causal
role in his loss.” 96 We endorse that inquiry here.
The FHFA argues that the Shareholders’ harm is not
traceable to the removal restriction for two reasons.
Lujan, 504 U.S. at 560 (cleaned up).
Allen v. Wright, 48 U.S. 737, 753 n.19, 757 (1984), abrogated in
part on other grounds by Lexmark Int’l, Inc. v. Static Control Components, Inc., 134 S. Ct. 1377 (2014).
95
Lujan, 504 U.S. at 560 (quoting Simon v. Eastern Ky. Welfare
Rights Org., 426 U.S. 26, 41-41 (1976)).
96
Landry v. FDIC, 204 F.3d 1125, 1130-31 (D.C. Cir. 2000);
see also Buckley, 424 U.S. at 117.
93
94

173a
First, the Third Amendment was the decision of an acting director whose designation was not subject to the
for-cause removal restriction. Second, the FHFA does
not exercise “executive” power; instead, the FHFA “steps
into the shoes” of the GSEs—private financial institutions
—when it acts as conservator. Neither argument is
persuasive.
Section 4512(f ) specifies when an acting Director
may serve the FHFA in the Director’s place. 97 The
FHFA argues that because § 4512(f ) does not specify a
fixed term nor restrict the President’s removal authority, the acting Director is not subject to the for-cause
removal restriction. But if the acting Director could be
removed at will, the FHFA would be an executive
agency—not an independent agency. There is no indication that Congress sought to revoke the FHFA’s status as an independent agency when it is led by an acting,
rather than appointed, Director. 98 So an acting Director, like an appointed one, is covered by the removal restriction. 99
Second, the FHFA argues that it does not exercise
executive functions that Article II vests in the Executive
Branch. Under HERA, the FHFA as conservator succeeds to “all rights, titles, powers, and privileges” of the
GSEs. 100 Courts interpret this provision as evincing
“In the event of the death, resignation, sickness, or absence of
the Director, the President shall designate [one of the Deputy Directors] to serve as acting Director until the return of the Director,
or the appointment of a successor.” 12 U.S.C. § 4512(f ).
98
See Wiener v. United States, 357 U.S. 349, 353 (1958).
99
See 12 U.S.C. § 4512(b)(2).
100
Id. § 4617(b)(2)(A)(i).
97

174a
Congress’s intent for the FHFA to step into the shoes
of the GSEs; although the FHFA is a federal agency, as
conservator it “shed[s] its government character and
also becom[es] a private party.” 101 And the GSEs are
undoubtedly private entities. 102
When an agency acts as conservator, we have held
that it does not exercise governmental functions. In
United States v. Beszborn, the Government filed indictments against various defendants for their role in
scheming to defraud financial institutions. 103 Earlier,
however, the Resolution Trust Corporation (“RTC”)
participated in a civil action seeking punitive damages
against the defendants as conservator to a financial institution based on the same conduct leading to criminal
charges. 104 Our circuit assessed whether the government’s prosecution following the RTC’s role in the civil
trial violated the Double Jeopardy Clause. 105 The court
noted the “uniqueness” of the RTC’s role as receiver:
It was represented by private attorneys, and proceeds
from successful actions benefited the creditors and
stockholders of the institution it represented rather
than the Treasury. 106 Thus, the court found that by
acting as receiver, “the RTC stands as a private, nonMeridian Invs., Inc. v. Fed. Home Loan Mortg. Corp., 855 F.3d
573, 579 (4th Cir. 2017); see also O’Melveney & Myers v. FDIC,
512 U.S. 79, 86-87 (1994) (interpreting the nearly identical provision
12 U.S.C. § 1821(d)(2)(A)(i)); Perry Capital, 864 F.3d at 622; Herron
v. Fannie Mae, 861 F.3d 160, 169 (D.C. Cir. 2017).
102
See 12 U.S.C. §§ 1452(a), 1723(b).
103
21 F.3d 62, 64-65 (5th Cir. 1994).
104
Id. at 67.
105
Id.
106
Id. at 68.
101

175a
governmental entity, and is not the Government for purpose of the Double Jeopardy Clause.” 107
In Beszborn, however, it was “the conduct or actions
of the Government which the Double Jeopardy Clause
seeks to limit.” 108 The court reasoned that “[t]he rationale behind the protection of the Double Jeopardy
Clause rests upon the doctrine that the Government or
the sovereign with all of its power should not be allowed
to make repeated attempts to convict an individual for
an alleged offense.” 109 As a result, whether or not the
agency was acting as a receiver or regulator decided the
issue of whether it violated constitutional protections.
We emphasized that “for the Double Jeopardy Clause to
have any application, there must be actions by a sovereign, which place the individual twice in jeopardy.” 110
The separation of powers, however, rests on an entirely
different foundation than the Double Jeopardy Clause.
Once again, the Supreme Court has emphasized the
nature of the separation-of-powers principle as a
“prophylactic device” and structural safeguard rather
than a remedy available only when a specific harm is
identified. 111 Whether the FHFA’s specific conduct or
actions were governmental in nature is not relevant—
the structure of the agency is. In Free Enterprise Fund,
for example, the Court considered the causation prong
of standing in the context of a separation-of-powers

107
108
109
110
111

Id.
Id. at 67 (emphasis added).
Id.
Id. (emphasis added).
See Plaut, 514 U.S. at 239.

176a
claim. 112 Like the Agencies in the instant case, the Public
Company Accounting Oversight Board (“PCAOB”) argued that petitioners lacked standing because their injuries were not fairly traceable to an invalid appointment. 113 The Court rejected this argument, finding
that “standing does not require precise proof of what the
PCAOB’s policies might have been” had the agency’s
structure met constitutional requirements. 114
Thus, to establish standing, the Shareholders are not
required to show what the FHFA may have done had it
been constitutionally structured. 115 Beyond its powers
as conservator, the FHFA enjoys broad regulatory power
over the GSEs. 116 And that regulatory power will continue to cast a shadow over the Shareholders’ interests
even after this case is resolved. As regulator, the
FHFA has the ongoing potential to make decisions that
affect the Shareholders’ economic rights. We are satisfied that the Shareholders’ injury is fairly traceable to
the FHFA’s unconstitutional structure.
c.

Redressability

Redressability examines “the causal connection between the alleged injury and the judicial relief requested.” 117 “The point has always been the same:
whether a plaintiff personally would benefit in a tangible way from the court’s intervention.” 118 “[I]t must be
112
113
114
115
116
117
118

See Free Enter. Fund, 561 U.S. at 477.
Id. at 512 n.12.
Id.
See id.
12 U.S.C. § 4511 et seq.
Allen, 468 U.S. at 753 n.19.
Sprint Commc’ns Co., 554 U.S. at 300 (cleaned up).

177a
likely, as opposed to merely speculative, that the injury
will be redressed by a favorable decision.” 119
Treasury argues that there is no basis to set aside the
Third Amendment, and thus ruling on FHFA’s constitutionality would result in an impermissible advisory opinion. 120 In essence, Treasury argues severing the removal restriction would be the appropriate remedy for
the Shareholders’ claim, which would not resolve the
Shareholders’ injury.
We disagree. The Shareholders allege an ongoing
injury—being subjected to enforcement or regulation
by an unconstitutionally constituted body. This is consistent with standing in separation-of-powers cases.
In Free Enterprise, for example, the Court concluded
that the petitioners were “entitled to declaratory relief
sufficient to ensure that the reporting requirements and
auditing standards to which they are subject will be enforced only by a constitutional agency accountable to the
Executive.”121 Striking the removal provision was meaningful because a plaintiff was registered with the PCAOB
and subject to its continuing jurisdiction, regulation, and
investigation. 122 Declaratory relief addressing the constitutional issue stopped the ongoing injury from persisting. Petitioners thus had a tangible interest in ensuring that the PCAOB met constitutional requirements 123
—just like the Shareholders here.
Lujan, 504 U.S. at 561 (cleaned up).
See Bayou Liberty Ass’n v. U.S. Army Corps of Eng’rs, 217 F.3d
393, 397-98 (5th Cir. 2000).
121
Free Enter. Fund, 561 U.S. at 513.
122
See 561 U.S. at 487-88, 513.
123
Id.
119
120

178a
The relationship between the FHFA and the Shareholders is sufficiently close to subject the Shareholders
to FHFA oversight. In exercising its power as conservator, the FHFA has stepped into the shoes of the directors and managers charged with making decisions that
directly affect the Shareholders’ interests. As a result,
the Shareholders’ injury stems from the continued harm
caused by the FHFA’s ongoing conservatorship without
executive oversight.
The relatively sparse case law seems to support this
conclusion: The Supreme Court’s most authoritative
statement on Article III standing of shareholders and
the prudential doctrine of shareholder standing came in
Franchise Tax Board of California v. Alcan Aluminium
Ltd. 124 There, a wholly-owned subsidiary was taxed by
the state of California. The subsidiary’s parent companies, rather than the subsidiary itself, sued for relief.
The Supreme Court concluded that the parent companies clearly had standing. 125 But the “more difficult issue [was] whether respondents [could] meet the prudential requirements of . . . the so-called shareholder
standing rule.” 126 Although the Court left that issue
unresolved, it left bread crumbs that resulted in courts
using the direct-derivative action dichotomy for the

493 U.S. at 335.
Id. at 336 (“If [taxes against the subsidiary] are higher than the
law of the land allows, that method threatens to cause actual financial injury to [the parent companies] by illegally reducing the return
on their investments in [the subsidiary] and by lowering the value of
their stockholdings.”).
126
Id.
124
125

179a
shareholder standing rule. 127 Consistent with this approach, the Shareholders here assert direct, personal interest in their cause of action 128—their security interests
are subject to the FHFA’s continuing jurisdiction, regulation, and control.
Because the Article III standard is subject to a more
relaxed inquiry than the shareholder standing rule, we
conclude that the Shareholders have Article III standing to seek declaratory relief. The FHFA as conservator and regulator has extensive authority and responsibility that impacts the Shareholders’ rights. Vacatur
of the net worth sweep alone would not fully resolve the
Shareholders’ constitutional injury—it fails to remedy
the ongoing separation-of-powers violation.
We are satisfied that the Shareholders have standing
to bring their constitutional claim.
2.

The FHFA is Unconstitutionally Structured

Our Constitution divides the powers and responsibilities of governing across three co-equal branches. Each
branch may exercise only the powers explicitly enumerated in the Constitution—executives execute, legislators
legislate, and judges judge. This structural division of

Id. (stating that there is an exception to the shareholder standing rule for “a shareholder with a direct, personal interest in a cause
of action to bring suit even if the corporation’s rights are also implicated”).
128
We recognize that, while not a test for Article III standing, the
shareholder standing rule is an exception to the prudential doctrine
that could prevent the Shareholders’ claims for want of standing.
127

180a
power aims to ensure no single branch becomes too powerful. 129 The Framers were not tinkerers; they upended
things. The Revolution produced a revolutionary design.
“Ambition must be made to counteract ambition.” 130 The
Constitution’s unique architecture is “the central guarantee of a just government” 131 and essential to protecting individual liberty. 132
Yet when one branch tries to impair the power of another, this upsets the co-equality of the branches and
degrades the Constitution’s deliberate separation of
powers. Accordingly, the Supreme Court “ha[s] not
129
See THE FEDERALIST NO. 47 (James Madison) (“The accumulation of all powers legislative, executive and judiciary in the same
hands, whether of one, a few or many, and whether hereditary, self
appointed, or elective, may justly be pronounced the very definition
of tyranny.”).
130
THE FEDERALIST NO. 51 (James Madison).
131
Freytag, 501 U.S. at 870.
132
See Clinton v. City of New York, 524 U.S. 417, 450 (1998) (Kennedy, J., concurring) (explaining that our system of separated powers aims “to implement a fundamental insight: Concentration of
power in the hands of a single branch is a threat to liberty”); Mistretta v. United States, 488 U.S. 361, 380 (1989) (citations omitted)
(“This Court consistently has given voice to, and has reaffirmed, the
central judgment of the Framers of the Constitution that, within our
political scheme, the separation of governmental powers into three
coordinate Branches is essential to the preservation of liberty.”);
Morrison, 487 U.S. at 697 (Scalia, J., dissenting) (“The Framers
. . . viewed the principle of separation of powers as the absolutely
central guarantee of a just Government.”); id. (“Without a secure
structure of separated powers, our Bill of Rights would be worthless.”); Bowsher, 478 U.S. at 722 (“[C]hecks and balances [are] the
foundation of a structure of government that would protect liberty.”); id. at 730 (“The Framers recognized that, in the long term,
structural protections against abuse of power were critical to preserving liberty.”).

181a
hesitated to strike down provisions of law that either accrete to a single Branch powers more appropriately diffused among separate Branches or that undermine the
authority and independence of one or another coordinate Branch.” 133
Here, the Shareholders assert the FHFA, as currently structured, undermines the separation of powers;
they claim that the Executive Branch cannot adequately
control the agency. Before evaluating the merits of the
Shareholders’ challenge, we must discuss the powers
and obligations of the two branches implicated in this
case.
Incidental to the exercise of its enumerated powers,
Congress may establish independent agencies as “necessary and proper.” 134 Over the past century, Congress
has established dozens of independent agencies responsible for performing executive, regulatory, and quasi-judicial functions. 135 These independent agencies “wield[]
vast power and touch[] almost every aspect of daily
life.” 136

Mistretta, 488 U.S. at 381 (emphasis added).
See Free Enter. Fund, 561 U.S. at 515 (Breyer, J., dissenting)
(citations omitted).
135
See PHH Corp. v. Consumer Fin. Prot. Bureau, 881 F.3d 75,
170 (D.C. Cir. 2018) (Kavanaugh, J., dissenting).
136
Free Enter. Fund, 561 U.S. at 499; see PHH Corp., 881 F.3d at
170 (Kavanaugh, J., dissenting) (“Ever since the 1935 Humphrey’s
Executor decision, independent agencies have played a significant
role in the U.S. Government. The independent agencies possess extraordinary authority over vast swaths of American economic and
social life—from securities to antitrust to telecommunications to labor to energy. The list goes on.”).
133
134

182a
Congress often structures agencies to be independent from the Executive Branch in hopes that a measure
of political insulation will enable the agencies to pursue
policy objectives that (hopefully) yield long-term benefits. 137 To do so, Congress selects from a “menu of options” 138 in order “to structure the agency to be more or
less insulated from presidential control.” 139
The quintessential independence-promoting mechanism is restricting the Executive Branch’s ability to remove agency leaders at will. The Supreme Court in
1935 explained the rationale this way: “[O]ne who holds
his office only during the pleasure of another cannot be
depended upon to maintain an attitude of independence
against the latter’s will.” 140 As a result, Congress will
often permit the President to remove agency leadership
only “for cause.” And the Supreme Court has approved this design: “Congress can, under certain cir-

See, e.g., PHH Corp., 881 F.3d at 78 (“Congress has historically
given a modicum of independence to financial regulators like the
Federal Reserve, the FTC, and the Office of the Comptroller of the
Currency. That independence shields the nation’s economy from
manipulation or self-dealing by political incumbents and enables
such agencies to pursue the general public interest in the nation’s
longer-term economic stability and success, even where doing so
might require action that is politically unpopular in the short term.”).
138
See Kirti Datla & Richard L. Revesz, Deconstructing Independent Agencies (and Executive Agencies), 98 CORNELL L. REV. 769,
825 (2013).
139
See Datla & Revesz, supra note 138, at 825.
140
Humphrey’s Ex’r v. United States, 295 U.S. 602, 629 (1935).
137

183a
cumstances, create independent agencies run by principal officers appointed by the President, whom the President may not remove at will but only for good cause.” 141
Beyond the removal restriction, Congress may impose other independence-promoting features. 142 For example, Congress may:
• Empower a single director or a body of co-equal
leaders to manage the agency;
• Establish fixed terms of service for agency leadership;
• Mandate the agency be composed of a bipartisan
leadership team;
• Exempt the agency from the standard appropriations process;
• Require the Senate to formally approve agency
leadership nominations;
• Establish a formal oversight board that monitors
and manages the independent agency’s activities;
and
• Grant the agency unilateral litigation authority,
untethered from the Department of Justice. 143
Sometimes, Congress imposes multiple independencepromoting mechanisms. Ultimately, “an agency’s practical degree of independence from presidential influence
Free Enter. Fund, 561 U.S. at 483 (citations omitted).
See Datla & Revesz, supra note 138, at 826-27 (recognizing
agencies “fall along a continuum” ranging “from most insulated to
least insulated from presidential control”).
143
See generally id.
141
142

184a
depends” on the combined effect of these (sometimes
mutually reinforcing) structural features. 144
While “[t]he Supreme Court has long recognized
that, as deployed to shield certain agencies, a degree of
independence is fully consonant with the Constitution,” 145 a vast “field of doubt” remains regarding how
much Congress can insulate an independent agency
from Executive Branch influence. 146 In other words:
“where, in all this, is the role for oversight by an elected
President?” 147
The President’s oversight role originates in Article
II. The Constitution vests the “executive Power” in
the President and obligates him to “take Care that the
Laws be faithfully executed.” 148 Independent agencies
are staffed by subordinate executive officers, 149 so the
President bears the ultimate responsibility for overseeing those officials. 150 Accordingly, “[s]ince 1789, the
Constitution has been understood to empower the President to keep these officers accountable—by removing

Id. at 824.
PHH Corp., 881 F.3d at 78.
146
Humphrey’s Ex’r, 295 U.S. at 632.
147
Free Enter. Fund, 561 U.S. at 499; id. (“The Constitution requires that a President chosen by the entire Nation oversee the execution of the laws.”).
148
U.S. CONST. art. II § 1, cl. 1; id. § 3.
149
See Free Enter. Fund, 561 U.S. at 483.
150
See id.; id. at 492 (“It is his responsibility to take care that the
laws be faithfully executed. The buck stops with the President, in
Harry Truman’s famous phrase.”).
144
145

185a
them from office, if necessary.” 151 The President cannot shirk this oversight obligation: “Abdication of responsibility is not part of the constitutional design.” 152
If an independent agency is too insulated from Executive Branch oversight, the separation of powers suffers. First, excessive insulation impairs the President’s ability to fulfill his Article II oversight obligations. 153 By limiting his ability to oversee subordinates,
Congress weakens the President’s ability to fulfill his
“constitutionally assigned duties, and thus undermines
. . . the balance of constitutionally prescribed power
among the branches.” 154
Second, excessive insulation allows Congress to accumulate power for itself. As the Supreme Court recognized, excessively insulating an independent agency
from Executive Branch influence “provides a blueprint

Id. at 483 (citations omitted).
Clinton, 524 U.S. at 452 (1998) (Kennedy, J., concurring).
153
Cf. Free Enter. Fund, 561 U.S. at 498 (“By granting the [Public
Company Accounting Oversight] Board executive power without the
Executive’s oversight, this Act subverts the President’s ability to ensure that the laws are faithfully executed—as well as the public’s
ability to pass judgment on his efforts. The Act’s restrictions are
incompatible with the Constitution’s separation of powers.”).
154
Martin H. Redish & Elizabeth J. Cisar, “If Angels Were to Govern”: The Need for Pragmatic Formalism in Separation of Powers Theory, 41 DUKE L.J. 449, 501 (1991) (footnote omitted); see Free
Enter. Fund, 561 U.S. at 500 (“ ‘Even when a branch does not arrogate power to itself,’ . . . it must not ‘impair another in the performance of its constitutional duties.’ ” (quoting Loving v. United
States, 517 U.S. 748, 757 (1996) (footnote omitted))).
151
152

186a
for extensive expansion of the legislative power.” 155 Congress can expand its powers through its “plenary control
over the salary, duties, and even existence of executive
offices.”156 And without meaningful tools to oversee the
agency, the President cannot counteract Congress’s ambition. 157
For these reasons, agencies may be independent, but
they may not be isolated. Surveying the Supreme
Court’s removal-power cases, a unifying principle
emerges: The outer limit of Congress’s ability to insulate independent agencies from executive oversight is
the President’s Article II obligation to ensure that the
nation’s laws are faithfully executed. In other words,
Article II’s Take Care Clause must impose a hard limit
on what is “necessary and proper” under Article I. 158
Otherwise, Congress could insulate an agency to the
155
Free Enter. Fund, 561 U.S. at 500 (2010) (quoting Metro. Wash.
Airports Auth. v. Citizens for Abatement of Aircraft Noise, Inc., 501
U.S. 252, 277 (1991)).
156
Id.
157
See id. (“Only Presidential oversight can counter its influence.”); id. at 501 (citing THE FEDERALIST No. 51 (James Madison)).
158
Congress may establish independent agencies as “necessary
and proper” in order to exercise its enumerated powers. But whatever Congress finds “necessary and proper” must be consistent with
Constitution’s “letter and spirit.” Nat’l Fed’n of Indep. Bus. v.
Sebelius, 567 U.S. 519, 537 (2012) (quoting McCulloch v. Maryland,
4 Wheat. 316, 421 (1819)); id. at 559 (“As our jurisprudence under
the Necessary and Proper Clause has developed, we have been very
deferential. . . . But we have also carried out our responsibility
to declare unconstitutional those laws that undermine the structure
of government established by the Constitution.”); see Free Enter.
Fund, 561 U.S. at 516 (Breyer, J., dissenting) (“The Necessary and
Proper Clause does not grant Congress power to free all Executive
Branch officials from dismissal at the will of the President.”).

187a
point where the President could not adequately oversee
the agency’s activities, impairing the President’s ability
to fulfill his Article II obligations. 159 This excessive
insulation upsets the separation of powers both by
allowing Congress to weaken the President’s performance of his constitutionally mandated duties and by allowing Congress to accumulate power for itself. Therefore, Congress cannot enshroud an agency in layers of
independence-promoting insulation to the point at which
the President cannot adequately control the agency’s
behavior. 160
To determine when insulating an independent agency
from Executive Branch control goes too far, we must review the Supreme Court’s leading removal-power cases.
a. Free Enterprise Fund

The Supreme Court in Free Enterprise Fund evaluated whether Public Company Accounting Oversight
Board (“PCAOB”) members were excessively insulated
from Executive Branch control.

Free Enter. Fund, 561 U.S. at 496 (finding that when the President could not hold agency officials accountable for their conduct,
“his ability to execute the laws . . . [was] impaired” in violation of
Article II); see Humphrey’s Ex’r, 295 U.S. at 629. (“The fundamental necessity of maintaining each of the three general departments
of government entirely free from the control or coercive influence,
direct or indirect, of either of the others, has often been stressed and
is hardly open to serious question.”).
160
Free Enter. Fund, 561 U.S. at 508 (holding that Congress cannot “deprive the President of adequate control over the [Public Company Accounting Oversight] Board, which is the regulator of first
resort and the primary law enforcement authority for a vital sector
of our economy”).
159

188a
The PCAOB was a “nonprofit corporation” with “expansive powers to govern” foreign and domestic accounting firms that audit public companies to ensure
compliance with our nation’s securities laws. 161 Congress charged the SEC with the responsibility of overseeing the PCAOB. 162 Yet, Congress also “substantially
insulated” PCAOB members “from the Commission’s control.” 163 PCAOB members could not be removed “except
for good cause,” and the Securities and Exchange Commissioners decided “whether good cause exist[ed].” 164
The President had virtually no oversight over the goodcause determination made by the SEC Commissioners;
the President “was powerless to intervene—unless that
determination [was] so unreasonable as to constitute inefficiency, neglect of duty, or malfeasance in office.” 165
Thus, to the Court, none of those Commissioners were
“subject to the President’s direct control.” 166
The Court concluded that excessively insulating the
PCAOB members through two layers of for-cause removal protection unconstitutionally impaired the President’s ability to fulfill his Article II responsibility. Congress “withdr[ew] from the President any decision on
whether . . . good cause exists” and “vested” that
decision in SEC Commissioners. 167 This meant that
the PCAOB was “not accountable to the President,” and

161
162
163
164
165
166
167

Id. at 484-85.
Id. at 485.
Id.
Id. at 496.
Id. (cleaned up).
Id.
Id.

189a
the President was “not responsible for the Board.” 168
This arrangement was unconstitutional because:
[n]either the President, nor anyone directly responsible to him, nor even an officer whose conduct he
may review only for good cause, ha[d] full control
over the Board. The President [was] stripped of the
power our precedents have preserved, and his ability
to execute the laws—by holding his subordinates accountable for their conduct—[was] impaired. 169
We draw three important lessons from Free Enterprise.
First, Congress may not “shelter the bureaucracy” to
the point where executive officers are “immune from
Presidential oversight.” 170 We must not forget the
Court’s fear that, absent effective oversight tools, the
Chief Executive could lose control over the Executive
Branch. 171
Second, to maintain “adequate control” 172 over his
subordinates, the President must retain sticks that he
can use to demand accountability—including the power

Id.
Id. at 496 (emphasis added).
170
Id. at 497.
171
Id. at 499 (“The growth of the Executive Branch, which now
wields vast power and touches almost every aspect of daily life,
heightens the concern that it may slip from the Executive’s control,
and thus from that of the people.” (emphasis added)).
172
Id. at 508 (holding that Congress cannot “deprive the President
of adequate control over the Board, which is the regulator of first
resort and the primary law enforcement authority for a vital sector
of our economy”).
168
169

190a
to remove. 173 As the Free Enterprise Court made clear,
Congress cannot transform the President into a “cajoler-in-chief ” who can only offer carrots. 174
Third, we must look at the aggregate effect of the insulating mechanisms to determine whether an agency is
excessively insulated. The Court in Free Enterprise
explicitly recognized that “the language providing for
good-cause removal” “working together” with “a number of statutory provisions” “produce[d] a constitutional
violation.” 175 Indeed, all nine Justices adopted this analytical approach. 176

See id. at 483-84; id. at 499.
Id. at 501-02; id. (“The President . . . is not limited, as in
Harry Truman’s lament, to ‘persuad[ing]’ his unelected subordinates
‘to do what they ought to do without persuasion.’ ” (alterations in
original)); id. at 502 (“Congress cannot reduce the Chief Magistrate
to a cajoler-in-chief.”).
175
See id. at 509.
176
Justice Breyer—dissenting and joined by Justices Stevens,
Ginsburg and Sotomayor—followed roughly the same analytical
framework. The dissent recognized that the removal restriction’s
constitutionality must be decided “in light of the provision’s practical
functioning in context,” id. at 523 (Breyer, J., dissenting), because
“[i]n practical terms no ‘for cause’ provision can, in isolation, define
the full measure of executive power,” id. at 524 (emphasis added).
Congress’s agency-design decisions—such as the agency’s “scope of
power” and funding—“affect the President’s power to get something
done.” See id. Thus, the dissent posed the central question as: “To
what extent [] is the . . . ‘for cause’ [removal] provision likely, as a
practical matter, to limit the President’s exercise of executive authority?” Id. The dissent concluded that, even with the removal restriction, the President—through his “constitutionally sufficient”
control over the SEC—could adequately control the PCAOB. Id. at
528-30. In other words, after evaluating the cumulative effect of the
173
174

191a
b. Morrison

Morrison involved the constitutionality of the Ethics
in Government Act (“EGA”), which permitted “the appointment of an ‘independent counsel’ to investigate
and, if appropriate, prosecute certain high-ranking Government officials for violations of federal criminal
laws.” 177 The EGA conferred upon the independent
counsel protection from at-will removal by the Executive Branch. 178
The independent counsel was an “inferior officer” 179
within the Executive Branch, who was “subject to goodcause removal by a higher Executive Branch official”
(i.e., the Attorney General). 180 The counsel had no “authority to formulate policy for the Government or the
Executive Branch, nor . . . [authority to exercise]
any administrative duties outside of those necessary to
operate her office.” 181 The counsel could “only act within
the scope of the jurisdiction that ha[d] been granted by

insulating mechanisms, the dissent concluded the President could
still adequately control the PCAOB.
177
Morrison, 487 U.S. at 660 (footnote omitted).
178
Id. at 663; id. at 686 (recognizing that the Attorney General may
remove the independent counsel for good cause, after following a
statutorily-prescribed process).
179
The Court reached this conclusion when evaluating the claim
that the EGA violated Article II’s Appointments Clause. We do not
find it necessary to recite the Court’s reasoning. We note, however,
that this conclusion influenced the Court’s subsequent analysis of
the separation-of-powers challenge.
180
Id. at 671, 686.
181
Id. at 671-72.

192a
the Special Division182 pursuant to a request by the Attorney General.” 183 The Attorney General—a principal executive officer who is removable at will by the President
—exercised substantial oversight over the authority and
actions of the independent counsel.
Although the EGA provided the independent counsel
protection from at-will removal, the Court found this removal restriction did not “sufficiently deprive[] the
President of control over the independent counsel to interfere impermissibly with his constitutional obligation
to ensure the faithful execution of the laws.” 184 The
Court recognized that the separation of powers aims to
ensure “Congress does not interfere with the President’s exercise of the ‘executive power’ and his constitutionally appointed duty to ‘take care that the laws be
faithfully executed’ under Article II.” 185 But it concluded that the removal restriction did not “impede the
President’s ability to perform his constitutional duty.” 186
This is because the EGA provided the Executive Branch
various other tools to supervise and control the independent counsel. 187 For example:
The Special Division was “a special court . . . created by the
Act ‘for the purpose of appointing independent counsels.’ ” Id. at
661.
183
Id. at 672.
184
Id. at 693.
185
Id. at 689.
186
Id. at 691.
187
Id. at 695-96 (“It is undeniable that the Act reduces the amount
of control or supervision that the Attorney General and, through
him, the President exercises over the investigation and prosecution
of a certain class of alleged criminal activity. . . . Nonetheless,
the Act does give the Attorney General several means of supervising
182

193a
• The independent counsel may be appointed only
following a “specific request by the Attorney General, and the Attorney General’s decision not to request appointment if he finds ‘no reasonable
grounds to believe that further investigation is
warranted’ is committed to his unreviewable discretion.” 188 This gave “the Executive a degree of
control over the power to initiate an investigation
by the independent counsel.” 189
• The independent counsel’s jurisdiction was “defined with reference to the facts submitted by the
Attorney General.” 190
• “[O]nce a counsel [was] appointed, the Act require[d] that the counsel abide by Justice Department policy unless it [was] not ‘possible’ to do
so.” 191
Considering the combined effect of the EGA’s provisions, the Court concluded that “[n]otwithstanding the
fact that the counsel [was] to some degree ‘independent’
and free from executive supervision . . . [those] features of the Act g[a]ve the Executive Branch sufficient
control over the independent counsel to ensure that the
President [was] able to perform his constitutionally assigned duties.” 192 Congress, in effect, compensated for
the removal restriction by providing the Executive
or controlling the prosecutorial powers that may be wielded by an
independent counsel.”).
188
Id. at 696.
189
Id.
190
Id.
191
Id.
192
Id. at 696 (emphasis added).

194a
Branch other effective tools to monitor and control the
independent counsel. Thus, the Morrison Court held,
the independent counsel was not excessively insulated
from presidential control, so there was no separation-ofpowers violation. 193
*

*

*

The overarching imperative to prevent an agency
from being unconstitutionally insulated from Executive
Branch oversight explains why an at-will removal limit
survived in Morrison but died in Free Enterprise. Restricting at-will removal of PCAOB Members in Free
Enterprise—in combination with the other mechanisms
that insulated the PCAOB from executive oversight—
went too far. 194 But in Morrison, the Executive retained tools to meaningfully oversee the independent
counsel, despite the removal restriction. After considering the combined effect of the provisions governing
the independent counsel, the Morrison Court concluded
that Congress had not excessively insulated the independent counsel from the Executive Branch. 195
Congress cannot isolate an independent agency from
meaningful executive oversight. Otherwise, the President could not fulfill his Article II responsibility to ensure the faithful execution of the nation’s laws, thus undermining the separation of powers.

193

See id. at 697.
Free Enter. Fund, 561 U.S. at 509 (“It is true that the language
providing for good-cause removal is only one of a number of statutory provisions that, working together, produce a constitutional violation.”) (emphasis added).
195
See Morrison, 487 U.S. at 696.
194

195a
c. The FHFA

We hold that Congress insulated the FHFA to the
point where the Executive Branch cannot control the
FHFA or hold it accountable. 196 We reach this conclusion after assessing the combined effect of the: (1) forcause removal restriction; (2) single-Director leadership
structure; (3) lack of a bipartisan leadership composition
requirement; (4) funding stream outside the normal appropriations process; and (5) Federal Housing Finance
Oversight Board’s purely advisory oversight role.
i.

The for-cause removal restriction

The President may remove the FHFA Director only
“for cause.” Limiting the President to only “for cause”
removal dulls an important tool 197 for supervising the
FHFA because the agency is protected from Executive

Admittedly, measuring the degree of insulation is difficult—
especially when each insulating feature, standing alone, may pass
constitutional muster. Nevertheless, we must remain faithful to the
Supreme Court’s guidance and engage in a fact-specific inquiry to
decide whether the various insulating provisions, “working together,
produce a constitutional violation.” See Free Enter. Fund, 561 U.S.
at 509.
196

197

Query whether a policy disagreement constitutes cause to remove. See Rachel E. Barkow, Insulating Agencies: Avoiding Capture Through Institutional Design, 89 TEXAS L. REV. 15, 27 (2010)
(footnote omitted) (“Though the issue has not been decided by the
Supreme Court, most commentators agree that it is not good cause
for removal if an agency performs a lawful regulatory agency action
that the President disagrees with as a matter of policy.”).

196a
influence and oversight. 198 Although the power to remove “for cause” may be a dull oversight tool, 199 limiting the President to “for cause” removal is not sufficient
See Neal Devins & David E. Lewis, Not-So Independent Agencies: Party Polarization and the Limits of Institutional Design,
88 B.U. L. REV. 459, 488 (2008) (finding that when “[p]residents cannot fire independent-agency heads on policy grounds . . . [they]
have been constrained in their efforts to direct independent-agency
policy making.”); Lisa Schultz Bressman & Robert B. Thompson,
The Future of Agency Independence, 63 VAND. L. REV. 599, 611
(2010) (“[A] President who cannot remove the personnel of the
agency for policy disagreements lacks a key method to impose administration views.”); see also Datla & Revesz, supra note 138, at 787
(footnote omitted) (“The ability to remove an agency head at will is
an enforcement tool that helps the President ensure that the agency
follows his policy preferences.”); Barkow, supra note 197, at 28
(“Empirical studies on when Congress opts for good-cause provisions support the view that this design feature seems largely aimed
at stopping presidential pressure [on independent agencies].”); id.
at 30 (“A removal restriction undoubtedly gives an agency head
greater confidence to challenge presidential pressure.”).
199
Indeed, the contours of “for cause” removal are uncertain. “No
recent President has attempted to remove the head of an independent agency for cause. . . . ” Datla & Revesz, supra note 138, at
788; id. at 787-89 (theorizing that the uncertainty regarding what
constitutes “for cause” removal and the potential political costs of
litigating the issue discourage Presidents from firing agency officials
for cause).
Also, statutory provisions governing how to replace the FHFA
Director may blunt the effectiveness of “for cause” removal. If the
Director is absent, a Deputy Director (chosen by the recently removed former Director) is designated by the President to serve as
the FHFA’s acting Director. See 12 U.S.C. § 4512. This former
Deputy serves as acting Director until “the appointment of a successor” following a formal appointment proceeding. Even if a President removes the Director “for cause,” the President must designate
an acting Director from the ranks of Deputy Directors whom the recently removed Director selected. And the President cannot install
198

197a
to trigger a separation-of-powers violation. 200 Cognizant of this restriction, we consider whether this and
other independence-promoting mechanisms—“working
together” 201—excessively insulate the FHFA, violating
the separation of powers.
ii. Single-Director agency leadership
The FHFA’s single-Director structure further insulates the Agency from presidential influence and oversight.
Traditionally, independent agencies are governed by
multi-member bodies. 202 Early examples of agencies
whose directors were protected from at-will removal—
such as the Interstate Commerce Commission and the
Federal Trade Commission—were “multi-member bodies: They were designed as nonpartisan expert agencies that could neutrally and impartially issue rules, initiate law enforcement actions, and conduct or review administrative adjudications.” 203
The distinction affects the President’s ability to monitor independent agencies. In multi-member agencies
the Director of his choice until the Senate approves his replacement.
These speedbumps to appointing a replacement Director render forcause removal an impotent oversight mechanism.
200
See Free Enter. Fund, 561 U.S. at 483 (citations omitted).
201
See id. at 509.
202
See generally PHH Corp., 881 F.3d at 177-79 (Kavanaugh, J., dissenting) (discussing the nation’s “deeply rooted tradition—namely,
that independent agencies are headed by multiple commissioners—
[that] has been widely recognized by leading judges, congressional
committees, and academics who have studied the issue”).
203
See id. at 169; id. at 173 (“Until this point in U.S. history, independent agencies exercising substantial executive authority have all
been multi-member commissions or boards.”).

198a
whose leaders are protected from at-will removal, the
President can still influence the agency through the
power “to designate the chairs of the agencies and to remove chairs at will from the chair position.” 204 By designating a chair, a new President can “quickly” exert supervisory oversight. 205
The FHFA has no chair. “[A] President may be
stuck for years with a [FHFA] Director who was appointed by the prior President and who vehemently opposes the current President’s agenda.” 206 This “dramatic and meaningful difference vividly illustrates that
the . . . single-Director structure diminishes Presidential power more than traditional multi-member independent agencies do.” 207 Thus, the FHFA’s singleDirector leadership structure insulates the agency from
presidential oversight.
iii. Lack of bipartisan balance

See id. at 166; see Datla & Revesz, supra note 138, at 796-97
(summarizing the chairperson’s ability to influence agency direction
and recognizing “it is clear that the ability to appoint the head of an
independent agency allows the President to retain some control over
that agency’s activities”); Peter L. Strauss, The Place of Agencies in
Government:
Separation of Powers and the Fourth Branch,
84 COLUM. L. REV. 573, 590 (1984) (explaining that the President can
influence an independent agency’s priorities and policymaking by
designating a chairperson); id. at 590 n.68 (“The personal, political
loyalty of the chairman assures the President a substantial impact
on agency administration, and consequent influence on policy.”).
205
Barkow, supra note 197, at 38-39.
206
See PHH Corp., 881 F.3d at 167 (Kavanaugh, J., dissenting).
207
Id.
204

199a
Another factor is whether the independent agency
has a statutorily mandated requirement of bipartisan
leadership.
A bipartisan leadership structure gives the President
allies: “[C]ommon sense and existing scholarship point
to the increasing identity of interests between the President and independent-agency commissioners from the
president’s party.” 208 Even when the President inherits an agency led by the opposing party, he often can secure a majority of the leadership on the governing board
within the first two years of his term. 209 And “[o]nce
the President has a majority of members of his or her
party, the commissions fall in line with the President’s
priorities and positions.” 210 Thus, bipartisan balance
requirements bolster presidential involvement.
The FHFA, however, lacks this requirement. “Its
single Director is from a single party—presumably the
party of the President who appoints him.” 211 Given the
Director’s fixed five-year term, the opposing party may

Devins & Lewis, supra note 198, at 491 (footnote omitted); see
also id. (“[S]ystematic studies of both commissioner voting and the
nomination process support our claim that, in this era of party polarization, independent-agency heads are especially likely to support
the priorities of the political party they represent.”).
209
See Barkow, supra note 197, at 38 (citations omitted) (finding
that recent Presidents have managed to obtain a partisan majority
on multi-member independent agencies in an average of twenty
months (a historically slow rate)).
210
Barkow, supra note 197, at 38; Devins & Lewis, supra note 198,
at 498 (concluding “there is good reason to think that independent
agencies will adhere to presidential preferences once a majority of
commissioners are from the President’s party”).
211
See PHH Corp., 881 F.3d at 148 (Henderson, J., dissenting).
208

200a
dominate the Agency for the duration of the President’s
term.
Plus, bipartisan leadership requirements enhance
Executive Branch oversight. Party members on an
agency’s governing board are “likely to . . . dissent
if the agency goes too far in one direction,” 212 which
serves as a “fire alarm” that alerts the President about
controversial agency actions. 213 But, at the FHFA, no
one is there to sound the alarm.
iv. Abnormal agency funding
An agency’s funding stream bears on presidential influence. 214 If the agency is subject to the normal appropriations process, the President can veto a spending bill
containing appropriations for the agency. 215 Also, the
President submits an annual budget to Congress, which
he uses “to influence the policies of independent agencies.” 216
By placing an agency outside the normal appropriations process, the President loses “leverage” over the

See Barkow, supra note 197, at 41.
See id.
214
See PHH Corp., 881 F.3d at 146-47 (Henderson, J., dissenting)
(citation omitted); see also Barkow, supra note 197, at 43 (“To be
sure, the power of the purse is one of the key ways in which democratic accountability is served.” (footnote omitted)).
215
See PHH Corp., 881 F.3d at 147 (Henderson, J., dissenting) (citation omitted).
216
Id. (citation omitted).
212
213

201a
agency’s activities. 217 As Justice Breyer’s Free Enterprise dissent recognized, “who controls the agency’s
budget requests and funding” affects the “full measure
of executive power” to oversee an agency; an agency’s
funding stream “affect[s] the President’s ability to get
something done.” 218
The FHFA stands outside the budget 219 —in stark
contrast to “nearly all other administrative agencies” 220
—and is therefore immune from presidential control.
v. No formal control over agency activities
No statutory provision provides for formal Executive
Branch control over the FHFA’s activities. The closest thing is the statutorily created Federal Housing Finance Oversight Board (the “Board”). 221 Two of the
Board’s four members are Cabinet officials who are beholden to the President: the Secretary of the Treasury
and the Secretary of Housing and Urban Development.
But the Board may not “exercise any executive authority, and the Director may not delegate to the Board any
of the functions, powers, or duties of the Director.” 222
The Board exercises purely advisory functions; it cannot
See id. at 147; Barkow, supra note 197, at 44 (“With independent
funding, the agency is insulated from . . . the President.” (footnote omitted)).
218
Free Enter. Fund, 561 U.S. at 524 (Breyer, J., dissenting).
219
12 U.S.C. § 4516(f )(2); see HENRY B. HOGUE ET AL., CONG. RESEARCH SERV., R43391, INDEPENDENCE OF FEDERAL FINANCIAL
REGULATORS: STRUCTURE, FUNDING, AND OTHER ISSUES 27 (2017).
220
Cf. PHH Corp., 881 F.3d at 146 (Henderson, J., dissenting) (citations omitted) (emphasis added).
221
12 U.S.C. § 4513a(a).
222
Id. § 4513a(b).
217

202a
require the FHFA or Director to do anything—beyond
ordering “a special meeting of the Board.” 223 Thus,
Cabinet officials—through the Board—can do nothing
more than cajole the FHFA into acting.
This lack of formal involvement contrasts with situations where courts have upheld the insulation of independent agencies: PHH (the Consumer Financial Protection Bureau) and Morrison (independent counsel).
With respect to the Consumer Financial Protection
Bureau (“CFPB”), the President, through the Financial
Stability Oversight Council (“FSOC”), can influence the
CFPB’s activities. 224 The Council is comprised of ten
voting members. 225 The Treasury Secretary is the
Council’s Chairperson. 226 The other voting members
are heads of various independent agencies, including the
SEC, Commodity Futures Trading Commission, CFPB,
and FHFA. 227 “Significantly, a supermajority of persons on the Council are designated by the President.” 228
Id. § 4513a(d)(2).
See id. § 5321.
225
Id. § 5321(b)(1).
226
Id. § 5321(b)(1)(A).
227
Id. § 5321(b)(1). The President, with the advice and consent of
the Senate, also appoints a voting “independent member . . . having insurance expertise” to the FSOC who serves a six-year term.
Id. § 5321(b)(1)(J), (c)(1).
228
PHH Corp., 881 F.3d at 120 (Wilkins, J., concurring); see id. at
120 n.3 (Wilkins, J., concurring) (explaining that “the chairpersons
of five independent agencies serve on the Council, each of whom the
President has the opportunity to appoint either at the outset or near
the beginning of the administration” and “[o]nly four members of the
FSOC have terms longer than four years and are thus potentially
not appointed by a one-term President”).
223
224

203a
The FSOC holds veto-power over the CFPB’s policies. 229 Specifically, the FSOC may “set aside a final
regulation prescribed by the [CFPB], or any provision
thereof, if the Council decides . . . the regulation or
provision would put the safety and soundness of the
United States banking system or the stability of the financial system of the United States at risk.” 230 “Any
member of the Council can file a petition to stay or revoke a rule, which can be granted with a two-thirds majority vote.” 231 This veto is a “powerful” oversight
mechanism. 232 Thus, despite the CFPB’s independent
status, the Executive Branch retains an emergency
brake to hold the CFPB accountable. 233
With respect to the independent counsel in Morrison,
the EGA established formal mechanisms for the Attorney General to oversee the independent counsel. And
these mechanisms, in part, persuaded the Court to uphold the removal restriction.

See PHH Corp., 881 F.3d at 98; id. at 120-21 (Wilkins, J., concurring) (finding these “additional statutory requirements on CFPB
action make[] the CFPB Director more accountable to the President”).
230
Id. § 5513(a).
231
PHH Corp., 881 F.3d at 120 (Wilkins, J., concurring) (citing 12
U.S.C. § 5513).
232
Id.
233
Some question whether the FSOC is a “meaningful substitute
check” on the CFPB’s actions. See id. at 159-60 (Henderson, J., dissenting) (“The fact that anyone mentions the Council’s narrow veto
as a check is instead a testament to the CFPB’s unaccountable policymaking power.”). This magnifies the concern here: The FHFA
lacks any oversight body.
229

204a
In sum, there are no formal mechanisms by which the
Executive Branch can control how the FHFA exercises
authority. The only formal oversight body is the Federal Housing Finance Oversight Board—a purely advisory body that cannot impose its will on the FHFA.
Although the Treasury Secretary is a member of the
Board, she cannot pump the brakes on the FHFA’s actions.
d.

There are no similarly insulated agencies.

The FHFA defends its constitutionality by asserting
that it follows in a long line of independent agencies that
courts have found to be constitutional—namely, the
Federal Trade Commission, the Office of the Independent Counsel, and the Consumer Financial Protection
Bureau. We see things differently. The FHFA is sui
generis, and its unique constellation of insulating features offends the Constitution’s separation of powers.
i.

The FTC in Humphrey’s Executor

The FTC is an independent agency whose leaders are
protected from at-will removal. The Supreme Court approved this arrangement 80-plus years ago in Humphrey’s Executor—which the FHFA takes as validation.
But the Court has since clarified that Humphrey’s
Executor did not grant Congress blanket authority to
create independent agencies whose leaders are protected from at-will removal. 234 The Humphrey’s Executor Court established two demarcations regarding the
See Free Enter. Fund, 561 U.S. at 483 (reading Humphrey’s Executor to mean that “Congress can, under certain circumstances,
create independent agencies run by principal off icers appointed by
the President, whom the President may not remove at will but only
234

205a
President’s oversight power: The President has “unrestrictable power to remove purely executive officers,”
and Congress may limit the President’s power to remove
commissioners of an independent agency that is “wholly
disconnected from the executive department.” 235 Between those poles lies a “field of doubt.” 236
The Humphrey’s Executor Court’s description of the
FTC instructs how we tend the field. First, the Court
described the FTC as “an administrative body created
by Congress to carry into effect legislative policies” that
“act[ed] in part quasi legislatively and in part quasi judicially.” 237 The Court emphasized that the FTC “cannot in any proper sense be characterized as an arm or
an eye of the executive.” 238 And “any executive function” it does exercise—“as distinguished from executive
power in the constitutional sense” 239—is “in the discharge
and effectuation of its quasi legislative or quasi judicial
powers, or as an agency of the legislative or judicial departments of the government.” 240 Thus, central to the
Court’s decision was its perception that the FTC did not
exercise executive power.
for good cause.” (emphasis added)); see also PHH Corp., 881 F.3d
at 186 (Kavanaugh, J., dissenting) (interpreting Humphrey’s Executor as limited to approving removal limitations for independent
agencies with multi-member leadership structures).
235
Humphrey’s Ex’r, 295 U.S. at 630.
236
Id. at 632.
237
Id. at 628; see id. at 624 (finding the FTC’s duties were “neither
political nor executive, but predominantly quasi judicial and quasi
legislative.”).
238
Id. at 628.
239
Id.
240
Id. (footnote omitted).

206a
This discussion highlights how the FTC differs from
the FHFA. The FHFA—unlike the FTC 241—exercises
executive functions. For example, the FHFA can enforce rules that it creates through cease-and-desist orders and monetary civil penalties. 242 Thus, the FHFA
can easily “be characterized as an arm or eye of the executive.” 243
Also, the FHFA lacks formal nonpartisanship requirements. The President appoints the Director, and
the Director then appoints three deputies. Most likely,
the agency’s approach to exercising its broad discretion
will slant toward the views of the President’s party. 244
The FTC, on the other hand, is bipartisan. 245 The FTC
is also structured to allow the President to choose a
chairperson, 246 which allows the Executive Branch to

241
The Morrison Court acknowledged, however, that the Humphrey’s Executor Court may have misperceived the FTC’s authority:
“[I]t is hard to dispute that the powers of the FTC at the time of
Humphrey’s Executor would at the present time be considered ‘executive,’ at least to some degree.” Morrison, 487 U.S. at 690 n.28
(citations omitted). The Court has not, however, formally abrogated the Humphrey’s Executor holding.
242
See 12 U.S.C. §§ 4585, 4636.
243
See Humphrey’s Ex’r, 295 U.S. at 628. Decades later, the Morrison Court deemphasized the focus on the agency’s function in favor
of an approach that focused on “whether the removal restrictions are
of such a nature that they impede the President’s ability to perform
his constitutional duty, and the functions of the officials in question
must be analyzed in that light.” Morrison, 487 U.S. at 691.
244
See PHH Corp., 881 F.3d at 144-48 (Henderson, J., dissenting).
245
See Humphrey’s Ex’r, 295 U.S. at 628. Compare 15 U.S.C. § 41
(FTC) with 12 U.S.C. § 4512 (FHFA).
246
15 U.S.C. § 41.

207a
wield considerable influence over the agency’s priorities
and actions. 247
One final distinction: The FTC is subject to the traditional appropriations process. 248 “Accordingly, the
FTC must go to the Congress every year with a detailed
budget request explaining its expenditure of public
money,” 249 which allows the President to monitor and
shape the agency’s activities. 250
Humphrey’s Executor, therefore, is inapposite. By
structuring the FTC to preserve Executive Branch influence, Congress mitigated the impact of limiting the
President’s removal power. Congress did not stifle the
President’s ability to directly impact the agency. As a
result, the President could fulfill his Article II responsibility, and the FTC survived constitutional challenge.
The FHFA is a different beast.
ii. The independent counsel in Morrison
The Executive Branch could exercise far greater control over the independent counsel as compared with the
FHFA. 251 Indeed, the EGA gave the Executive Branch
control over when and how the independent counsel performed its prosecutorial functions; this control was “suf-

See supra notes 202-213 and accompanying text.
U.S.C. § 42. See generally PHH Corp., 881 F.3d at 146 (Henderson, J., dissenting).
249
PHH Corp., 881 F.3d at 146 (Henderson, J., dissenting).
250
See supra notes 214-220 and accompanying text.
251
See supra notes 177-193 and accompanying text; see also Morrison, 487 U.S. at 696; PHH Corp., 881 F.3d at 176 (Kavanaugh, J.,
dissenting).
247
248

208a
ficient” to allow the President to fulfill his Article II responsibilities. 252 No principal Executive Branch official can exert comparable influence over the FHFA.
The FHFA Director also does not resemble the independent counsel. The independent counsel “exercised
only executive power, not rulemaking or adjudicative
power” and “had only a limited jurisdiction for particular defined criminal investigations.” 253 Because the
FHFA Director can write and enforce laws—as opposed
to just enforcing existing laws—the FHFA Director
“poses a more permanent threat to the President’s faithful execution of the laws.” 254
iii. The CFPB in PHH Corporation
The D.C. Circuit recently evaluated the constitutionality of the structure of the Consumer Financial Protection Bureau, an independent agency that exercises executive, legislative, and adjudicatory functions. Congress structurally insulated the CFPB from Executive
Branch oversight; this insulation included a restriction
on the President’s ability to remove the CFPB’s director
at will. 255 Ultimately, the en banc court found the agency’s structure constitutional. 256

Morrison, 487 U.S. at 696.
PHH Corp., 881 F.3d at 176 (Kavanaugh, J., dissenting).
254
Cf. id. at 152-53 (Henderson, J., dissenting) (comparing the
CFPB Director to the independent counsel).
255
Id. at 78 (recognizing “[t]he Director may be fired only for ‘inefficiency, neglect of duty, or malfeasance in office’ ” (quoting
12 U.S.C. § 5491(c)(3)).
256
We compliment our colleagues for their numerous incisive, detailed opinions, from which we have drawn extensively.
252
253

209a
The D.C. Circuit found that “[t]he [Supreme] Court
has consistently upheld ordinary for-cause removal restrictions like the one at issue here, while invalidating
only provisions that either give Congress some role in
the removal decision or otherwise make it abnormally
difficult for the President to oversee an executive officer.” 257 Following that framing, the court approved
“Congress’s application of a modest removal restriction
to the CFPB, a financial regulator akin to the independent FTC in Humphrey’s Executor and the independent
SEC in Free Enterprise Fund, with a sole head like the
office of independent counsel in Morrison.” 258
The D.C. Circuit explained its conclusion as follows.
First, the CFPB’s structure was consistent with historical practice with regard to independent, financial regulatory agencies. 259 Second, “Congress validly decided
that the CFPB needed a measure of independence and
chose a constitutionally acceptable means to protect
it,” 260 including budgetary independence. 261 Third, an
agency led by a single director is likely as responsive to
the Executive Branch as an agency with a multi-member
leadership structure. 262 Finally, the D.C. Circuit disa-

Id. at 85.
Id. at 85. The D.C. Circuit also described the removal restrictions at-issue as “wholly ordinary” and “mild.” Id. at 78.
259
Id. at 91 (“Financial regulation, in particular, has long been
thought to be well served by a degree of independence.”).
260
Id. at 92-93.
261
Id. at 93.
262
Id. (“[T]here is no reason to assume an agency headed by an
individual will be less responsive to presidential supervision than one
headed by a group.”).
257
258

210a
greed with Judge Kavanaugh’s dissenting position; according to the majority, the CFPB’s novel structure
was, standing alone, not constitutionally problematic, 263
nor did the CFPB lose under a freestanding “liberty”
inquiry. 264 Ultimately, “[n]o relevant consideration
g[ave] [the court] reason to doubt the constitutionality
of the independent CFPB’s single-member structure.
Congress made constitutionally permissible institutional design choices for the CFPB with which courts
should hesitate to interfere.” 265
We are mindful of our sister court’s analysis regarding the FHFA’s constitutionality. But salient distinctions between the agencies compel a contrary conclusion.
First, the agencies are structured differently. The
Executive Branch can directly control the CFPB’s actions through the FSOC—a feature the PHH majority
found highly relevant. 266 The FHFA, on the other
hand, has no formal oversight beyond the purely advisory Federal Housing Finance Oversight Board.
Second, the Shareholders here challenge not only the
removal-power limitation or the FHFA’s single-head
structure. Instead, they challenge the FHFA’s unconstitutional insulation from Executive Branch oversight
—the cumulative effect of Congress’s agency-design
See id. at 102-05.
See id. at 105-06.
265
Id. at 110. The D.C. Circuit seemed disturbed that PHH’s position “call[ed] into question the structure of a host of independent
agencies that make up the fabric of the administrative state.” Id. at
93.
266
Id. at 98.
263
264

211a
decisions. Indeed, as the D.C. Circuit recognized, “for
two unproblematic structural features to become problematic in combination, they would have to affect the
same constitutional concern and amplify each other in a
constitutionally relevant way.” 267 That is precisely
the case here: The structural insulation of the FHFA
Director—who may be appointed by a former President,
who cannot be replaced at-will, and who is insulated
from Executive Branch oversight—interferes with the
President’s ability to fulfill his duties under the Constitution.
*

*

*

Article I cannot cannibalize Article II. Congress
has broad discretion to establish independent agencies,
but Congress cannot go so far as to impair the President’s ability to fulfill his Article II obligations. The independent agencies Congress may establish may not be
excessively insulated from Executive Branch oversight—
even if insulation is normatively desirable. 268 Article II
is an outer limit on what is “necessary and proper.”
In order to achieve a “workable government,” 269 the
FHFA asks to us trust that Congress can adequately
Id. at 96; see id. at 85 (recognizing that the Supreme Court has
invalidated statutory provisions that “make it abnormally difficult
for the President to oversee an executive officer”); id. at 79 (framing
its task as follows: “The ultimate purpose of our constitutional inquiry is to determine whether the means of independence, as deployed at the agency in question, impedes the President’s ability under Article II of the Constitution to take Care that the Laws be faithfully executed” (cleaned up and emphasis added)).
268
See Free Enter. Fund, 561 U.S. at 499.
269
See Youngstown Sheet & Tube Co. v. Sawyer, 343 U.S. 579, 635
(1952) (Jackson, J., concurring) (“While the Constitution diffuses
267

212a
monitor the FHFA, altering the agency’s budget or authority if necessary. But this highlights the separationof-powers concern: The FHFA performs executive
functions, but the agency’s operations are subject primarily (if not exclusively) to Congress’s will, divorced
from Executive control. The Executive Branch should
not—and, constitutionally, cannot—delegate to Congress the responsibility to ensure the faithful execution
of the nation’s laws. 270 And, even if Congress could fix
the FHFA’s unconstitutionality in the future, we must
fulfill our own constitutional obligation here and now. 271
We conclude that the FHFA’s structure violates
Article II. Congress encased the FHFA in so many
layers of insulation—by limiting the President’s power
to remove and replace the FHFA’s leadership, exempting the Agency’s funding from the normal appropriations process, and establishing no formal mechanism for
the Executive Branch to control the Agency’s activities

power the better to secure liberty, it also contemplates that practice
will integrate the dispersed powers into a workable government.”).
270
See Clinton, 524 U.S. at 451-52 (Kennedy, J., concurring) (“Abdication of responsibility is not part of the constitutional design.”);
see also Free Enter. Fund, 561 U.S. at 497 (“The President can always choose to restrain himself in his dealings with subordinates.
He cannot, however, . . . escape responsibility for his choices by
pretending that they are not his own.”).
271
See Free Enter. Fund, 561 U.S. at 510 (recognizing that while
“Congress of course remains free to” re-structure an agency, the
Court cannot shirk its responsibility to remedy constitutional violations in cases before it); PHH Corp., 881 F.3d at 158 (Henderson, J.,
dissenting) (“At all events, an otherwise invalid agency is no less invalid merely because the Congress can fix it at some undetermined
point in the future.”).

213a
—that the end “result is a[n] [Agency] that is not accountable to the President.” 272 The President has been
“stripped of the power [the Supreme Court’s] precedents have preserved, and his ability to execute the
laws—by holding his subordinates accountable for their
conduct—[has been] impaired.” 273 In sum, while Congress may create an independent agency as a necessary
and proper means to implement its enumerated powers,
Congress may not insulate that agency from meaningful
Executive Branch oversight. 274
3.

Relief Available for Separation-of-Powers Violations

Having concluded that the FHFA structure violates
Article II, we must now determine what to do about it.
When fashioning relief for constitutional violations,
courts “try to limit the solution to the problem, severing
any problematic portions while leaving the remainder
Free Enter. Fund, 561 U.S. at 496.
Id.
274
We do not question Congress’s authority to establish independent agencies, nor do we decide the validity of any agency other than
the FHFA. Governing through independent agencies may be normatively desirable. It may not be. That is neither here nor there: Our
sole task is to decide whether the FHFA is constitutionally structured. See Marbury v. Madison, 5 U.S. (1 Cranch) 137, 177 (1803)
(“It is emphatically the province and duty of the judicial department
to say what the law is.”). We found, after an in-depth examination,
that the FHFA is excessively insulated from Executive Branch influence and is, therefore, structured in violation of the Constitution.
We leave for another day the question of whether other agencies suffer from similar constitutional infirmities.
And, of course, our opinion does not abrogate the Morrison Court’s
holding regarding the constitutionality of an independent agency
tasked with investigating high-ranking Executive Branch officials.
272
273

214a
intact.” 275 When a removal limitation crosses constitutional lines, courts routinely declare the limitation inoperative, prospectively correcting the error. 276 Severability is appropriate so long as the remaining statute remains “fully operative as a law with the tenure restrictions excised”277 and nothing in the text or historical
context of the statute makes it “evident” that Congress
would have preferred no law at all to excising the restriction. 278 Indeed, there is a presumption that “the
objectionable provision can be excised.” 279 In doing so,
courts routinely “accord[] validity to past acts of unconstitutionally structured governmental agencies.” 280
We conclude that severing the removal restriction
from HERA is the proper remedy in the instant case.
As a result, we leave the remainder of HERA undisturbed. The removal restriction itself has little effect
on the remainder of HERA. In fact, HERA remains
operative as a law without the restriction; its remaining
provisions are capable of functioning independently from
the removal restriction. 281 Given the exigent context in
Free Enter. Fund, 561 U.S. at 508-09 (quotation marks and citation omitted).
276
See id. at 508; PHH Corp., 881 F.3d at 160-61 (Kavanaugh, J.,
dissenting); John Doe Co. v. Consumer Fin. Prot. Bureau, 849 F.3d
1129, 1133 (D.C. Cir. 2017).
277
Free Enter. Fund, 561 U.S. at 509.
278
Id.
279
Alaska Airlines, Inc. v. Brock, 480 U.S. 678, 686 (1987).
280
John Doe Co., 849 F.3d at 1133 (citing Buckley, 424 U.S. at 142;
Citizens for Abatement of Aircraft Noise, Inc. v. Metropolitan
Wash. Airports Auth., 917 F.2d 48, 57 (D.C. Cir. 1990), aff ’d, 501
U.S. 252 (1991)); see also Free Enter. Fund, 51 U.S. at 508-09.
281
Free Enter. Fund, 561 U.S. at 509.
275

215a
which the law was passed, it is unlikely that the entirety
of HERA depended on a removal restriction. And
though HERA contains no severability clause, 282 “there
is nothing in the statute’s text or historical context that
makes it ‘evident’ that Congress, faced with the limitations imposed by the Constitution, would have preferred
no [FHFA] at all” to one with a Director “removable at
will” by the President. 283
The appropriate remedy for the constitutional infirmity is to strike the language providing for good-cause
removal from 12 U.S.C. § 4512(b)(2), restoring Executive Branch oversight to the FHFA. It is true here, as
it was in Free Enterprise Fund, that the removal restriction is just one of several provisions that cumulatively offend the separation of powers. To be sure, we
could “blue-pencil” other edits to HERA, but, as the Supreme Court advises, “such editorial freedom . . .
belongs to the Legislature, not the Judiciary.” 284 We
leave intact the remainder of HERA and the FHFA’s
past actions—including the Third Amendment.
In
striking the offending provision from HERA, the FHFA
survives as a properly supervised executive agency.
III. CONCLUSION

We AFFIRM the district court’s order granting the
Agencies’ motions to dismiss the Shareholders’ APA
claims because such claims are barred by 12 U.S.C.
§ 4617(f ).

282
283
284

See Alaska Airlines, 480 U.S. at 686.
Free Enter. Fund, 561 U.S. at 509.
Id. at 509-10.

216a
We REVERSE the district court’s order granting
the Agencies’ motion for summary judgment regarding
the Shareholders’ claim that the FHFA is unconstitutionally structured in violation of Article II and the Constitution’s separation of powers, and we REMAND to
the district court with instructions to enter judgment
declaring the “for cause” limitation on removal of the
FHFA’s Director found in 12 U.S.C. § 4512(b)(2) violates the Constitution’s separation-of-powers principles.

217a
CARL E. STEWART, Chief Judge, dissenting in part:
The constitutional issue presented by the Shareholders
—whether the FHFA’s structure impermissibly inhibits
the President’s ability to oversee and remove the Director consistent with his Article II obligation to “take care
that the laws are faithfully executed”—does not lend itself to a clear-cut answer. As the panel majority’s opinion states, Congress may mix and match a number of
“features of independence” when crafting an independent agency’s internal structure, subject of course to constitutional limitations set both within the Constitution’s
text and by Supreme Court precedent. These features
include: placing formal constraints on the President’s
removal power through the use of “for-cause” removal
restrictions, establishing a multimember leadership
structure, subjecting agency heads to fixed terms of service, mandating that an agency be composed of a bipartisan leadership team, exempting the agency from the
standard appropriations process, and granting the
agency unilateral litigation authority. See P.C. Opn. at
pg. 28; see also Free Enter. Fund v. Pub. Co. Accounting
Oversight Bd, 561 U.S. 477, 588 app. D (2010) (Breyer,
J., dissenting). And Congress has used these features
in several different combinations. Importantly, neither the presence nor absence of any given feature is
dispositive of the agency’s viability under Articles I and
II and separation-of-powers principles.
The Supreme Court’s Article II removal precedent,
although sparse, has only rejected Congress’s attempts
to fashion independent agencies on two occasions. The
first was in Myers v. United States, 272 U.S. 52, 60 (1926),
in which Congress attempted to simultaneously limit the

218a
President’s removal power and increase its own authority over the agency by conditioning the President’s removal power on the Senate’s advice and consent. This
form of appropriation and aggrandizement was deemed
violative of the Constitution’s separation of powers.
The second was in Free Enterprise Fund, which presented an “extreme variation on the traditional goodcause removal standard” by doubly insulating members
of Public Company Accounting Oversight Board with two
layers of for-cause removal protection. PHH Corp. v.
Consumer Fin. Prot. Bureau, 881 F.3d 75, 89 (D.C. Cir.
2018) (en banc). These cases and others within the Supreme Court’s body of Presidential removal power precedent establish, as the panel majority explains, that
Congress’s use and construction of independent agencies is subject to constitutional limitations, the outer
boundary of which is the President’s domestic executive
authority under Article II.
Notwithstanding my agreement with this fundamental principle of law, I conclude that the FHFA’s structure does not reach that boundary and therefore does
not impinge on the President’s oversight and removal
authority. My reasoning substantially mirrors that of
the D.C. Circuit’s en banc majority opinion in PHH Corporation, which concluded that the CFPB’s similar
structure does not exceed constitutional constraints on
the agency’s makeup. Thus, and for reasons expressed
by the en banc majority in PHH Corporation, I respectfully dissent from the panel majority opinion’s conclusion that the FHFA’s structure unconstitutionally restricts the President’s removal power under Article II.
I elaborate to briefly address and distinguish a feature of the CFPB’s structure that is absent from the

219a
FHFA. As the majority opinion notes, when Congress
created the CFPB, it also created the Financial Stability
Oversight Council (“FSOC”), 12 U.S.C. § 5321, which is
composed of several members of the Executive Branch
and independent agency heads chosen by the President
who have substantial stay and veto authority over any
rule promulgated by the Director that the FSOC believes might “put the safety and soundness of the United
States banking system or the stability of the financial
system of the United States at risk.” 12 U.S.C. § 5513.
No such “mandatory oversight” committee, with stay and
veto power, exists under HERA’s provisions creating the
FHFA. Rather, HERA created the Federal Housing Finance Oversight Board (“FHFOB”), 12 U.S.C. § 4513a(a).
Two Executive Branch officials—the Treasury Secretary
and the Secretary of Housing and Urban Development—
are members of the FHFOB, see id. § 4513(c). However,
unlike the FSOC, the Board may not “exercise any executive authority” and may not be delegated “any functions,
powers, or duties of the Director.” Id. § 4513a(b).
The FHFOB’s involvement in the FHFA Director’s
execution of his statutory mandate is limited to “advis[ing] the Director with respect to overall strategies
and policies in carrying out” his duties. Id. § 4513a(a).
The panel majority opinion highlights the advisory status of the FHFOB as further removing the FHFA from
Presidential oversight.
The mandatory-versus-advisory oversight distinction, although important, does not meaningfully alter
the constitutional analysis in this case. Notably, the
FHFA is not the only single-leader independent agency
subject to the “mere advice” of an advisory board. The
Social Security Act created the Social Security Advisory

220a
Board (“SSAB”) which is statutorily required to “advise” the Social Security Commissioner “on policies related to” the availability of benefits to Social Security
beneficiaries. 42 U.S.C. § 903(b). The SSAB’s functions are largely limited to “making recommendations”
with respect to several aspects of the Administration’s
duties, see id. § 903(b), and the SSAB is not statutorily
authorized to exercise veto power over the Commissioner’s decisions.
Further, even without mandatory oversight authority, the FHFOB wields some sway over the FHFA Director’s exercise of his statutory power. The Director
is required to meet with the FHFOB at least once every
three months and must at the very least subject himself
to their advice. See 12 U.S.C. § 4513a(a), (d)(1). And
once every year, the FHFOB must testify before Congress regarding, inter alia, the “operations, resources,
and performance of the [FHFA]” and “such other matters relating to the [FHFA] and its fulfillment of its mission,” id. § 4513a(e)(5), (6). At these Congressional
hearings, the FHFOB may either testify in support of
the Director’s leadership or testify that the Director has
derogated from his duties under HERA, thereby providing grounds for the President to exercise his “prerogative to consider whether any excesses amount to cause
for removal.” PHH Corp., 881 F.3d at 106. Although
giving the FHFOB a more active role in the promulgation of policy decisions would more explicitly submit the
Director to Executive Branch control, when it comes to
independent agencies, control in the sense encouraged
by the panel majority opinion is not required by the Constitution. An advisory board both preserves permissible agency independence and exposes the FHFA Direc-

221a
tor to policy perspectives held by Executive Branch officials immediately answerable to the President and,
thereby, the President, thus achieving the oversight and
accountability necessary to satisfy Article II.
Neither the for-cause removal restriction nor the
single-leader feature of the FHFA’s structure place the
agency outside the Presidents purview in violation of the
Constitution or the Supreme Court’s removal jurisprudence. Nor does the absence of a mandatory oversight
board in this case unduly inhibit the President’s ability
to remove the Director or oversee the goings-on of the
FHFA. For the foregoing reasons, I respectfully dissent.

222a
WILLETT, Circuit Judge, dissenting in part:
Desperate times breed desperate measures. Exhibit A is the Housing and Economic Recovery Act of
2008 (“HERA”), enacted after the United States housing bubble burst and triggered a massive mortgagesecurity and general-credit crisis. Nobody disputes that
Congress created the Federal Housing Finance Authority (“FHFA”) amid a dire financial calamity. The situation, both domestic and international, was grim and
worsening quickly:
• housing market—melting down
• national economy—circling the drain
• global financial system—teetering on collapse
The FHFA was cast as a silver bullet, a super-agency
endowed with far-reaching regulatory authority to stanch
the bleeding and to restore liquidity to the U.S. housing
and financial markets.
But contrary to how other federal courts have so far
ruled on this issue (including this court’s opinion today),
Congress did not vest the FHFA with unbounded, unreviewable power. The FHFA—like any agency—is restrained by the four corners of its enabling statute:
“An agency literally has no power to act . . . unless
and until Congress confers power upon it.” 1 Every
agency requires a defined statutory basis for its actions.
Absent a valid delegation of authority, an agency’s actions are dubious at best, and contrary to bedrock constitutional principles at worst. Exigency does not jus-

1

New York v. FERC, 535 U.S. 1, 18 (2002).

223a
tify conferring nigh-unchecked power on an agency insulated from judicial review. Expedience does not license omnipotence.
This case concerns whether the net worth sweep falls
within the scope of the FHFA’s statutory authority as
conservator. To answer the question before us, we
need only look to HERA’s plain text. And it is our duty
to ensure that the FHFA operates squarely within the
bounds of its statutory authority.
Regrettably, the majority opinion does otherwise.
The upshot is a lucrative limbo: Mortgage-finance giants Fannie Mae and Freddie Mac are forever trapped
in a zombie-like trance as wards of the state, bled of
their profits quarter after quarter in perpetuity. In rejecting the Shareholders’ statutory claims, the majority
opinion embraces the views of our sister circuits, adopting “the same well-reasoned basis common to those
courts’ opinions.” 2 But what the majority opinion finds
convincing, I find confounding.
With respect I dissent.
I

In essence, the judicial consensus is that HERA’s
anti-injunction provision bars the Shareholders claims
because (1) the text of HERA does not require the
FHFA as conservator to “preserve and conserve” the

2

Maj. Op. at 15.

224a
assets of these colossal government-sponsored enterprises (“GSEs”); 3 and (2) regardless, the net worth sweep
is consistent with the FHFA’s statutory authority. 4
Respectfully, this reading, while popular, flouts
HERA’s plain text, which should be the North Star of
our analysis. HERA tells us two important things.
First, the anti-injunction provision bars only claims that
would “restrain or affect” the FHFA’s statutory powers
as conservator (not the case here). 5 Second, the FHFA
does not have unfettered discretion to dispose of the
GSEs’ assets and property at will so long as it dons the
conservator cowl.
By enacting the net worth sweep in the Third Amendment, the FHFA exceeded the scope of its statutory authority as conservator. HERA makes clear that the
FHFA may operate either as conservator or receiver at
Roberts v. Fed. Hous. Fin. Agency, 889 F.3d 397, 403-04 (7th Cir.
2018); Robinson v. Fed. Hous. Fin. Agency, 876 F.3d 220, 232 (6th
Cir. 2017); Perry Capital L.L.C. v. Mnuchin, 864 F.3d 591, 607-09
(D.C. Cir. 2017).
4
Roberts, 889 F.3d at 404 (characterizing the Shareholders’ claims
as “whether the Agency made a poor business judgment”); Robinson, 876 F.3d at 231; Perry Capital, 864 F.3d at 607 (“FHFA’s execution of the Third Amendment falls squarely within its statutory
authority to operate the Companies, to reorganize their affairs, and
to take such action as may be appropriate to carry on their business.”
(cleaned up)).
5
All courts agree: HERA’s anti-injunction provision does not apply when a plaintiff “properly alleges that ‘FHFA acted beyond the
scope of its conservator power.’ ” Robinson, 876 F.3d at 228 (quoting Cty. of Sonoma v. Fed. Hous. Fin. Agency, 710 F.3d 987, 992 (9th
Cir. 2013)); see also Roberts, 889 F.3d at 402; Perry Capital, 864 F.3d
591, 605; accord id. at 638, 641 (Brown, J., dissenting in part). The
Shareholders have made this showing.
3

225a
any given time. The statute then provides a list of rolespecific duties. As conservator, the FHFA must “preserve and conserve the assets and property” of the
GSEs. 6 This statutory command is mandatory, not discretionary. Stripping the GSEs of their cash reserves
by depriving them of their net worth—in perpetuity—is
antithetical to this “preserve and conserve” requirement. This permanent pillaging of capital violates the
FHFA’s obligation as conservator to “put the [GSEs] in
a sound and solvent condition.” 7 The sweep siphons
the GSEs’ net worth quarter after quarter—all but
guaranteeing that they will draw on Treasury’s funding
commitment, increasing its liquidation preference.
This action is fundamentally incompatible with the
FHFA’s statutory mandate as conservator. Indeed,
Congress specifically permits the FHFA to perform this
action as receiver, yet the FHFA seeks to evade the
carefully crafted statutory scheme by proposing an impermissibly broad, and unnecessarily encroaching, view
of its powers as conservator. This overstep cannot
sidestep judicial review.
According to the majority opinion, however, there is
essentially no limit to the FHFA’s conservatorship authority, and courts are powerless to intervene so long as
the FHFA operates under the guise of “conservator.”
The majority opinion’s conception of conservatorship is
foreign to this (or any) court. Adopting this exotic approach betrays the letter and the spirit of limitations
provided by HERA, and ultimately allows the FHFA to

6
7

12 U.S.C. § 4617(b)(2)(D)(ii).
Id. § 4617(b)(2)(D)(i).

226a
raze our established principles governing administrative entities.
I cannot endorse such a willy-nilly delegation of authority to an administrative entity impervious to meaningful judicial review. The FHFA’s professed power is
something special—so spacious it’s specious. In terms
of unfettered clout, the FHFA has no rival across the
federal agency landscape. But unfettered must never
be unfretted. Agencies must always operate within the
carefully crafted statutory schemes that govern their
existence. And while the FHFA’s averred authority as
conservator is audacious, it is not limitless.
I cannot join the majority opinion’s conclusion that
the Shareholder’s statutory claims are barred by
HERA’s anti-injunction provision.
II

Agencies require statutory authorization for their actions. The full extent of FHFA’s authority as conservator is thus found within HERA’s text. 8 As we recently made clear, “the text is the alpha and the omega
of the interpretive process.” 9 So I begin with the language Congress actually used.

See City of Arlington, Tex. v. FCC, 569 U.S. 290, 317 (2013) (Roberts, C.J., dissenting) (quoting La. Pub. Serv. Comm’n v. FCC,
476 U.S. 355, 374 (1986)).
9
United States v. Maturino, 887 F.3d 716, 723 (5th Cir. 2018); see
also New York, 535 U.S. at 18 (“[W]e must interpret the statute to
determine whether Congress has given [the agency] the power to act
as it has.”).
8

227a
Congress created the FHFA to supervise and regulate the GSEs and Federal Home Loan banks. 10 HERA
granted the FHFA’s director discretionary authority to
place the GSEs in conservatorship. The statute authorizes the FHFA to “be appointed conservator or receiver for the purpose of reorganizing, rehabilitating, or
winding up the affairs of a regulated entity.” 11 When
serving as conservator or receiver, the FHFA enjoys an
array of general powers enumerated in § 4617(b)(2).
Once appointed as either conservator or receiver, the
FHFA succeeds to the “rights, titles, powers, and privileges of the [GSE], and of any stockholder, officer, or
director . . . with respect to the [GSE] and the assets of the [GSE].” 12 And the FHFA may assume the
assets, business operations, and functions of the GSE,
collect money due to the GSE, and “preserve and conserve the assets and property” of the GSE. 13 Finally,
HERA permits the FHFA to exercise any function of
any stockholder, director or officer of the GSE. 14
These general powers, however, must be read in concert with the more specific powers enumerated for conservators and receivers, respectively. Acts of Congress should be read cohesively, contextually, and comprehensively, not “as a series of unrelated and isolated
provisions.” 15 Under our precedent, “it is a ‘cardinal
rule that a statute is to be read as a whole,’ in order not
12 U.S.C. § 4511.
Id. § 4617(a)(2) (emphasis added).
12
Id. § 4617(b)(2)(A).
13
Id. § 4617(b)(2)(B).
14
Id. § 4617(b)(2)(C).
15
In re Burnett, 635 F.3d 169, 172 (5th Cir. 2011) (quoting Soliman
v. Gonzales, 419 F.3d 276, 282 (4th Cir. 2005)).
10
11

228a
to render portions of [a statute] inconsistent or devoid
of meaning.” 16 The majority opinion’s focus on general
powers ignores HERA’s specific provisions governing
how the FHFA is to behave.
Reading the statute holistically, it is clear that
HERA outlines two distinct roles—conservator and
receiver—that come with distinct powers. And when
the FHFA acts as conservator, HERA imposes mandatory duties on the FHFA to “preserve and conserve” the
GSEs’ assets and property.
A
Crucial to the issue before us today is that HERA
distinguishes between the role of conservator and the
role of receiver. The FHFA Director may designate
the agency as either conservator or receiver, but once
the FHFA is appointed as one or the other, its powers
depend on the role. And HERA prescribes and proscribes those powers.
HERA explicitly provides that the FHFA may “be
appointed as conservator or receiver for the purpose of
reorganizing, rehabilitating, or winding up the affairs
of a regulated entity.” 17 The statute uses the disjunctive “or,” denoting that the FHFA may not act as both
conservator and receiver simultaneously. 18 Indeed, the
text further makes clear that these roles are mutually
Id. (quoting Zayler v. Dep’t of Agric. (In re Supreme Beef Processors, Inc.), 468 F.3d 248, 253 (5th Cir. 2006)).
17
12 U.S.C. § 4617(a)(2).
18
In ordinary use, the term “or” “is almost always disjunctive, that
is, the words it connects are to be given separate meanings.”
Loughrin v. United States, 134 S. Ct. 2384, 2390 (2014) (quoting
United States v. Woods, 134 S. Ct. 557, 567 (2013)).
16

229a
exclusive—appointing the FHFA as receiver “immediately terminate[s] any conservatorship established for
the GSE.” 19 The roles are distinctive, not cumulative.
So are the powers attaching to each role. Section
4617(b)(2)(D) specifies the FHFA’s powers as conservator. The FHFA may take any action “necessary to put
the [GSE] in a sound and solvent condition” and “appropriate to carry on the business of the [GSE] and preserve and conserve the [GSE’s] assets and property.” 20
By contrast, § 4617(b)(2)(E), (f ) enumerates powers reserved to the FHFA as receiver—which include liquidating the GSE and organizing a “successor enterprise”
to operate the GSE. 21 Elsewhere, HERA emphasizes
the contrasting nature of these powers. In operating
the GSEs, the statute permits the FHFA to “perform all
functions of the [GSE] in the name of the [GSE] which
are consistent with the appointment as conservator or
receiver.” 22 This language echoes later in the statute.
Under the incidental powers provision, the FHFA is empowered only to “exercise all powers and authorities
specifically granted to conservators or receivers, respectively, under this section. . . . ” 23 This use of “respectively” further severs the role of “conservator” from
that of “receiver.” HERA thus outlines a distinct vision for the FHFA’s role as conservator and its role as
receiver.

19
20
21
22
23

12 U.S.C. § 4617(a)(4)(D).
Id. § 4617(b)(2)(D).
See id. § 4617(b)(2)(E), (F).
Id. § 4617(b)(2)(B)(iii) (emphasis added).
Id. (emphasis added).

230a
This distinction is not a mere procedural formality.
When the FHFA acts as receiver, HERA imposes specific statutory requirements to protect the various
rights and interests of creditors and investors. 24 These
procedures exist to ensure that receivers “fairly adjudicate claims against failed institutions.” 25 Liquidation is
exclusively reserved for the FHFA when it acts as receiver. 26 In fact, liquidation is mandatory, leaving no
hope to “rehabilitate” a GSE in receivership. 27 On the
other hand, when the FHFA acts as conservator, it may
take any action “necessary to put the [GSE] in a sound
and solvent condition” and “appropriate to carry on the
business of the [GSE] and preserve and conserve the
[GSE’s] assets and property.” 28 These explicit grants
of power to the FHFA when it acts as conservator or
receiver define the nature of authority in each role. In
this light, the FHFA-as-conservator does not have authority to “wind[] up” the GSEs. That is inherently,
textually, and exclusively the function of a receiver.
This plain-language interpretation of the FHFA’s
conservatorship powers follows our interpretation of
near-identical language in the Financial Institutions
Reform, Recovery, and Enforcement Act of 1989
(“FIRREA”). Congress essentially cut-and-pasted the
FHFA’s powers and functions as conservator, including
See id. § 4617(b)(3)-(9), (c).
Whatley v. Resolution Tr. Corp., 32 F.3d 905, 909-10 (5th Cir.
1994).
26
See 12 U.S.C. § 4617(b)(2)(E), (F), (b)(3); 12 C.F.R. § 1237.3(b).
27
See 12 U.S.C. § 4617(b)(2)(E) (“In any case in which the [FHFA]
is acting as receiver, the [FHFA] shall place the [GSE] in liquidation.” (emphasis added)).
28
Id. § 4617(b)(2)(D).
24
25

231a
the anti-injunction provision, from FIRREA. 29 And it is
a treasured canon of statutory interpretation that when
“Congress adopts a new law incorporating sections of a
prior law, Congress normally can be presumed to have had
knowledge of the interpretation given to the incorporated
law.” 30 Thus, our interpretation of FIRREA must inform our interpretation of HERA.
FIRREA empowers the Federal Deposit Insurance
Corporation (“FDIC”) to act as conservator or receiver. 31
FIRREA also breaks down the powers and functions of
the FDIC when it acts as conservator or receiver. Once
appointed, the FDIC “succeed[s] to . . . all rights,
titles, powers, and privileges of the insured depository
institution, and of any stockholder, member, accountholder, depositor, officer, or director . . . with respect to the institution and the assets of the institution.” 32 FIRREA also permits the FDIC to fully assume the assets, business operations, and functions of
the institution, to collect money due to the institution,
and to “preserve and conserve the assets and property”
of the institution. 33 Finally, the FDIC may also exercise any function by any stockholder, director or officer
of the institution. 34

Compare id. § 1821(d)(2)(D) (FIRREA) with id. § 4617(b)(2)(D)
(HERA).
30
Lorillard v. Pons, 434 U.S. 575, 580-81 (1978); see also Merrill
Lynch, Pierce, Fenner & Smith Inc. v. Dabit, 547 U.S. 71, 85-86
(2006).
31
12 U.S.C. § 1821(c)(1).
32
Compare id. § 1821(d)(2)(A)(i) with id. § 4617(b)(2)(A)(i).
33
Compare id. § 1821(d)(2)(B) with id. § 4617(b)(2)(B).
34
Compare id. § 1821(d)(2)(C) with id. § 4617(b)(2)(C).
29

232a
This should sound familiar. Much of FIRREA’s text
and structure mirrors that of HERA. As under HERA,
the conservator and receiver roles under FIRREA share
common powers and functions, but they are plainly distinct. Among its general powers in operating the regulated entity, the FDIC may “perform all functions of
the institution in the name of the institution which are
consistent with the appointment as conservator or receiver.” 35 And, like HERA, FIRREA enumerates specific, unique powers held by conservators 36 and by receivers. 37 FIRREA authorizes conservators to take
“such action as may be . . . necessary to put the insured depository institution in a sound and solvent condition; and . . . appropriate to carry on the business
of the institution and preserve and conserve [its] assets.”38 In particular, it notes the conservator’s “fiduciary duty to minimize the institution’s losses,” 39 whereas
receivers “place the insured depository institution in liquidation and proceed to realize upon the assets of the
institution.” 40 Though the conservator and receiver
roles in FIRREA overlap in some respects, the duties
reflect different interests and distinct powers. 41 Under
FIRREA, the FDIC holds distinct roles when it acts as

Id. § 1821(d)(2)(B)(iii) (emphasis added).
Id. § 1821(d)(2)(D).
37
Id. § 1821(d)(2)(E)-(F).
38
Id. § 1821(d)(2)(D).
39
Id. § 1831f(d)(3).
40
Id. § 1821(d)(2)(E).
41
See McAllister v. Resolution Tr. Corp., 201 F.3d 570, 579 (5th
Cir. 2000); Resolution Tr. Corp. v. CedarMinn Bldg. Ltd. P’ship,
956 F.2d 1446, 1451-52, 1454 (8th Cir. 1992).
35
36

233a
conservator or receiver with clearly delineated statutory bounds between the two roles.
We should read HERA consistently with our previous interpretation of FIRREA. Congress “can be presumed to have had knowledge of the interpretation given
to the incorporated law.” 42 So under HERA’s nearly
identical language, the FHFA as conservator exercises
plainly distinct powers from the FHFA as receiver.
Nevertheless, the FHFA seeks to make bright lines
blurry. First, it argues that “winding up is different
from liquidation,” so a conservator may take steps akin
to winding up so long as they fall short of liquidation.
Alternatively the FHFA argues that “HERA’s plain
text authorizes FHFA as ‘conservator or receiver’ to be
appointed ‘for the purpose of reorganizing, rehabilitating, or winding up the affairs’ ” of the GSEs. As a result, the FHFA can “wind up” the GSEs as either conservator or receiver. This argument convinced the
D.C. Circuit, which rejected the idea that there is “a
rigid boundary” between the FHFA’s conservator and
receiver roles. 43
To be sure, both as a general matter and as a textual
matter, conservators and receivers share some common
functions under HERA. For example, the FHFA, acting as either conservator or receiver, may “transfer or

See Yates v. United States, 135 S. Ct. 1074, 1093 (2015) (Kagan,
J., dissenting) (noting that only the most compelling evidence will
persuade the Court that Congress intended identical terms used in
similar contexts to bear different meanings); Morissette v. United
States, 342 U.S. 246, 263 (1952).
43
Perry Capital, 864 F.3d at 610.
42

234a
sell any asset or liability” of the GSEs, “without any approval, assignment, or consent.” 44 In fact, many powers granted to the FHFA are available to it in either
role. 45
Winding up the GSEs is not one of those powers.
Reading HERA this way would be absurd: It would
render the carefully crafted, mandatory, receiver-specific,
wind-up procedures irrelevant. 46 There are no corresponding procedures for winding up the GSEs during
conservatorship. 47 This silence is unsurprising. As
conservator, the FHFA must “preserve and conserve”
the GSEs’ assets. In fact, the powers and functions
unique to the FHFA as receiver—winding up and liquidating a GSE—are antithetical to the duties of the FHFA as
conservator—rehabilitating a GSE and operating it as a
going concern, preserving its assets. 48 If the FHFA
wished to wind up the GSEs, it must first be designated
as receiver.
This conclusion does not deny the FHFA discretion
to exercise its lawful powers as conservator; it simply
enforces it. The FHFA may not exercise powers re-

12 U.S.C. § 4617(b)(2)(G).
See, e.g., id. § 4617(b)(2)(G) (power to transfer or sell assets or
liability of GSE in default); id. § 4617(b)(2)(H) (power to pay certain
obligations of GSE); id. § 4617(b)(2)(I) (power to issue subpoenas);
id. § 4617(b)(2)(J) (incidental powers necessary for the FHFA to execute its authority as conservator or receiver); id. § 4617(d)(1)
(power to repudiate contracts or leases).
46
See id. § 4617(b)(3)-(9), (c) (describing how to resolve claims
against the GSEs during liquidation).
47
See id. § 4617(b)(2)(D).
48
Id. § 4617(a)(2), (b)(2)(D)-(E).
44
45

235a
served for receivers when it is designated as a conservator. HERA specifies discrete conduct that the FHFA
may exercise in pursuit of its goals in either role.
All this boils down to the fact that the FHFA cannot
hide behind the conservator label to insulate it from
meaningful judicial review. The FHFA placed the
GSEs into conservatorship. In making that designation, the FHFA is limited to its authority as a conservator under HERA.
B

Next, we must outline the contours of the FHFA’s
conservatorship authority. Understanding how HERA
defines the FHFA’s conservatorship role is essential to
determining whether the FHFA exceeded its statutory
authority.
HERA enumerates specific powers for the FHFA
when it acts as conservator. The FHFA “may . . .
take such action as may be . . . necessary to put the
regulated entity in a sound and solvent condition; and
. . . appropriate to carry on the business of the regulated entity and preserve and conserve the assets and
property of the regulated entity.” 49
These powers accord with the traditional understanding of the role of conservators at common law. 50
Id. § 4617(b)(2)(D).
“It is a settled principle of interpretation that, absent other indication, ‘Congress intends to incorporate the well-settled meaning of
the common-law terms it uses.’ ” United States v. Castleman, 134
S. Ct. 1405, 1410 (2014) (quoting Sekhar v. United States,
133 S. Ct. 2720, 2724 (2013)). And “absence of contrary direction
may be taken as satisfaction with widely accepted definitions.”
49
50

236a
A conservator is “the modern equivalent of the commonlaw guardian” and a “managing conservator” is “[a] person appointed by a court to manage the estate or affairs
of someone who is legally incapable of doing so.” 51 And
conservators had specific fiduciary duties: They were
appointed to protect the legal interests of those unable
to protect themselves. 52 According to the Congressional Research Service, “[a] conservator is appointed to
operate the institution, conserve its resources, and restore it to viability.”53 Traditionally at common law, conservators thus owed certain obligations to their wards—
power must be exercised for their benefit.
This common-law understanding forms the foundation on which Congress built FIRREA and later,
HERA, authorizing agencies to serve as conservators
for an entity by “preserv[ing] and conserv[ing]” its assets and operating it in a “sound and solvent” manner. 54
As explained above, we have interpreted FIRREA to
Morissette, 342 U.S. at 263. Congress’s use of the word “conservator” in HERA and FIRREA incorporates the tradition of fiduciary
conservatorships at common law. See, e.g., Perry Capital, 864 F.3d
at 641 (Brown, J., dissenting in part) (construing FHFA conservatorship authority in light of common-law principles); Matter of Still,
963 F.2d 75, 77 (5th Cir. 1992) (construing FDIC receivership authority in light of common-law understandings).
51
Conservator, BLACK’S LAW DICTIONARY (10th ed. 2014) (emphasis in original).
52
See, e.g., Unif. Prob. Code § 5-418.
53
DAVID H. CARPENTER & M. MAUREEN MURPHY, CONG. RES.
SERV., FINANCIAL INSTITUTION INSOLVENCY: FEDERAL AUTHORITY
OVER FANNIE MAE, FREDDIE MAC, AND DEPOSITORY INSTITUTIONS
5 (2008), https://digital.library.unt.edu/ark:/67531/metadc795484/
m1/1/high_res_d/RL34657_2008Sep 10.pdf.
54
See 12 U.S.C. § 1821(d)(2)(D); id. § 4617(b)(2)(D).

237a
“state[] explicitly that a conservator only has the power
to take actions necessary to restore a financially
troubled institution to solvency.” 55 We are in good
company—the Fourth, Eighth, Ninth, Eleventh, and
D.C. Circuits have articulated similar views. 56 And the
FDIC’s own policy statements reflect its view that the
conservatorship role imposes a duty to achieve “sufficient tangible capitalization” that reasonably assures
“the future viability of the institution.” 57 Importantly,
a conservator must “minimize the institution’s losses”
and ensure “the future viability of the institution,”
McAllister, 201 F.3d at 579.
See, e.g., James Madison Ltd. By Hecht v. Ludwig, 82 F.3d
1085, 1090 (D.C. Cir. 1996) (“The principal difference between a
conservator and receiver is that a conservator may operate and dispose of a bank as a going concern, while a receiver has the power
to liquidate and wind up the affairs of an institution.”); Elmco
Props., Inc. v. Second Nat’l Fed. Sav. Ass’n, 94 F.3d 914, 922 (4th
Cir. 1996) (“[A] conservator’s function is to restore the bank’s solvency and preserve its assets.”); Del E. Webb McQueen Dev. Corp.
v. Resolution Tr. Corp., 69 F.3d 355, 361 (9th Cir. 1995) (“The [Resolution Trust Corporation (“RTC”)], as conservator, operates an
institution with the hope that it might someday be rehabilitated.
The RTC, as receiver, liquidates an institution and distributes its
proceeds to creditors according to the priority rules set out in the
regulations.”); Resolution Tr. Corp. v. United Tr. Fund, Inc.,
57 F.3d 1025, 1033 (11th Cir. 1995) (“The conservator’s mission is
to conserve assets which often involves continuing an ongoing business. The receiver’s mission is to shut a business down and sell
off its assets.”); CedarMinn, 956 F.2d at 1453 (noting that a conservator’s “mission[]” is “to take action necessary to restore the
failed [financial institution] to a solvent position and to carry on the
business of the institution and preserve and conserve the assets
and property of the institution” (quoting 12 U.S.C. § 1821(d)(2)(D)).
57
Statement of Policy on Assistance to Operating Insured Depository Institutions, 57 Fed. Reg. 60203, 60205 (Dec. 18, 1992).
55
56

238a
whereas a receiver liquidates and realizes upon the assets of the institution.
Before this litigation, the FHFA itself agreed with
this understanding of its authority as conservator. The
FHFA acknowledged publicly that “[t]he purpose of
conservatorship is to preserve and conserve each company’s assets and property and to put the companies in
a sound and solvent condition.” 58 The FHFA has repeatedly emphasized that HERA “required” it to restore the GSEs to soundness and to “preserve and conserve” the GSEs’ assets. 59 And its own regulations
highlight that “the essential function of a conservator is
to preserve and conserve the institution’s assets,” and
“[a] conservator’s goal is to continue the operations of a
regulated entity, rehabilitate it[,] and return it to a safe,

Fed. Hous. Fin. Agency, Report to Congress: 2009, at i (May
25, 2010), https://www.fhfa.gov/AboutUs/Reports/ReportDocuments/
2009_AnnualReportToCongress_508.pdf (acknowledging “[t]he purpose of conservatorship is to preserve and conserve each company’s
assets and property and to put the companies in a sound and solvent
condition”).
59
See Fannie Mae and Freddie Mac Loan Purchase Limits: Request for Public Input on Implementation Issues, 78 Fed. Reg.
77450, 77451 (Dec. 23, 2013) (describing the authority to “preserve
and conserve” the GSEs’ assets as “FHFA’s conservator obligation”
(emphasis added)); 2012-2014 Enterprise Housing Goals, 77 Fed.
Reg. 67535, 67549 (Nov. 13, 2012) (“FHFA’s duties as conservator
require the conservation and preservation of the [GSEs’] assets.”
(emphasis added)); Conservatorship and Receivership, 76 Fed. Reg.
35724, 35726 (June 20, 2011) (describing FHFA’s authority under
§ 4617(b)(2)(D) as its “statutory mission to restore soundness and
solvency to insolvent regulated entities and to preserve and conserve
their assets and property” (emphasis added)).
58

239a
sound[,] and solvent condition.” 60 Neither winding up
nor liquidating an entity, whether synonymous or not,
are consistent with this mission.
Now, however, the FHFA no longer thinks a conservator must conserve. The FHFA argues that HERA’s
conservatorship powers “bear no resemblance to the
type of conservatorship measures that a private commonlaw conservator would be able to undertake,” and Congress empowered the FHFA to act in its own best interests under the “incidental powers” provision. In essence, the FHFA contends that the incidental powers
provision represents a clear, contrary intention by Congress to displace the common-law interpretation of “conservator.”
Other circuits have found this argument persuasive.
They believe Congress explicitly delegated authority
that exceeds the customary meaning of conservator, so
the FHFA complied with its general statutory mandate
in adopting the net worth sweep. 61 First, they conclude
that the FHFA is not a traditional conservator because
“Congress granted FHFA a broad array of discretionary authority”—by framing HERA in terms of permissive authority, Congress intended the FHFA to exercise

Conservatorship and Receivership, 76 Fed. Reg. 35724, 257327,
35730 (June 20, 2011).
61
See, e.g., Robinson, 876 F.3d at 229-30 (finding that the statute
is framed in terms of discretionary authority and that express powers conflict with traditional notions of conservatorships); Perry Capital, 864 F.3d at 613 (“Congress made clear in the Recovery Act that
the FHFA is not your grandparents’ conservator.”).
60

240a
its discretion and it is not required to pursue binding duties under § 4617(b)(2)(D) when it acts as conservator. 62
Second, they find that the FHFA is not a traditional conservator because express powers granted by HERA’s
incidental powers permit the FHFA to take its own interests into account when performing its duties as conservator, conflicting with the customary meaning of conservatorships. 63
There is a textual hook in finding that Congress
granted the FHFA discretionary authority. HERA
provides that the FHFA “may . . . take such action
as may be . . . necessary to put the regulated entity
in a sound and solvent condition; and . . . appropriate to carry on the business of the regulated entity and
preserve and conserve the assets and property of the
regulated entity.” 64 Typically, “may” implies discretion. 65 I do not doubt that “may means may” or that

Robinson, 876 F.3d at 229-30; see also Roberts, 889 F.3d at 403
(“[S]ection 4617(b)(2)(D) does not require the Agency to do anything. It uses the permissive ‘may,’ rather than the mandatory
‘shall’ or ‘must,’ to introduce the Agency’s power as conservator to
‘preserve and conserve’ Freddie’s and Fannie’s assets and to restore
their solvency.”); Perry Capital, 864 F.3d at 607 (“The statute is thus
framed in terms of expansive grants of permissive, discretionary authority for FHFA to exercise as the ‘Agency determines is in
the best interests of the regulated entity or the Agency.’ ” (quoting
12 U.S.C. § 4617(b)(2)(J))).
63
Robinson, 876 F.3d at 230; Perry Capital, 864 F.3d at 613.
64
12 U.S.C. § 4617(b)(2)(D) (emphasis added).
65
See Kingdomware Techs., Inc. v. United States, 136 S. Ct. 1969,
1977 (2016).
62

241a
“ ‘may is, of course, ‘permissive rather than obligatory.’ ” 66 But courts seeking a forthright interpretation
should not myopically focus on “may” at the expense of
reading HERA as a cohesive, contextual whole. In divining statutory meaning, courts must never divorce
text from context. 67
Once again, “[a]n agency literally has no power to act
. . . unless and until Congress confers power upon
it.” 68 Here, “may” enables the FHFA to act—the FHFA
may take any action as conservator that is either (1)
“necessary to put the [GSE] in a sound and solvent condition” or (2) “appropriate to carry on the business of
the [GSE] and preserve and conserve” GSE assets and
property. 69 Logically, the FHFA may not take an action that is inconsistent with this express list of powers. 70 Any other reading would render the FHFA’s
enumeration of specific conservator powers meaning-

Perry Capital, 864 F.3d at 607 (quoting U.S. Sugar Corp. v.
EPA, 830 F.3d 579, 608 (D.C. Cir. 2016); Baptist Mem’l Hosp. v.
Sebelius, 603 F.3d 57, 63 (D.C. Cir. 2010)).
67
See, e.g., Torres v. Lynch, 136 S. Ct. 1619, 1626 (2016) (explaining
that courts must “interpret the relevant words [of a statute] not in a
vacuum, but with reference to the statutory context” (quoting
Abramski v. United States, 134 S. Ct. 2259, 2267 (2014))).
68
New York, 535 U.S. at 18.
69
12 U.S.C. § 4617(b)(2)(D) (emphasis added).
70
Under the negative implication interpretive canon, expressio
unius est exclusio alterius, the specification of one thing implies the
exclusion of the other. Antonin Scalia & Bryan A. Garner, READING
LAW: THE INTERPRETATION OF LEGAL TEXTS 107 (2012); see also
Texas v. United States, 809 F.3d 134, 182 (5th Cir. 2015) (noting the
utility of expressio unius for interpreting statutes in the administrative law field).
66

242a
less. Section 4617(b)(2)(D), though framed permissively, thus circumscribes the FHFA’s powers as conservator—any action it takes must be consistent with its
mission to “preserve and conserve” the GSEs’ assets.
Nor does HERA’s incidental powers provision give
the FHFA carte blanche to ignore its statutory mandate
as conservator.
Under its incidental powers, the
FHFA may “exercise all powers and authorities specifically granted to conservators or receivers, respectively,
under this section, and such incidental powers as shall
be necessary” to carry them out. 71 And the FHFA may
“take any action authorized by this section, which the
[FHFA] determines is in the best interests of the [GSE]
or the [FHFA].” 72 According to the Shareholders, and
at least two other circuits, this provision includes a broad
grant of permissive authority for the FHFA to do whatever it pleases based on its own self-interest. 73
I doubt that Congress “in fashioning this intricate
. . . machinery, would [] hang one of the main gears
on the tail pipe.” 74 Interpreting the incidental powers
provision to include such sweeping authority would treat
the incidental powers as ends unto themselves, swallowing the remainder of HERA’s statutory text.

12 U.S.C. § 4617(b)(2)(J)(i).
Id. § 4617(b)(2)(J)(ii).
73
See Robinson, 876 F.3d at 232 (finding that the Third Amendment could be a valid use of the FHFA’s incidental power as conservator); Perry Capital, 864 F.3d at 607-08 (noting that the incidental
powers provision permits the FHFA to take any action which it determines is in its best interests).
74
Brannan v. Stark, 342 U.S. 451, 463 (1952).
71
72

243a
The incidental powers provision is not a freestanding
source of authority to act. Instead, the provision is
confined to “any action authorized by this section.” 75
In essence, “incidental” powers must be “incidental” to
something.
To support this reading, we need look no further than
a dictionary; “incidental” means “[s]ubordinate to something of greater importance; having a minor role.” 76 It
is inconceivable that FHFA could exercise such freewheeling authority under its “incidental” powers—
wholly untethered from its specific powers as conservator or receiver.
And this broad reading ignores provisions granting
the FHFA specific powers and functions as either conservator or receiver. The incidental powers provision
references these powers and functions when it authorizes the FHFA to “exercise all powers and authorities
specifically granted to conservators or receivers, respectively.” 77 Logically, any exercise of the FHFA’s incidental powers must be in service of a power specifically
provided by HERA. 78 It is only with reference to these
12 U.S.C. § 4617(b)(2)(J)(ii) (emphasis added).
Incidental, BLACK’S LAW DICTIONARY (10th ed. 2014).
77
12 U.S.C. § 4617(b)(2)(J)(i) (emphasis added).
78
In some respects, the Court’s analysis of the Necessary and
Proper Clause, Article I’s “incidental powers” provision, is instructive. Cf. Nat’l Fed’n of Indep. Bus. v. Sebelius, 567 U.S. 519, 560
(2012) (noting that “cases upholding laws under [the Necessary and
Proper] Clause involved exercises of authority derivative of, and in
service to, a granted power”); McCulloch v. Maryland, 4 Wheat. 316,
421 (1819) (noting that the general authority to pass laws “necessary
and proper” to executing its powers are determined by the powers
granted under the Constitution).
75
76

244a
specific powers that we may discern the scope of the
FHFA’s authority over the GSEs. 79
Regardless, permitting the FHFA to act in its own
best interests does not come close to providing the type
of explicit instruction required to suggest that Congress
displaced the common-law attributes of conservatorships. 80 The FHFA possesses significant regulatory
authority with the potential for reverberations throughout the United States economy. Given the importance
of the FHFA’s role and the potential disruption to financial markets, the incidental powers provision is insufficient to negate the assumption that the settled commonlaw meaning of conservator applies. 81 Instead, the provision merely permits the FHFA to engage in self-dealing
transactions, an act otherwise inconsistent with the conservator role. 82
The FHFA’s topsy-turvy take on the notion of conservators upends our traditional understanding of fidu-

See RadLAX Gateway Hotel, LLC v. Amalgamated Bank,
566 U.S. 639, 645 (2012) (noting that it is a well-known canon of statutory construction that a specific provision of a statute governs the
general, avoiding “the superfluity of a specific provision that is swallowed by the general one, ‘violat[ing] the cardinal rule that, if possible, effect shall be given to every clause and part of a statute’ ” (quoting D. Ginsburg & Sons, Inc. v. Popkin, 285 U.S. 204, 208 (1932))).
80
Cf. Morissette, 342 U.S. at 263.
81
See FDA v. Brown & Williamson Tobacco Corp., 529 U.S. 120,
160 (2000) (“[W]e are confident that Congress could not have intended to delegate a decision of such economic and political significance to an agency in so cryptic a fashion.”).
82
See Perry Capital, 864 F.3d at 643 (Brown, J., dissenting in
part).
79

245a
ciary conservatorships, and I cannot endorse it. “Congress’ repetition of a well-established term carries the
implication that Congress intended the term to be construed in accordance with pre-existing regulatory interpretations.” 83 Conservator is one such term. We have
consistently honed the meaning of conservator at common law and subsequently under FIRREA. This court
should decline to follow FHFA through the looking glass
to a world where conservators need not conserve.
Without the statutory command to “preserve and
conserve” the GSEs’ assets and property, the FHFA is
left without any intelligible principle to guide its discretion as conservator. The FHFA is essentially permitted to take any action—unmoored from any statutory
guidance—so long as it could plausibly defend its action
as “reorganizing” the GSEs. This broad reading effectively eviscerates the carefully crafted statutory authority granted to the FHFA, permitting it to abandon its
conservatorship mission.
In sum, the FHFA “is not empowered to jettison
every duty a conservator owes its ward, and it is certainly not entitled to disregard the statute’s own clearly
defined limits on conservator power.” 84 The FHFA cannot act contrary to HERA’s conservator powers; any
such action would not be “incidental” to its statutorily
enumerated authority. Thus, the FHFA may act in its

Bragdon v. Abbott, 524 U.S. 624, 631 (1998) (citations omitted);
see also Lorillard, 434 U.S. at 580-81 (noting that where “Congress
adopts a new law incorporating sections of a prior law, Congress normally can be presumed to have had knowledge of the interpretation
given to the incorporated law”).
84
Perry Capital, 864 F.3d at 643 (Brown, J., dissenting in part).
83

246a
own interests as conservator, but its actions must otherwise be consistent with its statutory authority to “preserve and conserve” the GSEs’ assets and operate the
GSEs in a “sound and solvent” manner.
III

Because the FHFA was appointed as conservator—
not as receiver—we must consider whether the net worth
sweep was consistent with “the duties, purpose, and actions of a prudent conservator.” 85 The key question is
whether the net worth sweep was designed to “preserve
and conserve” the GSEs’ assets and rehabilitate the
GSEs by putting them in “sound and solvent condition.” 86
The FHFA’s conservatorship began on a relatively
optimistic note. Fannie and Freddie were publicly
placed into conservatorship on September 6, 2008, after
failed attempts to recapitalize the GSEs. At the time,
the FHFA Director was concerned about the GSEs’
ability to “operate safely and soundly,” and he explained
the conservatorship as “a statutory process designed to
stabilize a troubled institution with the objective of returning the entities to normal business operations.” 87
In pursuit of its conservatorship goals, the FHFA enlisted Treasury to provide cash infusions that preserved
Leon Cty. v. Fed. Hous. Fin. Agency, 700 F.3d 1273, 1278 (11th
Cir. 2012).
86
12 U.S.C. § 4617(b)(2)(D).
87
Statement of FHFA Director James B. Lockhart at News Conference Announcing Conservatorship of Fannie Mae and Freddie Mac,
FHFA (Sept. 7, 2008), https://www.fhfa.gov/Media/PublicAffairs/pages/
statement-of-fhfa-director-james-b--lockhart-at-news-conferenceannnouncing-conservatorship-of-fannie-mae-and-freddiemac.aspx.
85

247a
the value of Fannie’s and Freddie’s assets, enhanced
their ability to function in the housing market, and mitigated the systemic risk that contributed to an unstable
market. 88 Per the PSPA, Treasury purchased $1 billion of senior preferred stock in each GSE from the
FHFA in exchange for access to capital. Treasury also
had a right to a 10% dividend and periodic commitment
fee to compensate it for any capital provided to the
GSEs. Treasury believed it had a “responsibility to
both avert and ultimately address the systemic risk” of
GSE debt and to “eliminate any mandatory triggering
of receivership.” 89 This is consistent with its role as
conservator—fixing short-term deficits and returning
entities to functioning market participants is the essence of conservatorships.
But everything changed under the Third Amendment. The net worth sweep fundamentally altered the
PSPA between the FHFA and Treasury, replacing the
fixed-rate 10% dividend with the right to sweep the
GSEs’ entire quarterly net worth after accounting for a
$3 billion capital reserve buffer that would gradually fall
to zero. Far from ensuring ongoing access to capital,
the net worth sweep denied the GSEs access to approximately $130 billion in profit that was instead turned

See Questions and Answers on Conservatorship, FHFA (Sept.
7, 2008), https://www.fhfa.gov/Media/PublicAffairs/Pages/FactSheet-Questions-and-Answers-on-Conservatorship.aspx.
88

Fact Sheet: Treasury Senior Preferred Stock Purchase Agreement, U.S. Treasury Dep’t (Sept. 7, 2008), https://www.treasury.
gov/press-center/press-releases/Documents/pspa_factsheet_09070
8%20hp1128.pdf.
89

248a
over to Treasury. 90 In essence, the sweep siphoned
nearly all of the GSEs’ net worth between 2012 and the
present day directly to a sole shareholder: Treasury.
It is undisputed that Treasury has collected over $200
billion under the net worth sweep—well exceeding the
$187.5 billion it loaned to the GSEs. 91 Treasury has
now recovered far more than it invested in the companies between 2008 and 2012 under the PSPAs. Yet the
GSEs remain on the hook for the $187.5 billion obtained
from Treasury before the Third Amendment. Under
the Third Amendment, Treasury has the right to retain
the GSEs’ net worth in perpetuity.
Indeed, the Agencies abandoned their original optimism for a more ominous outlook for the GSEs. Both
Treasury and the FHFA thought the Third Amendment
aimed to wind up the GSEs—in other words, the GSEs
would not return to operating capacity. Treasury announced that the Third Amendment would “expedite the
wind down of Fannie Mae and Freddie Mac” and ensure
that the GSEs “will be wound down and will not be allowed to retain profits, rebuild capital, and return to the
market in their prior form.” 92 The FHFA Acting Director also noted that there “seems to be broad consensus that Fannie Mae and Freddie Mac will not return to
their previous corporate forms,” that the “preferred
See FHFA, Table 2: Dividends on Enterprise Draws from
Treasury, https://www.fhfa.gov/DataTools/Downloads/Documents/
Market-Data/Table_2.pdf.
91
Id.
92
Press Release, Dep’t of Treasury, Treasury Department Announces Further Steps to Expedite Wind Down of Fannie Mae and
Freddie Mac (Aug. 17, 2012), https://www.treasury.gov/press-center/
press-releases/Pages/tg1684.aspx.
90

249a
course of action is to wind down the [GSEs],” and that
the Third Amendment “reinforce[d] the notion that the
[GSEs] will not be building capital as a potential step to
regaining their former corporate status.” 93 Once again,
in a report to Congress, the FHFA explained that it was
“prioritizing [its] actions to move the housing industry
to a new state, one without Fannie Mae and Freddie
Mac.” 94 Treasury and the FHFA did not attempt to
hide their intentions, or, if they did, they weren’t very
good at it. Instead, they proclaimed loudly and proudly
that they wanted to transfer wealth from the Shareholders to Treasury in an effort to wind up Fannie’s and
Freddie’s affairs.
But to wind up the GSEs’ affairs, the FHFA needed
to follow HERA’s carefully crafted procedures. The
FHFA could be designated as receiver for the GSEs and
put them on the path to liquidation. But that is not the
path that the FHFA chose—the FHFA was designated
as conservator. By evading the receivership label, the
FHFA could unilaterally bleed the GSEs’ assets for its
own use. The Shareholders were essentially denied
their property rights in GSE assets. Even worse, the
FHFA evaded any judicial oversight to ensure compliance with HERA’s receivership procedures.

Edward J. DeMarco, Acting Director, FHFA, Statement Before
the U.S. Sen. Comm. on Banking, Hous., & Urban Affairs (Apr. 18,
2013), https://www.fhfa.gov/Media/PublicAffairs/Pages/Statementof-Edward-J-DeMarco-Acting-Director-FHFA-Before-the-USSenate-Committee-on-Banking-Housing-and-Urban-Affa359.aspx.
94
FHFA, Report to Congress 2012, at 13 (June 13, 2013), https://
www.fhfa.gov/AboutUs/Reports/ReportDocuments/2012_ Annual
ReportToCongress_508.pdf.
93

250a
The Sixth, Seventh, and D.C. Circuits determined
that the Third Amendment falls squarely within the
FHFA’s authority operate the GSEs, carry on business,
transfer or sell assets, and do so in the GSEs’ or its own
best interests. 95 These courts characterize the Shareholders’ complaint as attacking the “necessity or financial wisdom” of the net worth sweep, reasoning that “Congress could not have been clearer about leaving those
hard operational calls to FHFA’s managerial judgment.” 96
Admittedly, judges are not experts at Byzantine financial dealings or long-term market strategy. But interpreting statutes is squarely in the judicial wheelhouse. The FHFA may not hide behind the label of conservator to insulate itself from meaningful judicial review. Instead, we must apply wellsettled principles underlying conservatorships to determine if the FHFA’s actions were within its statutory authority. Simply put,
HERA requires the FHFA as conservator to act in a
certain way, and the net worth sweep is inconsistent
with those requirements. Draining the GSEs’ entire net
worth in perpetuity makes rehabilitation—a core function of conservatorships—impossible. The net worth
sweep was thus inconsistent with what a conservator
may do, under HERA or otherwise.
That the GSEs have returned to profitability is of no
matter. This case concerns whether a discrete action
Robinson, 876 F.3d at 231 (citing 12 U.S.C. § 4617(b)(2)); Roberts, 889 F.3d at 404; Perry Capital, 864 F.3d at 607.
96
Robinson, 876 F.3d at 231 (quoting Perry Capital, 864 F.3d at
607); Roberts, 889 F.3d at 404 (quoting Perry Capital, 864 F.3d at
607).
95

251a
by the FHFA falls within its statutory conservatorship
authority. The net worth sweep strips the GSEs of
their capital reserves, and it is thus antithetical to the
FHFA’s statutory command that it “preserve and conserve the assets and property” of the GSEs. 97 Yet the
net worth sweep persists—and it persists indefinitely.
This violates the FHFA’s principal duty as conservator to “put the [GSEs] in a sound and solvent condition.” 98 One of the FHFA’s regulatory duties over the
GSEs is “to ensure that [the GSEs] operate[] in a safe
and sound manner, including maintenance of adequate
capital.” 99 And FHFA regulations suggest that allowing this transfer of capital to Treasury, thereby depleting the conservatorship assets, is incompatible with its
“statutory charge to work to restore a regulated entity
in conservatorship to a sound and solvent condition.” 100
Without capital reserves, the net worth sweep left the
GSEs extremely vulnerable to market fluctuations and
risked further reliance on Treasury’s funding commitment. This risk increased each year as the reserve cap
decreased, supporting the position that the net worth
sweep is inconsistent with the statutory command to
take actions “necessary to put the regulated entity in a
sound and solvent condition. 101 The FHFA Director said

12 U.S.C. § 4617(b)(2)(D)(ii).
Id. § 4617(b)(2)(D)(i).
99
Id. § 4513(a)(1)(B).
100
Conservatorship and Receivership, 76 Fed. Reg. 35724, 35727
(June 20, 2011).
101
12 U.S.C. § 4617(b)(2)(D)(i).
97
98

252a
it best: Allowing the GSEs to operate without a reserve buffer is “irresponsible.” 102
To be sure, the GSEs are now permitted to retain a
$3 billion capital reserve amount under the net worth
sweep. 103 But removing the GSEs’ entire net worth beyond that reserve cap still risks increasing Treasury’s
liquidation preference. In fact, the GSEs have incurred additional debt in order to pay Treasury under
the net worth sweep. Ordering the GSEs to further
weaken their financial position in this manner is inconsistent with the FHFA’s statutory authority.
Congress carefully delineated the FHFA’s powers as
conservator. And courts have a responsibility to ensure that the FHFA does not exceed those powers. By
holding otherwise, the majority opinion forecloses any
recourse the Shareholders have to ensure that their
property rights are protected by HERA’s mandatory
procedures.
* * *
In a legal system governed by the Rule of Law, investors rely on predictable, well-settled principles of
conservatorships and receiverships and the consistent
Melvin L. Watt, Director, FHFA, Statement Before the U.S.
House of Representatives Comm. on Fin. Servs. (Oct. 3, 2017), https://
www.fhfa.gov/Media/PublicAffairs/pages/statement-of-melvin-l--watt,
-director,-fhfa,before-the-u-s--house-of-representatives-committeeon-financial-services.aspx.
103
Melvin L. Watt, Director, FHFA, Statement on Capital Reserve
for Fannie Mae and Freddie Mac (Dec. 21, 2017), https://
www.fhfa.gov/Media/PublicAffairs/Pages/Statement-from-FHFADirector-Melvin-L-Watt-on-Capital-Reserve-for-Fannie-Mae-andFreddie-Mac.aspx.
102

253a
interpretation of these terms by courts. HERA established the FHFA in order to stabilize and restore confidence in the United States housing market. In drafting the statute, Congress built HERA on the foundation
of FIRREA, importing the accompanying predictable,
deep-dyed common-law principles of conservatorships.
Importantly, when the FHFA acts as conservator, Congress requires it to “preserve and conserve” the property and assets of the GSEs.
The FHFA abandoned this duty as conservator when
it enacted the net worth sweep, thus barring the GSEs
from earning and maintaining a profit. In essence, the
FHFA began to wind up the GSEs and place them into
liquidation—a power reserved for its role as receiver. 104
But the FHFA had not been designated as receiver, and
it disregarded the receiver-specific statutory protections afforded to the GSEs and their investors.
Nothing in the statute prevents the FHFA from being designated and acting as a receiver. Perhaps all
this litigation could have been avoided had the FHFA
done so. But the FHFA has made its statutory bed, and
now it must lie in it. If the FHFA wishes to wind up
the GSEs, it must comply with the statutory procedures
designating itself as receiver and terminating the conservatorship first. Having failed to do just that, the
FHFA exceeded its statutory authority.
HERA neither bars review of the Shareholders’ APA
claim nor authorizes the FHFA as conservator to bleed
the GSEs profits in perpetuity. Because the majority
opinion holds otherwise, I respectfully dissent.

104

See 12 U.S.C. § 4617(a)(4)(D), (b)(2)(E), (b)(3), (c).

254a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION

Civil Action No. H-16-3113
PATRICK J. COLLINS, ET AL., PLAINTIFFS
v.
FEDERAL HOUSING FINANCE AGENCY, ET AL.,
DEFENDANTS

[Filed: May 22, 2017]
MEMORANDUM AND ORDER

Plaintiffs Patrick J. Collins, Marcus J. Liotta and
William M. Hitchcock are shareholders in the Federal
National Mortgage Association (“Fannie Mae”) and/or
the Federal Home Loan Mortgage Corporation (“Freddie Mac”). Plaintiffs complain that actions by the Federal Housing Finance Agency (“FHFA”) and the United
States Department of Treasury (“Treasury”) adversely
affected the value of Plaintiffs’ shares. The case is now
before the Court on the Motion to Dismiss [Doc. # 23]
filed by Defendants FHFA and its Director Melvin L.
Watt. Also pending is the Motion to Dismiss [Doc. #
25] filed by Treasury and its Secretary Steven Mnuchin, 1
In February 2017, Mnuchin became Secretary of Treasury, replacing Jacob Lew, the named Defendant. As a result, Mnuchin
1

255a
the Motion for Summary Judgment on Constitutional
Claim [Doc. # 33] filed by Plaintiffs, and the Cross-Motion for Summary Judgment on Constitutional Claim
[Doc. # 35] filed by the FHFA and Watt. 2 The Court
has reviewed the full record and the applicable legal authorities. Based on that review, the Court grants Defendants’ Motions and denies Plaintiffs’ Motion.
I.

BACKGROUND

The historical background of this dispute is set forth
fully in the well-reasoned decision of the United States
Court of Appeals for the District of Columbia in Perry
Capital, LLC v. Mnuchin, 948 F.3d 1072 (D.C. Cir.
2017). The Federal National Mortgage Association
(“Fannie Mae”) and the Federal Home Loan Mortgage
Corporation (“Freddie Mac”) became major players in
the United States housing market. By 2008, they controlled combined mortgage portfolios valued at $5 trillion, nearly half of the United States mortgage market.

was automatically substituted as Defendant in this lawsuit. See
FED. R. CIV. P. 25(d); McCardell v. U.S. Dept. of Hous. and Urban
Dev., 794 F.3d 510, 515 n.19 (5th Cir. 2015).
2
The FHFA and Watt filed a Memorandum [Doc. # 24] in support
of their Motion to Dismiss, Treasury and Mnuchin filed a Memorandum [Doc. # 26] in support of their Motion to Dismiss, Plaintiffs filed
a combined Memorandum [Doc. # 32] in opposition to Defendants’
Motions to Dismiss and in support of their Motion for Summary
Judgment, the FHFA and Watt filed a Reply [Doc. # 37] in support
of their Motion to Dismiss, Treasury and Mnuchin filed a Reply
[Doc. # 38] in support of their Motion to Dismiss, Plaintiffs filed a
combined Reply [Doc. # 41], the FHFA and Watt filed a Reply [Doc.
# 49] in support of their Motion for Summary Judgment on Constitutional Claim, Plaintiffs filed a Sur-Reply [Doc. # 45], and Defendants filed a Response [Doc. # 48] to Plaintiffs’ Sur-Reply.

256a
In 2008, the United States housing market suffered a
severe decline. Fannie Mae and Freddie Mac suffered
a precipitous drop in the value of their mortgage portfolios. As a result, Congress enacted the Housing and
Economic Recovery Act (“HERA”), which established
FHFA. HERA classified Fannie Mae and Freddie
Mac as “regulated entities” subject to the direct supervision of FHFA. See 12 U.S.C. § 4511(b)(1). Fannie
Mae and Freddie Mac were subject also to the general
regulatory authority of FHFA’s Director. See 12 U.S.C.
§ 4511(b)(1), (2). HERA charged FHFA’s Director
with overseeing the prudential operations of Fannie
Mae and Freddie Mac, and ensuring that they operated
in a safe and sound manner, consistent with the public
interest. See 12 U.S.C. § 4513(a)(1)(A), (B)(i), (B)(v).
HERA also authorized the FHFA Director to appoint FHFA as either conservator or receiver for
Fannie Mae and Freddie Mac, “for the purpose of reorganizing, rehabilitating, or winding up the[ir] affairs.”
12 U.S.C. § 4617(a)(2). HERA grants to FHFA as conservator broad authority and discretion over the operation of Fannie Mae and Freddie Mac. For example,
upon appointment as conservator of a regulated entity,
FHFA immediately succeeds to “all rights, titles, powers, and privileges of the regulated entity, and of any
stockholder, officer, or director of such regulated entity
with respect to the regulated entity and the assets of the
regulated entity.” 12 U.S.C. § 4617(b)(2)(A). Additionally, FHFA is authorized to “take over the assets of and
operate the regulated entity,” and to “preserve and conserve the assets and property of the regulated entity.”
12 U.S.C. § 4617(b)(2)(B)(i), (iv).

257a
HERA also grants to FHFA expansive general powers, authorizing FHFA to, inter alia, “take such action
as may be . . . necessary to put the regulated entity
in a sound and solvent condition” and “appropriate to
carry on the business of the regulated entity and preserve and conserve [its] assets and property[.]”
12 U.S.C. § 4617(b)(2), (2)(D). FHFA is also authorized, in its discretion, to “transfer or sell any asset or
liability of the regulated entity in default . . . without any approval, assignment, or consent.” 12 U.S.C.
§ 4617(b)(2)(G). Additionally, FHFA is authorized to
“disaffirm or repudiate [certain] contract[s] or lease[s].”
12 U.S.C. § 4617(d)(1). HERA, to enable the FHFA
Director to protect the “public interest,” granted to
FHFA as conservator the authority to exercise its statutory authority and any necessary “incidental powers”
in the manner that FHFA “determines is in the best interests of the regulated entity or the Agency.” 12 U.S.C.
§ 4617(b)(2)(J).
Separately, HERA granted Treasury temporary authority to “purchase any obligations and other securities
issued by” Fannie Mae and Freddie Mac. 12 U.S.C.
§§ 1455(l)(1)(A), 1719. This enabled Treasury to buy
large numbers of Fannie Mae and Freddie Mac shares,
and thereby infuse the companies with capital to ensure
their continued liquidity and stability. HERA conditioned such purchases of stock on Treasury’s specific determination that the terms of the purchase would “protect the taxpayer.” 12 U.S.C. § 1719(g)(1)(B)(iii). A
sunset provision terminated Treasury’s authority to
purchase shares after December 31, 2009. 12 U.S.C.
§ 1719(g)(4). Thereafter, Treasury was authorized
only “to hold, exercise any rights received in connection

258a
with, or sell, any obligations or securities purchased.”
12 U.S.C. § 1719(g)(2)(D).
Importantly for the pending lawsuit, HERA sharply
limits judicial review of FHFA’s conservatorship activities, directing that “no court may take any action to restrain or affect the exercise of powers or functions of the
Agency as a conservator.” 12 U.S.C. § 4617(f ) (emphasis added).
On September 6, 2008, FHFA’s Director placed both
Fannie Mae and Freddie Mac into conservatorship.
The next day, Treasury entered into Preferred Stock
Purchase Agreements (“PSPAs”) with Fannie Mae and
Freddie Mac, under which Treasury committed to invest
billions of dollars in the two companies to keep them
from defaulting. In exchange for Treasury’s capital infusion, Treasury received one million senior preferred
shares in each company. Those shares entitled Treasury to: (i) a $1 billion senior liquidation preference—a
priority right above all other shareholders, whether preferred or otherwise, to receive distributions from assets
if the entities were dissolved; (ii) a dollar-for-dollar increase in that liquidation preference each time Fannie
Mae and Freddie Mac drew upon Treasury’s funding
commitment; (iii) quarterly dividends that the companies could either pay at a rate of 10% of Treasury’s liquidation preference or a commitment to increase the liquidation preference by 12%; (iv) warrants allowing Treasury to purchase up to 79.9% of Fannie Mae’s and Freddie Mac’s common stock; and (v) the possibility of periodic commitment fees over and above any dividends.
The PSPAs also included a covenant that Fannie Mae
and Freddie Mac could not “declare or pay any dividend
(preferred or otherwise) or make any other distribution

259a
(by reduction of capital or otherwise), whether in cash,
property, securities or a combination thereof ” without
Treasury’s advance consent (unless the dividend or distribution was for Treasury’s Senior Preferred Stock or
warrants).
The PSPAs initially capped Treasury’s commitment
to invest capital at $100 billion per company. When it
appeared that Fannie Mae and Freddie Mac would require even greater capital infusions by Treasury, FHFA
and Treasury adopted the First Amendment to the
PSPAs in May 2009, under which Treasury agreed to
double the funding commitment to $200 billion for each
company. Seven months later, in a Second Amendment to the PSPAs, FHFA and Treasury again agreed
to raise the cap, this time to an adjustable figure determined in part by the amount of Fannie Mae’s and Freddie Mac’s quarterly cumulative losses between 2010 and
2012. As of June 30, 2012, Fannie Mae and Freddie
Mac together had drawn $187.5 billion from Treasury’s
funding commitment.
Through the first quarter of 2012, Fannie Mae and
Freddie Mac repeatedly struggled to generate enough
capital to pay the 10% dividend they owed to Treasury
under the amended PSPAs. As a result, FHFA and
Treasury adopted the Third Amendment to the PSPAs
on August 17, 2012. The Third Amendment to the
PSPAs replaced the previous quarterly 10% dividend
formula with a requirement that Fannie Mae and Freddie Mac pay as dividends only the amount, if any, by
which their net worth for the quarter exceeded a capital
buffer of $3 billion, with that buffer decreasing annually
down to zero by 2018. Stated differently, the Third
Amendment requires Fannie Mae and Freddie Mac to

260a
pay to Treasury quarterly dividends equal to their excess net worth. Under the new dividend formula in the
Third Amendment, Fannie Mae and Freddie Mac would
no longer incur additional debt in order to make their
quarterly dividend payments, but they would no longer
accrue capital during good quarters. Under the Third
Amendment, Fannie Mae and Freddie Mac together
paid Treasury $130 billion in dividends in 2013, and another $40 billion in 2014. In 2015, however, Fannie
Mae’s and Freddie Mac’s quarterly net worth was much
lower, such that Fannie Mae paid Treasury $10.3 billion
and Freddie Mac paid Treasury $5.5 billion. By comparison, without the Third Amendment, Fannie Mae and
Freddie Mac together would have been required to pay
Treasury $19 billion in 2015. If they had been unable
to make the 2015 payments, the companies would have
been required to draw on Treasury’s commitment of
funds and thereby increase Treasury’s liquidation preference. In the first quarter of 2016, Fannie Mae paid
Treasury $2.9 billion and Freddie Mac paid Treasury no
dividend at all.
Plaintiffs in this case are shareholders in Fannie Mae
and/or Freddie Mac. They filed this lawsuit in October
2016. Counts 1-3 of the Complaint [Doc. # 1] seek relief
under the Administrative Procedure Act (“APA”).
Count 4 challenges the provision in HERA that requires
cause for removal of the FHFA Director (“Removal Provision”), arguing that it is an unconstitutional violation
of the separation of powers. Plaintiffs seek a declaratory judgment that the Third Amendment violated
HERA, that Treasury acted arbitrarily and capriciously
by executing the Third Amendment, and that FHFA’s
structure violates the separation of powers. Plaintiffs

261a
also seek an injunction requiring a “return” to Fannie
Mae and Freddie Mac of all dividend payments made
pursuant to the Third Amendment, and enjoining the
FHFA from applying the Third Amendment in the future. Plaintiffs ask this Court to vacate and set aside
the Third Amendment.
Defendants moved to dismiss Counts 1-3 based on the
limit on judicial review set forth in 12 U.S.C. § 4617(f).
Both sides moved for summary judgment on Count 4,
the constitutional challenge.
The pending motions
have been exhaustively briefed and are now ripe for decision.
II. APA CLAIMS
A.

Count 1 - FHFA

Plaintiffs allege in Count 1 that the FHFA exceeded
its statutory authority by adopting the Third Amendment. Specifically, Plaintiffs allege that the FHFA acted
in contravention of its statutory duty to rehabilitate
Fannie Mae and Freddie Mac and its duty to preserve
and conserve Fannie Mae’s and Freddie Mac’s assets.
Plaintiffs allege also that the FHFA exceeded its statutory authority by acting to benefit taxpayers. Defendants seek dismissal of this claim as precluded by the limitation on judicial review set forth in § 4617(f ).
This issue was addressed in Perry Capital, and this
Court finds the District of Columbia Circuit’s reasoning
to be persuasive. As noted in Perry Capital, the “plain
statutory text [of § 4617(f )] draws a sharp line in the
sand against litigative interference—through judicial
injunctions, declaratory judgments, or other equitable
relief—with FHFA’s statutorily permitted actions as

262a
conservator or receiver.” Perry Capital, 848 F.3d at
1087. As explained by the District of Columbia Circuit,
“adoption of the Third Amendment falls within FHFA’s
statutory conservatorship powers.” Id. This is true
because HERA “endows FHFA with extraordinarily
broad flexibility to carry out its role as conservator.”
Id. “Entirely absent from [HERA’s] text is any mandate, command, or directive to build up capital for the
financial benefit of [Fannie Mae’s and Freddie Mac’s]
stockholders.” Id. at 1088. To avoid the limitation of
§ 4617(f ), Plaintiffs’ burden “is to show that FHFA’s actions were frolicking outside of statutory limits as a matter of law.” Id. at 1093. For the reasons set forth in
Perry Capital, the arguments asserted by Plaintiffs
here—the same arguments asserted by the plaintiffs in
Perry Capital—fail to demonstrate that the FHFA’s
conduct was outside the scope of its broad statutory authority as conservator. Therefore, Plaintiffs’ APA claim
against the FHFA is barred by § 4617(f).
B.

Counts 2 and 3 - Treasury

Plaintiffs allege that Treasury’s conduct in connection with the Third Amendment exceeded its statutory
authority under HERA and was arbitrary and capricious. As explained by the District of Columbia Circuit
in Perry Capital, these claims are barred by § 4617(f ).
See Perry Capital, 848 F.3d at 1096-97.
“Section
4617(f ) also forecloses judicial relief that would ‘affect’
the exercise of FHFA’s ‘powers or functions’ as conservator or receiver.” Id. at 1096. Here, “the effect of
any injunction or declaratory judgment aimed at Treasury’s adoption of the Third Amendment would have just
as direct and immediate an effect as if the injunction operated directly on FHFA.” Id. “Accordingly, Section

263a
4617(f)’s prohibition on relief that ‘affect[s] FHFA applies here because the requested injunction’s operation
would have exactly the same force and effect as enjoining FHFA directly.” Id. Therefore, § 4617(f ) bars
Counts 2 and 3 of Plaintiffs’ Complaint.
III. CONSTITUTIONAL CLAIMS

The FHFA is governed by a Director who can be removed only for cause. See 12 U.S.C. § 4512(b)(2) (“The
Director shall be appointed for a term of 5 years, unless
removed before the end of such term for cause by the
President”). Plaintiffs argue that this structure violates the constitutional separation of powers. Plaintiffs argue that, as a result, the FHFA is unconstitutional and the Third Amendment is invalid as entered
into by an unconstitutional entity. The Court concludes that the for-cause removal provision for the
FHFA’s Director does not violate the United States
Constitution.
Article II of the United States Constitution charges
the President to “take Care that the Laws be faithfully
executed.” U.S. CONST. Art. II, § 3. The Constitution
specifically defines the President’s appointment power:
He shall nominate, and by and with the Advice and
Consent of the Senate, shall appoint Ambassadors,
other public Ministers and Consuls, Judges of the
Supreme Court, and all other Officers of the United
States, whose Appointments are not herein otherwise
provided for, and which shall be established by Law:
but the Congress may by law vest the Appointment
of such inferior Officers, as they think proper, in the
President alone, in the Courts of Law, or in the
Heads of Departments.

264a
U.S. CONST. Art. II, § 2, cl. 2.
The Constitution, however, “is conspicuously silent”
regarding the President’s removal authority. See Consumer Fin. Prot. Bureau v. ITT Educ. Servs., Inc., __
F.3d __, 2015 WL 1013508, *7 (S.D. Ind. Mar. 6, 2015)
(appeal dismissed). Nonetheless, the United States
Supreme Court has held that “some degree of discretion
in removing executive officers is inherent in the President’s powers and must be protected from excessive legislative encroachment.” Id. First, in Myers v. United
States, 272 U.S. 52 (1926), the Supreme Court held that
Congress was prohibited from unduly limiting the President’s removal power.
In Humphrey’s Executor v. United States, 295 U.S.
602 (1935), the Supreme Court held that the President’s
removal power was not absolute with respect to removal
of officers of federal agencies that are not “purely executive” but that, instead, engage in activities that are
quasi-judicial, quasi-legislative, or otherwise not exclusively the execution and enforcement of the laws enacted by Congress. See 295 U.S. at 627-29.
Later, in Morrison v. Olson, 487 U.S. 654 (1988), the
Supreme Court held that the Attorney General’s appointment of an “independent counsel” did not unconstitutionally violate the President’s appointment and removal powers. See Morrison, 487 U.S. at 691-92. The
Supreme Court noted that the President retained some
control over the independent counsel through his control over the Attorney General, the President’s at-will
appointee. See id. at 692.

265a
Most recently, in 2010, the Supreme Court noted that
it previously held that “Congress can, under certain circumstances, create independent agencies run by principal officers appointed by the President, whom the President may not remove at will but only for good cause.”
Free Enter. Fund v. Pub. Co. Accounting Oversight Bd.,
561 U.S. 477, 483 (2010) (citing Humphrey’s Executor).
At issue in Free Enterprise was a “for cause” requirement for the removal of commissioners of the Public
Company Accounting Oversight Board, an entity under
the Securities and Exchange Commission whose own
commissioners could be removed only for cause. The
Supreme Court held that this “second level of tenure
protection changes the nature of the President’s review.” Id. at 496. The Supreme Court held this structure providing two levels of “for cause” removal protection to be unconstitutional. See id. at 498.
Viewed in light of this Supreme Court rubric, the
structure of the FHFA does not violate the Constitution.
As noted in Morrison, “the real question is whether the removal restrictions are of such a nature that they
impede the President’s ability to perform his constitutional
duty.” Morrison, 487 U.S. at 691. A “for cause” requirement for removal has been approved by the Supreme Court
where, as here, the agency’s mission is not “purely executive.” See Humphrey’s Executor, 295 U.S. at 619, 632; see
also Consumer Fin. Prot. Bureau v. Morgan Drexen, Inc.,
60 F. Supp. 3d 1082, 1087-88 (C.D. Cal. 2014); Consumer
Fin. Prot. Bureau v. ITT Educ. Servs., Inc., 2015 WL
1013508 at *9. Indeed, the challenged Third Amendment
was adopted by the FHFA in its capacity as conservator of
Fannie Mae and Freddie Mac, not as an executive enforcing
the laws of the United States.

266a
Plaintiffs in their Motion for Summary Judgment on
Constitutional Claim rely primarily on PHH Corp. v.
Consumer Fin. Prot. Bureau, 839 F.3d 1 (D.C. Cir.
2016), which held that the Consumer Financial Protection Bureau was unconstitutionally governed by a single
Director removable only for cause. The District of Columbia Circuit has granted rehearing en banc and has
vacated the panel’s opinion on which Plaintiffs rely.
Moreover, the panel’s decision was based on the view
that the single-Director structure of the CFPB was
“novel” and that the independent counsel statute upheld
in Morrison was a mistake. In addition to the CFPB
and the FHFA at issue in this case, the Social Security
Administration’s Commissioner is a single agency head
who is removable only for cause. See 42 U.S.C. § 902(a).
Whether the independent counsel statute was wise or a
mistake, it was upheld as constitutional by the Supreme
Court in Morrison. As a result, the Court finds the
reasoning of the panel decision in PHH Corp. to be unpersuasive even if it had not been vacated.
Plaintiffs argue that the single director structure is a
“second layer” that renders the structure of the FHFA
unconstitutional under Free Enterprise. The existence
of a single director is not, however, a “second level of
tenure protection” that is prohibited by Free Enterprise. Indeed, the existence of a single director rather
than a board or commission offers no “tenure protection” at all. Additionally, the Supreme Court did not
limit its decision in Humphrey’s Executor to a multimember board rather than a single director, holding
simply that a “for cause” removal provision for agencies
that are not “purely executive” was not an unconstitutional violation of the separation of powers.
The

267a
FHFA’s removal provision, when viewed in light of the
agency’s overall structure and purpose, does not impede
the President’s ability to perform his constitutional duty
to take care that the laws are faithfully executed. As a
result, Plaintiffs’ Motion for Summary Judgment on this
constitutionality issue is denied and Defendants’ Motion
for Summary Judgment on this issue is granted.
IV. CONCLUSION AND ORDER

Based on the foregoing, particularly the District of
Columbia Circuit’s well-reasoned decision in Perry Capital, the Court grants Defendants’ Motions to Dismiss
the APA claims as precluded by § 4617(f ). Additionally, the Court concludes that the removal for cause provision applicable to the FHFA Director is not unconstitutional. Accordingly, it is hereby
ORDERED that the Motion to Dismiss [Doc. # 23]
filed by Defendants Federal Housing Finance Agency
and Melvin L. Watt is GRANTED; the Motion to Dismiss
[Doc. # 25] filed by the United States Department of
Treasury (“Treasury”) and Steven Mnuchin is GRANTED;
Plaintiffs’ Motion for Summary Judgment on Constitutional Claim [Doc. # 33] is DENIED; and the CrossMotion for Summary Judgment on Constitutional Claim
[Doc. # 35] filed by the FHFA and Watt is GRANTED.

The Court will issue a separate final order.
SIGNED at Houston, Texas, this 22nd day of May,
2017.
/s/

NANCY F. ATLAS
NANCY F. ATLAS
SENIOR UNITED STATES DISTRICT JUDGE

